<html>
<title> - FORD MOTOR COMPANY'S RECALL OF CERTAIN FIRESTONE TIRES</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




         FORD MOTOR COMPANY'S RECALL OF CERTAIN FIRESTONE TIRES

=======================================================================

                             JOINT HEARING

                               before the

                            SUBCOMMITTEES ON
                COMMERCE, TRADE, AND CONSUMER PROTECTION

                                  and

                      OVERSIGHT AND INVESTIGATIONS

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 19, 2001

                               __________

                           Serial No. 107-45

                               __________

      Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house



                    U.S. GOVERNMENT PRINTING OFFICE
73-739CC                    WASHINGTON : 2001

                    ------------------------------  

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





                    COMMITTEE ON ENERGY AND COMMERCE

               W.J. ``BILLY'' TAUZIN, Louisiana, Chairman

MICHAEL BILIRAKIS, Florida           JOHN D. DINGELL, Michigan
JOE BARTON, Texas                    HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RALPH M. HALL, Texas
PAUL E. GILLMOR, Ohio                RICK BOUCHER, Virginia
JAMES C. GREENWOOD, Pennsylvania     EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          FRANK PALLONE, Jr., New Jersey
NATHAN DEAL, Georgia                 SHERROD BROWN, Ohio
STEVE LARGENT, Oklahoma              BART GORDON, Tennessee
RICHARD BURR, North Carolina         PETER DEUTSCH, Florida
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
GREG GANSKE, Iowa                    ANNA G. ESHOO, California
CHARLIE NORWOOD, Georgia             BART STUPAK, Michigan
BARBARA CUBIN, Wyoming               ELIOT L. ENGEL, New York
JOHN SHIMKUS, Illinois               TOM SAWYER, Ohio
HEATHER WILSON, New Mexico           ALBERT R. WYNN, Maryland
JOHN B. SHADEGG, Arizona             GENE GREEN, Texas
CHARLES ``CHIP'' PICKERING,          KAREN McCARTHY, Missouri
Mississippi                          TED STRICKLAND, Ohio
VITO FOSSELLA, New York              DIANA DeGETTE, Colorado
ROY BLUNT, Missouri                  THOMAS M. BARRETT, Wisconsin
TOM DAVIS, Virginia                  BILL LUTHER, Minnesota
ED BRYANT, Tennessee                 LOIS CAPPS, California
ROBERT L. EHRLICH, Jr., Maryland     MICHAEL F. DOYLE, Pennsylvania
STEVE BUYER, Indiana                 CHRISTOPHER JOHN, Louisiana
GEORGE RADANOVICH, California        JANE HARMAN, California
CHARLES F. BASS, New Hampshire
JOSEPH R. PITTS, Pennsylvania
MARY BONO, California
GREG WALDEN, Oregon
LEE TERRY, Nebraska

                  David V. Marventano, Staff Director

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

        Subcommittee on Commerce, Trade, and Consumer Protection

                    CLIFF STEARNS, Florida, Chairman

NATHAN DEAL, Georgia                 EDOLPHUS TOWNS, New York
  Vice Chairman                      DIANA DeGETTE, Colorado
ED WHITFIELD, Kentucky               LOIS CAPPS, California
BARBARA CUBIN, Wyoming               MICHAEL F. DOYLE, Pennsylvania
JOHN SHIMKUS, Illinois               CHRISTOPHER JOHN, Louisiana
JOHN B. SHADEGG, Arizona             JANE HARMAN, California
ED BRYANT, Tennessee                 HENRY A. WAXMAN, California
STEVE BUYER, Indiana                 EDWARD J. MARKEY, Massachusetts
GEORGE RADANOVICH, California        BART GORDON, Tennessee
CHARLES F. BASS, New Hampshire       PETER DEUTSCH, Florida
JOSEPH R. PITTS, Pennsylvania        BOBBY L. RUSH, Illinois
GREG WALDEN, Oregon                  ANNA G. ESHOO, California
LEE TERRY, Nebraska                  JOHN D. DINGELL, Michigan,
W.J. ``BILLY'' TAUZIN, Louisiana       (Ex Officio)
  (Ex Officio)

                                 ______

              Subcommittee on Oversight and Investigations

               JAMES C. GREENWOOD, Pennsylvania, Chairman

MICHAEL BILIRAKIS, Florida           PETER DEUTSCH, Florida
CLIFF STEARNS, Florida               BART STUPAK, Michigan
PAUL E. GILLMOR, Ohio                TED STRICKLAND, Ohio
STEVE LARGENT, Oklahoma              DIANA DeGETTE, Colorado
RICHARD BURR, North Carolina         CHRISTOPHER JOHN, Louisiana
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
  Vice Chairman                      JOHN D. DINGELL, Michigan,
CHARLES F. BASS, New Hampshire         (Ex Officio)
W.J. ``BILLY'' TAUZIN, Louisiana
  (Ex Officio)

                                  (ii)


                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Jackson, Hon. Michael P., Deputy Secretary, accompanied by 
      Robert Shelton, Executive Director, and Kenneth Weinstein, 
      Associate Administrator for Safety Assurance, National 
      Highway Traffic Safety Administration......................   314
    Lampe, John, President and Chief Executive Officer, 
      Bridgestone/Firestone, Inc.................................    99
    Nasser, Jacques, President and Chief Executive Officer, Ford 
      Motor Company..............................................    26

                                 (iii)

  

 
         FORD MOTOR COMPANY'S RECALL OF CERTAIN FIRESTONE TIRES

                              ----------                              


                         TUESDAY, JUNE 19, 2001

          House of Representatives,        
          Committee on Energy and Commerce,        
                Subcommittee on Commerce, Trade and        
                        Consumer Protection, Joint with    
               Subcommittee on Oversight and Investigations
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 10:35 a.m., 
in room 2123, Rayburn House Office Building, Hon. Cliff Stearns 
(chairman of the Subcommittee on Commerce, Trade, and Consumer 
Protection) presiding.
    Members present Subcommittee on Commerce, Trade, and 
Consumer Protection: Representatives Stearns, Upton, Deal, 
Whitfield, Shimkus, Bryant, Pitts, Terry, Tauzin (ex officio), 
Towns, Capps, Doyle, Harman, Markey, Gordon, Deutsch, and 
Dingell (ex officio).
    Members present Subcommittee on Oversight and 
Investigations: Representatives Greenwood, Stearns, Burr, 
Whitfield, Tauzin (ex officio), Deutsch, Stupak, Strickland, 
and Dingell (ex officio).
    Also present: Representative Sawyer.
    Staff present: Thomas DiLenge, majority counsel; Kelly 
Zerzan, majority counsel; Ann Washington, majority counsel; 
Jennifer Safavian, majority counsel; Will Carty, legislative 
clerk; Peter Kielty, legislative clerk; Edith Holleman, 
micority Counsel; M. Bruce Gwinn, minority professional staff 
member; and Christopher H. Knaver, minority investigator.
    Mr. Stearns. Good morning. The joint committees will come 
to order. Welcome to the joint Commerce, Trade, and Consumer 
Protection Subcommittee and Oversight and Investigations 
Subcommittee, hearings to discuss the issue of Ford's recall of 
certain Firestone tires.
    I welcome all of our distinguished witnesses, including Mr. 
Nasser, the President and CEO of Ford Motor Company; and Mr. 
Lampe, President and CEO of Bridgestone/Firestone, 
Incorporated; and the Honorable Michael Jackson, Deputy 
Secretary of the Department of Transportation.
    It has only been 8 months since the committee last visited 
the issue of tires. Last September, we held hearings on 
Firestone's recall of its Wilderness ATX and ATX II and certain 
Wilderness tires due to their excessive propensity to detread 
in high rates of speed.
    This year our committee examines the tire issue again. 
Although this hearing does not present such clear cut facts, we 
are confronted with a most unusual situation, where one company 
is recalling the product of another company. The day after 
Firestone rejected Ford's request to recall additional tires 
and declared its decision to end its relationship with Ford, a 
historic American corporate partnership dating back 100 years, 
Ford Motor Company decided to voluntarily recall all Firestone 
Wilderness AT tires on all of its vehicles, encompassing a 
total of 13 million tires at a cost of nearly $3 billion.
    Why a recall? What prompted this replacement program? Ford 
tells us that this significant action was warranted based on 
increasing tire claim rates for certain Firestone Wilderness AT 
tires and on Ford's own laboratory testing. Firestone, on the 
other hand, tells us that the Firestone Wilderness AT tire 
performed similar to competitors in its own testing, and that 
some of the tires being replaced by Ford have little to no tire 
claims. Further, Firestone publicly questions the stability of 
the Ford Explorer, the vehicle in which most of the tire claims 
have taken place.
    To prove their case, both companies have conducted tests, 
performed experiments and hired experts. Both companies have 
loaded us with charts, statistics and diagrams. Unfortunately, 
when asked the same questions, the companies respond with two 
different answers. The information presented by both Ford 
around Firestone is typically contradictory and incompatible. 
But the one conclusion that cannot be questioned is that there 
is an increase in consumer confusion. The position of Ford and 
Firestone necessarily reflects their different vantage points, 
influenced by shareholders' profits, motives and litigation 
considerations.
    My point is this: We cannot rely solely on Ford and 
Firestone to provide us with all this information, and we can't 
expect the American consumer to do the detailed and lengthy 
analysis that is necessary to reach a conclusion.
    That is specifically why we have a government agency 
dedicated to automobile safety, namely the National Highway 
Traffic Safety Administration, or NHTSA. Pursuant to statute, 
NHTSA's mandate is to carry out safety programs under the 
National Traffic and Motor Vehicle Safety Act of 1996 and the 
Highway Safety Act of 1966. Specifically NHTSA is responsible 
for, among other things, reducing deaths, injuries and economic 
losses resulting from motor vehicle crashes by setting and 
enforcing safety performance standards and investigating safety 
defects in motor vehicles.
    Therefore, we must look to the agency expert in these 
issues for guidance, and we are fortunate to have honorable 
Michael Jackson, Deputy Secretary of the Department of 
Transportation, here to testify, accompanied by NHTSA 
personnel. However, it is my understanding that while NHTSA has 
been investigating these tire issues since last year, the 
agency has not reached any final result and will not be 
providing us today with any firm conclusions. In fact, NHTSA's 
investigation is not expected to conclude until later this 
summer, but meanwhile, there are a number of outstanding safety 
issues. What is the proper failure rate for tires? Is there a 
baseline upon which all tires should be judged, what are what 
other factors should we be relying on to determine whether 
tires are strong and stable? In other words, what is safe? And 
just as important, is NHTSA prepared to implement the law 
passed by this committee in response to the Ford Firestone 
problem, the TREAD Act? Under the TREAD Act, truckloads of 
information will soon be deposited on NHTSA's doorstep. Is the 
agency prepared to utilize this information to effectively 
protect the driving public?
    All of these questions deserve answers, and I hope NHTSA is 
prepared to offer conclusions soon. American citizens pay taxes 
for government services. NHTSA provides a service and NHTSA's 
customers, the U.S. taxpayers, are not getting the answers they 
paid for.
    Unfortunately, in the absence of NHTSA's independent 
analysis to analyze the Ford and Firestone positions, many 
parties will pay a price. The effect of this voluntary recall 
has far-reaching ramifications well beyond the parties 
involved. Not only does this recall affect Ford and Firestone, 
but the recall also affects car manufacturers whose customers 
will question the safety of Firestone Wilderness AT tires on 
their own vehicles. And the recall affects other tire companies 
who must change production patterns to make replacement tires 
for Ford's vehicles.
    Caught in the middle is the consumer, who is questioning 
whether Firestone tires are safe and whether the Ford Explorer 
is stable? But in debating this issue, it is all too easy to 
focus on the individual parts and miss the big picture. We are 
here to protect the American consumer from both detreaded tires 
and allegation from unfounded fears arising from conflicting 
information. This hearing is designed to produce information 
that the customer can use to best educate him or herself.
    I thank the chairman of the Oversight Investigation 
Subcommittee, Chairman Greenwood, for jointly hosting this 
hearing, and I look forward to hearing from our witnesses. At 
this, the ranking member--acting ranking member--for an opening 
statement, Mr. Dingell, the ranking member of the full 
committee.
    Mr. Dingell. Mr. Chairman, I thank you for your kindness in 
recognizing me, and I want to thank you for this important 
hearing. This is the second time in a year that the committee 
is considering safety problems involving Firestone tires. Last 
year, the Ford Motor Company determined from information it 
requested and received from Firestone that there were an 
unusually high number of claims, fatalities and injuries 
resulting from----
    Mr. Stearns. Mr. Dingell, is your microphone on?
    Mr. Dingell. As best I can determine, Mr. Chairman.
    Mr. Stearns. I am just having a little trouble hearing, 
that is all.
    Mr. Dingell. Should I get closer?
    Mr. Stearns. Yes. There you go.
    Mr. Dingell. At Ford's insistence, Firestone then recalled 
6.5 million tires, including all ATX tires produced for the 
Explorers. In addition, Ford found that the claims were so high 
for other Explorer tires that Firestone produced in Decatur, 
Illinois that Firestone also had to recall 15-inch Wilderness 
AT tires produced for Ford at that plant.
    With new information it received from Firestone on May 11 
of this year, Ford determined that last year's recall did not 
take care of the problem. Instead, there are rapidly growing 
number of Firestone claims involving Explorer tires that are 
not recalled last year. The data received in May show that 
there have been 110 tread separation claims involving 
Firestone's Wilderness AT tires compared with only 27 claims in 
the data provided to Ford last August. During this same period 
of time, crash claims have gone from 0 to 20, moreover, claims 
from 0 to 11, injury claims from 0 to 22 and fatality claims 
from 0 to 7.
    Seeing in this new data the same safety concerns and trends 
that caused last year's recall, Ford announced on May 22nd its 
Firestone tire replacement program. This is not a recall, 
because Ford did not make the tires. Under this replacement 
program, Ford will either replace or reimburse vehicle owners 
for the replacement of 13 million Firestone tires. Ford 
estimates that it will take 9 months, as much as $3 billion to 
complete the Firestone tire replacement program.
    Ford's action has sparked a lot of finger pointing, but the 
public rightly wants to know whether the tires on their 
vehicles are safe, and they are entitled to know that. Are the 
tread separations Ford has identified unique to Firestone 
tires, or do other tires have similar problems?
    Is Firestone continuing to produce tires that endanger the 
public safety? Are there particular Firestone manufacturing 
facilities that are producing bad tires? Should tread 
separation be viewed as a foreseeable event, as some have 
suggested? Unfortunately, the one best able to answer these and 
other important questions has yet to be heard from. The 
National Highway Traffic Safety Administration began its 
investigation of the 47 million ATX, ATX II and Wilderness 
tires manufactured by Firestone more than a year ago. It has 
yet to complete its testing and analysis. It is probably months 
away from issuing its report and findings.
    At this time, NHTSA's task is made more difficult by the 
fact that it has no permanent or even acting administrator, 
something which must be cured quickly. The administration needs 
to give its attention to getting control of this agency and 
having it complete its work in an efficient and timely manner. 
Both Ford and Firestone have provided huge quantities of 
information to the committee and NHTSA. Particularly 
instructive is the data on the performance of Firestone and 
Goodyear tires when about an equal number of tires from each 
manufacturer were put on Explorers in model years 1995, 1996 
and 1997.
    Through the end of last year, data for these model years 
that Ford received from Firestone reveals that there have been 
1,183 claims involving tread separations on the Firestone 
tires, and only two claims involving tread area problems on 
Goodyear tires. Furthermore, the two Goodyear tire claims were 
for property damage only. No deaths injuries or lawsuits were 
involved. And according to Goodyear, these claims may have 
involved nothing more serious than a puncture, rather than 
total tread separations that have occurred on Firestone tires.
    Goodyear says its tires hold up as well on the Explorer as 
on other vehicles. From 1996 through the year 2000, Goodyear 
says 87.7 million of its tires have been used on SUVs other 
than Explorers, light trucks, minivans and station wagons. And 
during that time, Goodyear has had no tread separation claims 
involving deaths, injuries or lawsuits.
    However, the data tells quite a different story for the 
Firestone tire. Tread separation claims involving the Firestone 
tire on the Explorer have continued to grow. Ford's analysis of 
the data it received from Firestone in May shows that in the 
fifth year of use, the 16-inch Wilderness AT tire produced at 
Firestone's Wilson, North Carolina plant has an extremely high 
tread separation rate of 450 claims per million tires.
    So why is there such a big difference in the claims rates 
for Goodyear and Firestone tires? It has been suggested that 
Ford shipped many more Explorers equipped with Firestone tires 
to hot-weather States than did Explorers equipped with Goodyear 
tires. Sounds possible, but it doesn't appear to be true. In 
model years 1995 through 1997, Ford says it shipped 95,000 
Explorers with Firestone tires and 85,000 Explorers with 
Goodyear tires to hot weather states, Arizona, Florida, 
Louisiana, Mississippi, Nevada and Texas. Although most tread 
separation claims have come from hot weather States, not a 
single one of these claims involve death, injury or a lawsuit 
attributable to a Goodyear tire on the Explorer vehicle.
    It has also been suggested that there is something unique 
about the Explorer that causes tread separation. Again, 
Firestone's own claims suggest otherwise. There has been a 
substantial number of tread separations that have occurred on 
Firestone tires, like those used on the Explorer when these 
tires have been installed as aftermarket tires on other non-
Explorer SUVs, including the Toyota Forerunner, the Nissan 
Pathfinder and the Mitsubishi Montero, and on the Isuzu Rodeo.
    Ford's analysis has raised questions about Firestone's 
manufacturing quality control. The peel strength of the rubber 
Firestone used to make its tires and the durability of its 
tires all were found to vary from plant to plant.
    Perhaps most importantly, the amount of rubber in the 
critical wedge area of Firestone's 15 and 16 Wilderness tires 
was found to vary by plant. Of the plants most recently 
producing tires for Ford, the wedge rubber was smallest at 
Wilson, North Carolina plants and thickest at the Aiken, South 
Carolina plant. Firestone's Joliette, Canada plant ranked 
somewhere between the other two. However, all Firestone plants 
produce tires with less rubber in the wedge stone area than 
Goodyear.
    In conclusion, Mr. Chairman, given the information it had, 
I find no problem with Ford having taken the action it did. In 
fact, for Ford not to have replaced these tires would have 
raised serious questions in the mind, I think, of the public, 
that proper safety and other concerns of customers were being 
served.
    Again, I thank you, Mr. Chairman, for holding this hearing, 
and I look forward to hearing the statements of the witnesses.
    [The prepared statement of Hon. John D. Dingell follows:]
    Prepared Statement of Hon. John D. Dingell, a Representative in 
                  Congress from the State of Michigan
    Mr. Chairman, I want to thank you for holding this important 
hearing.
    This is the second time within a year that the Committee is 
considering safety problems involving Firestone tires. Last year, Ford 
Motor Company determined from information it requested and received 
from Firestone that there were an unusually high number of claims, 
fatalities, and injuries resulting from tread separations of certain 
Firestone tires on the Explorer vehicle. At Ford's insistence, 
Firestone then recalled 6.5 million tires, including all ATX tires 
Firestone produced for the Explorer. In addition, Ford found that 
claims were so high for other Explorer tires Firestone produced at 
Decatur, Illinois, that Firestone also had to recall the 15-inch 
Wilderness AT tire produced for Ford at that plant.
    With new information it received from Firestone on May 11th of this 
year, Ford determined that last year's recall did not take care of the 
problem. Instead, there are a rapidly growing number of Firestone 
claims involving Explorer tires that were not recalled last year. The 
new data received in May show there have been 110 tread separation 
claims involving Firestone's Wilderness AT tires compared to only 27 
claims in the data provided to Ford last August. During this same 
period of time, crash claims have gone from zero to 20; rollover claims 
from zero to 11; injury claims from zero to 22; and fatality claims 
from zero to seven.
    Seeing in this new data the same safety concerns and trends that 
led to last year's recall, Ford announced on May 22nd its ``Firestone 
Tire Replacement Program.'' This is not a recall, because Ford did not 
make the tires. Under this replacement program, Ford will either 
replace or reimburse vehicle owners for the replacement of 13 million 
Firestone tires. Ford estimates it will take nine months and as much as 
$3 billion to complete the Firestone tire replacement program.
    Ford's action has sparked a lot of finger pointing, but the public 
rightly wants to know whether the tires on their vehicles are safe. Are 
the tread separations Ford has identified unique to Firestone tires, or 
do other tires have similar problems? Is Firestone continuing to 
produce tires that endanger the public's safety? Are there particular 
Firestone manufacturing facilities that are producing bad tires? Should 
tread separation be viewed as a ``foreseeable'' event, as some have 
suggested?
    Unfortunately, the one best able to answer these and other 
important questions has yet to be heard from. The National Highway 
Traffic Safety Administration (NHTSA) began its investigation of about 
47 million ATX, ATXII, and Wilderness tires manufactured by Firestone 
more than a year ago. It has yet to complete its testing and analysis, 
and is probably months away from issuing its report and findings. At 
this time, NHTSA's task is made even more difficult by the fact that it 
has no permanent, or even acting, administrator. The Administration 
needs to give its attention to getting control of this agency and 
having it complete its work in an efficient and timely manner.
    Both Ford and Firestone have provided huge quantities of 
information to the Committee and to NHTSA. Particularly instructive is 
data on the performance of the Firestone and Goodyear tires when about 
equal numbers of tires from each manufacturer were put on Explorers in 
model years 1995, 1996, and 1997. Through the end of last year, data 
for these model years that Ford received from Firestone reveals there 
have been 1,183 claims involving tread separations on the Firestone 
tires and only two claims involving tread area problems on the Goodyear 
tires. Furthermore, the two Goodyear claims were for property damage 
only. No deaths, injuries, or lawsuits were involved. And according to 
Goodyear, these two claims may have involved nothing more serious than 
a puncture rather than the total tread separations that have occurred 
on Firestone tires.
    Goodyear says its tires hold up as well on the Explorer as on other 
vehicles. From 1996 through the year 2000, Goodyear says 87.7 million 
of its tires have been used on SUV's other than the Explorer, light 
trucks, minivans, and station wagons. And during that time, Goodyear 
has had no tread separation claims involving deaths, injuries, or 
lawsuits.
    However, the data tells quite a different story for the Firestone 
tire. Tread separation claims involving the Firestone tire on the 
Explorer have continued to grow. Ford's analysis of the data it 
received from Firestone in May shows that in the fifth year of use, the 
16-inch Wilderness AT tire produced at Firestone's Wilson, North 
Carolina, plant has an extremely high tread separation claims rate of 
about 450 claims per million.
    So, why is there such a big difference in the claims rates for 
Goodyear and Firestone tires? It has been suggested that Ford shipped 
many more Explorers equipped with Firestone tires to hot weather 
states, than it did Explorers equipped with Goodyear tires. Sounds 
possible, but it appears not to be true.
    In model years 1995 through 1997, Ford says it shipped 95,000 
Explorers with Firestone tires and 85,000 Explorers with Goodyear tires 
to the hot weather states of Arizona, Florida, Louisiana, Mississippi, 
Nevada, and Texas. Although most tread separation claims have come from 
hot weather states, not a single one of these claims involving death, 
injury, or a lawsuit is attributable to the Goodyear tire on the 
Explorer vehicle.
    It has also been suggested that there is something unique about the 
Explorer that causes tread separations. Again, Firestone's own claims 
data would suggest otherwise. There has been a substantial number of 
tread separations that have occurred on Firestone tires like those used 
on the Explorer, when those tires have been installed as 
``aftermarket'' tires on other non-Explorer SUV's, including the Toyota 
4 Runner, the Nissan Pathfinder, the Mitsubishi Montero, and the Isuzu 
Rodeo.
    Ford's analysis has also raised questions about Firestone's 
manufacturing quality control. The peel strength of the rubber 
Firestone used to make its tires and the durability of its tires all 
were found to vary from plant to plant. Perhaps, most importantly, the 
amount of rubber in the critical wedge area of Firestone's 15- and 16-
inch Wilderness AT tire was found to vary by plant. Of the plants most 
recently producing tires for Ford, the wedge rubber was smallest at the 
Wilson, North Carolina, plant and thickest at the Aiken, South 
Carolina, plant. Firestone's Joliette, Canada, plant ranked in between 
the other two. However, all Firestone plants produced tires with less 
rubber in the wedge area than Goodyear.
    In conclusion, Mr. Chairman, given the information it had, I find 
no problem with Ford having taken the action it did. In fact, for Ford 
not to have replaced these tires, would raise far more serious 
questions in my mind about their commitment to public safety and the 
customers they serve.
    Again, I want to thank you, Mr. Chairman, for holding this hearing, 
and I look forward to hearing the statements of the witnesses.

    Mr. Stearns. I thank my colleague. And now for an opening 
statement, the distinguished chairman of the Subcommittee on 
Oversight and Investigations.
    Mr. Greenwood. Thank you, Mr. Chairman. We are here today 
because 203 people have died in automobile accidents involving 
certain Firestone tires, mostly fitted on Ford Explorers. To 
date, no one has provided the American people with a definitive 
answer as to why those deaths occurred. A number of months ago, 
both Ford Motor Company and the Bridgestone Firestone, Inc. 
company agreed to a recall of more than 6.5 million tires. And 
at that time, both companies told the American public and this 
Congress that the first recall was adequate in scope and did 
not need to include any additional Wilderness AT tires.
    As recently as December of last year, after what both 
manufacturers described as extensive testing and analysis, the 
companies issued root cause findings, once again concluding 
that no further recall of the Wilderness AT was required.
    That, of course, was good news for America's consumers, and 
these two companies, since they had been replacing many of the 
recalled tires with the same product from plant--plants other 
than Firestone's Decatur facility, whose products had been 
judged to be unsafe.
    Now nearly 6 months later, Ford has come forward to say 
that it does indeed have a safety concern about additional 
Wilderness AT tires, particularly the 15 and 16-inch tires that 
were use primarily on the Ford Explorer, and that were used as 
replacement tires during last year's recall. It argues that the 
new claims data provided by Firestone in May of this year show 
an increasing trend in claims, accidents and injuries involving 
these two tire lines.
    Ford also says that its laboratory testing of these tires 
and competitor tire lines reveals significant differences in 
durability that further support its recall action.
    We are now told that on the strength of these discoveries 
and after $30 million in testing, the Ford Motor Company felt 
compelled to recall roughly 13 million Firestone Wilderness AT 
tires from its vehicles, a $3 billion business decision that 
has set off a fire storm of charges and countercharges between 
these two companies.
    Just last month, Bridgestone/Firestone announced that it 
was severing its nearly 100-year-old history with the Ford 
Motor Company.
    Clearly, the stakes are high for both of these companies. 
Industry analysts are already openly suggesting that Ford 
replace the name Explorer with a new brand name, even though 
this product is the best-selling sport utility vehicle on the 
market. Nor is Firestone immune from this kind of treatment. 
Some in the industry are busy suggesting that the venerable 
brand name of Firestone be retired.
    But if the stakes are high for these two companies, they 
are even higher for America's consumers. These events have 
raised much broader questions about the safety in general, 
their safety in general, tire safety in general, the 
relationship of tires to their vehicle systems and possible 
design flaws in the rollover of compact SUVs.
    Even more important, for our purposes, the fallout of these 
events has led to increased concern about the role of the 
National Highway Traffic Safety Administration, NHTSA plays in 
ensuring the safety of cars, trucks and automotive products.
    Last year, we learned how NHTSA initially failed to 
investigate seriously the claims surrounding this issue but 
subsequently leaped into the fray by issuing a consumer 
advisory last Labor Day weekend, which focused on a long list 
of other Firestone tire lines.
    NHTSA took this action, we are told, because claims rates 
on these products had reached the threshold of 12.6 claims per 
million tires produced. Whether this claim rate was about 
normal or a clear indication of a safety concern were several 
of the factors that NHTSA failed to establish before announcing 
this advisory. More disturbing, still, it is our own 
understanding that NHTSA is now in possession of data showing 
claims rates of a similar or greater value on other tire lines, 
including those from both Firestone and other tire 
manufacturers, and yet remains silent on the potential or 
perceived risk, if any, to consumers of those products.
    This inability of the Federal agency charged with 
protecting consumers to get the facts and to get them first has 
allowed the situation to deteriorate into the public relations 
equivalent of a shouting match between these two manufacturers, 
and the role of honest broker, which is precisely the mission 
of NHTSA, has been surrendered to two very threatened firms, 
whose data, even if correct, appears to have been manipulated 
in the way that makes their individual conclusions highly 
suspect.
    The committee's review of the actual Ford tests raises 
important questions about whether comparable tests were, in 
fact, run. For example, it appears Ford left off its peal 
strength chart, the results from some of Firestone's newer 
tires, which scored higher than comparable Michelin tires and 
much closer to the tested Goodyear tires, and nearly all of the 
Firestone tires Ford tested had been used, either on road--on 
road or as spares. In hot States, while the Michelin Goodyear 
tires tested were either all new or of uncertain prior use.
    These differences certainly raise questions about the 
methodology and possibly the results as well. Similar questions 
arise with respect to the largest testing procedure utilized by 
Ford, its rig tests, in which it placed a tire on the 
laboratory wheel and ran it at varying speeds, air pressures, 
loads and ambient temperatures. The way these rig test results 
were presented to the committee could be considered as 
misleading, given that Ford disaggregated the Firestone results 
by plant, while aggregating three Goodyear plants into one 
plotted column, while also aggregating the 16 and 15-inch tire 
results, which made the percentage of the overall failure rate 
of Goodyear products much smaller, while allowing the 
difference between the two sets of tires to appear more stark. 
Combined with the differences in how the tests themselves were 
conducted, the aggregation issue becomes even more problematic.
    Firestone, too, has its own set of findings based on 
questionable assumptions and parameters. For example, Firestone 
has been very vocal lately in claiming that the Explorer is 
more than twice as likely as other SUVs to roll over, following 
a tire failure. Yet, when we asked for the actual data 
underlying the statistic and the confidence bounds associated 
with it, we learn that Firestone included all other SUVs, 
regardless of whether they were truly comparable in size to the 
Explorer. We also found that the two State data bases that 
Firestone relied on to contain a very small sample size of 
accidents that fit Firestone's queries, leading to a large--to 
large ranges in possible statistical outcomes.
    Indeed, the data could just as easily be read to find only 
a minimal and questionable increase in rollover associated with 
the Explorer, not the dramatic twice as likely Firestone touts 
publicly. In making these observations, I am not suggesting 
that either company intentionally set out to mislead this 
committee or the American public, but we would be derelict in 
our duty if we did not keep in mind that in the heat of this 
very public and high-stake battle, both companies may be 
expected to produce their analyses in ways that strengthen 
their own positions.
    It is for that reason that until credible tests are done, 
the American consumer will not know the full truth of this 
matter and this brings us again to NHTSA.
    As Chairman Tauzin previously observed, there are serious 
questions about whether NHTSA's current testing program will 
prove any more fruitful than Ford's or Firestone's in 
ultimately answering the many unanswered questions that remain. 
And that is totally unacceptable.
    Our role here is not to advance the interests of one 
company over another or one product over another. Our role is 
to protect the interests of America's consumers. NHTSA is our 
agent in this enterprise, and they must do the hard work to 
help us find honest answers. In that regard, allow me to give 
some useful advice to the folks from NHTSA, which also may be 
appropriate for the management teams at Ford and Firestone. 
``Failure is the opportunity to begin again more 
intelligently.'' The man who said that knew something about 
success and failure and automobiles. He was Henry Ford. Thank 
you, Mr. Chairman.
    Mr. Stearns. I thank my colleague. The ranking member of 
the Subcommittee on Oversight and Investigations, Mr. Deutsch.
    Mr. Deutsch. Thank you, Mr. Chairman, for holding this 
hearing. The tragedy that brings us here today is one of the 
worst in auto safety history. As of yesterday, 203 people have 
died in the United States because the tread has separated on a 
Firestone tire. Most of those tires were on the Ford Explorers. 
Dozens more have been--dozens more have died in other countries 
and hundreds have sustained permanent injuries.
    To put this into perspective, when Firestone recalled the 
Firestone 500 tire in 1978, 34 people have died. In my State of 
Florida, one of the hot States in which the tire has failed 
most often, more than 28 people have died, almost as many as in 
the Firestone 500 recall, and more than 130 have been injured. 
Who is responsible? Firestone has already admitted 
responsibility, but Firestone has said that Ford should share 
responsibility, because the Explorer design causes excessive 
rollovers. Ford says it is the tire alone. Over the past few 
weeks, we have all been subjected to dueling statistics 
provided by Ford and Firestone. Unfortunately, we cannot 
resolve these disputes here.
    However, in Florida, our attorney general is leading an 
investigation of both Ford and Firestone for all 50 State 
attorney generals. The primary allegation is that Firestone 
engineered a bad tire in part because Ford kept demanding 
changes in the tire to make the Explorer more stable, while 
maintaining the rolling resistance and fuel economy of other 
tires.
    The tire pressure was lowered and the weight of the tire 
was reduced by removing material, but the design of the vehicle 
was not changed. As part of its new safety campaign, Ford is 
now courting Goodyear tires. It is important to note that the 
Explorer was previously equipped with Goodyear tires from 1995 
to 1997. In documents submitted for the record, however, Ford 
terminated its relationship with Goodyear due to cost concerns.
    Florida's attorney general is also concerned that the 
companies did not disclose the tire failure problems in other 
countries to U.S. regulators and the American public. When the 
Firestone tires began to fail in Venezuela and Saudi Arabia in 
1997 and 1998, we learned in the earlier hearings, that both 
Ford and Firestone kept the American consumer from knowing 
about the defective tires which were recalled in those 
countries.
    Communications documenting these disclosure problems were 
included in the record of our hearing last fall, and a few 
additional ones have been submitted for the record today. We 
will hear a lot of conflicting evidence today, but who are we 
and the American people to believe? Last fall, the committee 
was told that the defective ATX tire came from only one 
Firestone plant in Decatur, Illinois, but that all ATX tires 
and Wilderness AT tires made in Decatur would be recalled. We 
were told the Wilderness ATs not made in Decatur were safe.
    However, in December of 2000 in deposition, Ford's chief 
quality control officer stated that none of the Wilderness 15-
inch ATs were robust tires that could be expected to perform 
under variations in inflation, pressures, load and speed. At 
the same time, both companies issued root cause analysis 
suggesting that the defective tires came only from one plant, 
despite the fact that all the tires used identical engineering 
and materials. But Firestone's experts found belt edge cracks 
in tires from all plants, and Ford indicated tire design was a 
problem.
    By January, auto safety advocates were calling for a broad 
recall. Today we are being told the same by Ford, while 
Firestone also blames the Explorer's design. And what has the 
National Highway Transportation Safety Administration been 
doing while this debate is going on? We are still waiting for 
its own analysis, which I hope will be completed before the end 
of the hot season. Unfortunately, in most cases, excessive 
accidents, injuries, lawsuits and consumer's responses have 
removed questionable vehicles from the road, not the Federal 
agency charged with protecting motorists and passengers.
    I want to add a few comments about the stability of sports 
utility vehicles, including the Explorer. SUVs, by definition, 
have a rollover problem. SUV manufacturers work to engineer 
against this propensity, but the consumer should have access to 
reliable and objective rollover data. I would like to encourage 
NHTSA to move quickly, and with the rollover consumer 
information effort we mandated in the TREAD Act, so the public 
can make informed vehicle choices.
    Thank you, Mr. Chairman.
    Mr. Stearns. I thank my colleague.
    Now we will recognize for an opening statement the chairman 
of the full committee, the gentleman from Louisiana, Mr. 
Tauzin.
    Chairman Tauzin. Chairman Stearns and Chairman Greenwood, I 
want to thank you both and the ranking members for this hearing 
today, because it represents one of the most important 
hearings, I think, in our Congressional season. It continues 
this extraordinary inquiry that our investigators are making 
and that hopefully NHTSA will complete soon on the question of 
why 203 Americans had to lose their lives on the highways, when 
Ford and Firestone, and apparently many people in our Federal 
agency, knew for years that there were problems with Firestone 
tires on Explorers and very little was done until very recently 
to get those tires off the highways.
    As you know, we conducted two hearings last year after Ford 
and Firestone jointly then announced the recall of more than 6 
million of those tires, fitted primarily on the popular Ford 
Explorer. It was partly in response to those hearings that 
Chairman Upton and this committee held that Congress passed the 
TREAD Act last October. That Act requires NHTSA to start 
collecting information on claims and lawsuits, and more 
importantly, not to wait till the body count accelerates, but 
to do extensive testing to ensure that design and preproduction 
phases of tire production give us information as to whether 
tires should ever be put on the marketplace in the first place.
    Now, it is against that backdrop that we are here today, 
because we are faced with a most extraordinary circumstance 
today. Normally NHTSA issues a mandatory recall on NHTSA's 
data, convinces a manufacturer to do a voluntary recall. Today, 
Ford has announced essentially a recall, a replacement of 
another company's products. That is extraordinary and unusual, 
and because it involves 13 million Firestone tires, it again 
raises some rather unique questions for this committee and for 
our safety agency. First of all, what is the foundation for 
Ford's decision for this most unprecedented action? Before Ford 
announced the action, we were given a briefing by Mr. Nasser of 
Ford Motor Company and a chance to ask several questions 
regarding this extraordinary announcement.
    As Mr. Greenwood has pointed out, we were told that this 
announcement resulted from the fact that Ford, on its own, 
essentially, conducted extensive testing in using updated data 
from NHTSA to determine that these 13 million tires should be 
replaced. But Ford also told us then that the Ford--that Ford 
tests were conducted in very comparable tests with other tires. 
Our investigators have learned something quite different, and 
we need an explanation of that today.
    First of all, is the Ford recall or replacement overly 
broad? We know that many Wilderness AT tires are being recalled 
that have not been tested by Ford at all. It includes 
Wilderness AT tires that have fueled any claims casting 
suspicion, frankly, on the entire line of tires that other 
automobile manufacturers have used and continue to use as 
original equipment on their SUVs and light trucks, and that, by 
the way, includes GM and Toyota.
    If indeed these tires should be recalled by Ford, should 
they be replaced by these other auto manufacturers? Second, the 
confusion gets even worse when you consider, as our 
investigators have discovered, that some of the tires Ford is 
recalling have a better claims history than those that Ford has 
chosen as replacement tires.
    Let me say that again. Ford is going to replace these 
recalled tires with tires that have a worse claims history than 
some of the tires that are coming off the Explorers. For 
example, our investigators have learned that one of the tires 
that is going to be used in the replacement has a claims rate 
of 124 claims per million tires, well in excess of the five 
claims per million that Ford says is a benchmark used in this 
recall. Are we going to be replacing worse tires for the tires 
that come off these cars?
    I want to say here something that is important for this 
committee and its work. Our investigators have uncovered a 
great deal of information about these claims and the claims 
ratios and this particular tire that is going to be used as a 
replacement. We are going to turn that information over to 
NHTSA following this hearing, and we are going to ask NHTSA to 
come back to us within 30 days to tell us whether this data is 
significant enough that Americans ought to know that the tires 
that they are going to have to replace and be used as 
replacement tires do have, in fact, a worse claims data than 
others. Is that significant? And does that make a difference 
for the safety of American families?
    Our problem, of course, is that we don't know yet today, 
and so we will give that information to NHTSA and ask NHTSA to 
come back with--to us within 30 days that we might be able to 
inform the American public. Ford, as a private company, of 
course, has the right to replace any parts of their vehicles, 
including the tires. But in the absence of an agreement from 
either Firestone or NHTSA, the public surely must be confused 
today. It is the job of NHTSA to come up with some consistent 
standards for when tires pose an unreasonable safety risk to 
the consumer, and when one company says that they ought to come 
off but they don't come off other company's vehicles and when 
replacement tires are called for that may have a different, in 
fact, a worse record than the tires that are coming off, that 
confusion in the American public is unacceptable.
    Firestone, too, has failed to answer some pretty basic 
questions about the particular tires in question here. Ford and 
NHTSA have both focused their attention on two of the 
Wilderness AT tire lines used primarily on the Ford Explorer, 
and while the claims rates on these two tire lines are not as 
high as the levels of last year's recall, they are still much 
higher than most of Firestone's other tire lines, whether they 
are Wilderness or otherwise. And as NHTSA's latest claims data 
shows, more complaints of accidents and injuries on these 
nonrecalled tires are coming in, yet Firestone would tell us to 
be content with the fact that the injury totals experienced on 
these previously unrecalled tires are not as bad as the first. 
I am not sure that is a good standard by which we ought to make 
safety judgments here.
    Firestone's also attempted to shift the focus from its 
tires to the Explorer itself. We have consistently said from 
the beginning of this controversy last year that all 
potentially relevant issues needed to be explored by NHTSA, 
including those related to how vehicles and tires interact as a 
system, and NHTSA is committed to doing just that, and we have 
asked NHTSA, in fact, to make more headway than they have so 
far.
    But the review of the vehicle system issue should never 
replace the primary focus on the critical event itself, which 
is the tire tread separation, without which the vehicle 
stability issues wouldn't come up. Firestone can't avoid 
legitimate scrutiny of its tires by passing the buck on to the 
Explorer. NHTSA needs to fully explore all these relevant 
issues and in a much more timely manner. We need some answers 
soon, and the public should not have to suffer through 
additional weeks or months of dueling charts and flying 
accusations and more hearings.
    And finally, I want to discuss an issue that I raised with 
Mr. Nasser in our conversation several weeks ago. We all know 
that Ford used Goodyear tires for the Explorer for several 
years in the mid 1990's, in addition to the Firestone tires 
that were used and recalled. We also know that these Goodyear 
tires have had less than a handful of claims relating to tread 
separations on these Explorers. The obvious question is, why 
did Ford stop using Goodyear tires on the Explorer in model 
1998 and return to sole sourcing Firestone tires that have 
since been recalled?
    Last year, the committee released Ford documents suggesting 
that despite test data that show the Goodyear tire performing 
better than the Firestone tire, Ford, nonetheless, dropped 
Goodyear as the supplier for the Explorer, because Goodyear may 
have been uncompetitive in terms of costs. The committee 
recently received additional documentation from Goodyear that 
clearly confirms this point that Ford dropped Goodyear because 
Goodyear refused to drop its price to be more competitive with 
Firestone. And as Ford testifies today about how its recent 
test results and claims analysis show superior Goodyear 
performance, we should all keep that bit of history in mind.
    Mr. Chairman, we won't have all the answers today. Part of 
what we do today is shed light on this Ford decision and on 
some of the claims made by both Ford and Firestone. NHTSA needs 
to ride in to the rescue here and clear up this confusion very 
rapidly. In the letter we will send to the agency, we will ask 
you to respond in 30 days, Mr. Jackson, and our private 
conversations, I know you told me you intend to do that. We 
look forward to it. Thank you, sir.
    [The prepared statement of Hon. W.J. ``Billy'' Tauzin 
follows:]
 Prepared Statement of Hon. W.J. ``Billy'' Tauzin, Chairman, Committee 
                         on Energy and Commerce
    Thank you, Mr. Chairman, and I want to thank both you and Chairman 
Greenwood for holding this joint Subcommittee hearing today, on this 
topic of great importance to the American people.
    Last year, I co-chaired two hearings on this same topic, after Ford 
and Firestone jointly announced a recall of more than six million tires 
fitted mostly on the popular Ford Explorer. At those hearings, a lot of 
questions were raised about the thoroughness and timeliness of the 
internal responses of these two companies, as well as the government's 
safety regulators--all of whom had knowledge of potential problems with 
these tires for years before taking any action to get them off of U.S. 
highways. Those hearings also raised a lot of questions about the 
thoroughness of the testing done by Ford and Firestone prior to putting 
these tires on these vehicles in the first place, as well as the 
quality of Federal tire testing standards that were pathetically weak 
and had not been updated since the 1960s.
    Partly in response to those hearings, this Committee and the 
Congress passed the TREAD Act last October, which required NHTSA to 
start collecting information on claims and lawsuits filed against 
manufacturers of automobiles and tires in an effort to better identify 
problems before they become bigger ones. But the Act also said, in 
effect, ``let's not wait for the body count to start to conduct a post-
mortem.'' Let's focus on ensuring adequate testing of tires in the 
design and pre-production phase, so as to improve our confidence in 
tires before we start driving our families around on them.
    Against that backdrop, we are here today to discuss the 
extraordinary and costly action recently taken by Ford on its own to 
essentially recall as a precaution all Firestone Wilderness AT tires on 
Ford vehicles, despite the protests of Firestone and the inaction of 
NHTSA. Consistent with the spirit of the TREAD Act, Ford has focused on 
updated claims data it and NHTSA received from Firestone, as well as 
laboratory tests it has conducted on the tires at issue. Ford's action 
certainly is unique in modern business history, in that it involves the 
recall of another company's product. By its very nature, then, it 
raises a host of questions that warrant fuller exploration by this 
Committee.
    One of those questions is the foundation for such an unprecedented 
action. Before Ford publicly announced its decision several weeks ago, 
Mr. Nasser came to speak with several of this Committee's Members, 
including me, to discuss his planned action. When he explained the 
differences Ford's tests were finding between the Firestone and 
Goodyear tires, one of the first things I asked him was whether the 
tests were run in a comparable fashion. He said yes, but as Mr. 
Greenwood has pointed out in his opening remarks, the findings from the 
Committee's review of Ford's test data and methodology certainly call 
into doubt whether these tests were run as comparably as both Mr. 
Nasser and I would have hoped and expected.
    Moreover, taking the Ford test results at face value, they 
certainly do not support the breadth of the recall now underway, for 
that recall includes many Wilderness AT tires lines that Ford has not 
tested at all. The recall also includes Wilderness AT tire lines that 
have few, if any, claims--casting suspicion on an entire line of tires 
that other automobile manufacturers have used and continue to use as 
original equipment on their SUVs and light trucks, including GM and 
Toyota. While I certainly understand's Ford interest in making this 
recall as easy as possible for its customers, I am concerned that its 
inclusion of all these tire lines may actually serve to confuse 
consumers even more.
    This potential for confusion is even greater, given that consumers 
will soon learn--as our investigators have discovered--that some of the 
tires Ford is recalling have a better claims history than those Ford 
has chosen as replacement tires. Consumers also will soon learn--as our 
investigators have discovered--that there are other tires on Ford 
vehicles that have higher claims rates than the Wilderness ATs, but are 
not being recalled as part of this action.
    In short, the question that neither Ford nor NHTSA has been able to 
answer to date is, what should the baseline for action be here? We're 
going to hear a lot of talk today about claims rates, wedge dimensions, 
peel strengths, temperature profiles, and other technical issues. But 
the bottom line is that, right now, we are dealing in a world of 
subjectivity and relativity, where we might be able to say that one 
tire performs better or has different characteristics than another, but 
not whether the latter tire is in any way defective.
    Ford, as a private company, need not have to prove a tire defective 
before deciding it wants to take all of them off its vehicles. But in 
the absence of agreement from either Firestone or NHTSA, the public 
surely must be confused. It is the job of NHTSA to come up with some 
consistent standards for when tires pose an unreasonable safety risk to 
consumer. And we must act quickly to reduce the confusion swirling 
around this issue before the American public starts to simply tune it 
out.
    Firestone, too, has failed to answer some pretty basic questions 
about the particular tires most in question here. Ford and NHTSA have 
both focused their attention on two of the Wilderness AT tire lines 
used primarily on the Ford Explorer. While the claims rates on these 
two tire lines are not as high as the levels of last year's recall, 
they are still much higher than most of Firestone's other tire lines, 
whether Wilderness or otherwise. As NHTSA's latest data release shows, 
more complaints of accidents and injuries on these non-recalled tires 
are coming in.
    Yet Firestone would have us be content to know that, in their 
opinion, these tires won't reach the claims or injury totals 
experienced by the previously recalled tires--as if THAT should be the 
benchmark we should all use in judging consumer safety. Well I, for 
one, am not willing to take that option either. Surely, there must be 
something about these particular tires that warrants closer inspection.
    Firestone also has attempted to shift the focus from its tires to 
the Explorer itself. I have consistently said from the beginning of 
this controversy last year that all potentially relevant issues need to 
be explored by NHTSA, including those related to how the vehicle and 
the tire interact as a system. And NHTSA committed to doing just that 
when it was before the Congress last year--although it has made little 
headway in the meantime. But the review of vehicle system issues should 
never displace the primary focus on the critical event itself--the tire 
tread separation, without which the vehicle stability issues would not 
arise. Firestone cannot avoid legitimate scrutiny of its tires by 
playing pass the buck to the Explorer.
    NHTSA needs to fully explore all of the relevant issues, and in a 
much more timely manner. The public should not have to suffer through 
additional weeks or months of dueling charts and flying accusations.
    Finally, I want to discuss one other issue that I raised with Mr. 
Nasser in our conversation several weeks ago. We all know that Ford 
used Goodyear for the Explorer tire for several years in the mid-1990s, 
in addition to the Firestone tires that have been recalled. We also 
know that those Goodyear tires have had less than a handful of claims 
relating to tread separation on Explorers. The obvious question is, why 
did Ford stop using Goodyear tires on the Explorer in Model Year 1998, 
and return to sole-sourcing Firestone tires?
    Last year, the Committee released Ford documents suggesting that, 
despite test data that showed the Goodyear tire performing better than 
the Firestone tire, Ford nonetheless dropped Goodyear as a supplier for 
the Explorer because Goodyear may have been uncompetitive in terms of 
cost. The Committee recently received additional documentation from 
Goodyear that clearly confirms this point--that Ford dropped Goodyear 
because Goodyear refused to drop its price to be more competitive with 
Firestone. As Ford testifies today about how its recent test results 
and claims analyses show superior Goodyear performance, we all should 
keep that bit of history in mind.
    I want to thank all of our witnesses today, and thank both Chairman 
Stearns and Chairman Greenwood for hosting today's hearing.

    Mr. Stearns. I thank the distinguished chairman.
    On our list, we have Ms. Harman for an opening statement. 
And let me remind the members the procedure is for a joint 
hearing, for the members other than the ranking and the full 
chairman, to limit their opening statements to 3 minutes. So we 
would be most appreciative.
    Ms. Harman. Thank you, Mr. Chairman, and I commend you for 
holding this hearing, and welcome our witnesses.
    I hail from California, where the blame game is in full 
frenzy for the energy crisis, and where SUVs are a way of life, 
even when they never go off road. 203 people have died because 
of tire failures, 203 people have died, and it is critically 
important that the heads of the companies who manufacture the 
vehicles and the tires involved in their deaths are here 
voluntarily and that we are here, too. The blame game won't 
bring those people back, and it won't make cars or tires safer.
    Actions the executives here take can make people safer. 
Actions that NHTSA takes can make people safer. Actions we take 
can make people safer. That is our job to protect the health 
and welfare of our constituents. The blame game stops here. And 
this hearing is about how we are going to go forward with safer 
cars and safer tires. I yield back the remainder of my time.
    Mr. Stearns. I thank my colleague.
    The gentleman from Georgia, Mr. Deal.
    Mr. Deal. Thank you, Mr. Chairman. I agree with what Ms. 
Harman has just said. We find ourselves in multifaceted 
positions from time to time as Members of Congress in listening 
to the opening statements thus far, certainly a number of very 
important issues have been raised. However, I have the feeling 
that we are about to engage in a plaintiff's trial lawyer 
discovery frenzy today of finger pointing. I am not 
particularly interested in that aspect, because I do not view 
that necessarily as a role for Congress to engage in.
    But as Ms. Harman said, our primary purpose is public 
safety. So to that end, all of us will be interested in hearing 
what has been done to correct problems if problems did, in 
fact, exist, and what, if anything, needs to be done in the 
oversight responsibility that Congress has delegated to NHTSA 
in carrying out that role, and does anything from a legislative 
standpoint need to be done further in keeping with what we have 
previously done in the last Congress with the TREAD Act? Those 
are the kinds of inquiries that I view as relevant to the 
matter that is before this committee today. I yield back the 
balance of my time, Mr. Chairman.
    Mr. Stearns. He yields back the balance of his time. Mrs. 
Capps is recognized for an opening statement.
    Mrs. Capps. Thank you, Mr. Chairman. I would like to say 
that I am pleased that we are holding this hearing today, but I 
am not. I am not, because of the original circumstances that 
have brought us here today, tragedy. As we all know, over 200 
people have died in car accidents because of faulty tires, 
faulty car design or maybe some combination of both. Hundreds 
more have been injured. The lives of the families and friends 
of these people have been up-ended, and we are here today to 
try to sort through the facts that have caused this damage.
    But I am also not pleased because today's hearings will 
likely be a continuation of the charges and countercharges 
between two legendary American companies. Ford has now offered 
to replace all of Firestone Wilderness AT tires. The company 
says they are doing this out of concern for their customer's 
safety. Firestone questions the motives of Ford and produces 
studies that claim its tires are not the reason behind the 
rollovers that have caused the deaths of so many people.
    So Ford produces studies that show its Explorers are safe. 
Both sides have experts supporting them, and today's Washington 
Post has a story about the lobbying efforts that are going on 
so each side can get out its story.
    Maybe there is nothing wrong with this, but I don't know if 
it is actually getting us much closer to the truth. So today's 
hearing will likely be a continuation in this battling of 
charges and countercharges, each side producing credible 
studies to make its point. Quite frankly, I am not sure who to 
believe, and I will not make any statements that call in 
question the legitimacy of either side. But I am sure of one 
thing. I want us to get to the truth of this matter. I want 
American consumers to know that when they get behind the wheel 
of their car, they can know that that car and all its parts are 
as safe as they can be, that there have been no corners cut, no 
edges shaved. That, after all, is one of the jobs of our 
government, to make sure that the market works and produces 
safe products.
    In this case, we clearly need a judge, someone who can look 
at the technical claims that companies are making and make some 
sense of them. That judge is supposed to be the Federal 
Government, specifically the National Highway Traffic and 
Safety Administration. So I will be interested to hear from 
NHTSA, and I will continue to push them to get to the bottom of 
this matter.
    American consumers are depending on them and on us. Thank 
you. I yield back the balance of my time.
    Mr. Stearns. I thank my colleague.
    Mr. Shimkus, opening statement?
    Mr. Shimkus. Thank you, Mr. Chairman, and I will be brief. 
We want to welcome our two CEOs and the director of NHTSA here, 
two great companies that we are in conflict with today. Basic 
business MBA says the CEO's job is to maximize shareholder 
wealth. We all know that you do that by protecting public 
safety, because it is not good business to impinge on public 
safety. No one would take that risk. But as everyone agrees on 
both sides of the aisle, we are searching for some certainty, 
legal certainty. We talk about that in all lines of the 
business that we do here on the commerce committee, legal 
certainty on who is doing what and how to resolve this. We did 
pass the TREAD Act last year in response initially, and 
unfortunately, haven't had much time to get the full impact of 
the TREAD Act, along with the additional dollars needed to 
affect that law, and we're already back in front of this 
committee.
    My questions will be directed to both the CEOs and to NHTSA 
as to what should NHTSA do, Ford Motor Company? What should 
NHTSA do, Firestone? And NHTSA, what do you think you should 
do, and what resources do you need to get it done? You can tell 
there is a lot of frustration up here. We did not want to be 
here less than a year after the last hearing, and we hope that 
we can get to some conclusions so we are not here again in the 
next couple of months. Thank you, Mr. Chairman I thank the 
gentleman for yielding.
    Mr. Stearns. I thank the gentleman.
    The gentleman from Massachusetts, Mr. Markey, is recognized 
for an opening statement.
    Mr. Markey. Thank you, Mr. Chairman, very much. This is an 
unprecedented hearing before this committee. We have two 
corporations, each of which has leveled a blistering, scalding 
indictment of the other company. Obviously we need answers. We 
have a corporate schoolyard brawl that has broken out here. We 
need an impartial referee to determine who was right and who 
was wrong on each one of the allegations. This hearing is not 
going to determine that. We need NHTSA, the independent agency, 
to play the role of referee, calling each one of the shots on 
each one of these issues in a way that ascertains the truth for 
the American people.
    Now, it is true, and today the President has designated his 
nominee to be the head of NHTSA. We haven't had anyone running 
NHTSA for the last several months there was a Presidential 
designee. This, in the aftermath of this committee and the 
Congress passing a law last year which gave a very serious 
homework assignment to NHTSA. Now, NHTSA tells us that they are 
at least a month away from finishing their information. In 
addition, we have to know how much progress they have made in 
implementing the TREAD Act, implementing the law which we 
passed last year.
    After all, that is the only way in which the safety 
recommendations and requirements which we passed into law last 
year are going to be put on the books, and the public will be 
protected and every subsequent year in because of those 
additional safety protections. So I wish that there was an 
urgency in this administration that would have designated a new 
head of highway safety back 5 months ago.
    That would help us to know who is right and who is wrong in 
every one of these issues. Obviously, the very viability of at 
least one of these companies is going to be determined by the 
answers to those questions. We know that there is a toxic 
cocktail that is created when Ford Explorers and Firestone 
tires are put together. That warning is out there now to the 
public. Ford is now saying that it is more than the 6 million 
tires. Now an additional 13 million Ford--Firestone tires that 
put their vehicles at risk.
    But we do know this as well: Even as the information has 
been made available to Ford over the last several years, they 
continue to increase the weight of their SUVs, knowing that 
there is a direct correlation between the weight of these 
vehicles and their propensity to roll over and to endanger 
American families. And so, Mr. Chairman, we couldn't have a 
more important hearing, but everything that happens today is 
merely preliminary to the ultimate decisions made by NHTSA as 
to who is right and who is wrong, and I hope that we can get a 
confirmation on the President's appointee and a quick 
resolution of these issues for the sake of the public, because 
we know these accidents occur on hot summer days on long rides, 
and that is where we are in America today, with the American 
public at greatest risk for the next several months without the 
answers which every one of these families deserve.
    Mr. Stearns. I thank my colleague.
    The gentleman from Nebraska, Mr. Terry, is recognized for 
an opening statement.
    Mr. Terry. Thank you all. I will be succinct, and my focus 
here is going to be on my own government agency and their 
tardiness in supporting the process and supplying us with data. 
The reason why I want to focus on them is because I am going to 
work from a basic assumption, that there is self-motivation 
involved in both Firestone and Ford's testing. There is a 
billion dollars at stake here in lawsuits. There are trials 
strategy taking place, and as layman up here in most of the 
public, we could read the data, the summaries of the testing 
and we can see--well, I won't say it is fairly convincing. The 
oversteer of the Ford Explorer that Firestone has provided us, 
likewise the peal strength and the other data that Ford has 
supplied us about the Firestone--Firestone tires, the data that 
they have accumulated.
    When you read the summaries, to us they all are convincing, 
but keep--what keeps popping in my mind is that there is a lot 
of dollars at stake here in lawsuits. Each in a trial strategy 
have the ability, and it is pretty typical trial strategy to 
try and bring somebody else in as a defendant and share the 
blame.
    So what we need is reliable independent data that we can 
rely on that can shift through the new answers that some of my 
colleagues might have brought out in their opening statements 
of just the little things that you can tweak, the type of 
vehicles that are used, the age of the tires that are used that 
can tweak the outcome, can tweak the data to where layman 
wouldn't notice. That is why we rely on NHTSA, and so I think 
that is where I am going to focus upon today, and the hard 
questions will be asked.
    It will be good questions for Firestone and Ford as well, 
but we need that independent body, the American public needs 
that independent body, and we haven't been able to provide 
that. I yield back the balance of my time.
    Mr. Stearns. The gentleman yields back the balance of his 
time. Thank you.
    Mr. Strickland, is recognized for his opening statement.
    Mr. Strickland. Mr. Sawyer is----
    Mr. Stearns. Mr. Sawyer is not on either subcommittee, but 
we certainly invited him to participate, and we are under the 
customary procedure allowing him to do his opening statement 
after the members of both subcommittees have spoken first.
    Mr. Strickland. Thank you, Mr. Chairman.
    Mr. Stearns. So you are recognized.
    Mr. Strickland. Thank you, sir. I'll just take a few 
moments.
    Sitting here, I listened to my colleagues and I've 
concluded what I frequently conclude when I attend these kinds 
of meetings and that is, where do we as Members of Congress go 
for the truth? How can we take the information that is provided 
to us, sort through it, determine credibility and reliability, 
and then make an informed decision?
    And I think that's what we must, at least in part, depend 
upon our witnesses today to provide for us and to us. But 
ultimately I think we do need this objective judgment from the 
Federal agency that's responsible for providing us with these 
kinds of data.
    I am more than a distant observer, I guess. I drive a Ford 
Explorer with Wilderness AT tires, and I have a district where 
it takes me about 5 hours to drive from end to end, and I plan 
to do that throughout the coming summer months. So I hope we 
reach some conclusions today so that I, and my constituents 
especially, can face the summer months feeling some degree of 
confidence.
    I yield back.
    Mr. Stearns. The gentleman yields back. The gentleman from 
Tennessee, Mr. Gordon, is recognized for an opening statement.
    Mr. Gordon. Thank you, Mr. Chairman. I think we're at the 
point of opening statements, where there is the cliche, 
``Everything's been said, just everyone hasn't said it.'' so I 
will just make a quick observation.
    When I was practicing law in a small town, Murfreesboro, 
Tennessee, I think I discovered what we're going to find out 
today. Mr. Tauzin and Mr. Greenwood particularly did a good 
job--and Mr. Deutsch--of laying forth a lot of serious 
questions that we need to have answers to.
    A month of hearings won't bring answers to all those, so as 
has been said, we need to move forward and hear from NHTSA, 
because I think we are going to find out what I found in 
Murfreesboro, that you can take the two or three witnesses 
seeing the same accident or a dog bite and they're going to 
come back with different views. Whether it was the direction, 
or their angle for seeing the accident, whether it is an 
internal prejudice, they simply bring back different views. So, 
hopefully, NHTSA will get its act together shortly and do a 
more thorough investigation.
    So what I want to do in my time is really ask the same 
questions of all three witnesses, to try to set up a benchmark, 
so we can move forward. And thank you again.
    Mr. Stearns. The gentleman yields back the balance of his 
time.
    Mr. Stupak is recognized for an opening statement.
    Mr. Stupak. Thank you, Mr. Chairman. Mr. Chairman, more of 
a parliamentary inquiry if I may. As I was coming flying out 
here today I went through Detroit. I grabbed the Detroit Free 
Press because it talks about new tires, new worries. And on the 
majority side, we've had some discussion this morning in 
opening statements about the replacement tires having a worse 
safety record than the Firestones.
    My question is directed to the Chair: Are we going to see 
that information? Is it going to be part of this hearing? Can 
we see it?
    My friend, Mr. Strickland, and I both have a Ford Explorer. 
After last year's hearing, I replaced my tires, so I want to 
make sure if I replaced them, I replaced them with good tires; 
and I think we're misleading the American public if we say we 
replaced them with worse tires. But we are not getting the 
data.
    Mr. Stearns. Will the gentleman yield?
    Mr. Stupak. Sure.
    Mr. Stearns. I think as we go through this hearing there is 
a nuance here between safety and claims reporting and what this 
claims reporting means versus actual safety. So I think what 
they're alluding to is the claims reporting, which is not 
necessarily a clear proportionate with the safety.
    But I think your concern is welcome and I think one of the 
reasons that we had this hearing is because both members and 
the consumers want to understand the nuances between this claim 
data and what it means. And so when we move forward, I think 
some of the questions that you have might allude to that fact.
    Mr. Stupak. I see the chairman is here. Maybe he may have 
that information.
    Will that be provided to all of us, Mr. Chairman, the 
information you brought up about some tires have worse safety 
records than the ones that are being----
    Mr. Stearns. It's not a safety record. We are talking about 
just claims data, which is not a safety record.
    Chairman Tauzin. Would the gentleman yield?
    Mr. Stupak. Can we have that data?
    Chairman Tauzin. Will the gentleman yield? Some of the data 
is apparently NHTSA's data. Some of it has been provided to us 
on a confidential basis from other tire manufacturers, and 
frankly, we don't know how valid this information is. NHTSA has 
not looked at it to see whether this information that's 
privately supplied to us is validated yet.
    At a meeting right before this hearing I asked Mr. Jackson 
if we supplied him with this information immediately following 
this hearing, again because it is confidentially supplied to 
our investigators--first, supply it to NHTSA, would they within 
30 days be able to give us, as quickly as possible, information 
as to whether or not that information we received is, No. 1, 
valid, and No. 2, whether or not it's consequential information 
that consumers need to know immediately, if in fact the Ford 
criteria for this recall are valid.
    Mr. Dingell. Would the gentleman yield to me?
    The question, I think, that has to be answered is, are we 
comparing apples and oranges. I would note that some of the 
information that shows that the new tires from Firestone are 
safer than other manufacturers comes from a plant where there 
is no history of manufacturing of those tires at that plant, 
and as a result, there is no record of failures of tires coming 
from that plant.
    Now, is that not so?
    Chairman Tauzin. Would the gentleman yield?
    Mr. Stearns. The gentleman's time has expired.
    Mr. Stupak. I ask for unanimous consent for 2 additional 
minutes with the colloquy going.
    Chairman Tauzin. I would say to my friend that there are 
several questions we do not know the answer to, and that is, 
one, whether, first of all, we think the data we are getting is 
valid. But we need to have that verified by NHTSA. If, in fact, 
a tire that is going to be replaced by Ford is going to be 
replaced with a tire that has a much worse claims record than a 
tire being replaced, is that information significant enough for 
Ford perhaps to make a different decision or for consumers to 
make a different decision? That's a question that we are going 
to ask NHTSA at the end of this hearing.
    The gentleman is correct, there's a lot of claims data that 
goes to NHTSA. Some of it goes to the individual tire 
companies; and we need to know whether or not we have duplicate 
numbers, how valid is it, and how significant are those numbers 
before we ask NHTSA to release them to the public, I think.
    Mr. Stupak. I want to reclaim my time here.
    Whether it's claims data or safety claims, if we have 
information, I hope that it can be shared with all members of 
the committee, because I can wait for Ford. Like I said, I 
replaced my own tires on my Explorer, and when you have an 
accident, it's an accident--they don't call it ``safety data'' 
or ``claims data,'' it's an accident for the people out there.
    And I think the purpose of these hearings is to clarify 
this stuff for the American people, and all we are doing is 
confusing them by saying we have new tires and new worries, but 
yet we are not sharing this information with the American 
public.
    So I hope by the end of the day we could get that 
information, and someone on the majority side--that we have 
plaintiff trial lawyers discovery. Well, being a plaintiff 
trial lawyer, I certainly hope we do because plaintiff trial 
lawyers usually increase public safety and get to the truth of 
the matter.
    Chairman Tauzin. Will my friend yield again?
    Mr. Stupak. Sure.
    Chairman Tauzin. I hope you understand that is precisely 
the reason why I'm asking that the committee request NHTSA to 
clarify this information for us rapidly. I don't want us to be 
party to releasing bad information to the American public which 
causes them either distress, worry or to make a bad decision.
    One of the reasons for this hearing today is to examine 
Ford, its decision in that light, as Ford ordered a recall. Has 
it recalled tires that other companies should recall? And the 
information we've discovered leads us to some new confusing 
areas.
    I think it's critical that before we confuse the public 
with this information that we get it verified by NHTSA, and 
more importantly, that they indicate the significance of these 
numbers to us so that we can make a proper report to the 
American public without further confusion.
    Mr. Stupak. Well, Mr. Chairman, as I said before you came 
in, someone's already released the information. It's already 
confusing the public when you have the headlines ``New Tires, 
New Worry.'' so I think we have to get that squared away as 
soon as we can.
    Mr. Stearns. The gentleman's time has expired.
    The gentleman Mr. Sawyer, who is not a member of either 
subcommittee, but is welcome to provide an opening statement.
    Mr. Sawyer. Thank you very much, Mr. Chairman, for the 
hearing and for the chance to take part in this way. I am from 
Akron, Ohio, and although we haven't built a passenger car tire 
in Akron for 22 years, it remains a center of research and 
development, production technology, command and control in this 
global industry for more than a century.
    It is matter of personal concern that we resolve questions 
of continuing safety in this important industry to people all 
over my district. In that sense, understanding these tragedies 
is rightfully this committee's work; reducing their likelihood 
in the future is our purpose. And so while there are many 
things that have been said today, I'd like to return to three 
fundamental points that I made a year ago.
    What I said last year I feel just as strongly about today. 
That is this: You cannot evaluate tire performance separately 
from the vehicle on which it is equipped. Nor is a vehicle 
performance evaluation complete without the tire. In one sense, 
a tire may be the single most important component of a vehicle 
in translating that vehicle's design characteristics into 
actual performance on the road.
    The tire and vehicle work together in determining 
acceleration, braking, cornering, comfort and, most important, 
safety and do it through four very small contact patches with 
the road. In that sense, the question that we have to answer is 
how the vehicle and its tires function together.
    Second, let me just say that I'm deeply troubled by the 
underlying notion that tires are never supposed to fail. I 
remind all of us that the tire remains the only piece of 
equipment on the vehicle that has a backup. This is not by 
chance. Tires are complex, they're highly engineered products 
that operate in one of the most extraordinarily violent 
environments of any product that we use in our daily lives and 
they wear out. They are consumable products.
    Third, typically tires contain more than scores of 
different design elements of rubber, steel, polyester, 
chemicals, carbon black, depending upon their application in 
design of the tire. Many tires are designed for specific 
vehicles, for specific performance; consequently, tires perform 
differently depending on the type and design of the vehicle on 
which they're mounted and how and where that vehicle is used.
    With this in mind, it is clear it would be a serious 
mistake, in my judgment, to try to set one standard for tire 
performance for the tire industry. Each tire design and 
application, it seems to me, must be evaluated in its own 
setting. When tires do fail through road use, damage or abuse, 
or misapplication to the wrong vehicle, or wearing out at the 
end of its useful life, or as the result of a design or 
manufacturing flaw, NHTSA's got to have the appropriate data so 
that it can evaluate the tire in its appropriate vehicular 
environment. That's the best way to protect consumers.
    When Congress passed the TREAD Act last year, it took a 
major step in making sure this happens by requiring an early 
warning system, one that works--actually two that work: one, to 
use performance statistics through the reporting of data to 
identify problems early in the life of a design.
    We heard a number of different dimensions that have 
reporting data. Comparability is another one, to make sure that 
you're getting the same data from different corporate settings.
    The second is an early warning device to warn the vehicle's 
operator with accuracy when his vehicle's tires begin to lose 
pressure.
    I know that NHTSA's working diligently on the regulations 
to implement the act in this provision, and I look forward to 
hearing them and the witnesses in this process.
    Mr. Chairman, I thank you very much for your indulgence.
    Mr. Stearns. I thank the gentleman.
    [Additional statements submitted for the record follow:]
   Prepared Statement of Hon. Michael Bilirakis, a Representative in 
                   Congress from the State of Florida
    Mr. Chairman, thank you for calling this hearing today to examine 
the reason and ramifications for the Ford Motor Company's recent recall 
of additional Firestone tires.
    This issue touches many of our constituents. I have heard from many 
individuals in my district who have expressed concerns about tire and 
vehicle safety. It is terrible that the increased attention to this 
issue comes as a result of tragic accidents and highway fatalities. I 
hope that this situation can help improve public awareness of the need 
to monitor tire pressure and engage in regular vehicle maintenance.
    Many consumers, including Members of Congress, are confused by the 
various data coming from both Ford and Bridgestone/Firestone. Are the 
Firestone tires the cause of the problem, or is it a result of the 
design of the Explorer? Whose data should the public believe? What is 
the proper role of the National Highway Traffic Safety Administration 
(NHTSA) in making these determinations?
    I hope that this hearing gives the respective parties a chance to 
highlight their findings and provide answers to these Subcommittees on 
issues that greatly impact American consumers. I am particularly 
interested to know if there is any documentation or claims for 
accidents that have occurred in an Explorer with non-Firestone tires. 
Has NHTSA conducted the necessary testing to ascertain whether these 
problems are limited to the Firestone Wilderness AT line, or have they 
received claims for similar Explorer accidents with competitors' tires?
    Mr. Chairman, with the summer in full swing, many families are 
piling into sport utility vehicles (SUVs) and heading out for summer 
vacations. In order to ensure the greatest protection for the safety of 
those families, it is incumbent on us to obtain the most accurate and 
comprehensive information possible. We must also increase our efforts 
to raise public awareness of tire and vehicle safety issues, so that 
every driver realizes the importance of proper vehicle maintenance, 
including gauging tire pressure.
    I look forward to the testimony from our witnesses. Thank you, Mr. 
Chairman, for holding this important hearing.
                                 ______
                                 
Prepared Statement of Hon. Barbara Cubin, a Representative in Congress 
                       from the State of Wyoming
    Thank you, Mr. Chairman. I believe it is important today to convene 
this hearing to disseminate information to the American consumer--
especially those that own Ford vehicles or any vehicle with Firestone 
tires.
    Not wanting to speak for other members of the subcommittee, I'd 
like to make an initial statement to our witnesses today from Ford and 
Firestone: please stop playing this juvenile blame game; please stop 
publishing graphs and charts that only support one side of the story; 
and by all means please stop sacrificing the safety of American 
families at the alter of public relations.
    We know that different tires seem to react differently to certain 
conditions. We also know that automobiles, especially SUVs, tend to 
react differently than passenger vehicles in certain conditions. When 
you put those two very uncertain situations together we seem to get a 
very tenuous outcome.
    In a situation such as this we tend to look to the companies to 
resolve the problem to ensure that their customers' safety is 
protected. We don't seem to have that in this case. Maybe if the 
companies get past pointing fingers at each other they'll begin 
concentrating on the safety aspects.
    Until then, it is very important that the National Highway Traffic 
Safety Administration (NHTSA) be a leader in answering many of the 
outstanding questions surrounding what has become an absolute debacle.
    I'm pleased to read in Mr. Jackson's testimony that NHTSA's testing 
may be completed as early as next week.
    However, I'm concerned that any delay in getting accurate 
information out to the public will jeopardize the lives and safety of 
our families.
    Additionally, many local businesses are dependent on selling these 
goods and services. Timely, accurate information is critical to ensure 
confidence in both Ford and Firestone products.
    I look forward to hearing from the witnesses. I yield back my time.
                                 ______
                                 
Prepared Statement of Hon. Ed Bryant, a Representative in Congress from 
                         the State of Tennessee
    Chairman Stearns, Chairman Greenwood, I thank you for holding this 
joint hearing today on an issue of obviously great importance.
    I, like others on the committee, have interests on both sides of 
this issue, having constituents that are directly involved with both 
Firestone and Ford. As I prepared for this hearing over the last 
weekend, I met with Ford dealers in my district, and in Tennessee we 
have the headquarters of Firestone as well as a number of Firestone 
distributors and dealers.
    After the recall of the 15-inch Firestone ATX and Decatur 
Wilderness AT tires last year, and now after the discussions 
surrounding Ford Motor Company's ``replacement program,'' I think that 
the American people frankly aren't real sure what to make of the 
situation.
    Ford says this is a tire problem and Firestone says it is the 
Explorer. Last year we learned that there was indeed something that 
went wrong at the Decatur plant to make so many Firestone ATX tires 
fail.
    Obviously, there is not the same consensus today.
    Firestone's studies indicate that the Firestone AT tires on 
vehicles other than the Ford Explorer have not had the same problems 
with tread separation as the tires on the Ford Explorer.
    But, then Ford points out that the reliability of Goodyear tires on 
the Explorer is evidence that the Explorer is not to blame.
    Ultimately the reason we are here today, and the reason we are not 
leaving this to the courts and solely NHTSA (the regulators whose job 
it is to do these things) is that we are trying to move quickly and 
determine what safety concerns are out there. We need to make sure that 
folks in NHTSA are doing their job, but the bottom line is that we are 
trying to protect the consumers' interests.
    This hearing is a great opportunity for Congress to sift through 
the studies and statistics conducted by both parties, and try to 
reconcile the information so we can better understand what is going on 
here.
    It is indeed a shame that such a long working relationship between 
these two companies has been severed. I encourage the two parties to 
try and work together and be forthright with the American people. The 
interests we are looking out for today is that of the consumer, and I 
hope that this hearing helps to better inform the consumer of the 
safety of both the Firestone Wilderness AT tire and the Ford Explorer.
    Again, I thank the two chairmen for having this hearing, and I also 
thank the members of the panels for coming today--Mr. Nasser, Mr. 
Lampe, Secretary Jackson, Mr. Shelton, and Mr. Weinstein--thank for 
bringing your cases before us today.
                                 ______
                                 
 Prepared Statement of Hon. Edolphus ``Ed'' Towns, a Representative in 
                  Congress from the State of New York
    Thank you, Mr. Chairman for convening this timely hearing on Ford's 
replacement of Firestone's Wilderness AT tires. I would also like to 
thank today's scheduled witnesses for appearing: Jacques Nasser of 
Ford, John Lampe of Firestone as well as the representatives from 
NHTSA. I do not expect that we will reach any conclusions today, but I 
hope that by bringing the parties together we will provide the American 
people with the information necessary to make more informed decisions. 
We are here because of the more than 2100 tread separations of 
Firestone ATX and at tires that have resulted in the deaths of over 200 
people. One of the goals of the Consumer Protection Committee--as the 
name suggests--is to protect consumers. When over 200 people die as a 
result of a similar cause it is time to examine the problem more 
closely.
    Last year, Firestone recalled 6.5 million tires after confronting 
the accident and fatality reports with Ford and NHTSA which indicated 
that there was a problem directly linked to Firestone's 15'' inch ATX 
tires and Wilderness AT tires produced at its decatur manufacturing 
facility. The number of accidents and fatalities linked to the 
Firestone tires in question clearly indicated that something needed to 
be done to address a worsening situation. Ford and Firestone largely 
worked together and took responsibility for the problem. At the time, 
all parties committed to continue looking for the root cause of the 
tread separation problem. In addition, questions were raised regarding 
whether or not the initial recall was broad enough. To date, we have 
heard from Ford and Firestone regarding their findings. We have yet to 
hear the findings from the National Highway Transportation and Safety 
Administration's (NHTSA) study of the recalled tires, Firestone's 
Wilderness AT tires and possibly some aspect of the Ford Explorer.
    Last year's recalled tires had claim rates of 363 per million to 41 
per million. The tires currently in question have claims rates which 
have roughly doubled from their previous levels to the most recent 
available statistics--from the september 2000 to December 2000 
reporting period--of 19.3 and 17.4 per million. While this increase is 
significant it is two to twenty times smaller than the claims rates of 
the previously recalled tires. Ford maintains that they had to act 
because the claims trends suggested increasing tire problems and a 
potential increasing risk to consumer safety. Ford should be lauded for 
their extraordinary efforts to safeguard consumers. However, it is very 
difficult to analyze the basis for Ford's decision without any baseline 
standards from NHTSA.
    Firestone for their part has been cooperating with NHTSA as well. I 
do not believe that anyone is served by the chart wars that we have 
seen from both Ford and Firestone over the past several weeks. I would 
urge both parties to continue cooperating with NHTSA and allow NHTSA to 
do the job that it is supposed to do. In addition, I point out that the 
battle of self-serving statistics has only brought into doubt the 
creditability of both sides in this dispute. Currently, the biggest 
problem facing the American people regarding this matter is the lack of 
any information from an independent third party. Again, I urge NHTSA to 
release their conclusions as soon as possible. In addition, I would ask 
NHTSA to answer the following questions:
    It is nearly impossible to judge the value of the information 
provided by the two sides of this dispute without any definitive 
baseline information to clarify the companies' competing claims from 
NHTSA. Does NHTSA have baseline information regarding the number of 
claims per million for tires?
    What can be done to make NHTSA's information more user friendly?
    Does the lack of an Administrator for NHTSA hamper its ability to 
serve the American people?
    How will NHTSA be able to deal with the vast amounts of additional 
data it is scheduled to receive under the Tread Act, if NHTSA has its 
hands full with the information that it already receives?
    Does NHTSA need additional resources to do its job more 
effectively?

    Mr. Stearns. Now we'll have the first panel; I think we 
have completed our opening statements. But before we do, I 
would like to ask unanimous consent of the subcommittee to 
place into the record documents that are both from the minority 
and the majority side; and without objection, it's so ordered.
    We welcome Mr. Jacques Nasser, the President and Chief 
Executive Officer of Ford Motor Company. And let me just say 
that we appreciate your patience in coming here; and at this 
point, it's customary, Mr. Nasser, to swear you in, and I think 
we're going to have Mr. Greenwood swear you in.
    Mr. Greenwood. Good morning, Mr. Nasser. You're aware that 
this committee is holding--this joint committee is holding an 
investigative hearing and as is our custom, we take our 
testimony--witnesses give their testimony under oath. Do you 
have any problem in testifying under oath?
    Mr. Nasser. No.
    Mr. Greenwood. You are entitled also to have counsel. Do 
you wish to be represented by counsel during your testimony?
    Mr. Nasser. No, I don't.
    Mr. Greenwood. In that case, if you will raise your right 
hand, I will swear you in.
    [Witness sworn.]
    Mr. Greenwood. You're now under oath and may testify.
    Mr. Stearns. As I was saying, Mr. Nasser, we want to thank 
you for coming here and to recognize that you came to us early 
to speak with us about this controversy. And we appreciate your 
willingness to come forward in talking to us, and we give you 
the floor.

   TESTIMONY OF JACQUES NASSER, PRESIDENT AND CHIEF EXECUTIVE 
                  OFFICER, FORD MOTOR COMPANY

    Mr. Nasser. Thank you very much, Chairman Stearns.
    Mr. Stearns. You might have to put that a little closer to 
you.
    That's a little better. Thank you, sir.
    Mr. Nasser. Chairman Stearns and Chairman Greenwood, 
Congressman Dingell and members of the committee, at the outset 
I'd like to express on behalf of the women and men of Ford 
Motor Company our sincerest sympathies to those families who 
have lost loved ones in these tragic accidents.
    Today, as we've already seen, the committee is going to be 
battered with competing data and competing analyses, research 
and statistics, charts and graphs, experts and opinions, all 
striving to settle the disagreements surrounding our decision 
to replace 13 million tires on Ford vehicles. I'm here to 
explain the reasons behind our decision and to answer any 
questions the committee may have about the actions that we have 
taken to protect the safety of our customers.
    As mentioned earlier, last year Firestone recalled about 
6.5 million tires, primarily on Ford vehicles; and at that 
time, I pledged to this committee that Ford would implement an 
early warning system to help identify potential tire problems.
    We promised our customers and all of you that we would use 
the lessons learned, combined with the aid of new technology, 
to keep our customers safe; and Ford Motor Company supported 
passage of the TREAD Act, which in many ways encouraged the 
very same vigilence.
    Public awareness of tire safety has intensified since last 
year, and our expectations within the Ford Motor Company of 
tire performance has also changed. In many ways, maybe in all 
ways, the bar has been raised.
    Without question, detecting the possibilities of a future 
tire defect carries much greater weight than it ever did 
before. We've also moved from seeking remedies for bad tires to 
identifying and eliminating faulty tires before the safety of 
customers is compromised.
    Last summer, field data and government data revealed highly 
elevated tread separation rates on Firestone ATX and certain 
Firestone Wilderness AT tires. Those tires were recalled even 
before we knew why they were failing.
    Clearly, we needed to learn more to be able to prevent this 
from happening again, so we started digging deeper and deeper, 
and we began the most intensive scientific investigation in 
Ford Motor Company's history. Hundreds of engineers and 
scientists looked at the tires; then they looked at the tires 
together with the vehicle, and they also looked at the vehicle 
itself.
    Our lab tests and real-world data, including Firestone's 
own claims data, indicated that many of the remaining Firestone 
Wilderness AT tires will experience elevated failure rates, 
particularly as they age. The data convinced us to act now and 
to act on behalf of the people who drive our vehicles.
    We must admit that we're dealing with very early warning 
signals, but they're warnings that we have taken very 
seriously, and we could not ignore them. We believe that this 
issue will grow into a more serious problem, particularly as 
the tires wear and age, and in short, without this action, our 
customer safety would have been at risk.
    So on May 22, we announced our tire replacement program, 
and thanks to the dedication of our dealers and employees and 
the cooperation of the other tire companies, we're moving ahead 
swiftly. About 2 million tires are now in the pipeline, and we 
have replaced about 1 million tires as of this morning.
    I'd like to thank the many dealers and thousands of UAW 
workers who are in Washington today to show support for their 
company and for our actions. It means a great deal to us.
    Let me talk about the Explorer, and let's get to the heart 
of the issue. The Ford Explorer is and always has been a safe 
vehicle. The criticism from Firestone challenging the 
Explorer's safety is not based on fact. Real-world data that is 
compiled by the Department of Transportation shows that the 
Explorer is among the safest SUVs on the market. And let's go 
through that data.
    The Explorer is 27 percent safer than passenger cars. The 
Explorer is safer than comparable SUVs in all crash types, 
front, side, rear and roll-over. The Explorer is involved in 19 
percent fewer accidents of all types than the typical sports 
utility vehicle.
    From another angle, the Explorer has scored four or five 
stars in government frontal and side-crash tests. Explorer has 
also received the second highest ranking from the Insurance 
Institute for Highway Safety in its frontal offset crash tests; 
and just one other SUV got a better rating, while four received 
lower ratings.
    When you stand back from it all, in all, no other sport 
utility vehicle has such a strong combination of field and 
testing performance. Those are the facts, not the headlines.
    In addition, we have closely examined the relationship 
between sport utility vehicles, as was mentioned earlier, and 
tires. We performed hundreds of tests with the Explorer and 
competitive sport utility vehicles, and this exhaustive 
analysis filled millions of pages of information which we have 
shared with NHTSA, we have shared with Firestone and we have 
shared with this committee. That book to my left is a summary 
of that data and it shows that the Explorer is a superbly 
designed vehicle and is a safety leader.
    Last month, Chairman Tauzin asked NHTSA to review the 
performance of the Explorer compared to other sport utility 
vehicles. We agree that there is much misinformation and some 
confusion about the safety of these vehicles. So we welcome and 
we encourage NHTSA's review and analysis of all the data on 
Explorer and peer vehicles, and we will fully cooperate in this 
effort.
    We're also very confident of the outcome because the 
Explorer has 10 years of real-world safety data and that 
doesn't mislead.
    And there's more, probably the clearest demonstration yet 
that this is a problem with the tires and not with the vehicle; 
and this is the real-world performance of two groups of 
Explorers totaling more than 1 million vehicles manufactured 
over a 3-year period. Everything about these two groups of 
Explorers was exactly the same except that half the Explorers 
used Goodyear tires and the other half used Firestone tires. We 
gave both tire manufacturers the same performance criteria and 
both sets of tires had the same recommended tire pressure.
    This is the only real-world comparison that is truly apples 
to apples, and the results are very clear. There were 1,183 
tread separations on the Firestone tires; there were two on the 
Goodyear tires. The only variable was the tire. Everything else 
was the same--the same drivers, the same vehicles, same parts 
of the country, same roads, same driving conditions, same loads 
and the same tire pressure.
    So it bears repeating, this is a tire issue and only a tire 
issue.
    I've heard some of the comments made earlier this morning, 
and I want to make it clear that we do not get any satisfaction 
from this dispute with Firestone, but we cannot and we will not 
let them decide when or how the Ford Motor Company will act to 
protect our customers' safety. Our customers count on Ford to 
place their safety and interests above all else, and we do.
    One year ago, I came before this committee to discuss the 
recall of Firestone tires, and at that time, you asked what we 
could do to assure the public that this type of safety calamity 
would not happen again. I pledged to you and to our customers 
that we would be vigilant in our efforts to identify the 
problems and to identify them early and to fix them.
    So I'm very proud of the Ford Motor Company's strong 
commitment to safety, and I am grateful for the Secretary's 
recognition of that commitment. And as I said last year, this 
is a tire problem, not a vehicle problem. And the government 
confirmed last year that this is a tire problem.
    Although we're back before your committee again this year 
to discuss an even larger recall, this still remains a tire 
problem. Our goal is to make sure that it does not become a 
safety problem for the public.
    Thank you for your attention, and I'll be pleased to answer 
any questions.
    [The prepared statement of Jacques Nasser follows:]
        Prepared Statement of Jacques Nasser, Ford Motor Company
    Good morning Mr. Chairman, Congressman Dingell and members of the 
committee. I am Jacques Nasser, President and CEO of Ford Motor 
Company. I am here today to explain the reasons behind our decision to 
replace 13 million Firestone tires on Ford vehicles. I am also here to 
answer any questions the committee may have on the steps we have taken 
to protect the safety of our customers.
    For nearly 100 years, our Company has thrived because we have been 
responsive to our customers and our communities around the world. In 
all the actions we have taken, we have been guided first and foremost 
by our commitment to safety. We have also been driven by facts--real 
world performance data, as well as laboratory analyses. We have shared 
all the data and analyses openly, and have worked with NHTSA and with 
Firestone to better understand the causes of the tread separation 
problem with Firestone ATX and Wilderness AT tires.
Why We Are Replacing the Tires
    On May 22nd of this year, Ford announced that we would replace all 
Wilderness AT tires used on Ford vehicles because of concerns about the 
performance of the tires as they age, creating unnecessary risks for 
our customers. While some of the tires being replaced do not show a 
substantial failure risk, we are replacing all Wilderness AT tires to 
avoid any confusion for our customers and eliminate any doubt about the 
quality of their tires.
    Last summer, while the data indicated elevated rates of tread 
separation on the 6.5 Million ATX and Decatur-built Wilderness AT tires 
(Exhibit 1), which resulted in the Firestone recall, we did not have 
enough information to understand why the tires were failing.
    Immediately after the recall, we assembled a team of technical 
experts to find the causes of the tread separation problem. The purpose 
of the investigation was simple: we had to be certain that the tires on 
our vehicles were as safe as possible for our customers. The ``Tire 
Team'', as it became known, spent more than 100,000 person-hours 
analyzing real-world data, investigating accidents, testing tires and 
vehicles, running computer simulations and studying tire designs. Our 
Tire Team worked closely with NHTSA every step of the way. We also 
shared our data and analysis with Firestone and Dr. Sanjay Govindjee, 
who conducted an independent investigation at Firestone's request.
    As part of that intensive work we developed a laboratory test to 
duplicate the failure mode experienced in the field. We developed 
better statistical analysis of claims data that allowed prediction of 
trends in failure rates. We worked with NHTSA to understand failure 
rates in competitive tires. And we did detailed engineering analyses of 
failed tires to give us an understanding of real-world failure 
mechanisms. Our findings proved consistent with the findings of Dr. 
Sanjay Govindjee.
    We reached the following conclusions based on our data and 
analyses:

<bullet> Firestone's Wilderness AT tires experience higher rates of 
        tread separations than other tires, including the Goodyear 
        tires used on the Explorer.
<bullet> Firestone's ATX and Wilderness AT tires fitted to Ford 
        vehicles have temperature characteristics, wedge design 
        characteristics and rubber properties, including peel strength, 
        that demonstrate they are more sensitive than other tires to 
        the stresses caused by ordinary use. This correlates with their 
        significantly higher failure rates in the field.
<bullet> Firestone's ATX and Wilderness AT tires have different 
        designs, constructions and performance characteristics 
        depending upon when and where they were manufactured. The 
        Goodyear tires used on Explorers do not exhibit this degree of 
        variability.
<bullet> Firestone's Wilderness AT 16'' tires with a recommended 
        inflation pressure of 30 psi perform about the same on the 
        Explorer as the 15'' tires with a recommended inflation 
        pressure of 26 psi from the same Firestone plant.
    Based on our laboratory testing and results, we were able to make 
predictions that could be confirmed by real-world data. Then, on May 
11th of this year we received the latest claims data from Firestone 
which showed a rising trend in failure rates for Wilderness AT tires, 
further validating our analyses and predictive model. With these pieces 
of the puzzle coming together, we felt we had sufficient information to 
take action in the best interest of our customers (Exhibit 2).
    Last summer the elevated levels of tire failures on the recalled 
tires sent a very strong signal. What we learned since then allowed us 
to analyze failure trends more precisely. So, while claims alone today 
do not present as strong a signal as last August, our model suggests 
that the rate of failures is increasing significantly as the tires age, 
a risk that we cannot ask our customers to accept.
    We really had only two choices--wait until more failures proved 
conclusively there is a growing problem, or act now on the basis of our 
analyses and the data available. With hot weather driving conditions 
approaching, we knew the risk of tread separations would increase. As a 
result, in the interest of the safety of our customers, we could not 
wait.
Progress to Date
    In the first week of June, after reviewing our proposed customer 
letter with NHTSA, we notified millions of customers of our analysis 
and the details of our replacement program. At the same time, we were 
qualifying tires as fit for replacement through our testing processes. 
We have, so far, identified approximately 60 types of replacement 
tires. We also reviewed the list with NHTSA to ascertain that there 
were no pending concerns with the qualified tires.
    To build the pipeline of replacement tires, we entered into 
discussion with tire manufacturers. So far, an additional 2 million 
tires have been made available, and we have taken 2-3 down weeks at 
several of our plants to help fill the supply pipeline and give the 
tire manufacturers time to ramp up production. The desire to quickly 
increase replacement tire production was another reason we felt we had 
to announce the replacement program as soon as possible.
    We are qualifying tires based on the new testing procedures 
developed by the Tire Team. In addition, the tire manufacturers are 
providing claims data from the early warning system developed as a 
result of the TREAD Act. These data, together with our predictive 
models, give us confidence that the replacement tires will meet the 
needs of our customers.
The Explorer is a Safe Vehicle
    The data tell us that the problem is with the tires and not the 
vehicle. There are about 3 million Goodyear tires that were built to 
the exact same Ford specifications and were put on Explorers during 
1995-1997 (and as replacements for these vehicles in subsequent years). 
These tires are performing almost flawlessly, having generated only 2 
tread separation claims. At the same time, a similar number of 
Explorers built at the same assembly plants but equipped with Firestone 
tires have experienced 1183 tread separations (Exhibit 3), with the 
same type of customer and the same geographical/climatic distribution 
of vehicles (Exhibit 4). The difference in tire failure rates therefore 
cannot be attributed to the Explorer.
    It has been alleged that the reason Goodyear tires had few tread 
separations is that they are a ``B'' graded tire according to the 
Uniform Tire Quality Grading Standards (UTQGS), while the Wilderness AT 
has a ``C'' rating. In fact, millions of tires on GM and Toyota 
vehicles, for example, are ``C'' rated, but have not had tread 
separation problems.
    Another charge is that the Explorer had insufficient load reserve--
or margin of safety--for the tires. The field data show, however, that 
there is no correlation between load reserve and tread separation 
claims on these vehicles. Goodyear tires had the same load reserve at 
26 psi yet had no tread separation problem. Furthermore, the Firestone 
16'' Wilderness AT tires, which are specified at 30 psi, had elevated 
claims even with 300 pounds more load reserve. Lastly, the Explorer's 
load reserve is similar to other SUVs.
    There have also been allegations that Explorer is causing the tire 
``problem'' since Ford Ranger is fitted with the same tire, yet 
experienced fewer tread separations. The only time the same size tire 
was used on the Ranger and Explorer was as an option on the four-wheel 
drive model of the Ranger. The vast majority of these vehicles were 
sold in northern climates where four-wheel drive is in high demand. 
When Decatur-built Wilderness AT tires (these were recalled by 
Firestone last August) were placed on 4x4 Ranger pickup trucks in the 
hot states, they failed at statistically similar rates as the tires on 
the Explorer.
    The Wilderness AT tires used as original equipment on the Explorer 
are also installed as aftermarket tires on a wide variety of non-Ford 
vehicles and these vehicles have experienced a significant number of 
tread separations, some resulting in accidents. There are a total of 
167 non-Ford claims of tread separation and 66 of these are on 
competitive SUVs. These claims include claims for tread separations on 
tires not included in last year's recall. The total number of 
Wilderness tires used as aftermarket replacements on competitive 
vehicles is not known, but is believed to be relatively small, 
suggesting an elevated failure rate, comparable to that experienced by 
original equipment Firestone tires on the Explorer (Exhibit 5). In 
addition, there are 236 claims on Ford vehicles that are not Explorers 
on these same tires, again suggesting that the problem is with the 
tires.
    In spite of this strong statistical evidence that this is a 
Firestone tire problem, we were not satisfied to stop at an 
investigation of the tires alone. As a designer and manufacturer of 
vehicles for almost 100 years, Ford used its knowledge of vehicle 
engineering to do an unblinking review of tire-vehicle interaction. All 
through this process we shared our findings with NHTSA and Firestone.
    We conducted 4 major analyses in our safety investigation that 
focused specifically on the vehicle. We looked at whether the Explorer 
design could cause an elevated rate of tread separation claims, and we 
found that this was not the case: we were able to reproduce the tire 
failure mode in the laboratory, independent of the Explorer, confirming 
the field data on Firestone and Goodyear tires.
    We looked at whether the Explorer behaved differently, compared to 
peer vehicles, during a tread separation. In all, we tested 24 
different vehicles in 60 tread separation tests and more than 1000 
vehicle dynamics tests and hundreds of computer simulations; the data 
we generated confirmed that the Explorer behaves similarly to other 
SUVs. We looked at whether Explorer behaved differently after a tread 
separation, and the data show that its performance falls within the 
range of other vehicles in its class. And we looked at the 
crashworthiness of the Explorer, and again found that it was comparable 
or better than peer vehicles. Overall, the Explorer performed similarly 
to other SUVs before, during and after a tread separation.
    Importantly, the results obtained in thousands of hours in the 
laboratory and on the test track are confirmed by 10 years of real 
world performance.
    The analysis of government data show that the Explorer is among the 
safest of the comparable SUVs (Exhibit 6):

<bullet> The Explorer is 17% safer than the typical comparable SUV in 
        all types of fatal crashes (Exhibit 7).
<bullet> The Explorer is 19% safer than the typical comparable SUV in 
        fatal rollover accidents (Exhibit 7).
<bullet> The Explorer is safer than the typical comparable SUV in all 
        crash types--front, side, rear and rollover crashes.
<bullet> The Explorer is involved in 19% fewer accidents of all types 
        (fatal and non-fatal) than the typical comparable SUV (Exhibit 
        8).
    Explorers have successfully traveled enormous distances in the last 
11 years. More than 4 million Explorers have been sold, and over 3.5 
million of these are still in service. Explorer drivers have 
collectively driven the equivalent of more than 13 million years. 
Explorers have been driven more than 150 billion miles.
    Insurance data also show the Explorer has a strong safety record. 
Data published by the Highway Loss Data Institute (HLDI) show that the 
Explorer in all its derivatives (such as model type--2 door versus 4 
door and 2 wheel drive versus 4 wheel drive) has an injury loss claims 
record better than the average car, ranging up to 32 percent better.
    Explorer has a fine record in government and consumer testing:

<bullet> Explorer has scored 4 or 5 stars (the highest rating) in 
        government NCAP frontal and side crash tests.
<bullet> Explorer is similar to competitive SUVs in the government's 
        experimental rollover resistance rating, based on the static 
        stability factor (SSF).
<bullet> Explorer received the second-highest rating from the Insurance 
        Institute for Highway Safety (IIHS) in its frontal offset crash 
        tests. Just one SUV got a better rating, while four received 
        lower ratings.
    All in all, no other SUV has such a strong combination of field and 
testing performance.
    Analysis of Firestone tire claims data also confirms that the 
accident and the rollover risk for the Explorer when a tread separation 
occurs is comparable to other SUVs (Exhibit 9). Since tread separation 
accidents are still relatively rare events, the sample size of the data 
is quite small and the confidence interval is wide. We will continue to 
share our analysis with NHTSA and Congress to confirm our 
understanding. However, nothing in the data that we have analyzed 
supports recent accusations that the Explorer is behaving atypically 
among SUVs. The Explorer is as safe as other SUVs before, during and 
after a tread separation.
    A recent analysis conducted by Dennis Guenther at the request of 
Firestone purports to show deficiency in the safety of the Explorer on 
the basis that it does not have enough ``understeer margin'' to prevent 
oversteer in the linear range when it suffers a tread separation at the 
rear. We strongly disagree with the statements made by Firestone 
regarding this study. The Firestone test is unreliable because it did 
not test enough vehicles or conditions to support their conclusions.

<bullet> It used too few models (only 2 compared to Ford's 15 SUV 
        tests).
<bullet> It has test repeatability and data reduction issues.
<bullet> It tested only on one road surface.
<bullet> It did not test the actual event of tread separation.
<bullet> It did not test under the demanding circumstances in which 
        tread separations occur in the real world.
<bullet> Its results are inconsistent with real-world accident data.
    Firestone's allegations would imply that not only Explorer, but 12 
other vehicles we tested made by the world's leading motor vehicle 
manufacturers also do not meet Guenther's understeer criteria (see 
table below). This illustrates the absurdity of Firestone's position.

   Vehicles That Show Linear Range Oversteer with a Rear Tread Removed
                   (All vehicles tested fully loaded)
------------------------------------------------------------------------

------------------------------------------------------------------------
2001 BMW X5 4x4                   2001 Honda Odyssey  1996 Chevrolet
                                                       Blazer4x2
1995 Isuzu Rodeo 4x2              2001 Chevrolet      2001 Jeep Liberty
                                   TrailBlazer 4x2     4x4
2001 Dodge Durango 4x4            1995 Nissan         2001 Honda Accord
                                   Pathfinder 4x2
2000 Toyota 4-Runner 4x4          2001 Honda CRV 4x4  1994 Toyota 4-
                                                       Runner 4x2
------------------------------------------------------------------------

    The Explorer, like all its peers and every vehicle made, has 
handling characteristics which are optimized for safety with four 
treaded tires. According to our test results, its handling and steering 
characteristics are remarkably close to those chosen by BMW and 
Mercedes Benz, as well as the most recent entries from Jeep, Dodge, and 
even the new TrailBlazer has less understeer than the Explorer. These 
characteristics help the driver to achieve safe operation in all 
foreseeable circumstances.
    Even the two vehicles that meet Firestone's understeer criteria 
have experienced rollover accidents after a tread separation on 
Firestone tires in the real world.
    Finally, we will not accept that a tread separation is a ``normal 
foreseeable event'' that manufacturers must accommodate through vehicle 
design as asserted by Firestone. No vehicle we have tested can deal 
with a tread separation well enough to avoid a small but significant 
risk of loss of control with a treadless rear tire. As indicated in 
Exhibits 10 and 11, other tire manufacturers such as Continental and 
Goodyear do not accept that tread separation is a normal or common 
occurrence that should be part of the vehicle design requirements.
    NHTSA's data show that other tire manufacturers have demonstrated 
that it is possible with current technology to design tires that do not 
separate. We know the best way to prevent accidents caused by tread 
separations is to prevent tread separations and that is why we are 
replacing the Firestone Wilderness AT tires on our vehicles.
Conclusion
    In summary, we have been guided throughout by our number one 
priority, the safety of our customers.
    Ironically, last summer we were criticized by some for acting too 
slowly. Now, we are being criticized for acting too swiftly. In both 
cases, we have been driven by the facts and analyses available. We have 
shared data continuously with NHTSA, Congress, and Firestone. I assure 
the committee that the decision that we took to replace these Firestone 
Wilderness AT tires was not taken lightly. The cost of the replacement 
program is about 3 billion dollars. We feel this expenditure is 
necessary to protect the safety of those who have put their trust in 
us. And, we will make that decision any time that the safety of our 
customers is at risk.
[GRAPHIC] [TIFF OMITTED] T3739.001

[GRAPHIC] [TIFF OMITTED] T3739.002

[GRAPHIC] [TIFF OMITTED] T3739.003

[GRAPHIC] [TIFF OMITTED] T3739.004

[GRAPHIC] [TIFF OMITTED] T3739.005

[GRAPHIC] [TIFF OMITTED] T3739.006

[GRAPHIC] [TIFF OMITTED] T3739.007

[GRAPHIC] [TIFF OMITTED] T3739.008

[GRAPHIC] [TIFF OMITTED] T3739.009

[GRAPHIC] [TIFF OMITTED] T3739.010

[GRAPHIC] [TIFF OMITTED] T3739.011

    Mr. Stearns. Mr. Nasser, thank you very much.
    Before we start, I just want to caution the audience that 
we have to have an aisle between the different rows of chairs. 
So if you can't find a seat, certainly open up that aisle, so 
that from the fire marshal's standpoint, we can move about.
    Mr. Nasser, we certainly welcome the UAW employees here. 
You'll be happy to know that a lot of the Ford dealerships have 
also called us, so we're getting a lot of participation from 
Ford, and we like to hear from our constituents.
    I'm going to open up and when I'm in a similar situation, 
like yourself, I always say, I am open for hospitable 
questions. So that's where you are today. And I want you to 
know that this committee is intent, while some of these 
questions might be pointed, that the purpose is with our not 
having the knowledge you have, or NHTSA. We are struggling, as 
Mr. Strickland said, to understand what these claims data mean.
    Is it operator error? Or is it possibly just a case of a 
malfunction of--a one-time malfunction? Or is there a 
consistency here from an engineering standpoint that we need to 
correct?
    So if you will bear with us as we go through this, we'll be 
asking some questions, hopefully just to try and educate us as 
well as the public.
    On the issue of Ford's temperature test--I'm from Florida 
where there's a lot of heat. After reviewing your data, I 
wonder whether these temperature tests were truly a valid 
comparison of the Firestone tire. As I understand it, you 
tested a total of 40 tires of varying sizes. Out of these 40 
tires, 33 were Firestone tires.
    Could you explain how these tests, when a majority were 
Firestone tires, are a valid comparison of the other tires; and 
also, since most of us have a lot of questions here, it would 
be very helpful if you could be concise in your answers so that 
we could just move quickly through.
    Mr. Nasser. We did have exhaustive tests of tires, both old 
tires and new tires, and we analyzed field data of 146 cases. 
We conducted extensive vehicle on-road testing, including 24 
different vehicles, and we tested----
    Mr. Stearns. Mr. Nasser, as I understand, those were not, 
the 146, temperature tests. The temperature tests you did, at 
least from my notes, were on 40 tires, of which 33 were 
Firestone tires; is that correct?
    Mr. Nasser. That is correct.
    Mr. Stearns. Okay. So we are not talking about 146.
    Mr. Nasser. Ford's testing was consistent. I heard earlier 
that we were testing old tires versus new tires. That is not 
true. We tested old Goodyear tires versus old Firestone tires. 
And the reason we had to test only Goodyear is because they 
were the only tires that were fitted previously on Firestone--
on Explorer, other than Firestone tires.
    And we did test new Goodyear versus new Firestone versus 
new Michelins, and also new General/Continental tires. So in 
our view--and we've shared all this data--we think the testing 
was valid, indicative of what we'd expect tires to go through, 
and we think it was a fair test between the brands.
    Mr. Stearns. The only thing that I first felt when I heard 
that out of the 40, 33 were Firestone, you would think that you 
would have more Goodyear, or at least there'd be a more 
disparate representation.
    So--I mean, that's what I'm trying to get at because it's 
that decision on your part, on that test dealing with 
temperature, which is--I am from Florida--is a very important 
test. I am trying to understand how you could make a decision 
under that kind of statistic where you had--33 were Firestone 
out of 40.
    Mr. Nasser. Every test that we did went through data, 
statistical analysis, in terms of its significance; and we will 
share that data with you. And if you--if you look at it, we 
believe is it statistically significant.
    Mr. Stearns. Okay. Let me move on to another area that all 
of us were a little concerned about, and it's dealing with the 
ratings on these tires.
    I don't think my wife when she goes to look at a tire knows 
whether it's a C-rated or B-rated; and frankly, at this stage 
of my life, I am not looking at it either. But you supplied 
this committee with charts showing that the Firestone 
Wilderness AT 15-inch tire runs hotter than the Goodyear 
Wrangler RTS 15-inch tire. The Firestone tires you tested had a 
C rating, whereas all the other tires you tested had a B 
rating.
    Because Ford designed the specifications, you sat there and 
said, ``These are the specs that you must abide by, 
Subcontractor.''
    Was there any real surprise that the Firestone tires tested 
hotter than the Goodyear tires, just based upon that rating; 
and is that C and B meaningful?
    Mr. Nasser. Well, the first thing is, we do not specify a 
B- or C-graded tire, and neither does any other manufacturer. 
We don't specify a temperature grade. We've got performance 
specifications that are the same.
    Mr. Stearns. Well, let me ask you this, Mr. Nasser.
    Is there a difference between a C and B rating on a tire? 
Does it have any meaningful difference?
    Mr. Nasser. There may be some difference. We don't believe 
is it anything significant in terms of tread separation.
    Mr. Stearns. Okay.
    Mr. Nasser. And by the way, I should add----
    Mr. Stearns. Yes?
    Mr. Nasser. [continuing] that many of our competitors, 
including Toyota and General Motors, use C-grade tires on sport 
utility vehicles.
    Mr. Stearns. Well, just the data we had from General 
Motors, they indicate it should be a B-rated tire. You know, 
that's just one competitor.
    Mr. Nasser. They use C-rated tires, and interestingly 
enough, Firestone did not mark the tires with a temperature 
grade until we believed, sometime in 1999 or the year 2000, and 
on at least two occasions, in 1995 and in 1999, we were told by 
Firestone that the tires were B-class tires.
    Mr. Stearns. We have a couple of charts here that we have 
put together, our staff, based upon the information you gave 
us. That one the staff is just putting up will show that the 
General Grabber AT tire, based upon the information you gave 
us, has a higher rating than the Wilderness AT; and that the 
Wilderness AT, relative to the General GS 60 and the other 
tires, is, you know, a little higher. But it's not so 
significantly higher to, in our minds, understand why such a 
major recall decision would be made.
    And so I am saying, this is a graph we've put together from 
your information.
    Mr. Nasser. You know, I go back to the initial discussion. 
We can peal this data, piece by piece. We can look at 
temperature, we can look at peel strength, we can look at all 
different types of things. In the end, you've got to look at 
field data.
    One particular element, an attribute of a tire doesn't tell 
the complete story, and that's part of the confusion that we're 
getting in the marketplace, and that's part of the reason 
Congressman Stupak highlighted that headline in the press.
    You cannot take one particular aspect of a tire. You must 
look at the overall performance, and that's what we did.
    Mr. Stearns. I thank you. My time has expired.
    The gentleman, my colleague from Florida, Mr. Deutsch.
    Mr. Deutsch. Thank you, Mr. Chairman.
    And thank you, Mr. Nasser, for your testimony.
    I'd like to focus a little bit on the chairman of the full 
committee, and really, I appreciate his effort. And this--
really part of our job in just trying to inform consumers a bit 
more, and as has been discussed, by the end of this hearing, I 
don't think we'll get to the final answers, but I think we can 
provide that function reasonably well.
    Obviously, you know, you express the condolences--I think 
all of us do--of the deaths that occurred from the Firestone 
tire failures. Most of these failures, as you well know, were 
also on Ford Explorers. From a consumer perspective, I think 
hearing your answer to this question is helpful.
    Why is the Explorer so difficult to control when there is 
tire--when there is tread separation?
    Mr. Nasser. That's your question?
    Mr. Deutsch. Yeah.
    Mr. Nasser. All vehicles have, the Explorer does not handle 
any differently than any other sport utility vehicle. It's in 
the middle of the pack, and we have testing that will support 
that.
    Most vehicles do not handle very well when you lose a 
tread. Vehicles are not designed and specified and set up so 
that they can handle tread separation easily, although you 
would have to say that even with--even from Firestone's own 
data, 90 percent of the Explorers do not roll over even when 
there is a catastrophic tread separation.
    Mr. Deutsch. Let me follow up.
    Mr. Nasser. So I'm not sure, what is the thrust of your 
question.
    Mr. Deutsch. Well, the thrust, I guess, is----
    Mr. Nasser. If the thrust of the question is for 
manufacturers to design vehicles that would handle tread 
separation, I think that would be a losing proposition for our 
customers.
    Mr. Deutsch. Let me just refer to a memo from Donald Tandy 
of Car Engineering, which is in the packet we've submitted for 
the record. Mr. Tandy was a frequent expert witness for Ford, 
says that the driver of an Explorer died when the tread 
separated because the driver did not steer the vehicle in a 
controlled way.
    Mr. Tandy has given this testimony in numerous lawsuits. 
Last year he told the committee staff how simple it was to 
handle a tread separation at highway speeds, and we have videos 
of Mr. Tandy's demonstrations.
    Is it still your position that the average driver is 
different from Mr. Tandy, who's testified for Ford, and should 
be able to drive safely on the shoulder and stop a vehicle in 
this situation?
    Mr. Nasser. Our contention is that tread separations should 
be a very, very unlikely event; and different--different 
drivers will react in a different way. So I am not trying to 
predict how drivers will react because they will react in a 
very different fashion.
    Mr. Deutsch. Well, let me just repeat the question. Is it 
the position of Ford Motor Company that an average driver of a 
Ford Explorer ought to be able to drive safely to the shoulder 
and stop a vehicle without an incident when there's tread 
separation?
    Mr. Nasser. That is true. But it also--I should say that 
the Explorer doesn't handle or behave any differently than a 
typical sport utility vehicle in that situation.
    Mr. Deutsch. So I guess I am trying to understand if that 
is a catastrophic thing that we can't plan for, or deal with; 
or is it something that if it occurs, you ought to a be able to 
drive to the shoulder of the road and not die.
    Mr. Nasser. In most cases, you should be able to drive to 
the side of the road and based on all the data that we have, 
including the Firestone data, nine times out of ten, that does 
happen.
    Mr. Deutsch. Okay. And is that the case in the 203 people 
who died? There were 2,000 incidents and only 10 percent----
    Mr. Nasser. Mr. Deutsch, we feel very sad about those 203 
people. That's why we are moving to replace 13 million tires. 
That's exactly what we're doing. We don't want to be sitting 
here talking about further tragic deaths and accidents and 
having esoteric discussions about the behavior of a vehicle 
when a tread separation occurs.
    Mr. Deutsch. Okay. And again I guess I am just trying to 
focus, from a consumer perspective in terms of driving a Ford 
Explorer. Is that Mr. Tandy, who my understanding is your lead 
expert in terms of the court case that is involved in this, 
then his testimony is correct or not correct?
    Mr. Nasser. I have to look at his testimony in detail. I 
haven't done that. I am answering your question in the spirit 
it was asked.
    The Explorer handles in a typical fashion, as other SUVs 
nine times out of ten, based on the data Firestone provided.
    Mr. Deutsch. Let me in the final question in a deposition 
on Thomas Bogaman, Ford's quality control officer, taken on 
December 21st, Mr. Bogaman testified that it was his opinion 
that all Firestone Wilderness AT 15-inch tires were not, and I 
will quote, ``robust against variations in inflation pressure 
and in operating condition, load and speed'' close quote. If 
Mr. Bogaman knew that last December, why didn't Ford recall the 
Wilderness tires at that time?
    Mr. Nasser. It's Mr. Tom Baughman. He is an engineer with 
Ford, and he's a very competent engineer. In that particular 
instance, as an example, we don't agree with his conclusion; 
and that's not a problem for us. You know, we have a company 
where we encourage people to develop theories and knock them 
down and look at data; and if you look at the data, it isn't 
supported by his----
    Mr. Stearns. The time of the gentleman has expired.
    The chairman of the Oversight and Investigations Committee, 
Mr. Greenwood, is recognized.
    Mr. Greenwood. Good morning, Mr. Nasser. I don't envy you.
    You have a very difficult challenge on your hands to--I 
believed you and took you at your word when you sat with me and 
members of the committee 4 weeks ago and told us that you felt 
a strong obligation to your consumers to protect their safety; 
and they think you're doing that. And I think it's obviously 
understandable that you have a obligation to your stockholders 
and your employees to do what's right for the company at the 
same time. But I do want to get to this comparison.
    One of the questions that's plagued us as we looked at this 
is this question of which tires one would choose to recall and 
which tires one would use to replace them, and the confusing 
sets of data that I'm sure you needed to rely on to some extent 
and were confronted with.
    If you compare the Firestone Wilderness AT and the Goodyear 
P235/75R15 tires, the committee's prepared a chart that sets 
forth the percentage of tires that had belt leaving belt at 
each plant; and that chart is available to your left. So 
according to this chart, which was prepared using data supplied 
by Ford, the Goodyear Lawton plant has a very similar belt-
leaving-belt percentage, as do the Firestone Wilson and 
Joliette plans.
    Can you follow that there, sir?
    Mr. Nasser. Yes.
    Mr. Greenwood. Okay.
    However, the Firestone Aiken plant has had no tires tested 
with belt leaving belt.
    So the question is, how could Ford--how did Ford decide to 
replace Firestone tires with no tread separation from its own 
tests with a Goodyear Wrangler RTS tire that has tread 
separation?
    Mr. Nasser. Mr. Chairman, this was one of the toughest 
decisions for us, because we're generally data driven. We look 
at it and we try and decide strictly on data; and in this case, 
we had to go a little bit further. And I'd like to just take 
you through the thinking and the rationale behind the 
parameters of the tire recall, the 13-million-tires recall; and 
they really fall into four categories, and they're different, 
and that's why I say this is complex.
    The first one is, we looked at field data and we saw the 
field data increasing, real-world data, what was going on in 
the field. And when we looked at that, it was very clear that 
the Wilson plant tires were a risk.
    In addition to that, we looked at statistical analysis, 
what we call a hazard plot, which looks at the prediction of 
aging of these tires over time. And that showed rising trends 
for Wilson and Joliette. So at this point we had Wilson because 
of field data, we had Wilson and Joliette because of field data 
and our statistical prediction of aging.
    We then went through our lag tests where we looked at peel 
strength, wedge width and also temperature, and that showed 
risk of failure for Wilson, Joliette and also Decatur. So now 
we had almost all the population of these tires.
    We were left with the Aiken plant. Aiken is a new plant. 
It's very automated. Its manufacturing and quality variability 
is the best of the Firestone plants. Based on everything that 
we've seen, is it a world-class plant. But our customers' 
confidence in all of these Wilderness AT tires, we knew just 
wouldn't be there.
    So when we sat back from it all, we didn't want our 
customers to be crawling under their vehicles looking for Aiken 
manufacturing. We didn't want them to be sitting here a year 
from now, because we didn't have a lot of experience on Aiken. 
Aiken's a new plant, the tires maybe haven't been out there 
long enough.
    So we made a judgment call on Aiken, and your data is 
probably right there. Aiken would fall within the category of a 
pretty good tire.
    Mr. Greenwood. Did you do a similar analysis of the 
Goodyear tires that would have shown that there are Goodyear 
Wrangler RTS tires with tread separation?
    Mr. Nasser. We did, we did--all very similar analysis on 
Goodyear. But in the final analysis, all of the testing and all 
of the hypotheses doesn't really mean anything unless you can 
correlate it to real-world data, field data. And in the case of 
Goodyear, we went back to the field and, guess what, the tires 
performed well with customers.
    Mr. Greenwood. Okay. Let me go to another question here.
    Ford has emphasized the rig test results, asserting that it 
could not fail a Goodyear tire at less than 26 pounds of air 
pressure, or anywhere from 40 to 42 percent of Firestone's 
Wilderness AT tires, depending on the plant, failed at such 
lower pressures. What Ford didn't tell us, however, was that 
several of the Goodyear tires failed at exactly 26 psi.
    Ford also didn't tell us that it did not test any 16-inch 
Goodyear tires at less than 26 psi during its rig tests, yet it 
included the 16-inch test results in its various presentations 
to this committee. And even though it did test a small number 
of 15-inch Goodyear tires at low inflation pressures, without 
failure, almost half of those Goodyear tires were new tires as 
compared to the Firestone tires tested at those same pressures, 
85 percent of which had been designated by Ford as ``old'' 
because they had been used on vehicles for more than one 
summer.
    Do you really think that these tests were comparable?
    Mr. Nasser. First of all, we always go back to the field 
data. Second, we do believe those tests were comparable because 
we tested old versus old and new versus new in every case.
    Mr. Greenwood. If I can interrupt you, sir, we're trying to 
make a separation here between the field testing and the rig 
testing because you've presented data from both sources.
    If you look at that chart there, you see that when it came 
to testing the Firestone tires, 85 percent of the tires you 
tested were old tires; then you went over to do similar rig 
testing on the Goodyears. Only 54 percent of those were old 
tires. So I am not sure how you call that a comparable test.
    Mr. Nasser. We can debate the e-percentages all you like. 
Those percentages are probably meaningless, frankly, because in 
the end you have a sample size that is--statistically gives you 
confidence, and we think it does, and doesn't represent an 
apples-to-apples comparison, and we think it does. Those 
percentages could----
    Mr. Greenwood. In all due respect, sir, to some extent 
you've got old apples versus new apples, and that is 
significant.
    Mr. Nasser. I don't know whether that is true or not. We 
tested old versus old and new versus new, and if you've got 
data that shows we came to conclusions by comparing old to new 
and new to old, please show us that data.
    Mr. Greenwood. My time has expired.
    Mr. Stearns. The time of the gentleman has expired.
    The ranking member of the full committee, Mr. Dingell, from 
Michigan is recognized for 5 minutes.
    Mr. Dingell. Mr. Chairman, thank you.
    Mr. Nasser, I think these questions will be susceptible to 
yes or no answers. Does Ford tell its tire suppliers, like 
Firestone, what materials must be used to build a tire for a 
Ford vehicle?
    Mr. Nasser. No.
    Mr. Dingell. Does Ford specify how wide the wedge rubber 
between the belts on the tires should be?
    Mr. Nasser. No.
    Mr. Dingell. What about the skim stock for the tire does 
Ford dictate that this tire compound should be of one kind or 
another to its tire suppliers.
    Mr. Nasser. No.
    Mr. Dingell. Does Ford tell its tire suppliers how many 
body plies or steel belts should be in a tire?
    Mr. Nasser. No.
    Mr. Dingell. Mr. Nasser, with regard to the Firestone ATX 
and Wilderness AT tires that have been recalled over the last 
year, did Firestone make all these decisions regarding 
engineering and construction of the tires?
    Mr. Nasser. Yes.
    Mr. Dingell. Mr. Nasser, why doesn't Ford indicate in its 
specifications for the construction of tires?
    Mr. Nasser. Well, no other manufacturer does that. The tire 
manufacturers are the experts on producing the tire, the design 
and manufacture of the tire. And the way we specify tires, we 
believe is consistent with other automotive companies; and the 
way we specify tires for Firestone is the same way we specify 
tires for Goodyear and the other companies.
    Mr. Dingell. So Ford requirements are performance 
specifications, not engineering, construction standards?
    Mr. Nasser. That is right.
    Mr. Dingell. And you gave the same to all the manufacturers 
for the same vehicle; is that correct?
    Mr. Nasser. That's true.
    Mr. Dingell. Now, Mr. Nasser, what sort of requirements 
does Ford identify in its performance specifications?
    Mr. Nasser. We look at a whole list of different 
specifications which include speed ratings and handling, wet 
weather conditions, snow conditions and probably four or five 
other characteristics that relate to the tire and the way it 
relates to the vehicle.
    Mr. Dingell. So the performance specifications Ford gave 
Firestone for Wilderness AT tires were essentially identical to 
specifications you provided to Goodyear and other manufacturers 
when they supply tires for the Explorer; is that correct?
    Mr. Nasser. Congressman, I looked at the specification 
sheets for Firestone and Goodyear recently, dating all the way 
back as many years as we could go, and they are identical.
    Mr. Dingell. I would ask unanimous consent that those be 
put in the record; and I'll submit them to the committee, Mr. 
Chairman.
    So both Firestone and Goodyear built these tires for Ford 
based on the same information and specifications; is that 
correct?
    Mr. Nasser. Yes.
    Mr. Dingell. And so even though two suppliers built tires 
for Ford Explorers based on the same performance standards, we 
see that the result was different. Firestone tires had over 
1,100 tread separations and Goodyear tires had only two; is 
that right?
    Mr. Nasser. Yes.
    Mr. Dingell. And the number of tires manufactured by both 
of these was not startlingly different; they were within a few 
percentages of the total number of tires, of equal parts of 
the----
    Mr. Nasser. Millions of tires on similar vehicles, and 
these vehicles operated in very similar geographic conditions.
    Mr. Dingell. Now, Mr. Nasser, it's been said that Ford 
shifted from Goodyear to Firestone because Firestone would give 
you a better price. Did that change the performance 
specifications of the tires, the requirements for safety of the 
tire on the vehicle?
    Mr. Nasser. No, it didn't, and----
    Mr. Dingell. Should it have?
    Mr. Nasser. Absolutely not.
    Mr. Dingell. Thank you.
    Mr. Chairman, I yield back the balance of my time.
    Mr. Stearns. The gentleman yields back the balance of his 
time; and the distinguished chairman of the full Energy and 
Commerce Committee, the gentleman from Louisiana, Mr. Tauzin, 
is recognized.
    Chairman Tauzin. Thank you, Mr. Chairman.
    Mr. Nasser, let me first start by frankly thanking you and 
Ford Motor Company for doing what the TREAD Act intended, and 
that is taking time and money and spending it on extensive 
testing, rather than relying upon body counts to make a 
decision as to whether a product is safe for the road. And, 
frankly, I hope in 30 days to be able to express similar thanks 
to NHTSA.
    I am going to reserve judgment until I see how good a job 
they have done with dollars and the new authority we've 
provided under the TREAD Act, so I'll wait and see.
    But having said that, let me also acknowledge that Ford has 
an absolute right to replace any part of, you know, the product 
line that you want to replace, in your opinion, for the safety 
of your customers. I think you have every right to do that; and 
frankly, I again want to applaud you for making a very 
expensive decision to do that, because you believe it's in the 
interest of your consumers' safety.
    But having said that, we're still left with a great deal of 
confusion as to some of the decisions you made, and why, and 
what implications it has for the consuming public, particularly 
people who are using the same tires on other vehicles made by 
other companies. And that's why we're getting into these 
questions of how comparable were these tests, and how broad 
your recall was, and what implications it has for the consuming 
public and for other companies.
    You've heard, I think, one of the members make the point 
that this massive recall has the potential of severely rocking 
the solvency and the future of the Firestone company itself. It 
is so massive and implies so much about confidence in the 
Firestone product that, obviously, questions arise as to why so 
massive a recall; and so I'm going to ask you a few questions 
about that.
    First of all, is it true that you have recalled some lines 
of Wilderness AT tires that Ford never even tested?
    Mr. Nasser. I don't know whether that's true, but I--I 
wouldn't doubt that because we looked at a broad range of 
tires; and as I said, in the end, it became a question of what 
is right for our customers.
    Chairman Tauzin. Well, here's our problem: You see, we've 
identified four other lines that you've recalled, one a 
Wilderness tire, P215/72R15, that is not only used on the Ford 
Ranger, but it's used on the Isuzu Rodeo and on a Mazda 
vehicle; and you have not--according to our information, you 
have not run any tests on those tires, on that line of 
Wilderness tires.
    You've also recalled a tire that is used on--another tire 
used on a Mazda on which you've made no tests.
    There's a third line of Wilderness tires that is used on 
General Motors products--Suburbans, for example, and Blazers, 
Sierras, Yukons--that you have recalled and run no test.
    Mr. Nasser. Mr. Chairman, they're different tires.
    Chairman Tauzin. They're the tire that you recalled; the 
P265/75R/16 has been recalled.
    Mr. Nasser. They are different tires.
    Chairman Tauzin. How--how are they different?
    Mr. Nasser. They are different tires. I can tell you that, 
and you can believe me or you can have it checked. They are 
different tires.
    Chairman Tauzin. Well, are the Wilderness tires used on 
Isuzu and Mazda different tires?
    Mr. Nasser. Mazda is part of the Ford Motor Company, so I'm 
not sure about that specific tire.
    Chairman Tauzin. You understand that they're the same tire, 
and in addition, we have another one, Wilderness AT1/P265/
75R15, that's also used on a Mazda that you've recalled.
    Mr. Nasser. Mr. Chairman, we didn't test every single tire 
ever made in the history of this world. We didn't. We had to 
stop. It was a question of, do we keep testing, do we keep 
studying, do we keep reviewing; or do we go out there and act 
in the interests of our customers?
    And, yes, we are guilty; we decided to go out there and be 
nimble and act for our customers. I took----
    Chairman Tauzin. But you--Mr. Nasser, I have got a limited 
amount of time.
    The problem we have, sir, in understanding this recall and 
shedding light on it is that tire lines are being recalled, and 
your company has provided our committee with no data indicating 
the basis upon which these particular lines are being recalled.
    Can you----
    Mr. Nasser. Mr. Chairman----
    Chairman Tauzin. If I ask you for this on the record, would 
you agree to supply to us any data you have that indicates why 
these tire lines were recalled?
    Mr. Nasser. If we have the data, we'll supply it to you. If 
we don't have the data, and you want us to test it, we'll go 
and test it; but in the absence of that, we acted for the 
safety of our customers.
    Chairman Tauzin. I am not questioning your motives.
    Mr. Nasser. But I am not sure where the question is 
heading.
    Chairman Tauzin. The question is simply that if these tires 
are being used on other vehicles----
    Mr. Nasser. They're different tires except for the case of 
Mazda.
    Chairman Tauzin. Mr. Nasser, in some cases, they're the 
same tire; and if they're being recalled only on the Ford 
vehicle, but not on the other vehicle, what--what--how much 
confusion does that create for the consumers on the other 
vehicle?
    Mr. Nasser. Mr. Chairman, we are recalling the Mazda 
vehicles.
    Chairman Tauzin. All right.
    Second, you're replacing some of these recalled tires with 
tires manufactured by other companies, other than Firestone, 
and you have heard some of the conversations we have had 
regarding this. We're giving this information to NHTSA, but our 
investigators tell us that one of those tires, one of the 
replacement tires, has a claims rate of 124 per million, way in 
excess of the 5 per million that you indicated to us was the 
benchmark for this recall.
    How can you justify replacing a tire that fails 5 out of a 
million with one that has a claims failure rate of 124 out of a 
million; and are we going to be in another cycle of recall 
later on?
    Mr. Nasser. Well, we can't justify it, and if the facts are 
right, the first time we heard about it is when we read about 
it in the newspaper this morning. Every tire that we put on the 
replacement list was looked at and reviewed by NHTSA. We wanted 
to see whether there was any indication of that data.
    There is one tire----
    Chairman Tauzin. Mr. Nasser, let me stop you there. NHTSA 
will testify later today that your company did, in fact, ask if 
there was any data on these replacement tires that indicated 
that they were the subject of a safety investigation.
    Mr. Nasser. Right.
    Chairman Tauzin. NHTSA will testify they did not approve 
the replacement tire lists that you submitted, and I just want 
to put that on the record.
    Mr. Nasser. Okay, I agree with that. I didn't say----
    Chairman Tauzin. But my question is, if NHTSA determines in 
the next 30 days that some of these replacement tires that you 
have on your Web site as authorized replacement tires for the 
Firestones you're taking off do, in fact, have a safety concern 
or a worse safety record than the Firestone tire you're taking 
off, what do you plan to do about that?
    Mr. Nasser. Mr. Chairman, we shouldn't be waiting 30 days 
if that data is accurate; we should be acting in 30 minutes. I 
think it's a question of determining, is the data that you 
have, that no one else seems to have, if you have it and it's 
accurate, we'll act on it; if it isn't, then we'll continue.
    Chairman Tauzin. If I can have 1 additional minute, Mr. 
Chairman.
    Mr. Stearns. Without objection.
    Chairman Tauzin. The third question is one I told you I 
would ask you on the record, and I need an answer to it. You 
said the real-world test, regardless of all these tests--and we 
can debate how accurately and comparably they were done, or how 
comparably Firestone's test of your vehicle was done--the real-
world test was when Goodyear tires were actually put on Fords, 
and they performed better than Firestone tires in the mid-90's.
    But the evidence, the evidence you just submitted to us, 
was apparently a message to Gary Hagan of Goodyear in 1998, and 
I'll read it to you.
    ``Though Goodyear has previously reviewed the price level, 
your quote for 100 percent of the tire volume, which is the 
same as the current price, based on today's 68 percent 
supply''--apparently you were using 68 percent Goodyear tires 
up until this point that--``your quote for 100 percent sole 
sourcing is not competitive. As you're aware, we're 
investigating a single-sourcing of the tire based on your 
uncompetitive price. Goodyear cannot be sourced on this fit.''
    The conclusion we reach is that in 1998 you switched back 
to sole-sourcing Firestones solely because of price 
differentials with Goodyear; is that correct?
    Mr. Nasser. I wish we'd stayed with the Goodyear tires, Mr. 
Chairman, in retrospect.
    But I'd have to say no, because during the same period, the 
answer to your direct question--if you look at the same period, 
that same year and the year following that--Goodyear's 
percentage of Ford tires, tires used on Ford vehicles, actually 
went up; and it went up because during that period we wanted to 
balance tire sourcing between the companies. Goodyear went from 
20 percent, 22 percent of total supply to about 35 percent on 
an overall basis.
    Now, that doesn't get to your specific question.
    Chairman Tauzin. Could you get to it for me? Why did Ford 
start buying Goodyear tires in 1996 and stop buying them in 
1998 for the Explorer, when you now know that Goodyear was much 
better?
    Mr. Nasser. Goodyear is much better, and the reason 
primarily was driven by--and we did it on many other 
components, other than tires, that is, to have a single design 
source for major components, because you don't want to go 
engineering, validating, testing multiple sources.
    I would like to say, however, based on your question, that 
decision was made in 1994, I believe. Between 1994 and 1997, 
Goodyear reduced the price of their tires greater than 
Firestone reduced the price of their tires; and the difference 
between Goodyear tire costs and Firestone tire costs by 1997 
was 10 cents a tire, and I don't think we would get down to 
making major sourcing decisions that would compromise any 
vehicle attribute over 10 cents.
    Chairman Tauzin. Thank you, Mr. Chairman.
    Mr. Stearns. The time of the gentleman has expired.
    Mr. Strickland is recognized for 5 minutes.
    Mr. Strickland. Thank you, Mr. Chairman.
    Mr. Nasser, we're not talking about a recall, are we? Isn't 
this something other than a recall that we're discussing here?
    Mr. Nasser. You know, that's a good question, because in 
almost every sense this is a recall. We call it a replacement 
program for a number of reasons.
    The first reason is not all of the tires obviously have a 
safety defect. Second, traditionally the tire company would 
institute and manage the recall. And I think, third, we wanted 
to move quickly. We're handling everything else from a customer 
viewpoint as if it were a recall.
    Mr. Strickland. Another question. Is it possible that the 
recall is as large and massive as it is, not only related to 
safety concerns but because as a company, you're concerned 
about consumer confidence?
    Mr. Nasser. When I described the four steps that we went 
through in terms of determining the scope of the recall, the 
Aiken tires in particular--and I think one other Firestone 
tire--would fall in the realm of a world class tire. So I would 
classify that as a customer quality assurance action.
    Mr. Strickland. I asked that question based on my own 
experience, because I had tires that weren't recalled during 
the first recall, and lots of my constituents would walk out, 
look at my tires and say, why are you driving on those tires, 
you should get those replaced; and I would explain to them that 
they weren't a part of the initial recall.
    But I assume--and this is--this is an assumption that I am 
making, but I have assumed that from a company standpoint, you 
want to make sure that your customers have a high level of 
confidence in the product that you're getting--that they're 
getting from you. I direct that question to you, because there 
have been questions raised here this morning about why you're 
doing this, and several people have said, you've got a right to 
do it, you know----
    Mr. Nasser. I'll say to you, we have no doubt about why 
we're doing it. We're doing it in the interest of our 
customers' safety and peace of mind. It is as simple as that, 
and, you know, you hear a lot of reports about how difficult a 
decision this is and maybe there are other factors behind it. 
It's straightforward, very straightforward. That is the type of 
company we are. We are doing it because we believe strongly 
that it's what our customers would want the Ford Motor Company 
to do.
    Mr. Strickland. In one of your answers to Mr. Dingell, you 
indicated that you have a performance standard which you 
require of the manufacturers of the tires you use. There have 
been questions raised about why you went to Firestone as a sole 
source, and implications raised that you did that in order to 
save money. But if in fact you have the same performance 
standards, it seems to me that it just makes sense to go to the 
company that can provide a product for the cheapest price, if 
the performance standards are identical and have not been 
compromised. Is that correct?
    Mr. Nasser. It is. And I should say, you know, we're 
perhaps painting everything in a very negative sense here. 
Firestone and Ford had a very long history, and Firestone 
produced incredibly good tires over a long, long period, and 
during that period when--in the early nineties when the 
sourcing decisions between Firestone and Goodyear were being 
undertaken by the company, Firestone ranked as the No. 1 
quality tire supply. So there was no question at that point of 
Firestone's quality and their commitment to high standards.
    Mr. Strickland. This action is costing Ford a great deal of 
money.
    Mr. Nasser. It is.
    Mr. Strickland. And that is a burden that's being borne 
directly by Ford Motor Company, without any assistance from 
Firestone, the supplier of the tires. Right?
    Mr. Nasser. It wasn't even a consideration for us as to who 
should pay this, and our primary concern was we needed to move 
quickly. And I am sure in hindsight we'll go back and there 
will be some little bits and pieces that we didn't do 
absolutely perfectly right, but I'd settle for that, because we 
wanted to move quickly to safeguard the safety of our 
customers. And we didn't really waste a lot of time sitting 
back saying, well, I wonder who will pay for all of this.
    Mr. Strickland. One final quick question. Are you somewhat 
puzzled at the reaction that you're receiving some--from some 
of us?
    Mr. Nasser. Not anymore, I'm not.
    Mr. Strickland. I yield back, Mr. Chairman.
    Mr. Greenwood. The Chair thanks the gentleman and 
recognizes for 5 minutes the gentleman, Mr. Deal.
    Mr. Deal. Thank you, Mr. Chairman.
    Mr. Nasser, in your opening statement, you made a great 
deal about the difference between the Firestone tires' 
performance and the Goodyear tire performance and the failure 
of Firestones in excess of 1,100 versus 2 failures by Goodyear. 
When did that information first become known to Ford?
    Mr. Nasser. We started to look at that information during 
last year's 6.5 million recall. Up to that point, even the 
1183, although it sounds like a high number, you know, when 
you're dealing with millions and millions of tires, it really 
wasn't very evident to us. So it was during the investigation 
of last year's recall.
    Mr. Deal. So not until 2000 did these statistics begin to 
attract any attention?
    Mr. Nasser. I'm sure they were around, both in the company 
and in the tire companies as well, but they didn't raise the 
awareness to a point where it was alarming to us.
    Mr. Deal. And your statement that you have to look at field 
data as the best basis for making any decision--now, when these 
Firestone tires were selected, you had no field data at that 
time, did you?
    Mr. Nasser. If you recall, one of the provisions of the 
TREAD Act that was passed last year by Congress was that field 
data would become readily available on a prompt basis so that 
we could look at it and that--it was transparent to everyone, 
not only to the tire companies.
    Mr. Deal. But you first of all had no field data when the 
tires were selected. What field data did you attempt to compile 
between the years these tires were first put in place and 2000 
of last year when these statistics became available and 
knowledgeable on your part?
    Mr. Nasser. I don't understand the question. I'm sorry.
    Mr. Deal. Did Ford conduct any tests or maintain any 
records of field data during the time these tires were first 
selected, which had no history, and 2000? Did you maintain any 
records?
    Mr. Nasser. I don't know the specific answer to that 
question. I'll get to you on it.
    Mr. Deal. So if the chairman's date of 1998 is correct when 
you switched to Firestone as the sole source and dropped the 
Goodyear tires which in 2000 you learned had been performing 
very, very well, you indicated that it obviously was not on a 
price factor, because Goodyear had reduced their prices greater 
than Firestone between 1994 and 1997, you said.
    Mr. Nasser. Congressman, I should say that the decision to 
drop the Goodyear tires on Explorers was actually made before 
we fitted the first Goodyear tire on an Explorer. So there 
wasn't any field data available anywhere.
    Mr. Deal. So it was--so when you say that----
    Mr. Nasser. We dropped the tire before it was even sourced 
on the Explorer. We made the decision to source Goodyear, and 
we made the decision to desource Goodyear on Explorer before 
the first Goodyear tire was actually installed on an Explorer.
    Mr. Deal. So it appears to me, Mr. Nasser, you've made two 
conflicting statements. On the one hand you said that you make 
decisions based on field data, which you now say you had none. 
Second, you said you did not make a decision based on price, 
since you said there was only a 10 cents difference. Then if 
you did not make it on field data and you did not make it on 
price, on what basis did you make the decision?
    Mr. Nasser. Oh, no. I didn't say that at all.
    Mr. Deal. Which part did you not say?
    Mr. Nasser. Let me go back, because your question came at 
me from 10 different questions and I couldn't handle 10 
different directions. Let me tell you exactly what we did.
    Mr. Deal. Yes, sir.
    Mr. Nasser. We were--we made a decision to source Goodyear 
tires, because there was a corporate decision to increase the 
level of Goodyear tires overall, and Goodyear went from 20-odd 
percent to 30-odd percent of our total tire sourcing. That 
happened.
    At the same time, we were sourcing an added plant for the 
Explorer. The Explorer was produced in one plant. It was going 
to two plants. So we went out, and we asked Goodyear and 
Firestone for sourcing on that tire for that plant. Goodyear 
won the contract.
    Mr. Deal. On what basis?
    Mr. Nasser. They won the--the specifications are the same, 
and there wasn't any field data, because we didn't have any 
Goodyears on Explorers. So the tire performance specifications 
were the same, and Goodyear and Firestone's prices were about 
the same at that point. As a matter of fact, the initial 
Goodyear quote was actually below Firestone.
    Subsequent to that, a decision was made that we would 
single source tires on a particular vehicle, because you didn't 
want to go through the inefficiency of duplicate engineering 
and testing on one vehicle with two different tires. If you 
look at most of our vehicles, they have got a single source of 
tires. We asked both Goodyear and Firestone to quote on getting 
100 percent of the tires. Goodyear wanted a price increase. 
Firestone did not. So we sourced it to Firestone. It's as 
simple as that.
    During the period when Goodyear was still supplying tires, 
which was after this decision of desourcing was made, Goodyear 
continued to reduce the cost and the price of their tire, to 
the point where in 1997 there was only 10 cents difference 
between a Goodyear tire and a Firestone tire.
    Mr. Deal. But the decision to go with Firestone and drop 
Goodyear as a source for the Explorer was made the following 
year of 1998.
    Mr. Nasser. It was made in December 1994 for a 1998 model.
    Mr. Deal. All right, and----
    Mr. Nasser. I think that clears it up. It was made in 
December 1994.
    Mr. Deal. And you had field data at that time, did you not?
    Mr. Nasser. We did not. In December 1994, we did not have 
any--as far as I'm aware, we didn't have any field data, 
because we hadn't even fitted a Goodyear tire.
    Mr. Deal. So your best source of field data, you had none 
in any of these decisions, then?
    Mr. Nasser. It's difficult to have field data when there 
are no tires in the field.
    Mr. Deal. So you had no field data?
    Mr. Nasser. On Goodyear. That's right.
    Mr. Deal. What about Firestone?
    Mr. Nasser. I don't think we had field data on Firestone 
then. I'll get back to you on that particular question. But I'm 
not sure where you're heading.
    Mr. Greenwood. The time of the gentleman has expired. The 
chairman recognizes for 5 minutes the gentleman, Mr. Gordon.
    Mr. Gordon. Thank you, Mr. Chairman. Just a quick first 
observation after listening to that exchange and some of the 
others. First, Mr. Nasser, let me welcome you. I'm sure there 
are other places you would like to be.
    Mr. Nasser. Oh, I truly love it here every year.
    Mr. Gordon. After listening to these last exchanges, it 
seemed to me like the easy answer would just be to say that 
these last replacements were really image- and market-driven, 
not data-driven, and you have a right to put whatever tire, 
radio or antenna on your automobile or vehicle that you want, 
as long as it is----
    Mr. Nasser. That may be the easy way, but it wouldn't be 
the truth.
    Mr. Gordon. It wouldn't be?
    Mr. Nasser. The truth is that it's a mixture of data and 
field and predictive analysis and customer assurance. That's--
--
    Mr. Gordon. Customer assurance marketing?
    Mr. Nasser. Customer assurance is the confidence--it goes 
back to the Congressman's question. People have lost confidence 
in these tires.
    Mr. Gordon. I would like to get on--I mean, again, I think 
you can put whatever tire you want on there. I mean, you know, 
it's your business. Just don't--as long as safety isn't 
compromised. And you spend a lot of money on TV, this is just 
another way to do marketing, and, you know, that's your 
business.
    I think a lot of the discussion that we've had----
    Mr. Nasser. Excuse me----
    Mr. Gordon. I only have 5 minutes, but I----
    Mr. Nasser. You're putting words in my mouth and that's not 
what I said.
    Mr. Gordon. I don't mean to. That is what I said. I think a 
lot of the problem that we have is sort of a--your basic apples 
and apples or apples and orange type comparisons. And that's 
why I want to ask you and the other witnesses two questions, 
and they will be the same questions so that we have a 
benchmark.
    The first is, it's my understanding that the same Firestone 
tires used on the Ford Explorer are also used as original 
equipment on the Ford Rangers. These same tires are evidently 
used on two other popular SUVs, the Toyota 4-Runner, as well as 
the Jeep Grand Cherokee. Claims data shows that the owners of 
vehicles other than Explorers have virtually no problems with 
tread separation, leading to rollovers. The question, then, is 
what does this suggest about the Explorer's design or handling 
characteristics and their contribution to the problem?
    Mr. Nasser. The competitive tires that you mentioned--you 
mentioned Toyota--and what other tire?
    Mr. Gordon. The same--the Wilderness AT are designed I 
think for General Motors as well as Toyota.
    Mr. Nasser. They are different tires.
    Mr. Gordon. And the--are they different tires than are on 
the Ford Ranger?
    Mr. Nasser. No. They're the same tires.
    Mr. Gordon. Are they the same tire as the Toyota 4-Runner 
and the same tire as the Jeep Grand Cherokee?
    Mr. Nasser. No, they are different tires.
    Mr. Gordon. How are they different?
    Mr. Nasser. The treads are different--you'd have to ask the 
tire manufacturers, but they are different tire.
    Mr. Gordon. Okay, but is it the same tire as the Ford 
Rangers?
    Mr. Nasser. Yes.
    Mr. Gordon. Yet you're not having problems with Ford 
Rangers?
    Mr. Nasser. We're recalling the Ford Rangers.
    Mr. Gordon. But is that--did you have the problems----
    Mr. Nasser. I think the incidence level is about the same 
in terms of the tread separation. I don't think there's any 
significant difference, but I'd have to get back to you on 
that.
    Mr. Gordon. So if they--well, let me just--so I'll ask you 
this. If these are the same tires on the Ford Rangers, the 
Toyota 4-Runner and the Jeep Grand Cherokee, and they're not 
having problems and you are having problems, is that a problem?
    Mr. Nasser. I just said that they're not the same.
    Mr. Gordon. What, they're not--and I----
    Mr. Nasser. You want me to answer a hypothetical question?
    Mr. Gordon. If they were the same, that would be a problem, 
wouldn't it? Would you like to address that, if they were the 
same, at a later date?
    Mr. Nasser. Absolutely. If they were the same, I'd look at 
it, yeah.
    Mr. Gordon. I'll get to my second question. One year ago, 
Ford initiated an almost identical replacement problem in 
Venezuela to replace Firestone----
    Mr. Nasser. By the way, Congressman, if I may----
    Mr. Gordon. I don't want to lose my time here.
    Mr. Nasser. The Ranger/Explorer comparison is very 
interesting, and we address it in our written statement.
    Mr. Gordon. Sir, I really don't want to be discourteous. 
It's just that I won't have a chance to ask my question. If I 
can get that in, then I think you should have the full right to 
respond what you'd like and I'd like to learn more about that.
    One year ago, Ford initiated an almost identical 
replacement program in Venezuela to replace Firestone tires 
with other brands. Even though Explorers are now using other 
brands of tires in Venezuela, it's my understanding that the 
Explorer rollovers have continued at a high enough rate to 
cause the head of the country's consumer protection agency to 
suggest banning sales of Explorers. Why has the replacement of 
Firestone tires in Venezuela not brought an end to this 
problem, and will the replacement of Firestone tires on 
Explorers end the problem in the United States?
    Mr. Nasser. The Explorer is not suffering levels of 
rollover in Venezuela that are different than other competitive 
SUVs. If you look at the percentage of rollovers that the 
Explorer has in Venezuela, it's about 8 or 9 percent, which is 
Explorers' market share in that market.
    Mr. Gordon. Has that changed since you changed the tires? 
Has that ratio changed?
    Mr. Nasser. I'm referring to the Goodyear tires on 
Explorer. If you go through the data--and I lived in Venezuela 
for 3 years, so I know--I know a lot about that market and the 
data that is in that market. If you go through that data and 
look at the statistics that relate to Explorer, you'll find 
vehicles there that Fiestas, that are pick-up trucks, that are 
cars. You'll find fender bender-type accidents in there. These 
are not data that when you go through them and filter them, 
clearly that will show an Explorer problem following the 
replacement of the Firestone tires----
    Mr. Gordon. But with your data, have you determined that 
there is a difference in the rollover situation between the 
Firestones and the replacement tires in Venezuela?
    Mr. Nasser. The Goodyear tires are performing much better, 
yes.
    Mr. Greenwood. The gentleman's time has expired.
    Mr. Gordon. I would like to ask permission for him to 
respond to my last question, which was asked before the time 
was up.
    Mr. Greenwood. Without objection.
    Mr. Gordon. Which was, will the replacement of Firestone 
tires on the Explorer end the problem in the United States?
    Mr. Nasser. Will the----
    Mr. Gordon. Will the replacement of Firestone tires on the 
Explorer end the problem in the United States?
    Mr. Nasser. Oh, man. I mean, last year we were very 
confident about all the data that we had, and this year we're 
taking all of the tires off the road, so--all of the Wilderness 
AT tires off the road. And if anything, as you suggested 
earlier, we may have overreached because of the need to instill 
some confidence back in the marketplace. So I am hoping we've 
done that.
    Mr. Greenwood. The time of the gentleman has expired.
    Mr. Gordon. Thanks for your patience.
    Mr. Greenwood. Mr. Nasser, I would just like to point out 
to you from data that Ford supplied to us, a chart that reads 
Explorer and Ranger tread separation in rollover comparison 
1993 through 2001 model years, the number of claims for Ford 
Explorer was 299. The number of claims for the Ranger was 
apparently 3. Well, let me compare 1997 to 2001 in those cases. 
It's 299 versus 3. So there does seem to be a significant 
number. I don't know if that represents the percentage of 
vehicles on the road, but it seems to--the claims rate is a 47 
rates of claims per million with the Explorer versus only 4. 
There seems to be a tenfold difference between the Ranger and 
the Explorer, and I would ask unanimous consent for a minute of 
time so you might respond to that, since it seems to be quite 
different than the answer you responded to Mr. Gordon.
    Mr. Nasser. No. It is very much consistent. Ranger is 
having a problem. That is why we have recalled and replaced 
these tires. The Ranger 4x4 is the vehicle that has the tires 
that are also on the Explorer. The--and the Ranger 4x4 with the 
Explorer tires is a very small percentage of Ranger. So the 
sample size are small. And that in itself isn't the issue.
    The other issue is that because they're 4x4 models, they 
tend to be in the North, not in the South. And in addition to 
that, it has used--it's used Decatur tires on the 4x4. So 
you've got a mish-mash of different geographies, low 
installation rates on the 4x4 model, and a different plant 
because of the heavy use of the----
    Mr. Greenwood. I won't--sir, I won't question those facts 
as you've just laid them out. I don't believe we need to take 
this any further than we need to, but I think you did respond 
to Mr. Gordon that the claims rates are similar----
    Mr. Nasser. They are similar when you adjust to an apples-
to-apples comparison.
    Mr. Greenwood. Well, you may have to. That may be a fairer 
answer, that when you adjust out for climate and so forth, that 
they're similar. I don't have data on that.
    The Chair recognizes for 5 minutes Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman. One thing that we 
need is a historical perspective, which I know we don't have 
the ability to do, to check tires and manufacturers of vehicles 
in the sixties and the eighties. We all mourn the loss of life 
and wrecks and stuff. In comparison to the sixties or the 
seventies, are we better off or are we worse? I would submit 
we're probably better off. We're just a lot more stringent with 
information and getting data out to the public, and that's part 
of the frustration.
    Well, this is a very serious hearing, but for the sake of 
levity, I think most of our constituents would appreciate at 
least one time getting dealers to their knees, and because I 
want to apologize to the dealers who are sitting on the floor 
or kneeling, because we finally brought dealers to their knees, 
and it had to be in the Commerce Committee room. Usually they 
seem to get the upper hand of----
    Mr. Nasser. They will come back. Don't worry.
    Mr. Shimkus. That's right. You in your opening statement 
mentioned, Mr. Nasser, that the bar has been raised seeking 
remedies that are proactive and forward looking, because we're 
in a new paradigm of safety and looking at industry and the 
people you do business with. Mr. Dingell asked you some 
questions which I find very interesting, and talked about the 
standards of tires and the width, the skin stock, the body, the 
belt, and basically the response was--you set performance specs 
up for the industries to compete, and some of the types of 
performance specs were speed, handling, wet weather, snow.
    My question is, is--do you have a performance spec on ride, 
how smooth the ride is?
    Mr. Nasser. Yes. Yes, we do.
    Mr. Shimkus. And that brings me to my question which deals 
with a statement you made just a few minutes ago, and that's 
why it's sometimes beneficial to hang around and hear the 
questions and answers. For 10 cents a tire, you know, you 
mentioned that it's worth 10 cents a tire to move forward on 
safety considerations--and my question is, what about $1.40, 
$1.40 a tire, which if you remember back to last year when we 
were sitting through these hearings, I raised the issue of the 
nylon caps are--and the fact on nylon caps help prevent tread 
separation. Why Mr. Dingell's questions were good for me, 
because they provided me, again, with the challenge between 
specifications and actual material, design and requirements to 
meet the specifications.
    So I would ask, based upon the information that I have, 
that it's $1.40 per tire to provide a nylon cap, why in this 
new paradigm of the bar being lifted higher, seeking forward 
remedies, why not move from specs to some specific requirements 
to the people who are providing a major part of your product?
    Mr. Nasser. To move from tire performance to actually 
specifying the----
    Mr. Shimkus. Well, you have a specification that says ride; 
why not have a requirement that says nylon caps?
    Mr. Nasser. Okay. You'd have to ask the tire experts 
specifically on nylon caps. It is interesting that based on 
what I know at least, nylon caps would not help tread 
separation to any great degree. I think nylon caps are mostly 
reserved for very high-speed driving, and you'll find them on 
the higher speed rating tires. But you'd have to get the tire 
experts on that.
    Mr. Shimkus. But did you require nylon caps for the 
Explorers used in the Middle East and Venezuela?
    Mr. Nasser. I don't know whether we specified it or the 
tire company specified it. But you just keep going back to the 
U.S. The Goodyear tires didn't have nylon caps. The majority--
and maybe even all, but I certainly know that the majority of 
the volume sports utility vehicles in the U.S. have tires 
without nylon caps. So I don't think there is one silver bullet 
here, and there is a danger of trying to choose one solution or 
one improvement, without looking at the total benefit of 
handling and ride and stability.
    Mr. Shimkus. And, again, I understand and appreciate the 
responsibility you have in providing jobs, providing a product 
and making sure it is as safe as possible, within the means of 
being able for consumers to purchase. This is just a follow-up 
to questions that I had asked last year on the nylon caps. We 
tried to get it inserted into the TREAD Act. We were 
unsuccessful, and we may try again in the future. I thank the 
gentleman for yielding.
    Mr. Greenwood. The time of the gentleman has expired. The 
chairman recognizes for 5 minutes the gentleman, Mr. Stupak.
    Mr. Stupak. Thank you, Mr. Chairman. Mr. Nasser, last 
September when we were having the hearing, I asked the question 
on whether Ford would join with me in calling for a--and 
cooperating with a blue ribbon independent panel to perform a 
review of the AT, ATX Wilderness tires to determine the cause 
and proposed solutions. Is Ford still committed to its blue 
ribbon independent committee?
    Mr. Nasser. Yes, we are.
    Mr. Stupak. Has Ford initiated or had any contact with 
NHTSA on trying to put together this committee?
    Mr. Nasser. I know we're in contact with them. I don't know 
what the status is.
    Mr. Stupak. The information that you've testified to about 
the 1,083 separation of the Firestone tire, the field data, as 
you call it, versus 2 separations of the Goodyear tire, have 
you shared that data with Firestone?
    Mr. Nasser. Yes, that data was available, as far as I know, 
last year, similar data. So it's----
    Mr. Stupak. Everybody has it.
    Mr. Nasser. Yes.
    Mr. Stupak. Firestone had it, NHTSA has it, this committee 
has it, we all have it?
    Mr. Nasser. Uh-huh.
    Mr. Stupak. The chairman in his statement--opening 
statement, stated that--there were words to this effect, that 
some of the nonFirestone replacement tires have property and 
injury claims greater than those nonrecalled Wilderness AT 
tires. I take it from the exchange that went on earlier, you 
don't have that information?
    Mr. Nasser. We don't, but we're clearly, once we finish 
with the hearing, we'll get to look at that data and see how it 
impacts what we're doing.
    Mr. Stupak. You believe you'll get it right after the 
hearing, or do you think you're going to have to wait until 
after 30 days when NHTSA is done with it?
    Mr. Nasser. I think we can get the basic data pretty 
quickly if it's available.
    Mr. Stupak. If you do, would you share it with the rest of 
this committee?
    I'm sorry to have to put you through that----
    Mr. Dingell. We've had a lot of talk about this information 
or data or whatever it might be. I ask unanimous consent at 
this time that that data be inserted in the record at this 
point. All of it.
    Mr. Greenwood. The Chair advises the gentleman that that 
request will be taken under consideration.
    Mr. Dingell. I believe I----
    Mr. Greenwood. If I may continue----
    Mr. Dingell. I believe I'm entitled to have a----
    Mr. Greenwood. Just a moment. I'll recognize the gentleman 
in a moment. What needs to be taken into consideration is that 
there are differences between the data that--raw data that's 
been provided to us by some of the tire manufacturers and NHTSA 
versus the computations that were done by our investigative 
staff.
    Mr. Dingell. Mr.----
    Mr. Greenwood. And it is the work product that involves 
these computations that has been referenced and we are taking 
into consideration whether or not it--such computations should 
or should not be entered in the record.
    Mr. Dingell. Mr. Chairman, I have made a unanimous consent 
request. I will repeat it for the benefit of the Chair. And 
that is that all of the data referred to be inserted into the 
record at this particular point so that we can all know what 
we're talking about and so that the meaning of which has been 
referred to no less than three times this morning, we'll be 
able to see what is--what is done.
    I would ask that in addition to that, the comments of all 
of the three major participants to these proceedings, Ford 
Motor, Firestone, and also NHTSA be included as soon as it can 
possibly be done. I'm entitled to have that unanimous consent 
request ruled upon or objected to.
    Mr. Deal. Mr. Chairman, based on the comments made by the 
chairman previously that some of the information was 
confidentially received, I would object to at this time.
    Mr. Dingell. Well, I will make----
    Mr. Greenwood. The objection is heard to the gentleman's 
unanimous request.
    Mr. Dingell. I would request that the gentleman from 
Georgia tell us what it is he wants hidden.
    Mr. Deal. Mr. Chairman----
    Mr. Greenwood. I recognize the gentleman from Georgia.
    Mr. Deal. As the ranking member heard the chairman state 
earlier, some of the information was obtained in confidence. I 
think it is the responsibility of this committee to honor the 
confidences that the chairman has requested be respected.
    Mr. Dingell. Well, then I will----
    Mr. Deal. It is on that basis that I make the objection.
    Mr. Dingell. Then I will make a further unanimous consent 
request, and that is that the press releases and documents 
related to the story--an article which appears in Yahoo News on 
today's date, June 19, entitled ``House Queries Ford 
Replacement Tires,'' be inserted in the record. I believe this 
is properly a part of the record, so that we can all know what 
we're talking about.
    Mr. Deal. Mr. Chairman?
    Mr. Greenwood. Without objection.
    [The information referred to follows:]

              [Tuesday June 19, 2001--The New York Times]

                 House Queries Ford's Replacement Tires
               By Nedra Pickler, Associated Press Writer
    WASHINGTON (AP)--Ford Motor Co. may be replacing Firestone tires on 
its vehicles with other brands that have higher failure rates, 
according to an analysis by congressional investigators.
    The House Commerce Committee unveiled the results of its five-month 
inquiry into the safety of America's tires at a hearing Tuesday.
    Rep. Billy Tauzin, R-La., the committee chairman, said 
congressional investigators have analyzed the failure rates of 
replacement tires Ford is using--made by Michelin, Continental, 
Goodyear, General, BF Goodrich and Uniroyal--and found some fail more 
often than the Firestone Wilderness AT tires Ford recalled last month.
    ``Ford is going to replace these recall tires with tires that have 
a worse claims history than some of the tires that are coming off the 
Explorers,'' Tauzin said. ``For example, our investigators have learned 
that one of the tires that is going to be used in the replacement has a 
claims rate of 124 per million tires, well in excess of the five claims 
per million that Ford says is the benchmark in this recall.''
    ``Are we going to be replacing worse tires for the tires that come 
off these cars?'' he asked.
    Tauzin spokesman Ken Johnson also said the committee found that two 
additional Firestone tire models used on Ford vehicles--the Wilderness 
HT and the FR480--had higher rates of claims for property damage than 
the Wilderness AT.
    Ford does not have access to the same information because tire 
makers keep their property damage claims rates confidential. The 
Commerce Committee has been collecting that information from the tire 
makers in the past several months.
    Tauzin refused to make his data public yet, saying he wanted 
federal safety officials to analyze the information first.
    ``I don't want us to be a party to releasing bad information to the 
American public,'' he said.
    But Rep. Bart Stupak, D-Mich., called on Tauzin to release the data 
immediately, considering he and other Americans replaced the Firestone 
tires on their Ford Explorers.
    ``I want to make sure if I replaced them, I replaced them with good 
tires,'' Stupak said. ``I think we're misleading the American public if 
we say we're replacing them with worse tires, but yet we're not getting 
the data.''
    Ford officials said they asked the National Highway Traffic Safety 
Administration about the replacement tires they planned to use and the 
agency did not raise any safety concerns.
    ``We feel that the replacement tires are good tires,'' said Sue 
Cischke, Ford's vice president for environmental and safety 
engineering.
    Cischke said Ford was aware of a higher claim rate on the FR480, 
but that only a relatively few of those tires are still on the road. 
She also said Ford was aware of a few claims involving the Wilderness 
HT, but said none involved accidents.
    The Wilderness AT has been at the center of a nearly year-long 
debate over the safety of Firestone tires. Bridgestone/Firestone Inc.'s 
voluntary recall of 6.5 million tires last August included the 15-inch 
version of the Wilderness AT, made at its plant in Decatur, Ill.
    The company insisted that other sizes of the tire made at other 
plants were safe. But last month Ford said it was concerned about 
safety and announced it would replace all 13 million Wilderness ATs 
still on its vehicles.
    A day earlier, aware of the impending announcement, Bridgestone/
Firestone ended its 96-year relationship with Ford.
    The Wilderness AT has been standard equipment on the Ford Explorer, 
the world's best-selling sport utility vehicle. Many of the 203 fatal 
accidents among the thousands of crashes reported to the highway safety 
administration in the last year were rollovers of the Explorer that 
occurred after the tires failed.
    Ford insists the problem is the result of flawed tires, but 
Bridgestone/Firestone says the design of the Explorer also is a factor.
    Jacques Nasser, chief executive of Ford, blamed the problem on the 
tires. He said Bridgestone/Firestone's tests showing the Explorer as 
part of the problem were ``unreliable'' and ``not based on facts.''
    ``The Ford Explorer is and always will be a safe vehicle,'' Nasser 
insisted.
    John Lampe, chief executive of Bridgestone/Firestone Inc., in turn 
said Ford's tests were ``grossly unscientific and must be 
disregarded.''
    ``We have had a growing and ultimately overwhelming conviction that 
tire design and manufacturing issues alone simply cannot account for 
what has been happening to the Explorer,'' Lampe said in his prepared 
statement.
    Lawmakers called on NHTSA to quickly finish its investigation so 
people can know who to believe. ``We have a corporate schoolyard brawl 
breaking out here,'' said Rep. Edward Markey, D-Mass. ``We need an 
independent referee.''
    In announcing its recall last month, Ford officials said they were 
particularly concerned with the Wilderness AT tires built at 
Bridgestone/Firestone's plant in Wilson, N.C. The automaker said the 
15-inch version built at that plant has 19 tread separation claims per 
million tires produced and the 16-inch version has 17 claims per 
million.
    That is much lower than the 300 per million failures on some of the 
tires included in Bridgestone/Firestone's original recall.
    About 2,000 United Auto Workers planned to drive around the Capitol 
and then rally Tuesday to show their confidence in the Explorer.

    Mr. Stupak. Mr. Chairman----
    Mr. Greenwood. Is the gentleman, Mr. Stupak, reclaiming his 
time?
    Mr. Stupak. Yes, I'd like to reclaim my time and get a 
moment or two further. But I'd like to expand upon the motion. 
I guess I'd ask the unanimous request, then, of the committee 
to do this. If it's the data that is so confidential, then the 
thing that is not confidential would be the manufacturer name 
and the brand name of the tire. Would the majority staff at 
least tell us who is the manufacturer and the brand name of the 
title? So--I'll do one better than Yahoo News, Mr. Dingell, 
I'll do the Detroit Free Press--so we're not getting the 
questions, ``New Tires, New Worries.''
    Now, we have a notice out from Ford to replace our tires. I 
did mine beforehand. My father-in-law for his Expedition just 
got his. Now, he's going down to make his replacement tires--to 
get them from Ford.
    Now, if we have a brand and a manufacturer and a brand tire 
that is defective 124 times versus 5 times, as has been claimed 
by the majority, then at least tell the American people what 
the tire is, and the brand name, my father-in-law and others 
are not out replacing their tires with possibly worse tires 
which have a worse safety record.
    So I'd ask unanimous consent that this committee at least 
tell us the manufacturer of the tire and the tire brand, and 
that way we don't have to worry about disclosing confidential 
data.
    Mr. Greenwood. In response to the gentleman's inquiry, I 
would object and state my reasons as follows. In the first 
place, the gentleman needs to know that the minority staff has 
access to all of the same data as the gentleman--the minority 
staff has access to all the same data from NHTSA as our staff 
does. The majority--minority staff is----
    Mr. Stupak. This is not in NHTSA's hands, from all the 
testimony thus far. You're going to give it to NHTSA at the end 
of this hearing, and then we're going to get 30 days. So can we 
get it as part of this record? I mean, if we've got to wait for 
NHTSA, that will be 30 days later.
    Mr. Dingell. Mr. Chairman, I ask that under my rights as a 
member of this committee, under the rules of the House of 
Representatives, that the data compiled by the committee staff 
and the analysis of the committee staff be promptly made 
available to all members of the committee. The House rules 
provide that it is my right to have that made available to me. 
I ask that it be made available to me for----
    Mr. Greenwood. Pursuant to the gentleman's----
    Mr. Dingell. I mean now, Mr. Chairman, not----
    Mr. Greenwood. Pursuant to the gentleman's----
    Mr. Dingell. Not at the whim of the Chair or at some later 
time, but now.
    I have requested the data. I ask the staff to come forward 
and present it to me.
    Mr. Greenwood. Would the gentleman desist for a moment?
    Mr. Dingell. The House rules so provide. I speak as a 
member of the committee, requesting that the rules----
    Mr. Greenwood. The gentleman's request is on the record. 
The Chair will consult with the attorneys and respond promptly.
    Mr. Dingell. I don't ask for consultation with the 
attorneys. I asked that the information be made available----
    Mr. Greenwood. The Chair asks for--the Chair is asking for 
a consultation with his attorneys, and the Chair will respond 
to the gentleman's request promptly.
    Mr. Dingell. I will read the rule to the Chair, if that 
will be helpful.
    Mr. Greenwood. The gentleman has stated the rule correctly, 
and the Chair recognizes the rule as stated. We'd ask that the 
gentleman politely desist for a moment.
    Mr. Dingell. I apologize to my good friend from Michigan 
for intruding into his time.
    Mr. Greenwood. The gentleman from Michigan correctly states 
his rights under the rules of this committee and that he--the 
Chair will see to it that the staff presents to the gentleman, 
promptly, the----
    Mr. Dingell. Promptly?
    Mr. Greenwood. Immediately.
    Mr. Dingell. Thank you.
    Mr. Greenwood. The Chair would also ask this of the 
gentleman. I believe that the gentleman from Michigan was here 
when Mr. Tauzin stated his concerns about the release of this 
information and the implications that it might have, and would 
simply ask the gentleman from Michigan to make his own decision 
based on his own judgment and what the--the concerns expressed 
by the full chairman, as to whether or not the chairman chooses 
to divulge that information.
    Mr. Dingell. Well, I would simply note that the chairman of 
the full committee has made this observation and is so quoted 
in the press. I don't want to be a party to releasing bad 
information to the American public. However, I would note that 
that did appear on the news media already, and since we are 
going to let this hang out, I suggest it should all hang out.
    Mr. Greenwood. I am advised by staff that the gentleman--
gentleman's request will be responded to in the following 
fashion: The material, the data submitted to the majority staff 
by the tire companies, will be copied promptly and submitted to 
the gentleman from Michigan as quickly as that can be 
mechanically done, which I would assume would be a matter of 
minutes.
    Mr. Dingell. And I am requesting that which is alluded to 
in the news article referred to by Mr. Stupak.
    Mr. Greenwood. That is the data in question.
    Mr. Dingell. Thank you.
    Mr. Stupak. Mr. Chairman, I'll reclaim my time.
    Mr. Greenwood. Your time has long since expired.
    Mr. Stupak. I realize that, but----
    Mr. Deutsch. Mr. Chairman, I ask that you grant the 
gentleman an additional 2 minutes.
    Mr. Stupak. A point of clarification, if I may. While I 
understand that the information would be released to the 
gentleman from Michigan, Mr. Dingell, I take it it would be 
released to all members of this committee?
    Mr. Greenwood. Certainly. Certainly.
    Mr. Stupak. And I also understand from the rules of this 
committee and also rules of the House, that if the information 
is deemed confidential by the committee, then it cannot be 
released publicly, whether it is Yahoo News or Detroit Free 
Press. Is that the ruling of the Chair?
    Mr. Greenwood. That is my understanding of the rules, but 
it is also my understanding of the facts that no such data was 
released by the committee staff.
    Mr. Stupak. So for further clarification, the information 
we will be receiving, the data if you will, is that considered 
confidential information, not to be released publicly? Or--as 
turned over to each committee member, we can do--since it's 
part of the record, it then becomes a public record and can be 
released?
    Mr. Greenwood. The--I am advised by counsel that there is 
no committee rule with respect to the release of confidential 
information. There are rules with respect to information that 
is obtained by subpoena. In some cases it is--requires a vote 
of the committee to release data acquired by subpoena. That 
does not describe the data in question.
    Mr. Dingell. That this data and information and papers did 
not fall into the hands of this committee pursuant to the 
subpoena process?
    Mr. Greenwood. That is correct, which is why in fact no 
vote is required.
    Mr. Stupak. And, therefore, once released to members, it 
can be released publicly as part of this record?
    Mr. Dingell. I would call on the Chair, for a prohibition 
against this being released, to please inform the gentleman 
from Michigan, Mr. Stupak, or the gentleman from Michigan, Mr. 
Dingell, as to what the prohibitions are under the rules of 
members of this committee of discussing this information in 
other places, since it has already been discussed by the 
chairman of the committee.
    Mr. Greenwood. The Chair will reiterate and hopefully 
summarize so we can get to the next line of inquiry. The data 
supplied to the committee by the--from the tire companies will 
be made available within minutes to the minority members. The 
minority members have the right, of course, to release all of 
that information publicly. I have reiterated the admonition--
expression of concern which this member believes is legitimate, 
that the use of that information--and would ask that the 
members use it responsibly, understanding--and hopefully before 
they make any decisions about releasing it, understanding what 
the data is and what the data is not.
    Mr. Dingell. Now, Mr. Chairman, that unanimous consent 
request and my demand for information included the committee 
staff analysis of this, which I am sure the Chair agrees is 
property of the entire committee and should be available to all 
members, including minority members.
    Mr. Stearns. Mr. Dingell, does that include all my notes, 
too?
    Mr. Dingell. Do you have notes? I'll tell you what. I 
promise to return your notes to you.
    Mr. Stearns. Can I get all your notes, too?
    Mr. Dingell. I haven't got any notes on this matter, but if 
I generate any, I will assure you that I will make----
    Mr. Stearns. Will the Chair allow me just unanimous consent 
to speak 1 minute on the subject?
    Mr. Dingell. What I requested, Mr. Chairman, just to make 
it very clear, is the staff analysis.
    Mr. Greenwood. Yeah. I understand.
    Mr. Dingell. Staff analysis, not the notes of my dear 
friend from Florida, although I'm sure they're probably of 
greater merit than the staff.
    Mr. Stearns. Well, thank you very much, Mr. Chairman.
    Mr. Greenwood. The Chair reiterates that the information 
that is available to the majority members of the committee will 
be made available to the minority members of the committee, and 
I would suggest that the gentleman from Michigan and the other 
members of the minority review that material when it is 
provided to you, which, as I said, will be promptly. If you 
have further questions as to whether or not it meets your 
demands, I would ask you to raise them at that time.
    Mr. Dingell. I will do so. Just to assist the Chair and the 
members of the committee, Mr. Tauzin is quoted in the press 
this morning as having said as follows: Representative Billy 
Tauzin, R., LA, the committee chairman, said congressional 
investigators have analyzed the failure rates of replacement 
tires Ford is using, including using those made by Michelin, 
Continental, Goodyear, General, BFGoodrich, and Uniroyal, and 
found some failed more often than the Firestone Wilderness AT 
tires Ford recalled last month.
    I very specifically need that, because I am sure you can 
understand the importance of this information which has today 
fallen into the public domain.
    Mr. Greenwood. As the gentleman knows, if the gentleman 
read it in the newspaper, it must be so.
    The Chair recognizes----
    Mr. Stearns. Mr. Dingell, the only thing--I'd make two 
points. One is that when this information is given to you, as 
Mr. Stupak and I talked earlier, that a lot of this 
information--you have to understand one of the assumptions that 
make up this information. And just to take this information and 
suddenly give it to the press without a full understanding--let 
me just finish.
    Mr. Dingell. I----
    Mr. Stearns. So I think the chairman is saying that each 
member has a fiduciary responsibility to decide if he's going 
to give it out, that he should know all the underlying 
assumptions.
    My second point is, all the analysis that our staff has 
done on this side is revealed in the questions we have. Most of 
these questions provide the data, together with the charts. So 
the analysis that you're seeing from our staff is transparent 
with all these charts that we're bringing here.
    So I just reiterate to the distinguished member from 
Michigan that what we're trying to do here in a bipartisan way 
is to make this information more available to the consumer so 
that the consumer can make a decision, and that's--we have no 
intent, no agenda, other than trying to make the consumer feel 
a certain level of confidence that he or she understands this 
information. So, you know, I think here we have a--perhaps a 
misunderstanding, if you don't realize that we're trying to 
provide you all the analysis, either through our questions or 
our charts.
    Mr. Dingell. Well, I want to thank the gentleman for that 
point, and I want to say that I am mightily reassured. I would 
also like to observe that I had not been given a copy of this 
analysis before and, as Mr. Stupak had to, I had to read about 
it in the press.
    Mr. Greenwood. The gentleman from Michigan has made his 
request. The Chair has ruled, and the Chair now recognizes for 
5 minutes the gentleman, Mr. Bryant----
    Mr. Towns. Mr. Chairman----
    Mr. Greenwood. Does the ranking member of the Oversight and 
Investigations Subcommittee seek to make a--raise a 
parliamentary question for----
    Mr. Towns. Yes. I'd like to make a unanimous consent 
request. Mr. Stupak's time was really eaten into by other 
members. So if we can grant him 1 additional minute.
    Mr. Greenwood. Without objections, the gentleman from--the 
gentleman, Mr. Stupak, is recognized for 1 minute for purposes 
of inquiry toward the--directed toward the witness.
    Mr. Stupak. Mr. Chairman, if I may use my 1 minute, I am 
done with inquiry. We've got what we want.
    Mr. Greenwood. Then that is inconsistent with the 
gentleman's unanimous request----
    Mr. Stupak. But I asked unanimous consent----
    Mr. Greenwood. Unanimous consent request.
    Mr. Stupak. I asked unanimous consent to keep the record 
clear--I told you I'd get back to my plaintiff trial lawyer 
days--and I ask that the record be clear that we enter in--
unanimous consent, enter in the Detroit Free Press, June 19th, 
2001 edition, Page 1 and Page 6-A.
    Mr. Greenwood. Without objection.
    Mr. Stupak. Thank you.
    [The information referred to follows:]

              [Tuesday, June 19, 2001--Detroit Free Press]

Committee Spokesman Says Ford Replaces Firestone Tires with Substandard 
                                  Ones
                           By Jennifer Dixon
    Ford Motor Co. has been replacing Firestone tires on its trucks and 
sport-utility vehicles with tires that, in some cases, have worse 
performance records, a spokesman for the House Energy and Commerce 
Committee said Monday.
    And, while the Dearborn automaker is taking tires that have not had 
problems off its vehicles, it is leaving other poor-performing tires on 
some trucks, the spokesman said.
    The chiefs of Ford and tire maker Bridgestone/Firestone Inc. are 
expected to be confronted with those findings, the work of committee 
investigators, when they testify before two Energy and Commerce 
subcommittees this morning in Washington, D.C.
    The hearing is the second time in a year that Congress has looked 
at whether Firestone tires, Ford's popular sport-utility vehicle, the 
Explorer, or the combination of the two are responsible for hundreds of 
deaths and injuries.
    Late Monday, the National Highway Traffic Safety Administration 
announced that it has now linked 203 U.S. deaths--up from 174--and more 
than 700 injuries to some of the 50 million Firestone ATX, ATX II and 
Wilderness AT tires that it has been investigating since last year. 
Many are on Ford vehicles.
    Last August, Firestone recalled 14.4 million 15-inch tires, many of 
them on the Explorer, prompting the first set of hearings.
    In May, Ford announced it would spend $3 billion to replace 13 
million additional Firestone Wilderness AT tires on its vehicles.
    Ken Johnson, a spokesman for the Energy and Commerce Committee, 
called the results of the congressional investigators' analysis of 
claims data troubling and puzzling.
    He said they found three problems with Ford's replacement program 
and the Firestone recall:
    Ford in some cases is replacing Firestone tires with brands that 
have worse track records.
    At least two other Firestone tires, the 16-inch Wilderness HT and 
the 15-inch FR480, have much higher claims rates than the ATs that are 
being replaced. The 15-inch FR480 was used on the Explorer in the 
early- to mid-1990s, while the Wilderness HTs have been used since 1995 
on the F150 pickup, the nation's best-selling vehicle.
    Some of the Wilderness AT tires being replaced by Ford have never 
had a claim against them, yet are being replaced by brands ``that have 
a spotty track record.'' Johnson said.
    ``I suspect this new information will generate a lot of interest 
among our members,'' Johnson said. ``It's common sense: You don't 
replace a tire with another tire that has a worse track record.''
    Ken Zino, a spokesman for Ford, said the company tested replacement 
tires from other companies in the lab and on the road. He said NHTSA 
looked over its list of replacement tires and had no issue with those 
tires.
    ``We are as confident as anybody can be that this a good set of 
replacement tires,'' Zino said.
    He said there are few FR480s left on the road, and that there have 
been only a handful of claims against the HT.
    Jill Bratina, a spokeswoman for Nashville-based Bridgestone/
Firestone, said the tires that Ford is replacing come from a ``universe 
of tires performing at world-class levels.''
    She also pointed the finger, once again, at the Explorer.
    ``You can take every Firestone tire off the Explorer, and the 
rollovers will continue. We believe that there are serious safety 
concerns with the Explorer and you can't look at the tire in 
isolation.''
    In addition to quizzing Ford on its replacement program, committee 
members are expected to ask why it has taken NHTSA more than a year to 
conduct its analysis of Firestone tires.
    An aide to a Republican member of the Energy and Commerce Committee 
said lawmakers would be asking ``where is NHTSA'' during today's 
hearings.
    ``Here we are, 12 months out, and we still don't know definitively 
that it's a tire problem,'' the aide said, speaking on condition of 
anonymity. ``Where is that investigation?''
    Tim Hurd, a NHTSA spokesman, said the investigation is continuing. 
Such investigations typically take a year to 18 months.
    Perhaps in anticipation of congressional scrutiny, the White House 
announced Monday that President George W. Bush will nominate a North 
Carolina doctor who specializes in emergency medicine to lead the 
safety agency. NHTSA has been without an administrator since January.
    Jeffrey Runge is assistant chairman of the department of emergency 
medicine at the Carolinas Medical Center in Charlotte and is an expert 
in motor vehicle injury care and prevention, according to the White 
House.
    In a show of support for the vehicle that has been the best-selling 
sport-utility since its introduction in 1990, hundreds of Explorers 
driven by UAW members, rolled into Washington, D.C., on Monday.
    Thousands of UAW members from Ford plants around the country are to 
receive up to eight hours a day in pay from Ford to rally behind the 
vehicle that has contributed more than any other Ford car or truck to 
their profit-sharing checks.
    ``We want to demonstrate to Congress and the public that we do 
build and assemble quality, safe vehicles,'' said UAW Vice President 
Ron Gettelfinger. ``There are millions of miles of real world history 
to prove that fact.''
    Today, they are expected to drive in a convoy of 800 Explorers, 
with police escort, around the National Mall. They also plan to rally 
at a park near the Senate office buildings at 11:30 a.m.
                       Staff writer Ruby Bailey and Craig Linder of
                    States News Service contributed to this report.

    Mr. Greenwood. The Chair recognizes the gentleman, Mr. 
Bryant, for 5 minutes.
    Mr. Bryant. I thank the Chair, and I thank the witness for 
his patience with us, as all witnesses have to endure, it 
seems. And I think back, as I prepared for this hearing over 
the last weekend and the meeting with constituents, Ford 
dealers in my district, two of which are in Washington today, I 
think driving around the Capitol as I understand from reading 
the newspaper perhaps, but also in Tennessee we have the 
headquarters for Firestone as well as a number of Firestone 
distributors, dealers that sell the tires.
    So, like I suppose everyone on this committee, we have 
interests on both sides, constituents that are directly 
involved, whether they are Firestone or Ford. And ultimately 
the reason we're all here and the reason we're not leaving this 
to the lawsuits and the many courts that will be involved in 
this at some future date, and that we're not leaving it solely 
to NHTSA, the regulators whose job it is to do these things, 
the reason we're not in this congressional committee leaving it 
to those groups now, is that we're trying to move quickly and 
determine what safety concerns there are out there, make sure 
that folks in NHTSA are doing their job, but mainly trying to 
protect the consumers' interests, I guess, is the bottom line.
    And after our first hearing last September, I was here and 
heard different people testify on behalf of Ford and Firestone 
and NHTSA. We thought maybe this process was moving along 
toward cooperation and repairing this problem. I know there was 
a problem in the Firestone--I think it was the Decatur, 
Illinois plant--and there was a recall of those tires, and we 
assumed it was rectified and the American consumers were safe 
again.
    And then we get into a situation where we start reading 
about finger pointing, and it--from an outsider's view, it 
doesn't appear that there's very much cooperation between 
Firestone and Ford. And every day it seems there's a different 
story, accusations being swapped and expert witnesses and 
statistics and so forth, charges being made.
    And I'm just wondering, Mr. Nasser--I know specifically you 
said that you pledged to this Congress to cooperate and--with 
Firestone--help get to the bottom of this. And I just wonder, 
as I hear from Firestone people, that perhaps that was not--
they couldn't get the information they needed from Ford. You 
told Mr. Stupak earlier that you had shared information with 
Firestone since that hearing. Where--very quickly, I guess, 
because I have a couple of other questions--where are we on 
that cooperation, or have we just all backed away and hired 
lawyers and hunkered down?
    Mr. Nasser. I think that is a good question, and obviously 
if you--to read the press, you would believe that we are in a 
bitter feud. I don't think that's the case at all. We have a 
viewpoint about our customers, and we're trying to protect 
their safety. And I think Firestone would basically agree with 
that. They have a different viewpoint, and I think they're 
entitled to it.
    We have had very good cooperation with Firestone since the 
last time we met. I think there have been something like 48 
different meetings and interactions between the Ford tire team 
and technical people and scientists and the Firestone people. 
And there have been an incredible--millions and millions of 
pages of documents, that have verified the testing and the lab 
work and the rig testing and the field data between the two 
companies at a very high level in the company.
    In addition to that, we set up a Web site where we 
basically deposit all of the data that we have. And it was 
interesting, before I came along here I said, I wonder how many 
times the Firestone company people have accessed that Web site, 
and they have accessed it over 40,000 times. So I would say the 
face-to-face interaction with Firestone has been great in terms 
of data exchange, and the signer interaction obviously has been 
very active as well. It is an emotional issue when you're 
dealing with customer safety. So we understand the emotion and 
passion around it.
    Mr. Bryant. And I appreciate your answer. You know, it is a 
shame that such a longstanding relationship of probably a 
hundred years is in jeopardy, and maybe well beyond that at 
this point. But, again, I know both companies are vitally--as 
you say, vitally interested in the consumers' safety. And I--I 
was struck as I moved about the district talking to my two 
dealers this weekend, at different ends of the district, with 
the chart that you've used that shows Firestone having 1,183 
separations and Goodyear 2. And coming from a practice of law--
and when I've used charts and put together information, you 
always have to look at the underlying data. And I bring that up 
not to question anyone's ethics or honesty in this, but I see 
another chart that conflicts with--I guess just really the 
backup chart to that in terms of the climate and where these 
Explorers were sent in relation to hot States. And I see Ford's 
as this, and I see one from Firestone that shows substantially 
different numbers that supposedly are based on information from 
Ford.
    And now I just wonder, as we look at the first chart again, 
the underlying data, is that--is that really a reliable 
picture?
    Now, we've talked today about context and things of this 
nature. I think back to the hearing, and we had, you know,--of 
the Decatur tires in there, the situation that Firestone has 
rectified, and that is not really at issue here--you know, or 
the B grade tires versus the C grade tires issue, has that 
taken into consideration apparently the fact that apparently 
Goodyear has supplied B grade and Firestone C grade at the 
request of Ford? The climate issue, where more of the Firestone 
tires in the southern hot areas--which we all understand is 
very important in this issue--than the Goodyear tires on the 
Explorers? Because, again, there are different charts here, the 
recommendation I recall back from the last hearing that Ford 
seemed to make that--on psi inflation to the tire that was 
lower than what Firestone recommended for their tire and the 
tire safety, and these issues--well, I guess my bottom line on 
this--and I have some other questions I could ask. You can use 
statistics and experts--you know, I've seen it used in courts. 
And one says the sky is falling. The other says it is not.
    In the end, what we're trying to do in this hearing is 
protect the American consumer. It seems to me it would be in 
the interest of both companies to come together--you're going 
to end up together in a courtroom, against some other folks, 
probably, that were injured in this--these--or the heirs of 
people that were killed in some of these accidents. So it seems 
to be in your interest to come together and work to get to the 
bottom of this so that we can be safe and confident that if 
we're driving Explorers around with Firestone tires, we're 
going to be safe and in other vehicles with those tires and 
other SUVs.
    And I would just encourage you to do that, and I'm going to 
ask the same thing from Mr. Lampe when he comes in next. And I 
probably know him a little better than I know you, and I feel 
confident that he will do that, and Firestone has that 
interest, too. So I would ask that, and since I am being 
gaveled now, I will yield back the balance of my time.
    Thank you.
    Mr. Greenwood. Thank you. The gentleman's time has expired. 
The Chair recognizes the gentleman, Mr. Doyle, for 5 minutes 
for inquiry.
    Mr. Doyle. Thank you, Mr. Chairman. Mr. Nasser, welcome.
    Mr. Nasser. Thank you.
    Mr. Doyle. I'm a new member to the committee, so I wasn't 
here last year when you appeared, but it's my understanding 
that back then, that obviously it's a fair statement to say 
that contrary to some of these statements last year at the 
committee hearing, that Firestone and Ford can't seem to agree 
on what the root causes of the tire problem is. That's--you 
don't agree with that? You don't agree on what, or--or you 
haven't been able to agree on what the root causes of this tire 
problem is?
    Mr. Nasser. I would say generally that's an accurate 
statement.
    Mr. Doyle. Now, it's my understanding that last year, it 
was suggested that an outside consultant take a look at this, 
and it's my understanding that Firestone did hire an outside 
consultant to study the problem and that your study was done 
in-house. Is that correct?
    Mr. Nasser. We did a study in-house, but also cooperated 
with the--are you talking about the Govindjee study----
    Mr. Doyle. Yes----
    Mr. Nasser. [continuing] that Firestone undertook?
    Mr. Doyle. Yes.
    Mr. Nasser. Yes, but there was cooperation between us on 
that study as well.
    Mr. Doyle. I see. But you also did a study and yours was 
done in-house?
    Mr. Nasser. Yes.
    Mr. Doyle. But I did hear you say to Mr. Stupak that you're 
not opposed to this idea of an outside independent group 
studying this problem; a blue ribbon panel, as Mr. Stupak 
referred to it?
    Mr. Nasser. Our preference, obviously--and this is what we 
said last time and this is what we concluded with Firestone in 
October of last year--is that we provide all the data to NHTSA, 
who are in the best position, we believe, and I think the 
committee believes, based on what I've heard earlier in the 
opening comments, to be able to make an independent review of 
all the data of the tires and of the vehicles and comparable 
peer SUVs.
    Mr. Doyle. So then you'd agree--I mean, the Congress and--
or the American public is not going to be able to resolve your 
dispute here. I mean, some of us up here have the expertise to 
ask some questions and we know that statistics can be 
manipulated to either person's benefit. But we're not engineers 
up here. I guess that, you know, a lot of people back in my 
district and across America are wondering who's going to give 
them the definitive answer as to what the cause of this tire 
failure is, so that they can have confidence when they go out 
to buy an automobile or a tire and----
    Mr. Nasser. We agree with the American public. That's why 
we stopped debating and we stopped talking and we stopped 
discussions and we acted. And that's what the 13 million 
Firestone tire replacement plan is all about.
    Because we are sick and tired of debating and fighting on 
this issue. Our customers want it resolved and they want those 
tires off the road. And that's what we're doing. So I agree 
with you. You're absolutely right; let's stop this discussion 
and debating and analysis and finger-pointing, if that's what 
you want to call it, and act for the benefit of our customers. 
And that's what we did.
    Mr. Doyle. Thank you. Can you describe the difference for 
the committee--I am just--the difference in usage and 
engineering between Ford Explorers and Ford Rangers?
    Mr. Nasser. Well one is a pick-up truck, and obviously it 
has different use than a sport utility vehicle which tends to 
be more of a passenger-type vehicle.
    Mr. Doyle. Now, do tire companies manufacture tires to 
different standards for SUVs and trucks or are they the same?
    Mr. Nasser. In some cases they're the same. In some cases 
they're different. If where you are going is should we be using 
the same tire on a sport utility vehicle and a pick-up truck, 
in actual fact the specifications are adequate for both, and 
it's not uncommon in the industry to have a similar performance 
tire across different derivative fronts.
    Mr. Doyle. So it wouldn't have been uncommon to have the 
Firestone tire on the Ranger and on the Explorer?
    Mr. Nasser. It's been that way for a long time.
    Mr. Doyle. Thank you very much. I yield back my time, Mr. 
Chairman.
    Mr. Greenwood. Gentleman yields back the time. The Chair 
recognizes for 5 minutes for inquiry the gentleman, Mr. Terry.
    Mr. Terry. Thank you. I appreciate that opportunity.
    Sir, if you could help me just kind of get down to the 
lowest common denominator here, I read through inches of 
material, and if you could help me in defining if defect--
because we have heard testimony about tire pressure, load, heat 
variances, but specifically--and we've also heard a variety of 
testing, field testing that shows something is wrong, shows the 
belt is coming apart.
    Now you have done a variety of advance testing, more field 
testing under controlled circumstances, laboratory testings. In 
a layman's way that we as laymen can understand, what has Ford 
determined to be the specific defect or defects of these 
Firestone tires?
    Mr. Nasser. You can't summarize it with one defect, 
unfortunately.
    Mr. Terry. It's multiple.
    Mr. Nasser. It is very complicated and it varies, and it 
isn't only tire design and temperature and wedge strength and 
peel strength but it's also variability in the design process, 
because it seems as if the design changed over a period of time 
and variability within the manufacturing process of the 
Firestone plants.
    Mr. Terry. That's interesting, because I was going to ask 
you to break it down into whether or not these defects that you 
found were part of design or manufacturing, and you're saying 
it's combination of both. Could you be specific about what type 
of design defects have been found by Ford that they believe 
lead to this problem and the manufacturing process as well?
    Mr. Nasser. Well, it's difficult to be specific because it 
varied depending on the period of tire manufacturer. It really 
did vary year by year. In addition to that, what is very 
unusual is that when you look at the Firestone tire performance 
by plant, by Firestone plant, it varies dramatically. Which 
further indicates that the vehicle itself, the Explorer, is the 
same vehicle; yet there is tremendous variability depending on 
where the tire comes in from, and we know the Explorer is a 
superb vehicle and a very intelligent vehicle, but I don't 
think it can sit back and say this is a Decatur tire, I don't 
want to behave now; this is an Aiken tire, I will behave now. 
So there's just so much variability between plant and design 
and, we think, manufacturing process.
    Mr. Terry. Well, I guess that's what's at the heart of 
trying to figure out the scope of the recall, for want of a 
better word.
    Mr. Nasser. Which is one of the reasons we, in the end, 
said, look, we can continue to study this for many, many more 
months and face the situation of increasing tragedy on the 
roads, or we can act now in the interests and the safety of our 
customers. And we decided to act. It wasn't an easy decision, 
yet it was easy once we really got down to the priority of 
protecting our customer.
    Mr. Terry. Thank you. I'll yield back. I yield to you, Mr. 
Bryant.
    Mr. Greenwood. The gentleman yields time to Mr. Bryant.
    Mr. Bryant. Yes, Mr. Nasser, while you were mentioning 
that, it reminded me of a question I had in terms of what is 
being done to improve the tires. As I understand, the year 2001 
Explorer is also being redesigned to some extent. Particularly, 
would you share with this committee those redesigns, those 
improvements to safety as they pertain to the stability of the 
vehicle?
    Mr. Nasser. Well, it's a 2002 Explore, and many of the 
gentlemen in the room today drove them for hundreds of miles 
across the country to be here with us this morning. We did take 
the opportunity to redesign the Explorer. It's a superb 
vehicle, the 2002 model. But it's got big shoes to fill because 
the Explorer--the previous Explorer had been around for 10-
years, over 10 years, and it had one of the best safety records 
anywhere in the world for a sport utility vehicle. It was the 
top selling sport utility vehicle in the U.S.A., the top 
selling sport utility vehicle in the world.
    But you get to a point after 10 years where you do need to 
take the opportunity to upgrade it substantially, and we did, 
and we upgraded it primarily to make the interior more 
efficient because we wanted to go to three-row seating and 
seven-passenger seating with the Explorer. We went to an 
independent rear suspension in the rear so that we could get 
better ride, but primarily to get better space sufficiency in 
the rear. And, you know, things have moved on over the years, 
and we've taken the opportunity to upgrade it in almost every 
respect.
    Mr. Greenwood. Time of the gentleman has expired. The Chair 
recognizes the gentleman from Massachusetts, Mr. Markey, for 5 
minutes.
    Mr. Markey. Thank you, Mr. Chairman, very much. I'll begin 
by saying that while I know that there's still a dispute as to 
whether or not the minority, the Democrats, are going to 
receive access to the analysis that's been done by the majority 
as to these additional tires that may be endangering the 
American public, that the contention that is being made is that 
the information is still incomplete, and as a result can't be 
shared with us. But if the information is incomplete, then it 
shouldn't be used to scare the American public either. I think 
that at a point at which you had completed your analysis, you 
should have presented it both to us and to the American public, 
but to not use incomplete data.
    Mr. Greenwood. If the gentleman will yield, it has not been 
the statement of the majority, of this Chair, or any other 
Members that the data is incomplete.
    Mr. Markey. If the data is not incomplete, then we should 
receive the analysis. If the analysis is incomplete, then it 
should not be commented upon until it is complete. You can't 
have it both ways, and releasing it partially in terms of 
results that you think may ultimately be proven to be true in a 
way that scares the public but also damages companies and then 
say that it cannot, that same information cannot be given to 
the minority, to the Democrats, that so we can analyze it as 
well.
    I thought we did a good job last year actually working 
together. In fact, the TREAD Act does include two amendments 
which I was successful in having the committee adopt. One was 
to have NHTSA establish a dynamic rollover consumer information 
program so that consumers were better informed about the 
likelihood of certain vehicles to roll over in particular 
situations, and NHTSA hopefully is in the midst of a very rapid 
rulemaking on that issue so that the public can get the 
information.
    And second, I authored an amendment which requires NHTSA to 
develop an early warning system in vehicles to alert drivers 
when their tires are significantly underinflated, again more 
information for consumers so they can protect their own family. 
I hope that they're moving as well, NHTSA, rapidly toward 
putting those rules in place.
    Mr. Nasser I'd like to discuss with you a little about the 
design and development of the Ford Explorer. Most vehicles are 
designed with something called understeer. Understeer means 
that your wheels turn less than how far you turn your steering 
wheel in the car. This is designed for stability reasons.
    Firestone's outside expert found that the opposite 
phenomenon, oversteer, happens to a greater degree than on 
other similar vehicles when one of the tires detreads. In other 
words, Firestone says that a driver of a Ford Explorer is at 
greater risk because the car will oversteer, the wheels will 
turn further than the operator turns the steering wheel. This 
creates obvious instability and increases the likelihood of 
Explorer rollovers.
    Second, Firestone alleges Ford cut safety corners on their 
tires by reducing recommended tire pressure for the Explorer.
    And third, Firestone notes that one of the key factors in 
tire safety and design is the anticipated load placed on those 
tires. Firestone notes in its testimony that over time, Ford 
actually increased the weight of the Ford Explorer.
    I'll quote from Firestone: In fact, through 1996, Ford 
continually added weight to the Explorer. In 1990 the 4x4 4000 
Explorer increased from about 5,000 pounds to nearly 5,400 
pounds in 1993 to well over 600 pounds in 1996. It is no 
surprise that a significant majority of claims that Firestone 
has received is on the heavier Explorers, unquote.
    That's from Firestone. Did you ask for redesign of these 
tires when you increased the Explorer's weight? So if you could 
deal with those issues, the oversteer issue, the question of 
design, and also the question on the load placed upon the 
tires?
    Mr. Nasser. We have looked at the study that Firestone 
commissioned on the handling of sport utility vehicles and we 
think that study is seriously flawed. We do not agree with it, 
and we think the sample for the testing was inadequate to draw 
any meaningful conclusions at all. They used 3 vehicles 
compared to 15 that we used. They tested a limited number of 
models. They only tested on one road surface. They did not test 
under actual event of tread separation. And the data is 
inconsistent with real world data.
    We then looked at the criteria that they used. By the way--
understeer, oversteer--in the end, you want a vehicle that's 
responsive and the Explorer is a very responsive vehicle. But 
we used the criteria that Firestone used in terms of vehicle 
handling, and we looked at 19 other vehicles. Twelve of the 19 
vehicles would fall outside of the criteria that they 
established as a good handling vehicle. And the interesting 
thing is the more modern vehicles, the vehicles such as the 
new--they tested the old Chevy Blazer. You test the new Chevy 
Trailblazer, interestingly enough, it's very close to the old 
Explorer in terms of understeer or oversteer. So the bottom 
line is, from a handling viewpoint, Explorer performs extremely 
well and we think well balanced to not only handling but for 
accident avoidance.
    Mr. Greenwood. Time of the gentleman has expired.
    Mr. Markey. He did not answer my question.
    Mr. Nasser. I'll answer.
    Mr. Markey. Did you ask for a redesign of the tire when you 
increased the load inside of the Explorer that the tire had to 
carry? Did you ask Firestone to redesign the tire?
    Mr. Greenwood. Would the gentleman request a unanimous 
consent for an additional 30 seconds?
    Mr. Markey. I ask unanimous consent for an additional 30 
seconds.
    Mr. Nasser. It is insignificant, all that you're looking at 
that there----
    Mr. Markey. You're saying the load increase was 
insignificant?
    Mr. Nasser. The vehicle weight of the Explorer increase was 
insignificant. The data that you're looking at there is not 
apples to apples. What they did, if you go back and look at the 
Explorer, there are optional--there was optional equipment on 
the Explorer that was made standard. That optional equipment 
was heavily marked as options by our customers. So there wasn't 
a very large increase in weight at all insignificant.
    Mr. Markey. Five thousand pounds to 5,600 pounds is more 
than a 10 percent increase in the weight of the vehicle.
    Mr. Nasser. That does not take into account optional 
equipment. The 5,000 pounds on the 5,600 hundred pounds is 
standard equipment. If you add a typically equipped vehicle the 
difference is very small. We can share that data with you.
    Mr. Greenwood. Chair recognizes the gentleman from 
Michigan, Mr. Upton.
    Mr. Upton. Thank you, Mr. Chairman. I am sorry I'm a little 
late. I caught a red-eye back from the other side of the 
country to come back this morning. And as you know, I was an 
author, I was the author of the TREAD Act, an act that looked 
at the many problems over the last couple of years, 
particularly as it related to the Firestone recall last year.
    And I have a little story to relate. Part of it is from my 
Chairman, Billy Tauzin, who tells the tale that because of the 
hearings that we had last fall, a dear colleague of ours, Jack 
Field's wife, checked her tires and in fact there was a 
problem. She wouldn't have known about the situation unless she 
had checked.
    My daughter's a Girl Scout. She just came back from a trip 
a couple of weeks ago caving, and we stopped at the house next 
door to--a neighbor's house, who was one of the Girl Scout 
leaders, and I saw he drives an Explorer, and I saw a pile of 
tires in his garage. These tires were not recalled, but they 
should have been, could have been; because in fact when you 
press down on this one, when they took them into the local gas 
station for inspection and wanted them rotated, thank goodness 
the mechanic said--and I think it's right here--press down on 
them, you can see that they're about ready to separate. These 
tires were never on the recall list, but thank God he checked 
them out. And the mechanic said, I think you ought to replace 
them, and he did.
    That to me underscores your statement a little bit earlier 
that I heard about increasing--Ford not wanting to increase the 
tragedy or act, we would have seen with some of these Firestone 
tires on behalf of the consumer, your customer. And in all of 
the discussions we've had over the last couple of weeks, I 
believe that very strongly; that you in fact did realize that 
there were more tires on the road that should have been 
replaced, going far beyond what the recall did this last year. 
These tires might have taken the life of my daughter, might 
have taken the life of our colleague, Mr. Fields.
    Thank goodness the work of this committee and the TREAD Act 
were able to expose a number of the flaws so that in fact we 
could take those tires away from folks who might have had a 
real tragedy in their home. And I want to thank you for Ford's 
action on replacing those.
    This morning getting on the plane in Denver and coming 
back, I saw the story in USA Today. This afternoon I read the 
Post story about the Explorer probe, but considered some 
headline accident data under review, official to say. When did 
you find out about these charges that came out in the press 
today?
    Mr. Nasser. Congressman, the charges relating to the tires 
or----
    Mr. Upton. The charges that in fact you were replacing 
tires with greater flaws than the one you had been--were on the 
tires themselves. Were you aware of this before today's 
hearing?
    Mr. Nasser. We were not, and there's been considerable 
discussion on that.
    Mr. Upton. I'm sorry that I missed that because I literally 
just got off the plane and drove in from Dulles.
    Mr. Nasser. Mr. Chairman, I think I'll leave it to you----
    Mr. Upton. Is there going to be ample time for you to be 
able to respond to that?
    Mr. Nasser. Yes. Where we came out, Congressman, is that if 
that data is true, then we'd like to see it. And Chairman 
Tauzin said let's have 30 days to look at this. I said let's 
take 30 minutes, let's look at it, and if it's real we'll--
we'll change the--the recall tires that we've got out there; 
and if it isn't, then let's not scare the American public. It's 
as simple as that.
    Mr. Upton. You know, this last weekend in Michigan, I 
chatted with all of my Ford dealers in West Michigan that I 
represent, and they felt that Ford was doing the right thing. 
They felt that the customers themselves coming in, they thought 
that there were adequate material that was being presented. 
There wasn't a panic like perhaps there had been before, and we 
had worked with a number of my constituents who are very 
fearful about driving on the tires that were being recalled 
last year. But I want to compliment you on what you have done 
and the challenges that you're undertaking.
    I see my time has expired, so I would yield back. Thank 
you.
    Mr. Greenwood. Time of the gentleman has expired. The Chair 
recognizes the gentleman, Mr. Sawyer, for 5 minutes.
    Mr. Sawyer. Thank you, Mr. Chairman.
    Mr. Nasser, the good part about this means you're close to 
the end. I want to touch on three points that are really more 
prospective than retrospective. It goes to the question of how 
we deal with this sort of problem in the future.
    I agree with you when you say on page 13 of your statement 
that we, Ford, will not accept that a tread separation is a 
normal foreseeable event that manufacturers must accommodate 
through vehicle design, as asserted by Firestone. I agree with 
that. But I'm sure you would agree with me that there are many 
different causes of tire failure, some of which have nothing to 
do with design but have to do with road damage and abuse of 
various kinds. I am really concerned about unrealistic 
expectations of performance, not only for tires but for 
vehicles, anything that can be abused in a practical road 
situation. So when Ford went to NHTSA earlier in the year and 
in its presentation in March asserted, I quote, Explorers have 
a margin of safety, as designed, to accommodate to a reasonable 
level component failures including tread separation, I want to 
ask you what is a reasonable level?
    Mr. Nasser. If you look at the market situation, real world 
field data, in 90 percent of examples, Explorers and other SUVs 
are very manageable with a tread separation incident, and in 10 
percent they are not. And every one of those incidents is 
tragic, but that's the way it is. A tread separation is a 
catastrophic event and it is virtually impossible to design a 
vehicle around such a catastrophic event.
    Mr. Sawyer. There are many different circumstances 
involving tire failure, however. As Goodyear, as you asserted 
in your testimony, wrote: While tire--tread separation is a 
rare occurrence for tires, everyone needs to understand that it 
is a condition that can occur through misuse, abuse, 
overloading, severe underinflation, accidental road hazard, and 
so forth.
    Is that not a reasonable assumption--and I am trying to get 
at--here's what I'm trying to get at. We are going to ask NHTSA 
to put some standards on what we see as appropriate levels of 
concern that are raised by real world data. And you talk about 
what is a reasonable level that a vehicle and a tire together 
ought to be designed to in order to deal with component 
failures, including tread separation.
    And I'm trying to get at a--at a very basic question; and 
that is, how do we measure that?
    Mr. Nasser. I don't think we know at this point. And as I 
recall, NHTSA had until June of next year to work with the 
industry to develop these tire standards, and I think it will 
take that long to do it. It's complex and it's important.
    Mr. Sawyer. I couldn't agree with you more, particularly at 
a time when we are seeing tire production techniques change, 
not only in this country but European manufacturers as well. I 
think we can probably foresee a time when much, much shorter 
production runs and much more careful tailoring of a tire to a 
vehicle will be the case. That will reduce the base on which 
failure rates will be calculated. Do you believe that that 
ought to be taken into account, where instead of talking about 
a million tire runs, we're talking about 25,000 tire runs?
    Mr. Nasser. You'd have to ask a tire expert on that. I 
don't think so actually, when you look at some of the new 
manufacturing facilities--and we talked about Firestone's Aiken 
plant. That's a high-volume plant and it's able to produce what 
seems to be at this point at least very good tires.
    Mr. Sawyer. In our last hearing--this is the final point, 
and then I just have a request to make of you--you talked about 
Ford's commitment to doing early warning. What I was talking 
about a moment ago is statistical early warning. It seemed to 
me that you were talking about direct pressure measurement 
early warning systems within the vehicle. It seems to me that 
some of your competitors are talking about using ABS-derived 
sensory information. That's secondary. I would hope that you 
could share information with this committee about what 
direction we ought to urge NHTSA to go.
    Mr. Nasser. We will share that direction and specification. 
More than that, we're absolutely moving on it. We're 
incorporating inflation gauges in our vehicles, almost as we 
speak, and we'll lay out the plans that we've got in terms of 
the other technology that's coming into vehicles across the 
board.
    Mr. Greenwood. Time of the gentleman has expired.
    Mr. Sawyer. Could I make one request?
    Mr. Greenwood. Does the gentleman have a unanimous consent 
request?
    Mr. Sawyer. I would have a unanimous consent request. It--
this is almost personal. It is personal. I have been driving 
your Mustang for the last 15 years and I have really enjoyed 
your vehicles. Could you get somebody in your company to tell 
me why, from my last Mustang 2 years ago, asking for the same 
car, my lease price went up 30 percent?
    Thank you. Yield back, Mr. Chairman.
    Mr. Greenwood. The Chair notes that the--it will now 
recognize the chairman of the full committee for a second round 
of questioning for this witness. Chair notes that under the 
rules of the committee, each member is thus entitled to a 
second round of questioning. No member is obligated to take a 
second round of questioning. I recognize the chairman for 5 
minutes.
    Chairman Tauzin. I thank the Chair.
    Mr. Nasser, let me get back to the question of replacement 
tires because it continues to plague us. Let me first put on 
the record that our committee requested by letter information 
from other tire manufacturers regarding claims data on their 
tires so that when we might do a comparative analysis--and 
copies of that letter was--those letters were sent to the 
minority. We also informed the minority that data had been 
received and it's available upon request. My information is 
it's been shared with the minority since that request. And so 
that information, the raw data we received, is available. NHTSA 
hasn't analyzed some of their claims data and forwarded it to 
us, which is available publicly, and that indicated there were 
some tires that were going to be used in the replacement 
program that had less than--a claims history that was less 
favorable than some of the tires that are being replaced. 
That's part of the record as well.
    Staff analyzed the raw data, and it's the analysis of that 
raw data that forms the difference of opinion as to whether it 
ought to be made public until NHTSA has reviewed it. I have 
taken the view that we ought to at least give NHTSA a chance to 
review that analysis to make sure it is correct before we 
identify that that information is accurate to the American 
public, but we'll continue our discussions on that.
    In that regard, Mr. Nasser, Ford did do some tests on the 
replacement tires as I understand, but again staff indicates to 
me that while Ford ran vehicle handling tests with some of the 
replacement tires and rig tests on most of the replacement 
tires, that the test parameters are very different from the 
test parameters that were set for the earlier tests with all 
the Firestone tires. Is that accurate?
    Mr. Nasser. I don't know whether that's accurate or not.
    Chairman Tauzin. Well, we're told that, for example, that 
the rig test runs on the replacement tires were all conducted 
at 26 psi with a load of 1,500, with no variation in the test 
for speeds--which speed was a very important variation--but 
load and pressure were not varied while speed was varied, my 
understanding is. The bottom line is that our information is 
that the replacement tire tests were conducted under different 
parameters than the Firestone tire tests, and if that is so, 
how could Ford be sure that the tires you're going to replace 
these Firestone tires with are in fact better than the tires 
that you're recalling?
    Mr. Nasser. We will sit down and discuss the different test 
parameters, but in the end we always go back to the field data, 
and that's why I was so concerned with your comment; because if 
the field data suggests that one of those tires doesn't meet 
our standards, then we'll act.
    Chairman Tauzin. Well then, the next question obviously is 
did Ford request the claims data from the other companies who 
manufacture these replacement tires?
    Mr. Nasser. We have the claims data and we--and we asked 
NHTSA if they had any data that would suggest that any of these 
tires were inappropriate.
    Chairman Tauzin. Did you actually request them from other 
companies? You see, we did, and that is the raw data we're 
discussing. It--did you discuss the same data.
    Mr. Nasser. I don't know what data you have, but we asked 
for data as well.
    Chairman Tauzin. From the other companies?
    Mr. Nasser. Yes.
    Chairman Tauzin. All right. And then you also asked NHTSA, 
as I understand it, for whatever claims data they had on these 
replacement tires. Is that correct?
    Mr. Nasser. No. We asked them whether they had any safety 
defect review on any of the tires that we selected.
    Chairman Tauzin. Okay. In regards to the claims data that 
you had on the replacement tires, can you share with us what 
your analysis told you?
    Mr. Nasser. I don't have that with me, but we can share it 
with you. I'll file it after the meeting if you wish to see 
that.
    Chairman Tauzin. It would be very important if we could 
have that on the record. Let me explain what is going on here 
so everyone can know. We just went through a recall of 
Firestone tires last year. In many cases I was one of those 
Explorer owners who had to go through recall. I got Goodyear 
tires, but a lot of other owners got other Firestone tires. And 
now those Firestone tires are being replaced in this new Ford 
recall or replacement program. And the concern expressed is are 
these owners going to be putting on another tire that they have 
to replace later on, because we find out later on that this new 
replacement tire turns out to have been maybe even worse than 
the tire that they're replacing. And so far at least, NHTSA 
tells us that may be true with some of the replacement tires.
    The raw data we received under our analysis tells us that 
also may be true. That's why I'd like to get this verified by 
NHTSA, and if that's true and we present that to Ford, I'm 
asking in advance what will Ford's obligation be with that 
information?
    Mr. Nasser. Well, if the information is valid and it's 
true, we would obviously react very quickly. While you were out 
of the room, I said we wouldn't wait for 30 days; if the data 
is accurate, we would revise the tires that we're replacing. 
That's a very serious situation, in fact, that is the--if that 
is the case.
    Chairman Tauzin. Thank you very much. I yield back, Mr. 
Chairman.
    Mr. Greenwood. Chairman yields back. Chair recognizes the 
gentleman from Michigan.
    Mr. Dingell. I would seek recognition at this time for 
purposes of a colloquy with my friend, the chairman of the full 
committee.
    Mr. Greenwood. The gentleman is recognized for 5 minutes.
    Mr. Dingell. I'll be as brief as I possibly can. Mr. 
Chairman, I understand your concerns about hurting some of the 
tire manufacturers, and I have no desire to do that, by 
untimely release of the raw data. I am troubled about two items 
which appeared in the paper this morning. And I'm referring--by 
error I said Yahoo--but in point of fact it is AP-U.S.
    It says as follows: Representative Billy Tauzin, our 
Louisiana committee chairman, said congressional investigators 
have analyzed the failure rates of replacement tires Ford is 
using made by Michelin, Continental, Goodyear, General, B.F. 
Goodrich, and Uniroyal, and found that some fail more often 
than Firestone Wilderness AP tires Ford recalled last month.
    It goes on to say: Ford is going to replace these recalled 
tires with tires that have a worse claims history than some of 
the tires that are coming off the Explorers, Tauzin said. For 
example, our investigators have learned that one of the tires 
that is going to be used in replacement has claims of 124 per 
million tires, well in excess of the 5 claims per million that 
Ford say is the benchmark in this recall.
    It goes on then to say as follows: Tauzin spokesman Ken 
Johnson said the committee found two additional Firestone tire 
models used on Ford vehicles. The Wilderness HT and FR-480 had 
higher rates of claims for property damage than the Wilderness 
AT.
    Then it goes on, skipping a paragraph, says--it says as 
follows: Tauzin refused to make his data public yet, saying he 
wanted Federal safety officials to analyze the information 
first.
    Now, Mr. Chairman, with great respect and affection for 
you, I am not quite sure whether you are telling the committee 
here that these tires have, on the basis of careful analysis by 
the committee staff, a worse record of safety than those 
which--than the Firestone which they're replacing, or that you 
are not sure as to whether this data has been properly analyzed 
and we have the information.
    I am very much troubled about this. I am willing, if we are 
making charges about this, of this character, to have the whole 
business made public and let the necessary Federal agencies, 
the Ford people, the Firestone people, or the manufacturers of 
the other tires to make whatever comments, so that this 
committee and the public at large may arrive at the necessary 
conclusions.
    I think my major concern here, Mr. Chairman, is has there 
been a good-hearted analysis by the committee staff which 
relates to the comments that you have made earlier, or do we 
need further work by the committee staff?
    Mr. Greenwood. Does the chairman wish to respond?
    Chairman Tauzin. If the gentleman would yield, first of 
all, I have no doubts about the numerical analysis done by the 
subcommittee staff. I think it's accurate and the numbers cited 
in that news story, although I didn't write the news story, I 
think are equally accurate.
    If the gentleman would continue to yield, what we're 
concerned about is the significance of claims data as it 
relates to the safety of the replacement tires. And it is the 
significance of that claims data that I would very much 
appreciate a chance for NHTSA to comment on before we--before 
we claim or make the claim that this replacement tire is in 
fact a worse safety tire than the Firestone tire it will 
replace.
    If I can continue for just a second?
    Mr. Dingell. I will be happy to continue yielding to my 
friend.
    Chairman Tauzin. The fact is that claims data is not the 
only data, as I understand it, that Mr. Nasser has used in the 
Ford analysis, and I don't believe it's the only data that 
NHTSA uses in its analysis. And while it's important data, its 
significance in relation to other data may be large or small, I 
don't know. And it's not out of concern so much for the 
companies and their tires as it is with putting out information 
that may or may not be significantly valuable in terms of 
saying don't put that tire on your car yet. And the reason we 
have raised the issue with Mr. Nasser and the reason I'd like 
NHTSA to further evaluate our own staff's analysis of this raw 
data is that, if in fact these numbers are significant, that 
NHTSA and our committee can properly advise the Ford Motor 
Company, so as Mr. Nasser has said, he would take immediate 
steps to make sure that in fact a tire that is in fact better 
is replacing a tire that's worse, rather than the reverse.
    Mr. Dingell. Well, I would simply observe what my good 
friend says is significant; if these data are insignificant, 
why are we making public statements? I would note here that the 
chairman of the committee said this morning. He said, ``and 
found some to fail more often than the Firestone wilderness AT 
tires Ford recalled last month,'' referring to the analysis by 
committee investigators. And what I'm trying to establish is, 
everybody who's looking at a Ford vehicle, thinking about 
buying them, they're wondering whether this recall is in fact 
going to work. Ford is going to spend $3 billion to recall, and 
yet here our investigators are saying that these tires that are 
being replaced are less safe than those that are being pulled 
off the tire.
    Chairman Tauzin. Would the gentleman yield?
    Mr. Stearns [presiding]. The gentleman's time--time of the 
gentleman has expired.
    Mr. Dingell. I didn't know I was limited. I thought I was 
having a colloquy with my chairman.
    Mr. Stearns. Well, I'd like to----
    Chairman Tauzin. I would ask that the gentleman have an 
additional several minutes so we might finish.
    Mr. Dingell. With respect to my two very dear friends, the 
presiding officer of the committee, and my dear friend, the 
chairman of the committee, I have got to decide what I am going 
to do about the release of the documents which have been 
discussed by the staff of the committee and by my dear friend, 
the chairman of the committee.
    Chairman Tauzin. Would the gentleman yield?
    Mr. Dingell. Yes.
    Chairman Tauzin. Let me try again. The Chair has not said 
and cannot say whether these replacement tires are less safe or 
more safe than the Firestone tires that were replaced. What the 
Chair is concerned about is that Ford, in its evaluation of the 
Firestone tires that are the subject of the recall, indicated 
to us that a 5 claims rate per million tires was the benchmark 
upon which a decision was made to consider replacing the 
Firestone tires. It was one of the benchmark considerations.
    What we have pointed out is that our information is that 
some of the replacement tires far exceed this benchmark. NHTSA 
has similarly pointed that out to this committee and the 
inquiry that if there are tires with higher than 5 per million 
failure rate claims records, is that a significant variation, 
so that in fact Ford may wish to consider using a different 
replacement tire if other indications are that that tire may 
not be safe.
    Mr. Dingell. Well, you know--and to reclaim my time, and 
again with great respect for you, Mr. Chairman, let me--let me 
just read that--it's remarkable what a fellow can learn by 
reading in the newspapers.
    I note here and it says--I'm quoting this--and I give 
credit to AP-U.S., said--House Commerce Committee spokesman Ken 
Johnson said the congressional investigators will reveal the 
results of their analysis into failure rates of several tire 
brands during a hearing Tuesday. Johnson said the analysis 
would show that some of the replacement tires Ford is using 
fail more often than some of Firestone's Wilderness AT tires.
    It goes on to say, and I'm skipping a paragraph or two 
here: Ford is working with Goodyear, Continental, and Michelin 
to get replacements. Johnson would not specify which of these 
tires had higher failure rates than the Wilderness AT, but said 
that it would be disclosed at the hearing.
    And all I am trying to do is get disclosure and find this 
out. I know the Ford folks want to know it, and I am sure all 
the other replacement tire manufacturers want to know about it, 
too. And so either we have a staff analysis that says this, 
that's reliable; or we have a staff analysis which doesn't say 
this or is not reliable. I am trying to find out do we have a 
staff analysis which is reliable, do we have a staff analysis 
that tells the truth or do we not?
    Mr. Stearns. Time of the gentleman has expired.
    Chairman Tauzin. Could the gentleman have an additional 2 
minutes? I think we need to clarify this, if you don't mind.
    Mr. Stearns. The Chair will give an additional 2 minutes to 
the gentleman from Michigan.
    Mr. Dingell. I thank the Chair, but I didn't know I was 
time limited. Now I'll be glad to yield to my friend, if he can 
clarify what I just read out of the daily press.
    Chairman Tauzin. Well--well, first of all, let me inform 
the gentleman that the staff analysis is on the claims data 
only, and the gentleman from Michigan can look at the raw data 
that has been supplied to him.
    Mr. Dingell. Well, I have requested both the data and the 
analysis, and I'm trying to find out what the worth of the 
analysis is.
    Chairman Tauzin. Would the gentleman yield? The gentleman 
has the raw data and can draw his own conclusions from it. Our 
staff has drawn the conclusion that the raw data indicates that 
some of these replacement tires have a claims history that is 
not as good as the tires that are being replaced.
    Now, what I'm suggesting to the gentleman, however, is that 
that criteria alone may not mean that these are not good 
replacement tires. We don't know. And until NHTSA has a chance 
to review this data and comment to us, it is my view that this 
analysis by the staff identifying the particular tires would be 
premature, and if the gentleman wants to do an analysis and 
release his own analysis, he's perfectly all right to do so. He 
can do so on his own, without asking me to release data they 
would first like to have NHTSA review.
    Mr. Dingell. Under the rules, Mr. Chairman, I would note, 
first of all, every member of this committee is entitled to 
every paper in possession of the committee. I will be happy to 
cite the rule if the Chair wishes.
    Chairman Tauzin. If the gentleman would yield, we've 
satisfied that rule. We have, I think, accorded you all the raw 
data that was sent to the committee.
    Mr. Dingell. No, you've not satisfied that. I am asking for 
the analysis which has been widely discussed here in at least 
two instances in the press, and I am not going to waive that 
right. So I'm asking that the analysis be made available to us, 
and I hope that anybody who is listening to this colloquy 
between my two dear friends, the presiding officer of the 
subcommittee and my distinguished friend, the chairman of the 
full committee, will arrive at the rather unfortunate 
conclusion that the staff here has been pulling a long bow, and 
that in point of fact the information doesn't show these 
things, or that the chairman of the committee doesn't have 
confidence in it because he won't make it available to me and 
others so we can know in fact what this says.
    Now, I'm going to insist on my rights to have this 
information made available to me, and I'm going to insist on my 
rights to have it made available in an unexpurgated fashion. I 
will assure the chairman of the committee that we will not 
release the data without appropriate notice to him and 
opportunity for him to discuss with me. But in the meantime it 
appears that perhaps what the chairman said should be read by 
the staff, so that the staff will understand that this data is, 
if such exists, is of rather limited value and doesn't prove--
--
    Mr. Stearns. Time of the gentleman has expired. I would say 
to the two distinguished gentlemen, we have talked about this 
earlier. We're talking about it again. What I suggest, the two 
gentlemen get together, and I think we have an interpretation 
of what the analysis has to--in other words, the analysis of 
the staff.
    Chairman Tauzin. Would the chairman recognize me briefly 
for a half minute?
    Mr. Stearns. Let me just finish to say that our analysis 
that our staff has done is the key of whether the chairman 
wants to, you know, whether that extends--to what extent, I 
don't know. And I don't know what the ruling is, but I would--
--
    Chairman Tauzin. Would the gentleman recognize me for 30 
seconds?
    Mr. Stearns. Absolutely.
    Chairman Tauzin. I thank the chairman.
    Mr. Dingell, with the understanding that you have just 
given me that we will discuss and there will be no release of 
this data until we've agreed, then I will be happy to share the 
analysis with the gentleman.
    Mr. Dingell. I told my beloved friend, I want the record 
clear, I told my beloved friend, the chairman of the committee, 
that I will not release it until I have discussed it with the 
chairman of the committee.
    Chairman Tauzin. That's fair. I'll accept that.
    Mr. Dingell. Very well. And I thank my good friend and I 
thank the presiding officer of the committee for his kindness 
to me, too, and I note that I'm not limited on time.
    Mr. Stearns. Mr. Nasser, what we have decided to do, so we 
are going to continue on ahead here, I think we are going to 
take another round. The chairman has offered this. I'm going to 
ask a short question. I ask members to keep it within 3 
minutes.
    Mr. Nasser has been very cordial and hospitable to stay 
here, so we're going to make a quick round here, and one 
question I have deals with a field experience chart. In the 
field experience chart that's prepared by NHTSA, not our 
staff--this is nothing to do with raw data, but NHTSA itself--
the 1991-'94 model year Explorer is compared to the 1995-1999 
model year Explorer. So you have two comparisons and two 
segmented years. It appears from this chart that the 1991-'94 
model year Explorer had 50 rollovers. The rollover number 
jumped to 87 for 1995 to 1999.
    I guess an obvious question is--this is NHTSA's 
information. They're saying that maybe there was a change of 
the suspension and things like this. But could you explain why 
the rollover number jumped to 87 for the 1995 to 1999 model 
year Explorer?
    Mr. Nasser. If you look at the total sport utility vehicle 
population, the trend for the two periods that you mentioned 
there does show an increase in both periods. However, the Ford 
Explorer is one of the best sport utility vehicles. It was 
clearly superior in the earlier period than in the second 
period, and it became pretty much average, and we think there 
are many different reasons there. One of them is demographics. 
The number of younger people driving Explorers in that second 
period we think increased because of the sports model and the 
two-door model.
    Mr. Stearns. NHTSA seems to indicate--well, their data 
shows that. And is it possible that if you changed the 
suspension for the 1995 to 1999 year Explorer, would that have 
any impact?
    Mr. Nasser. We did change the suspension.
    Mr. Stearns. You did.
    Mr. Nasser. We went to a more modern suspension system.
    Mr. Stearns. Okay.
    Mr. Nasser. One that is much more in line with today's 
driving conditions.
    Mr. Stearns. Okay.
    Mr. Nasser. Both are good; one's better. We don't see any 
correlation between those changes and the data that's 
represented here.
    Mr. Stearns. Okay. I am not going to go on with any more 
questions. I would just point out to you that the answer to the 
question being demographics might not be all there is, and I 
suggest that if you want to follow up with a written answer, I 
want to give you every opportunity to do that; because I think 
all of us that looked at this, including the staff, were trying 
to understand and extrapolate what that meant.
    Mr. Nasser. We will do that.
    Mr. Stearns. Okay. I'm going to complete my time, and the 
gentleman from New York, Mr. Towns, is recognized.
    Mr. Towns. Thank you very much, Mr. Chairman.
    Mr. Nasser, some, including Firestone, have said Ford 
shipped more explorers with Firestone tires than with Goodyear 
tires to the hot weather States of Arizona, Nevada, Louisiana, 
Mississippi, Texas and Florida during moderate years 1995, 
1996, and 1997. Furthermore, they have claimed that this is an 
explanation for the higher tread separation claim rates 
Firestone had than Goodyear had during this period.
    Can you tell us how many Firestone-equipped Explorers 
versus how many Goodyear-equipped Explorers Ford shipped to 
these hot weather States during the three model years?
    Mr. Nasser. Okay. If you include Arizona, Florida, 
Louisiana, Mississippi, Nevada and Texas, for the 1995 through 
1997 model year, there were 95,000 Explorers with Firestone 
tires and there were 85,000 explorers with Goodyear tires. So, 
a fairly similar number of explorers in that geographic area.
    Mr. Towns. And for the Goodyear-equipped Explorers, there 
were no tread separation claims at all involving injuries, 
deaths, or lawsuits during this time; is that correct?
    Mr. Nasser. That's what we believe, yes.
    Mr. Towns. But most of the tread separation claims have 
come from hot weather States; is that correct?
    Mr. Nasser. The majority, yes.
    Mr. Towns. We know there were 1,183 Firestone tread 
separation claims during this period. So a large share of these 
claims must have come from the hot weather States. What 
percentage of these Firestone claims would you estimate to have 
come from the hot weather States.
    Mr. Nasser. I don't have that data with me, but we will 
provide to it you.
    Mr. Towns. Mr. Chairman, I'd like to ask that the record 
stay open until we can receive that information.
    Mr. Stearns. By unanimous consent, so ordered.
    Mr. Towns. And before I yield back, Mr. Chairman, I'd also 
like to request that we put a statement in the record from 
Congresswoman Eva Clayton from the State of North Carolina.
    Mr. Stearns. By unanimous consent.
    [The prepared statement of Hon. Eva M. Clayton follows:]
Prepared Statement of Hon. Eva M. Clayton, a Representative in Congress 
                    from the State of North Carolina
    Mr. Chairman, I appreciate the opportunity you have afforded me to 
share with you and your Committee my views on the issues of this 
important investigation. Ford and Firestone have suggested different 
causes of the high incidences of tread separations and vehicle 
rollovers. These causes have ranged from allegations of defective 
tires, to defective steering mechanisms to negligent consumer 
practices. Under these circumstances, it is impossible for the average 
consumer to ascertain the actual facts.
    In the complex interplay between competing, often powerful forces 
in our society, disputes sometimes arise that require the mediating and 
ameliorating hand of the government to sort out in an independent 
manner the conflicting contentions, to evaluate inconsistent scientific 
supporting data, and to ascertain responsibility for unsafe products. 
The public depends on the government to serve this role fairly, fully 
and promptly. In the matter of the Ford-Firestone dispute, you have 
accepted this task.
    The outcome of your investigation, and the similar investigation 
being conducted by the National Highway Transportation Safety 
Administration, will help to clarify for the public the actual facts in 
this controversy. Also, your investigation very likely will have a 
significant impact on consumer confidence, individual and corporate 
reputations and, most importantly, on consumer safety. Our citizens 
should be able to use cars and tires without fear of losing their lives 
or suffering injuries on our highways because these products are not 
made safely.
    Firestone has a tire manufacturing plant in Wilson, NC, a small 
town in my district in eastern North Carolina. I have toured this plant 
and met some of the workers there. This plant employs more than 2,000 
workers. These workers strive to produce tires that are safe and 
without defects. Many of them are involved in civic and community 
affairs in their communities. These workers, their families and several 
communities which depend upon their financial support, may be severely 
affected by the outcome of your investigation. Similarly, numerous 
other families and communities of workers of both Ford and Firestone in 
other parts of the country will anxiously await the outcome of your 
deliberations. We trust that your investigation will include a fair and 
comprehensive analysis of all relevant tire and vehicle safety issues. 
This is an important task and I am confident that you and your 
Committee will render a valuable and honorable service to the nation. 
Thank you.

    Mr. Towns. Thank you. I yield back.
    Mr. Stearns. The gentleman from Michigan is recognized for 
3 minutes.
    Mr. Upton. Thank you. Again I apologize for being a little 
bit late for the hearing. I just have a couple of questions as 
we examine this issue on the newspaper reports today. Did you 
ask NHTSA if other tires had a higher failure rate than the 
ones you were replacing with the Firestone?
    Mr. Nasser. We asked NHTSA to review the proposed list of 
replacement tires to see if the Agency had any concerns in the 
past or any potential concerns in the future. And the list we 
gave NHTSA, they did not have any concerns.
    Mr. Upton. So NHTSA has, at least as of this moment, has 
not come back to you and said brand X has got a higher tire 
failure rate than the ones you replaced; is that correct?
    Mr. Nasser. That's correct. The first we heard about it was 
in the press this morning.
    Mr. Upton. And have any of the tire companies whose tires 
you used to replace the bad Firestone--or the Firestone tires--
have any of those companies come, shared with you evidence that 
in fact they have a higher failure rate than the ones that--
Firestone tires that you were replacing?
    Mr. Nasser. Not that I am aware of, and we certainly 
wouldn't include those tires if that was the case.
    Mr. Upton. Right, right. So until this morning you had--
these newspaper reports came out--there was no evidence that 
the replacement tires that you were replacing on Ford 
customers' cars had a higher failure rate than the Firestone 
tires; is that right?
    Mr. Nasser. That's correct.
    Mr. Upton. Thank you. Yield back.
    Chairman Tauzin. Would the gentleman yield?
    Mr. Upton. I'd be glad to yield.
    Chairman Tauzin. I thank the gentleman for yielding. I'd 
simply like to put in the record something I received today Mr. 
Nasser, which is my notice from the Ford Motor Company 
requesting information on my Explorer. And this, as I 
understand it, this is what is being sent out to customers 
across America.
    Mr. Nasser. That's right.
    Chairman Tauzin. Which indicates not only the tires to be 
replaced but acceptable replacement tires; is that correct?
    Mr. Nasser. Yes.
    Chairman Tauzin. And it's a fairly long document, but I 
thought it would be important to have it in the record.
    Mr. Stearns. By unanimous consent, so ordered a part of the 
record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T3739.012
    
    [GRAPHIC] [TIFF OMITTED] T3739.013
    
    [GRAPHIC] [TIFF OMITTED] T3739.014
    
    [GRAPHIC] [TIFF OMITTED] T3739.015
    
    Mr. Stearns. Gentleman yields back the balance of his time, 
and at this point the gentleman, Mr. Strickland, is not here. 
Mr. Gordon from Tennessee is recognized for 3 minutes.
    Mr. Gordon. Mr. Nasser, I want to salute your patience and 
bladder. You've done a very good job of putting up with all of 
us today. I had to be short with you because I wanted to get my 
two questions in earlier. I just want to give you the 
opportunity, if you want to clarify or follow up on anything 
they might have asked you earlier.
    Mr. Nasser. I'd just like to go back to the issue that was 
raised earlier on the replacement program. We clearly are very 
concerned. Our strategy isn't to replace bad tires with bad 
tires. That doesn't make any sense at all, and we would 
appreciate that information as quickly as possible. The worst 
thing that can happen here is that our customers are confused 
and don't know what to do.
    And if we're not helping that situation, then we are not 
doing our jobs, and I take that responsibility very seriously. 
So we'd like to clear that up as quickly as we can, as soon as 
this hearing is finished.
    Mr. Gordon. I guess if I have another moment, I'll just ask 
once again, just to be sure; you're saying that the tires on 
the Toyota 4-Runner and the Jeep Grand Cherokee are different 
ones than----
    Mr. Nasser. They are different tires. We have had examples 
where the same tires have been placed on Toyotas and other 
vehicles as replacement tires, where the customer replaces the 
original equipment tire, once it's been worn, with one of these 
Wilderness tires. And the interesting thing is that the tread 
separation rate on those competitive vehicles is about the same 
as we're seeing on our vehicles.
    Mr. Gordon. But it is the same tire on the Ford Ranger?
    Mr. Nasser. On the Ford Ranger 4x4 model, it is the same 
tire.
    Mr. Gordon. Thank you. And again, thank you for your 
patience.
    Mr. Stearns. The gentleman yields back the balance of his 
time. The gentleman, Mr. Stupak, is recognized for 5 minutes.
    Mr. Stupak. Thank you, Chairman. I don't mean to belabor 
this point more than we already have today, but I've sort of 
started. So I'd like to ask the Chair of the full committee, if 
you could give us some kind of inference of the statements that 
have been appeared in the press. I take it one of three ways. 
The tires that Ford's about to replace, the Firestone tires, 
are either more dangerous or they're less dangerous, or the 
majority doesn't have enough data to make that judgment. Could 
you help us clarify that a little bit?
    Chairman Tauzin. Will the gentleman yield?
    Mr. Stupak. Yes.
    Chairman Tauzin. We know at least in one category, one 
parameter, the question of claims data against the tire, that 
some of the replacement tires, according to NHTSA's 
information, have higher claims data rates than the tires that 
are being replaced. Do you.
    Mr. Stupak. Then is that claims data enough to make a 
judgment, or do you need more information?
    Chairman Tauzin. We need more information. Second--if the 
gentleman would yield?
    Mr. Stupak. Sure.
    Chairman Tauzin. According to the raw data we received from 
other tire companies who are on this list that I just put into 
the record, there are several tires that have claims data rates 
as high as 124 per million, which is a rather significant 
number if 5 per million is one of the benchmarks used in this 
replacement program. And, therefore, finding out how 
significant that claims data is, is fairly critical to the 
question you asked about safety.
    Mr. Stupak. So to answer the question, you need more 
information, because the claims data rate is not enough to make 
an analysis whether or not the tires being replaced are more 
dangerous or less dangerous?
    Chairman Tauzin. That is my opinion, and that is why I have 
asked NHTSA to immediately review this, to let us know that--
and to let Ford Motor Company know so that they might have the 
benefit of that analysis.
    Mr. Stupak. Okay. But as I'm trying to clarify this here--
because I agree with Mr. Nasser; I think we're all pretty much 
confused on what to do now. For those of us, like yourself, who 
own the Explorers or the Expedition, whatever it may be--again, 
I mean, what message are we trying to communicate here to the 
general public, to the American people? That we need more 
information, or what?
    Chairman Tauzin. What I'm trying to do is to make sure that 
since this is not a government recall--this is a corporate-
sponsored replacement program--that we don't end up having a 
government recall that follows it to replace the tires all over 
again----
    Mr. Stupak. I agree.
    Chairman Tauzin. [continuing] because we've used the wrong 
replacement tires. So the message I'm trying to say--and 
hopefully NHTSA got it, and I think they did because we had 
some serious conversations before this hearing today--is that 
we need NHTSA immediately to assist both this committee and Mr. 
Nasser's company with this analysis of--so they can announce 
publicly whether any of the tires on the replacement list 
should be taken off the replacement list.
    Mr. Stupak. And if it's not a recall and if Ford is doing 
this replacement program, then I think it's only fair to give 
Ford, before they even leave here today, all your data and your 
data analysis, because this is not a recall, this is a 
replacement. They should have it so they're not back here doing 
another replacement.
    Also, I guess if you're asking NHTSA to do it, what other 
information does NHTSA need to make a sound, total judgment on 
this incomplete information that's being publicly released?
    Chairman Tauzin. Will the gentleman yield?
    Mr. Stupak. Yes.
    Chairman Tauzin. That's the reason why I asked Mr. Nasser 
extensively, rather, what was requested by his own company and 
what testing was done on these replacement tires. But if he 
does not have the information, the raw data we have, we are 
more than happy to share it with him. And you have copies of 
it. We have copies of it. We'll make sure he has copies of it.
    Mr. Stupak. Okay. So the information we've seen in the 
media today, whether it's the Detroit Free Press or the----
    Mr. Stearns. The gentleman's time has expired.
    Mr. Stupak. If I can just finish. The message--we want to 
clarify or correct the information that these tires may not be 
more dangerous, that we need more information. So we should 
really correct that information; correct, Mr. Chairman?
    Chairman Tauzin. I'm looking at the AP report. The only 
quote contained in there that came from our committee spokesman 
was that there are brands that have actually higher claims 
rates. That's all we know. There is no--if the AP story went on 
to draw the conclusions--that's the AP writer. The only thing 
we know at this point, the only thing that was reported and 
that has come out in this hearing, is that there are tires that 
NHTSA has identified, and now that our own staff have 
identified, that have higher claims rate than 5 per million, 
and that obviously before those tires are replaced, put on cars 
as replacement for other tires, somebody, NHTSA, ought to give 
us some good information as to whether or not that claims data 
is significant enough to make a difference.
    Mr. Stearns. The gentleman's time has expired. Mr. Sawyer 
is recognized for 3 minutes.
    Mr. Sawyer. Thank you, Mr. Chairman. I have a couple of 
questions, and they go to the question that--to the assertion 
that you made earlier, Mr. Nasser, to the effect that you 
cannot go out and test every tire on every vehicle. And I agree 
with that. That doesn't make any sense.
    At the same time, in the letter that you've cited from 
Goodyear, they suggest that there's no desire, nor have 
manufacturers even raised the question of tire manufacturers 
doing similar kinds of testing of every tire on every vehicle. 
Should that be done? Or is generic testing to different 
protocols by different tire manufacturers sufficient to give 
you comfort into the future that the tires will perform as 
expected?
    Mr. Nasser. I think it's a combination of both, and there 
does need to be much more communication, not only between the 
tire manufacturer and the automotive manufacturer, but also 
information that comes from the field. And I think that's what 
really drove the TREAD Act of last year. We support it. We 
welcome it. And--but whatever we do, it must be based on tires 
that have high quality levels and that have the technology that 
is appropriate for today's driving conditions.
    Mr. Sawyer. That brings me to my second question. You've 
hit it squarely on the button. Earlier you had said that the 
exchange of information with regard to the changing weight of 
the vehicle and the suspension of the vehicle was not 
significant. It may have been; it may not have been. I'm not 
going to argue that today. But you also talked about the fact 
that a number of the tires that have exactly the same 
designation may not be the same tire, and the truth of the 
matter is that tires evolve over the life of a product as well.
    Should there be requirements, protocols under NHTSA, for 
the exchange of information as products evolve in their design 
throughout their useful life?
    Mr. Nasser. I strongly believe that if tire manufacturers 
change the design of a tire, then they should inform the 
vehicle manufacturer. As a matter of fact, with our purchase 
order we make it very clear that any changes to the design of a 
tire should be communicated to the vehicle manufacturer.
    Mr. Sawyer. Should the same thing apply to you in the other 
direction?
    Mr. Nasser. I think it does, but I certainly think it 
should be in both ways. It should be a dialog, not one way.
    Mr. Sawyer. Thank you.
    Mr. Stearns. My colleagues, I believe we have expired all 
the second round. So, Mr. Nasser, sincerely and on behalf of 
the full committee--subcommittee--both myself and Mr. 
Greenwood, we thank you sincerely for staying with us and your 
forthright answers. And now we'll move to panel No. 2. Thank 
you.
    Mr. Nasser. Thank you very much.
    Mr. Stearns. Panel No. 2 is Mr. John Lampe, President and 
Chief Executive Officer, Bridgestone/Firestone. Mr. Lampe, 
you're welcome. Let me just say to my colleagues that--so we 
can continue to go on, I urge them to ask the questions. If 
perhaps you have desire for colloquy, that we could perhaps 
move that member to member, and we can continue on with the 
questions here so that we can get through to our third panel, 
which is also patiently waiting.
    And so with that, Mr. Lampe, at your convenience, we'll 
welcome your opening statement.
    You are aware that the committee is holding an 
investigative hearing, and in doing so has had the practice of 
taking testimony under oath. Do you have any objections to 
testifying under oath?
    Mr. Lampe. No, sir.
    Mr. Stearns. The Chair then advises you that under the 
rules of the House and the rules of the committee, you are 
entitled to be advised by counsel. Do you desire to be advised 
by counsel during your testimony today?
    Mr. Lampe. No, sir.
    Mr. Stearns. In that case, if you'd please raise your right 
hand, I'll swear you in.
    [Witness sworn.]
    Mr. Stearns. You are now under oath. You may now give a 5-
minute summary of your opening statement.

TESTIMONY OF JOHN LAMPE, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
                  BRIDGESTONE/FIRESTONE, INC.

    Mr. Lampe. Chairman Stearns, Chairman Tauzin, and 
distinguished committee members, I am John Lampe, and I am the 
CEO of Bridgestone/Firestone. First I'd like to thank you for 
holding this hearing and inviting me to testify, and I 
appreciate the very hard work on all these issues by the 
members of this committee, by the other members, and by their 
staffs.
    Mr. Chairman, it's no secret that this year has been a 
struggle for us. We've learned a lot since we were here the 
last time, and some of it we've learned the hard way. But as a 
result, we're more responsive now to the American public, to 
our customers, to Congress, and to NHTSA. We're doing what's 
right. And our 45,000 employees are a great team. They're fully 
committed to making safe quality tires and to regaining the 
public's trust. Yes, we've been hit hard, very hard, but I 
believe with all my heart we will make it.
    But let's talk about our tires, and first let me assure you 
that the Firestone tires that are on the road today are 
completely safe, and our real world data proves that.
    The 13 million tires that Ford is replacing have a claims 
rate of .0009 percent. That's 9 out of every 1 million tires. 
And most of these claims are on the Ford Explorer. The 
identical tire on the Ford--is on the Ford Ranger, and yet the 
tread separation claims on the Ranger, exact tire, is 8 times 
less than that of the same tire on the Explorer. And if that 
weren't enough, Wilderness AT tires on General Motor's vehicles 
have only 2 tread separation claims on 3.1 million tires that 
we've supplied General Motors. And these 2 claims were minor, 
minor property damage claims, did not result in accidents.
    Also, several million of these tires that Ford is replacing 
under their program have never, ever had a claim. And the 
bottom line, replacing good tires with other tires, is a 
diversionary tactic and it won't increase or improve customer 
safety.
    We've also conducted an extensive array of scientific tests 
comparing our tires to our competitor tires. And this testing 
supports the data we see from the real world. We perform peal 
tests to measure the amount of force it takes to tear apart the 
two steel belts. We conducted Society of Automotive Engineer 
high-speed tests, and we performed belt-edge temperature tests 
to see if the internal temperature of the tires are the same as 
those other tires in the marketplace. And these are just some 
of the tests we've performed. But in every test, the Wilderness 
AT tires performed within industry norms, oftentimes 
outperforming our rivals. Our testing confirms what we've been 
saying all along: Our tires are safe, and we have the tests. We 
have the real world data to prove it.
    But now let's compare our testing to Ford's testing of the 
tires. We use standard industry testing procedures. Ford, on 
the other hand, did not; and what little they've shared with us 
reveals that Ford's testing of tires and our tires was, at 
best, unscientific; and, at worst, misleading. Ford took new 
Goodyear tires and compared them with old Firestone tires, some 
of which were 9 years old. But when you take and compare the 
same age of tires--Firestone tires versus the Goodyear tires 
from Ford's own data--we are as good as our competition, and in 
many cases better.
    Ford talked about tire temperatures, and Ford ignored, 
though, the internal temperature of a tire, the temperature 
that is very important when looking at such things as tread 
separations. Ford chose to use surface temperatures. We don't 
know why. It has no correlation to internal temperature. And as 
the Wall Street Journal reported, Ford did not use the same 
inflation pressure and loads when testing Firestone tires 
against Goodyear tires. We heard two or three times this 
morning about apples to apples. I think we need an apples-to-
apples comparison here as well.
    And finally, Ford's protections of future Firestone tire 
failures are purely speculative. They're not based on real 
world data. Yes, with these hazard plots, you can make those 
lines go anywhere you want, based on the assumptions you use.
    And next, Mr. Chairman, I must say--and this is not easy 
for me to say as well--but there is something wrong with the 
Ford Explorer. The testing and accident data we have submitted 
prove it. When I was here last year, I said to all of you that 
you could take all our tires off the Ford Explorer and the Ford 
Explorer would continue to roll over. And unfortunately, that's 
exactly what's happening.
    But it didn't have to be this way. We at Firestone asked 
Ford to work with us so that we together could look at the 
tire--and we looked at the tire a lot, but at the vehicle as 
well, and the tire vehicle interaction. But Ford refused, and 
we had no choice. We had to go it alone. Ford left us no other 
option.
    Mr. Chairman, these are the facts. The loss of a tread or 
air in a tire shouldn't cause a driver to lose control of his 
vehicle. The driver should be able to pull over, not roll over. 
Even Ford's own export--expert car engineering agrees with 
that. Dr. Dennis Gunther is considered to be one of the most 
highly regarded, renowned experts in vehicle dynamics, and he's 
worked with NHTSA before, and he's worked for some of the 
automobile companies. And he found that when a rear tire 
separates on some models of the Ford Explorer, the vehicle goes 
from a slight understeer--and you talked briefly about 
understeer, oversteer this morning--from a slight understeer to 
an oversteer condition, where the rear tires can spin out, just 
like you've experienced sometimes on ice. But the important 
thing, according to Dr. Gunther, it's both the transition, 
transition from understeer to oversteer, and the oversteer 
itself that often make it a dangerous situation for the average 
driver to be able to maintain directional control on the 
Explorer at normal highway speeds after a tire separation.
    And the real world data supports Dr. Gunther's finding. The 
Florida traffic crash data base shows that for the 1994 through 
2000 model year vehicles registered in Florida, the Explorer 
rolls over twice as much as all other SUVs in single-vehicle, 
nontire-related accidents.
    Mr. Chairman, last year this committee asked us why we 
didn't do more when we had reports of tread separations coming 
out of Venezuela. Well, now there are new reports from the 
Venezuela Consumer Protection Agency that the Explorer 
continues to roll over with other brands of tires. In fact, 
since May of 2000, there have been 43 judicially--judicially 
confirmed, certified Explorer rollover crashes in Venezuela, 
and they've been on competitor tires. In the last 10 days 
alone, there have been four people that have been fatally 
injured in two separate Ford Explorer accidents in Venezuela on 
different brands of tires, not ours.
    Surely these warning signs can't be ignored. As I've said 
before, I said it last year, Ford can replace all the 
Wilderness AT tires on our vehicle, but the Explorer will 
continue to roll over. We need to understand why. And I know 
you want to understand why. We owe it, I owe it, to the men and 
women who make our tires, to the stores and dealers who sell 
our tires, and we all owe it to the people on the roads and the 
highways that drive on our tires. No one cares more about 
safety than we do, and we're doing our part. We're taking 
responsibility for our tires. We did a massive recall, and now 
we're doing what's right by asking the tough questions on the 
Ford Explorer.
    One of our Nation's greatest industrial pioneers once said, 
don't find fault; find a remedy. Since the very beginning, Ford 
has only wanted to find fault, blaming our tires. We, on the 
other hand, have said that the vehicle tire interaction needs 
to be examined in order to find a remedy. And, by the way, that 
great man that said don't find fault, find a remedy, was also 
Henry Ford.
    I truly wish I could say with pride that Ford is still one 
of our best customers, and I sincerely hope there comes a day 
when Bridgestone/Firestone can do business with Ford again, but 
that day won't come until we answer the tough questions on the 
Explorer.
    I would like to commend Chairman Tauzin for urging NHTSA to 
examine the vehicle and the tire in a balanced way, because 
there are very hard questions to be answered. Why is the 
Explorer so much more likely to roll over in related crashes? 
If it's just a tire issue, why are Explorers continuing to roll 
over in Venezuela at high numbers, even after Ford replaced all 
the Firestone tires? Why is the Explorer harder to control than 
other SUVs after a rear-tire separation? And why do our tires 
perform so well on other vehicles?
    Firestone will continue to work with the government to get 
the answers the American public deserves to these and the other 
tough questions. And I am glad to hear Mr. Nasser this morning 
and Ford agree in the same spirit to support NHTSA's 
investigation of their vehicles.
    Thank you again for inviting me here to testify, and 
Chairman Stearns, using your words, I welcome the opportunity 
to answer reasonable questions.
    [The prepared statement of John Lampe follows:]
Prepared Statement of John Lampe, Chief Executive Officer, Bridgestone/
                            Firestone, Inc.
                            i. introduction
    Chairman Stearns, Chairman Greenwood, Chairman Tauzin, and 
distinguished Committee Members, I am John Lampe, CEO and President of 
Bridgestone/Firestone, Inc. Thank you for inviting me to testify today. 
Since I appeared before this Committee on September 21, 2000, much has 
happened. Our team at Bridgestone/Firestone has been working vigorously 
to protect the safety and restore the trust of our customers by 
assuring and enhancing the quality and performance of our products. We 
have accomplished a great deal, and we have learned a great deal.
    In my statement today, I would like to address the following four 
topics:
    First, Firestone takes responsibility for the safety of its 
customers. We have devoted all available resources and energy to the 
August 9, 2000 recall. We conducted extensive research to determine the 
causes of tread separations and rollover crashes involving the Ford 
Explorer. We instituted targeted changes to improve our products and we 
have enhanced our ability to monitor the performance of our tires in 
the field.
    Second, Firestone tires on the road today are safe. The recall of 
more of our tires is not necessary and will not increase customer 
safety. I will present data that prove our tires on the road today are 
every bit as safe as the comparable competitors' tires on the roads 
today.
    Third, to find the whole truth regarding Ford Explorer rollover 
crashes, it is imperative that the Congress, the NHTSA, and the public 
examine the vehicle issues as well as tire issues. I have said from the 
outset that no research, analysis or remedy for tire-related Explorer 
rollover crashes can be complete without carefully addressing the 
contribution of vehicle characteristics. Today, I will present claims 
data that show that the same tire on vehicles other than the Explorer 
performs quite well and that the tread separation rate, while still 
low, is elevated when that tire is on the Explorer. I will also present 
test data that precisely identifies that characteristic of the Explorer 
which makes it extraordinarily prone to rollover crashes in the event 
of a tread separation, an event that can happen with any tire.
    Finally, I want to take this public opportunity to make Firestone's 
recommendations as to how drivers can help protect themselves against 
the possibility of serious crashes like those that prompted the 
Committee to investigate this matter.
                             ii. the recall
    Beginning on August 9, 2000, Firestone voluntarily recalled 
approximately 6.5 million P235/75R15 ATX and Decatur Wilderness AT 
tires fitted primarily on the Ford Explorer family of vehicles. Our 
concern for the safety of our customers was paramount, so we took this 
action before we knew what caused the increased rate of tread 
separation claims. I am proud of the fact that our recall campaign was 
carried out very rapidly. From the date we announced the recall through 
January 2, 2001, we replaced 92 percent of the tires. As of today, more 
than 6.3 million tires have been replaced, approximately 97 percent of 
the total number recalled. By any measure, this is an outstanding 
performance, and one which reflects well on every member of the 
Firestone team.
            iii. firestone tires on the road today are safe
    On Monday, May 21, Firestone informed Ford Motor Company that it 
had no choice but to terminate its almost 100-year relationship and 
stop supplying tires to Ford. Firestone took this action because Ford 
simply refused to examine with Firestone what, if any, role the Ford 
Explorer had in the increased rate of tread separation claims and the 
subsequent rollovers that led to the catastrophic accidents. In fact, 
in October 2000 I sent a letter to Mr. Nasser asking his cooperation 
into an investigation of both the vehicle and the tire. Regrettably, 
Ford refused to jointly investigate the vehicle.
    On May 22, Ford announced it would unilaterally recall all 
Wilderness AT tires fitted on Ford vehicles. We believe strongly that 
Ford's action is motivated by a desire to divert attention from safety 
concerns of the Explorer. The data from both testing and actual 
experience on the highways simply do not support Ford's decision. Our 
tires on the road today are safe, and we do not intend to participate 
in Ford's unnecessary and deceptively motivated action.
    Ford has claimed that Wilderness AT tires have higher rates of 
tread separation than competitive tires. Ford would not share with us 
complete test data or actual claims data on competitors' tires. The 
data Ford did share with us shows that Ford used grossly unscientific 
procedures in its testing. As a result, we have done our own testing 
that I will summarize for you.
    First, we tested ``peel force,'' the amount of force needed to tear 
the two steel belts from a tire. We compared our tire with three major 
competitors' tires that have also been fitted to the Ford Explorer 
either as original equipment or a replacement tire. As this chart (#1) 
shows, our tires out-performed two of the three competitors' tires in 
this test. The results were similar when we subjected the tires to high 
temperatures to simulate hot climate driving. (Chart #2)
    Second, we conducted SAE high speed tests in which tires are 
intentionally run to the point of failure on a machine that pushes 
tires beyond their limits. Once again, the Wilderness AT outperformed 
several rivals and performed well within industry norms. (Chart #3)
    Third, we performed vehicle tests where our tires were run on a 
test track mounted on a range of compact SUVs. With this test we 
measured the belt-edge temperature of each tire on each vehicle after 
identical test cycles. (Chart #4) This test clearly shows that our 
tires were most heavily loaded on the Explorer. Additionally, other 
tests were performed on the 1997 Ford Explorer with a variety of 
competitor tires. The belt edge temperatures were measured and clearly 
show that damaging temperature increases at lower inflation pressures 
were greatest on the Explorer (Chart #5). These tests again revealed 
that the Wilderness AT is an excellent performer, better than many 
rival products, and well within industry norms. But these tests also 
further suggest an Explorer issue.
    In contrast, Ford's ``rig'' testing is grossly unscientific and 
must be disregarded. First, to test our tires, Ford used aged spare 
tires compared with new tires from our competitors. Indeed, some of the 
Firestone tires tested were nine years old. It is well known that tires 
naturally degrade over time, regardless of whether they are used on 
vehicles. The rubber in tires begins to degrade as soon as it leaves 
the plant. When you factor out the old Firestone tires that Ford 
tested, and just compare our new tires with the competitors' new tires, 
even Ford's results show that our tires are as good as the competition! 
Second, Ford used surface temperature testing as opposed to internal 
temperature testing, the latter of which is needed to detect thermal 
conditions related to belt separation. No respected organization 
measures the surface temperature of tires to determine the likelihood 
of belt separation. Given these examples, it is no surprise that Ford 
refused to share all of its data with Firestone.
    Now let's look at real world performance. A comparison of 
Wilderness AT performance tires fitted on the Explorer and other 
vehicles shows that tread separations with our tire happen 
disproportionately on the Explorer. We sold the same tires to Ford, 
designed and built to the identical specifications, for both the 
Explorer and the Ranger pickup truck. Claims for tread separation on 
the Explorer were as much as eight times greater in number than on the 
Ranger. (Chart #6)
    These results are for the same tires on two different Ford 
vehicles. In fact, at the time of shipment, we do not know which of our 
individual tires sent to Ford are to be mounted on which vehicle. The 
fact that the very same tire performs so differently on these two 
vehicles is proof positive that there is something at work here other 
than a tire issue. Again, it is no wonder why Ford refused to give us 
production data for the Ranger for nearly six months. As soon as we 
received the required data from Ford this spring, the data convinced us 
that something about the Explorer must account for the high number of 
tire failures and subsequent rollover accidents.
    Real world claims data provide further evidence of the Explorer's 
extraordinary history of tread separation claims. For example, our ATX 
tires sold as original equipment on the Explorer were also sold as 
replacement tires for a broad range of similar vehicles from other 
manufacturers. Over seven years, there were six times as many tread 
separation claims for the Ford Explorer, within the replacement tire 
population that included other vehicles, than there were for other 
vehicles (claims per 100,000 tires). (Chart #7) Again, the very same 
tire failed at a greatly higher rate on the Explorer.
    Ford also claims that its successful experience with Goodyear tires 
on the Explorer proves the need for its further recall of Wilderness 
tires. Once again, Ford has misused data to produce a conclusion that 
supports its false statements. For example, it directly compares 
Firestone and Goodyear claims without mentioning that a greater number 
of Firestone-equipped Explorers were shipped to hot weather states 
where the tires were pushed to extremes and tread separation occurred. 
(Chart #8) Ford states that there were only two claims for tread 
separation on Goodyear tires. News reports alone tell us there have 
been at least 13 incidents involving tread separations of Goodyear and 
other manufacturers' tires followed by Explorer rollover crashes. But 
we don't have to rely on news reports alone. Ford's own internal 
document--identified as Document 54 in last fall's hearing--states that 
Ford knew of the possibility of at least 10 tread separations on 
Goodyear tires (Attachment 1) and physical evidence of these 
separations is readily available (Attachment 2). In fact, while Ford 
would have you believe that tread separations are proof of defect, and 
that only Firestone tires experience tread separations, the reality is 
quite different. (Attachments 3 and 3A) All tire manufacturers, 
including Goodyear, acknowledge that tires are not indestructible, that 
tread separations are the most common form of a tire disablement and 
that a tread separation is not evidence of a defect.
    Ford has also attempted to cloud the issue of the durability of our 
tires by making unsubstantiated allegations regarding construction. But 
again, whether is the thickness of the wedge material at the belt edge 
(Chart #9) or claims about our materials, the data shows our tires are 
as good or better than the competition.
    Ford's comparison of Firestone to Goodyear is further flawed by the 
inclusion of claims associated with the 6.5 million tires recalled by 
Firestone last year. Ford's use of claims on those tires to 
characterize tires on the road today is patently false and misleading.
    The rationale and data put forward by Ford to explain its current 
recall of Wilderness AT tires is unsupported by test data, by real 
world experience, and by Ford's own statements about the tires. Ford's 
selective use of data, biased test procedures and contradictory 
statements show that its recall is at best a poorly documented public 
relations exercise designed to protect the image of a profitable 
product that represents approximately \1/3\ of every profit dollar--the 
Explorer. I am deeply concerned that this campaign at Ford is also an 
attempt to scapegoat our tires by falsely alarming consumers about 
their safety. In the process, Ford may be hiding from consumers, 
regulators, and Congress some very real safety problems of their 
vehicle which should be addressed honestly and seriously.
    Mr. Chairman, the extensive testing data and the voluminous record 
of real world performance of our tires shows that they are safe. There 
is no need for a recall of those tires. However, there is a need for 
industry and government to work together honestly to continue to 
improve safety for the motoring public.
                            iv. the vehicle
    The tire and the vehicle must be regarded as a system. We have 
consistently urged Congress, the NHTSA, and Ford to look at this 
phenomenon in a balanced way--that is, to look at both the tire and the 
vehicle. Indeed, on October 23, 2000, I wrote Mr. Nasser a letter 
asking his support for a joint investigation into both the tire and the 
vehicle. However, Ford has refused to work with us to examine the 
vehicle and tire as a system. They have steadfastly urged Congress, the 
NHTSA, and the American public to consider this strictly a tire issue 
and not a vehicle issue.
    We have had a growing and ultimately overwhelming conviction that 
tire design and manufacturing issues alone simply cannot account for 
what has been happening with the Explorer. There is no doubt that tire 
failures have become relatively rare in the past few decades. Still, 
cars and trucks are equipped with spare tires, jacks and lug wrenches 
precisely because when a tire fails, for whatever reason, auto 
manufacturers contemplate you will be alive to change your tire when 
you need to. We must ask ourselves why are tire failures on the Ford 
Explorer all too often not a benign event, but often a catastrophic 
one? Why is it that, if a rear tire separates on an Explorer, the 
driver often loses control and crashes? We couldn't help but think that 
this should not be happening; a driver should be able to pull over, not 
roll over.
    Since Ford was unwilling to participate in a joint analysis of its 
product, we were forced to conduct our own research into the role of 
the vehicle. A survey of what we have learned about the vehicle is 
found at Attachment 4 (Analysis of the Ford Explorer). Our root cause 
analysis made clear that vehicle weight and low inflation pressure are 
very significant factors that can lead to tread separations. The 
Explorer is a heavy vehicle and Ford recommended the bare minimum 
inflation pressure of 26 PSI. In short, Ford designed the Explorer with 
minimal reserve load.
    As part of our root cause analysis, we learned that, in fact, in 
1995, Ford increased the weight of some models of the Model Year 1996 
Explorer by over 600 pounds from the initial weight when the Explorer 
was first introduced. (Charts #10 and #11) In this respect, it is no 
surprise that the 1996 Explorer is the vehicle that appears most often 
in the claims and lawsuits alleging a tread separation. As everyone now 
knows, tires can lose as much as 1 psi per month. Ford's recommendation 
of a 26 PSI inflation pressure diminished the load reserve of the 
Explorer and its tires to an unacceptable level (Chart #12). Our 
analysis shows that the tire inflation safety factor for the Explorer 
is far below that of other popular SUVs we examined.
    Given the combination of a heavy vehicle with minimal inflation 
pressure, it stands to reason that the tire failure rate on the 
Explorer would be higher than other SUVs. This is exactly what the data 
shows. As I stated above, the Wilderness AT tires that Ford is 
replacing are performing well. The relatively few claims that exist 
stem almost exclusively from tires fitted on Ford Explorers. Based on 
these facts, it is apparent that there are vehicle issues at work here.
    Moreover, when a tread does separate from a tire, the separation 
itself ordinarily does not have a catastrophic effect on the vehicle. 
There is no explosion or impact that radically upsets the attitude or 
direction of the vehicle. Engineers think of tread separation in three 
phases, pre-separation, separation, and post-separation. In pre-
separation, the tire becomes out-of-round due to the tread beginning to 
detach. The irregular shape of the tire creates a vibration in the 
vehicle, warning the driver that a tire failure is occurring. This 
ordinarily signals a driver to reduce power and beginning pulling off 
the road.
    The separation event itself often creates a loud noise, as the 
tread flaps against the vehicle's bodywork before becoming entirely 
detached. Despite the noise, forces imparted to the vehicle are 
minimal. The tire casing is normally intact and remains inflated. The 
driver should be able to maintain control of the vehicle with very 
slight steering inputs. Carr Engineering, who performed tread 
separation tests for Ford, compared these steering inputs to those made 
to correct for wind gusts or when encountering water puddles on the 
highway. The overwhelming scientific literature agrees with Carr 
Engineering on this point.
    In the post-separation phase, the vehicle is continuing on the 
roadway with three intact tires and one tire, which, while still 
inflated and supporting the vehicle's weight, lacks its tread. 
Normally, nothing catastrophic occurs here, and the driver is easily 
able to maintain control.
    The real world data shows that with the Explorer, the occupants are 
at much greater risk than in comparable SUVs. An analysis of the 
Florida Traffic Crash Database for Explorer Model Years 1994-2000 shows 
that in a single-vehicle, tire-related highway accident, the Explorer 
rolls over at nearly four times the rate of other comparable SUVs. The 
rate of fatalities in single vehicle highway incidents is nearly twice 
that of other comparable SUVs. (Charts #13 and #14) Still additional 
analysis of the Florida data shows that the Explorer rolls over at 
nearly twice the rate of all other mid-size SUVs in a single-vehicle, 
non-tire-related highway accidents (Chart #15). A summary of this 
information is contained in ``Florida Crash, Rollover, and Fatal 
Accident Rates Based on Vehicle Registrations'' at Attachment 5. These 
analyses clearly suggest that there is a vehicle issue at work here.
    Ford's own engineering documents show that Ford was acutely aware, 
as early as 1981, of the critical handling requirements for sport 
utility vehicles such as the Explorer. Ford's experience with the 
rollover-prone Bronco II, the Explorer's predecessor, proved that 
special attention must be given to SUV handling to avoid rollovers. 
Ford recognized that keeping the vehicle axis parallel to the direction 
of travel is essential to reducing rollover accidents. Any design that 
allows an SUV to turn sideways to the direction of travel would greatly 
increase the chance for a rollover. This could be avoided by giving the 
driver safe handling qualities that maximize the chances of maintaining 
directional control.
    Automotive engineers, including Ford's, intentionally incorporate a 
handling property called ``understeer'' in their vehicle design to help 
drivers maintain directional control. Understeer is a forgiving, 
predictable, handling characteristic and its effect is to provide 
predictable, progressive response to steering inputs. To turn the 
vehicle harder, or at a higher rate of lateral acceleration, the driver 
need only turn the wheel farther.
    The opposite of understeer is oversteer. When engineers say a 
vehicle is oversteering they are talking about a circumstance where the 
rear wheels are not tracking the front wheels and the back end of the 
vehicle swings around. Engineers describe an oversteer vehicle as 
directionally unstable. Trying to steer a directionally unstable 
vehicle characteristically causes it to spinout. That is a perilous 
position for a vehicle with a rollover tendency.
    We have studied internal Ford engineering analyses of Explorer 
handling made throughout the vehicle's design and development. 
(Attachment 6) Many compromises were made to give the truck-based 
Explorer a softer, car-like ride, and these compromises may have also 
had the undesirable effect of reducing understeer and increasing 
significantly the amount of oversteer in the Explorer after a tire 
problem. The shift from understeer to a significant oversteer could 
cause drivers to lose control of Explorers following tread separations. 
The analysis of Dr. Dennis Guenther, a renowned vehicle dynamics 
engineer at Ohio State University who was hired by Firestone's defense 
counsel in October 2000, proves that this is often what happens to 
Explorers.
    In the course of Dr. Guenther's work, it became clear that an 
analysis of the Explorer's handling dynamics in tread separations would 
help us understand why all of these accidents were occurring. In May 
2001, at Firestone's request, Dr. Guenther began a series of tests of 
SUV handling at the Transportation Research Center (TRC) in East 
Liberty, Ohio. The tests were designed to examine the controllability 
of the Explorer and that of comparable SUVs, following a tread 
separation. The tests conducted to date evaluated 1996 4x2, four-door 
Explorer handling compared with that of the popular Jeep Cherokee and 
the Chevrolet Blazer. The tests that were conducted are universally 
recognized, standard tests used by automobile manufacturers, including 
Ford. A detailed description of the tests and their results is found at 
Attachment 7.
    The results of these tests were both enlightening and deeply 
disturbing. Dr. Guenther determined that with a tread separation of a 
rear tire, the Explorer becomes an oversteering vehicle in most 
situations, while the other tested SUV's maintain a safe reserve of 
understeer. The driver of an Explorer with four intact tires has the 
benefit of a small margin of understeer to provide predictable 
handling. When that same driver experiences an otherwise benign tread 
separation event, he must maintain control of a vehicle whose handling 
characteristics have suddenly and profoundly changed. As noted 
previously, the rear end of the now-oversteering vehicle has a tendency 
to swing toward the outside of a turn, and the driver may be completely 
unprepared to react appropriately. This chain-of-events typically 
results in a spinout, which is a perilous position for a vehicle, like 
the Explorer, with a rollover tendency.
    The other SUVs tested by Dr. Guenther never became oversteer 
vehicles. Tread separation reduced the understeer of these vehicles 
somewhat, but there was still a significant reserve to maintain 
predictable handling. The differences measured are substantial. For 
example, the Cherokee with a separated rear tire still has more 
understeer than an Explorer with four good tires. (Charts #16 and #17)
    As I explained, the findings of Dr. Guenther concerning the 
handling deficiencies of the Explorer are supported by the real world 
data. If we need any further proof that the Explorer's handling should 
be evaluated, we need look no further than Venezuela. Plagued with 
reports of rollover crashes in that country, Ford engineers in 1999 
questioned why only their vehicles ``suffer accidents'' while other 
Firestone-shod SUVs did not. Ford, in an effort to stem the accidents, 
offered to sell consumers suspension upgrades to improve stability, and 
later replaced all Firestone tires with other brands. Even so, since 
May 2000, there have been 43 judicially confirmed Explorer rollover 
crashes in Venezuela--all of them on competitor's tires. (Chart #18) In 
the last 10 days alone, four people in Venezuela have died in Ford 
Explorer rollover accidents. The two vehicles involved in these 
accidents were equipped with competing tire brands. The Venezuelan 
Consumer protection agency has contemplated having the Explorer banned 
from the country.
    Last fall Firestone was roundly criticized by this Committee for 
not acting when faced with data coming out of Venezuela and other 
countries. Indeed, at this Committee's urging, Congress passed the 
TREAD Act largely in response to that very situation. Shame on us now 
if, just a few months later, we ignore new data coming out of Venezuela 
and do not adequately investigate the Explorer. Perhaps Ford will be 
more responsive to requests from this Committee for accident and claims 
data relating to the Venezuelan Explorer rollovers . . . they have 
steadfastly refused to give that information to Bridgestone/Firestone.
    As the Committee is aware, we took the initial findings of Dr. 
Guenther's research to the NHTSA as soon as the tests were complete. On 
May 31, 2001, I met with Transportation Secretary Norman Mineta and 
Acting NHTSA Administrator Robert Shelton to discuss these findings. I 
discussed with the NHTSA the need for a thorough investigation of the 
Ford Explorer. We did this, not because we are having a feud with Ford 
Motor Company. We acted because of our overriding concern for safety. 
We believe that to truly protect the public, safety investigations must 
identify and evaluate all of the factors that contribute to accidents.
                             v. conclusion
    To date, the Federal Government has focused almost solely on the 
tire, and we accept that scrutiny of our products. But the data and Dr. 
Guenther's report show that the problem is not nearly so simple. There 
are critical aspects of vehicle handling that contribute powerfully to 
the risk of rollover crashes following tread separations.
    For the Committee's consideration in reviewing this matter, we have 
attached additional relevant data and information at Attachment 8.
    We are not asking the NHTSA or Congress to make a conclusive 
judgement based on our ongoing study. We are asking that the NHTSA view 
this study as proof that there are vehicle issues at work here. These 
vehicle issues call out for scrutiny.
    I want to again commend the Committee and staff for its hard work 
and persistence in investigating the causes of these rollover 
accidents. The public has a right to a thorough analysis of this 
problem with the full cooperation of affected companies. We have an 
obligation to provide that cooperation even when, and especially when, 
it might disclose problems with our products. Your oversight will help 
to assure that this occurs.
    The timing of today's hearing, at the beginning of the summer 
driving season, provides us with an important opportunity to educate 
the driving public about how they can assure safe highway travel. Let 
me conclude by providing two recommendations from Firestone:

First, do think about your tires, whatever brand they are. Make sure 
        they are always properly inflated. And ask your tire dealer to 
        examine them for damage if you have any doubts.
Second, avoid overloading your vehicle, as this can both upset its 
        handling and exceed the capacity of its tires. Again, the 
        vehicle manufacturer's recommendations should be followed 
        carefully.
    Thank you again for inviting me to appear. I look forward to 
answering your questions.
                                 ______
                                 
                     Analysis of the Ford Explorer
                 i. executive summary and introduction
    The purpose of this analysis is to address the myth with respect to 
the Ford Explorer that rollover crashes that occur following a tread 
separation are attributable in any way to tire design or tire 
manufacturing. In fact, as the data presented in this analysis 
conclusively demonstrate, tire issues can not account for the high risk 
and rate of Ford Explorer rollover crashes. This analysis concludes 
that, based on the design and development of the Explorer, real world 
data on Explorer control problems, an engineering analysis of the 
Explorer, and the substance of Ford's own presentation to NHTSA 
concerning Explorer vehicle dynamics, the rollover problem is rooted in 
the Explorer, not tires.
A. Design and Development
    For 20 years Ford engineers have known that so-called 
``understeer'' is the primary vehicle design factor that prevents 
vehicle rollover and that an ``oversteering'' vehicle can and likely 
will result in loss of control that foreseeably could lead to a 
rollover and other accidents. In fact, Ford engineers recommended to 
management major changes to the suspension, engine height and track 
width of the Explorer to increase understeer in all conditions and to 
increased Explorer rollover resistance. Ford management ignored or 
rejected these recommendations.
    Instead, Ford decided to create a public relations ``image'' for 
the Explorer as a safe vehicle. The Company manipulated the rollout of 
the Explorer, including its design and testing, solely to get the new 
vehicle to ``look'' or ``seem'' like it was stable, and regardless of 
the effect such manipulations might have on controllability. By putting 
profits and public relations image in front of sound engineering 
principles, Ford caused two catastrophic consequences. First, Ford 
reduced the margin of safety for tires that it specified to Firestone, 
causing the rare but now highly publicized phenomenon of tread 
separations on Explorers. Second, because of the vehicle's design, the 
Explorer, following a tread separation, immediately transitions to an 
oversteer truck that is likely to go out of control and roll over. 
Ford's flawed decisions are confirmed by real world data.
B. Real World Data
    As the following data suggest, the Explorer rollover problem is not 
a case of a ``bad tire,'' but of a vehicle control problem:

1) Wilderness AT 15'' tires provided to General Motors and not recalled 
        last year have only 2 tread separation claims on 3.1 million 
        tires.
2) The non-recalled Wilderness AT 15'' tires have a tread separation 
        claims rate eight times higher on the Explorer than on the Ford 
        Ranger. The tires on each are exactly the same.
3) The total number of tread separation claims and lawsuits for the 13 
        million tires Ford is replacing is 118, less than 10 parts per 
        million or 0.0009%, which provides no rationale, other than a 
        suspect one, for Ford's $3 billion replacement campaign.
4) Based on the Florida Traffic Crash Database, the odds of an Explorer 
        rolling over in a single-vehicle highway tire-related incident 
        are 4.35 compared to 1.92 odds for comparable SUVs. The odds 
        ratio of a fatality occurring in such an accident is nearly 
        three times greater with the Explorer according to Florida 
        data, and four times greater according to Texas data.
    This data proves that the Explorer, in single vehicle, tire related 
highway incidents simply does not perform as safely as its competitors, 
which is confirmed and explained by the recent engineering analysis 
conducted by Dr. Dennis A. Guenther.
C. Engineering Analysis
    According to a recent engineering analysis conducted by Dr. Dennis 
A. Guenther, a Professor of Mechanical Engineering at Ohio State 
University, the Explorer is often an oversteer vehicle after it 
experiences tread separation, which makes the Explorer vehicle 
directionally unstable and subject to loss of control in the hands of 
most drivers. Dr. Guenther's analysis found that:

1) Explorer models he has tested, as designed, have a significantly 
        lower amount of understeer--less than half as much--than the 
        other SUVs he evaluated.
2) The Explorer loses much of its small margin of understeer when it is 
        loaded to gross vehicle weight rating--the other SUVs do not.
3) The Explorer models tested, unlike other SUVs tested, lose all of 
        their understeer and become oversteer vehicles in most 
        circumstances following tread separation on a left rear tire, 
        the predominant tire position in Explorer tread separation 
        crashes the other SUVs do not.
4) An oversteer vehicle is extremely difficult for most drivers to 
        control, particularly at interstate highway speeds where it can 
        become directionally unstable.
    Dr. Guenther concludes that the oversteer problem in the Explorer 
should be reported as a safety defect within the meaning of the 
National Highway Traffic and Motor Vehicle Safety Act. Ford Explorer 
rollover phenomenon is the result of a vehicle problem not a tire 
problem, and should be regarded as a safety defect within the meaning 
of the National Highway Traffic and Motor Vehicle Safety Act.
D. Misleading Ford Filing to NHTSA
    Ford's March 2001 filing with the NHTSA concerning the Explorer's 
loss of control following a tread separation contains inaccuracies and 
misinformation that reinforces Ford's irresponsible reaction to the 
rollover problem, as the following component of that filing suggests.
    Ford suggested in its filing to the NHTSA that tread separation is 
a ``fundamental cause'' of loss of vehicle control that ``overwhelms 
differences in design among vehicle claims or within vehicle classes,'' 
and that, in this setting, ``Explorers perform like all other 
vehicles.'' Ford based that statement, however, on a so-called high 
lateral acceleration maneuver, where most drivers do not operate their 
vehicles. In fact, the maneuver most often used to correct for the 
small event of drag following a tread separation or in bringing a 
vehicle to the shoulder is a very small steer input resulting in a so-
called low lateral acceleration maneuver, even at highway speeds. In 
such a normal driving maneuver, Explorers do not perform like other 
vehicles, since they lack the necessary margin of understeer to remain 
directionally controllable in highway maneuvers involved in normal 
driving.
E. Conclusion
    Taken together, these factors provide disturbing evidence that 
Ford, when given the opportunity to act responsibly to ensure the 
safety and stability of the Explorer, has acted instead to shift blame 
and obfuscate the facts concerning the safety of its best selling 
vehicle. As the following analysis confirms, the rollover phenomenon is 
a vehicle problem that requires forthright and responsible 
investigation.
               ii. design and development of the explorer
A. Introduction
    Ford engineers have known for over 20 years that the most important 
vehicle characteristic in maintaining control and reducing SUV 
propensity for rollover is understeer. The company's engineering 
documents identify understeer as a ``first order effect'' and the 
``primary factor influencing roll-over propensity.'' <SUP>1</SUP> The 
problem with an oversteering vehicle, in terms of rollover propensity, 
is that it can and likely will result in the back end of the vehicle 
coming around--a loss of control--with the vehicle ending up sideways 
to its path of travel. The resultant side forces (``lateral 
acceleration'' in engineering terms) are what bring about 
rollover.<SUP>2</SUP>
---------------------------------------------------------------------------
    \1\ Ford Program Report 000000393-98, ``Roll Over Stability,'' 
February 3, 1981.
    \2\ Id.
---------------------------------------------------------------------------
    Ford also recognized that the rollover stability of a vehicle is 
affected by its stability index, the relationship of center of gravity 
height and the track width of the vehicle. In light of these vehicle 
control and stability principles, Ford engineers adopted a ``handling 
strategy'' with respect to the Explorer to ``increase understeer in all 
conditions'', <SUP>3</SUP> and they recommended to Ford management 
major changes to the suspension, reduction in the engine height to 
lower center of gravity, and increase in the track width of the vehicle 
to make the Explorer more resistant to rollover than the Bronco 
II.<SUP>4</SUP>
---------------------------------------------------------------------------
    \3\ Ford engineering document EXP3 1107, ``Subject: UN46 Handling/
Stability Status.''
    \4\  Ford engineering document EXP4 1581-84, ``Proposed UN-46 
Chassis Design Modifications.''
---------------------------------------------------------------------------
    Ford's knowledge of the critical importance of understeer was not 
acted upon, however, and Ford management rejected the center of gravity 
and track width recommendations of its engineers that would have made 
the Explorer more resistant to rollover.
    Rather than doing what good engineering required to make the 
Explorer safe, with an acceptable margin of control Ford decided on a 
course of creating a public relations ``image'' for the Explorer as a 
safe vehicle. It did this by making a vehicle that could pass so-called 
``J-Turn'' and ``Consumer Union'' lane change tests, even though it 
knew and took the position internally that the maneuvers in those tests 
were ``not representative of what is happening in the real world.'' 
<SUP>5</SUP> It also decided to rely on the less aggressive driving 
habits of members of the family car market into which it sold the 
Explorer to give the vehicle a statistics-based ``image'' of rollover 
safety in spite of the stability shortcomings of the 
vehicle.<SUP>6</SUP>
---------------------------------------------------------------------------
    \5\ Ford document EXPI 0622, email from White to Houston, September 
11, 1989.
    \6\ Ford engineering document EXP3 1108, ``Subject: 1990 Explorer 
Handling Stability.''
---------------------------------------------------------------------------
    Unfortunately for Firestone's reputation, Ford carried out the 
design tradeoffs and manipulations required for the public relations 
image it sought primarily by letting air out of the Explorer's tires. 
In a 1989 Development Report on ``Suspension Development Status,'' 
after noting that they had investigated variations in tire pressure 
``as means to achieving the UN46 [Explorer] ride and handling 
objective,'' Ford engineers recommended use of ``reductions in tire 
pressure to meet the program objectives'' for both ride and 
handling.<SUP>7</SUP>
---------------------------------------------------------------------------
    \7\ Ford engineering document EXPU 1458-60, ``Development Report.'' 
See also, Ford engineering document EXPT 1497-1503, ``Development 
Report.''
---------------------------------------------------------------------------
    Similarly, in addressing rollover stability, Ford engineers adopted 
a ``strategy'' of limiting cornering capacity of the large tires 
demanded by the Ford marketing department by, again, reducing air 
pressure.<SUP>8</SUP>
---------------------------------------------------------------------------
    \8\ See, e.g., Ford engineering document EXP4 1273-74, ``Subject: 
UN46 status.''
---------------------------------------------------------------------------
    When it came to creating understeer, the Ford engineers again 
turned to lower tire pressure.<SUP>9</SUP>
---------------------------------------------------------------------------
    \9\ See, e.g., Ford engineering document EXP4 0193, ``UN46 
Analysis.'' See also Id.
---------------------------------------------------------------------------
    By putting profits and public relations image in front of sound 
engineering principles, Ford caused two catastrophic consequences. 
First, Ford reduced the margin of safety for the tires that it 
specified to Firestone, contributing to the rare but now highly 
publicized phenomenon of tread separations on Explorers. Second, 
because of the vehicle's design, the Explorer, following a rear tire 
tread separation, immediately transitions to an oversteer truck that is 
likely to go out of control and roll over in the hands of the ordinary 
driver.
B. Development of the Explorer
    1. Initial Design Flaws Based on Bronco II and Tire Manipulations--
Ford's internal documents describe the Explorer as a new and freshened 
Bronco II. Ford initially intended to continue using the Bronco II 
name, but decided to change the name to Explorer when the Bronco II 
came under fire for rollover problems and Ford sought to distance 
itself from criticisms of the Bronco II.<SUP>10</SUP>
---------------------------------------------------------------------------
    \10\ See, e.g., Ford media relations document EXP4 1280-84, 
``Explorer Q&A.''
---------------------------------------------------------------------------
    As early as 1986, Ford engineers started playing with tire sizes to 
address rollover stability, rather than making more fundamental changes 
in their vehicles. Ford engineers labeled the P195 tires as the ``base 
tire'' on the Bronco II to achieve a satisfactory ``stability index'' 
because the Bronco II with P215 tires, which it sold as an option tire 
on the Bronco II, could not pass Ford's rollover stability 
tests.<SUP>11</SUP> One Ford engineer questioned this approach: 
``Shouldn't we be looking at more permanent ways of improving the 
stability index of Bronco II other than small tires?'' <SUP>12</SUP> 
Another Ford engineering document explained that the company chose to 
play with tire size rather than spend the time and money to create a 
truly safer vehicle:

    \11\ See Ford document 000012766-67, memorandum from Snodgrass to 
Bacigalupi and Vought, September 3, 1986. See also note 5.
    \12\ See Ford document 000012765, memorandum from Bacigalupi to 
Snodgrass, September 5, 1986.
---------------------------------------------------------------------------
        Stability index requirements are always tied to base vehicle 
        (this decision was reached with help of OGC [Office of the 
        General Counsel]). Since the P215 pushes the stability index 
        below the accepted minimum of 2.1, the suspension guys felt 
        they need to retain a tire that has the minimum S.I. Better 
        alternatives to tire size are for example
          --lowering vehicle
          --lowering CG by adding weight low in vehicle
        Cost and timing implications of these kind of actions have 
        always stalled them in their tracks to White.<SUP>13</SUP>
---------------------------------------------------------------------------
    \13\ Ford document 000008940, memorandum from Bacigalupi to White, 
October 6, 1986.
---------------------------------------------------------------------------
    In designing the Explorer, Ford stuck with the basic Bronco II 
frame and suspension, and utilized the same philosophy of playing with 
tires to address rollover stability concerns. As a result, the Explorer 
shared virtually the same track width, high engine mount, obsolete 
suspension, and elevated center of gravity as its parent vehicle, the 
Bronco II. ``[G]iven the fundamental constraints imposed by the vehicle 
package and suspension `type' '' carried over from the Bronco II, Ford 
struggled to reduce the Explorer's rollover propensity; <SUP>14</SUP> 
most of Ford's struggles involved specifying the tires rather than 
changing the vehicle.
---------------------------------------------------------------------------
    \14\ See note 6.
---------------------------------------------------------------------------
    2. Explorer Testing--Unrealistic Measure of Vehicle Safety--Ford 
required that the Explorer pass ``J-Turn tests,'' an unrealistic 
maneuver invented by the Insurance Institute for Highway Safety in the 
early 1980s, before being released for production.<SUP>15</SUP> A ``J-
Turn test'' is an extreme turn at a given rate speed (usually 45 or 60 
mph), and an evaluation of whether the vehicle's tires lift off the 
ground. In addition, while not a formal requirement, the Consumer 
Union's lane-change rollover stability test ``became an implicit 
requirement for the Explorer due to the potential for adverse 
publicity'' if it failed.<SUP>16</SUP>
---------------------------------------------------------------------------
    \15\ Id.
    \16\ Id.
---------------------------------------------------------------------------
    Because of these image and litigation-driven requirements, the 
development of the Explorer turned into a story of tweaking the vehicle 
and the tires in an attempt to pass these tests, while at the same time 
providing a softer rider acceptable to Ford's target marketing group--
families. Even though Ford's internal documents had identified 
understeer as the most important vehicle handling characteristic in 
maintaining directional control and reducing rollover exposure, 
<SUP>17</SUP> the design tradeoffs made by Ford to pass J-Turn and 
Consumer Union tests did not address or seek to increase understeer and 
the degradation they caused in the vehicles control charicteristics.
---------------------------------------------------------------------------
    \17\ See note 1.
---------------------------------------------------------------------------
    In late 1988, more than a year before the Explorer's spring 1990 
introduction, computer modeling showed that ``the vehicle still has 2 
wheel lift no matter what tire is on it, 225/70, 215/75 or 205/75.'' 
<SUP>18</SUP> In February 1989, the computer simulation continued to 
show unacceptable rollover performance with certain P245 and P225 
tires.<SUP>19</SUP> The result remained poor in computer simulations 
after lowering the rear of the vehicle by one-half inch with 26 psi in 
the tires.<SUP>20</SUP>
---------------------------------------------------------------------------
    \18\ Ford document EXPT 1047-49, memorandum from Figliomeni to 
Avouris, November 29, 1988.
    \19\ Ford document EXPU 1959, memorandum from Figliomeni to 
Avouris, February 3, 1989.
    \20\ Ford document EXP7 2273, memorandum from Figliomeni to Avouris 
[undated].
---------------------------------------------------------------------------
    Undeterred by these results, Ford management concluded in late 
February 1989 that with 26 psi in the P235 and P245 tires, and tweaks 
to the suspension, stabilizer bar and a one-half inch reduction in rear 
ride height, the Explorer would meet its handling 
objectives.<SUP>21</SUP>
---------------------------------------------------------------------------
    \21\ Ford document EXPU 9476-78, ``Development Report.''
---------------------------------------------------------------------------
    Ford then tried every trick in the book to get the vehicle to pass 
the J-turn test, including in one March 1989 simulation placing all 
four test dummies on the vehicle's floor to lower the vehicle's center 
of gravity. The Explorer still failed the test.<SUP>22</SUP> Later in 
March 1989, the Explorer failed J-Turn tests with a variety of tire 
pressure and suspension configurations.<SUP>23</SUP> At one point, it 
was proposed that if the marketing implications were not too great, the 
P225 tire be the largest tire allowed on the vehicle and that the 
maximum load allowed for the vehicle be reduced.<SUP>24</SUP> Even in 
August 1989, the Explorer failed J-Turn tests at its Arizona proving 
grounds with 35 psi in the P235 tires.<SUP>25</SUP>
---------------------------------------------------------------------------
    \22\ See Ford document EXPT 1168, email from Avouris to Campbell, 
March 8, 1989.
    \23\ Ford document EXP4 1276, memorandum from Starr to Avouris and 
Campbell, May 10, 1989.
    \24\ See Ford document EXPT 0785-86, ``UN46 Development Status.''; 
see also Ford document EXPT 0569, ``Subject: 1990+ UN-46 Chassis 
Revisions and Tire Availability,'' July 6, 1989.
    \25\ See deposition of Thomas B. Baughman in Bailey v. Ford Motor 
Company, at 78-81.
---------------------------------------------------------------------------
    Concerned over the Explorer's struggling performance in rollover 
stability tests, in June 1989 Ford management actively considered 
releasing the 4-door Explorer on P225 tires as a ``strawman'' because 
it would pass the Consumer Union test with those tires, though not with 
P235 tires. Six months later, after the ``strawman'' passed the test, 
Ford could quietly release the 2-door and 4-door on P235 
tires.<SUP>26</SUP> Thus, Ford cynically manipulated not only the 
design of the Explorer, but also the testing, solely to get the new 
Explorer to ``look'' or ``seem'' like it was stable, regardless of 
whether it really was or not and regardless of the effect such 
manipulations might have the margin of safe controllability.
---------------------------------------------------------------------------
    \26\ See Ford document EXPT 0570-71, email from Stornant to 
Campbell, June 23, 1989.
---------------------------------------------------------------------------
    3. Manipulative Marketing--Ford not only manipulated the design of 
the Explorer to make the vehicle seem like it was rollover resistant 
but also to make it seem to the consumer something it was not--a 
passenger car.<SUP>27</SUP> The Explorer is in fact a ``Light Truck'' 
derived from the Bronco II and Ranger trucks, not a passenger car. 
Nevertheless, driven by its intense marketing determination to get 
suburban ``soccer moms'' to buy and drive the vehicle, Ford imposed 
upon the vehicle design a passenger-car-like ride.<SUP>28</SUP> Ford 
accomplished this by, among other things, softening the suspension, 
using a P-metric (passenger car) tire, and taking air out of the 
tires.<SUP>29</SUP> Knowing that this passenger-car-like vehicle would 
be just as likely to roll over as the Bronco II, Ford intentionally 
designed excessive body roll into it to act as a deterrent to the 
driver against making sharp turns that might result in 
rollover.<SUP>30</SUP> This change was made even though the relatively 
low damping of body roll adversely affects controllability of the 
Explorer. This change, coupled with Ford's other design tradeoffs 
intended to provide a vehicle more resistant to rollover allegations 
rather than to improve safety, ultimately resulted in the sacrifice of 
the amount of understeer and other contributions to a proper formation 
of controllability necessary to provide reasonable consumer safety in 
foreseeable tire failure circumstances.
---------------------------------------------------------------------------
    \27\ See, e.g., Ford document EXP2 1578, ``Inter-office 
Memorandum,'' June 9, 1987.
    \28\ See, e.g., Ford document EXPN 0175, at 0180-81, ``Dealer 
Launch and Resource Guide.''; Ford document 000057450-52, Ford press 
release.
    \29\ See, e.g.,note 24.
    \30\ See, e.g., note 3.
---------------------------------------------------------------------------
    4. Flawed Tire Decisions--In the fall of 1989, an engineer warned 
that the Office of the General Counsel of Ford was ``arming themselves 
for one more attempt to . . . restrict [the Explorer] to P225 tires.'' 
<SUP>31</SUP> Obviously, the attempt by the lawyers to address a safety 
issue failed. Ford sold the Explorer with optional P235 tires.
---------------------------------------------------------------------------
    \31\ Ford document EXP 0625, email from Stornant to White, 
September 11, 1989.
---------------------------------------------------------------------------
    Ford engineering documents summarize the Explorer's twisted 
development history by conceding failure:
        The 1990 Explorer has been designed to achieve the best 
        possible handling stability given the fundamental constraints 
        imposed by the vehicle package and suspension ``type'' . . . To 
        achieve the stated [stability] values, the Explorer has been 
        lowered to the maximum extent possible. The relatively high 
        engine position of the Explorer, unchanged from Bronco II, 
        prevents further significant improvement in Stability Index 
        without extensive suspension, frame and sheetmetal 
        revisions.<SUP>32</SUP>
---------------------------------------------------------------------------
    \32\ Ford engineering document EXP3 1108, ``Subject: 1990 Explorer 
Handling Stability.''
---------------------------------------------------------------------------
    Ford recognized that the Explorer, particularly the 2-door with 
P235 tires likely would fail the Consumer Union test.<SUP>33</SUP>
---------------------------------------------------------------------------
    \33\ Id.
---------------------------------------------------------------------------
    With all of Ford's design manipulations to achieve the appearance 
of rollover stability, the Explorer nevertheless remained an unstable 
vehicle when it was sold to the public beginning in 1990. Both computer 
simulations and Ford's actual testing in 1989 showed that the 2-door 
Explorer with P235 tires was as unstable as the highly criticized 
Bronco II, and the 4-door was only slightly better.<SUP>34</SUP> When 
Ford engineers recommended major changes to the front suspension, 
steering system, and rollover stability dimensions in order to make the 
vehicle as resistant to rollover as they knew it needed to be, 
management rejected the proposals because they would interfere with 
``Job 1.'' Internally, ``Job 1'' at Ford meant meeting the March 1990 
initial production date.<SUP>35</SUP> Ford reasoned that even though it 
did not make needed fundamental changes to the Explorer in development, 
it would still perform better than the Bronco II in rollover statistics 
because of the longer wheelbase and increased understeer (largely from 
reduced tire pressure) and more conservative drivers. ``With the high 
(80/20) mix of 4dr vehicles, we can expect a less aggressive driver 
profile with a corresponding reduction in all accident statistics.'' 
<SUP>36</SUP> Ford internal documents show that Ford management 
blithely ``accepted [the] risk'' that the Explorer would have a higher 
rollover risk with the larger P235 tire.<SUP>37</SUP>
---------------------------------------------------------------------------
    \34\ See, e.g., Ford email EXPI 0619-20, email from Stornant to 
White, September 12, 1989.
    \35\ See note 4.
    \36\ Ford engineering document EXP3 1108, ``Subject: 1990 Explorer 
Handling Stability.''
    \37\ See note 34.
---------------------------------------------------------------------------
    Ford also blithely ``accepted the risk'' that the vehicle would 
become uncontrollable in foreseeable circumstances, such as tire 
failures. As Ford recently admitted to NHTSA, <SUP>38</SUP> it simply 
chose not to test to determine how much tire tread/belt separation, 
which it admitted to be foreseeable, would reduce understeer and 
controllability and thus lead to unnecessary accidents. Ford failed to 
do such testing even though it knew from tire testing it had done and 
decades of use of numerous tire brands on the cars it manufactured that 
tire tread/belt separations could occur with the tires to be used on 
the Explorer. Contrary to Ford's assertions in the March NHTSA 
presentation, there was nothing about the Explorer design that was 
intended to or did ensure vehicle controllability in the event of tread 
separation.
---------------------------------------------------------------------------
    \38\ Ford document, ``Firestone Tire Root Cause Update and Explorer 
Vehicle Dynamics Presentation,'' March 28-29, 2001, at page TH-3 132.
---------------------------------------------------------------------------
C. The Weight of the Explorer Further Stresses the Tires
    That Ford took air out of the tires to increase the Explorer's 
rollover stability cannot be reasonably disputed. Nor can it be 
disputed that weight--i.e., the load placed on tires--is a factor in 
tire life. Dr. Sanjay Govindjee from the University of California at 
Berkeley established that vehicle loading is a very significant factor 
leading to tread belt separations.<SUP>39</SUP> It also cannot be 
disputed that at 26 psi, Ford left a very small leading margin for 
safety in the tires.
---------------------------------------------------------------------------
    \39\ See Firestone Tire Failure Analysis, Dr. Sanjay Govindjee, 
January 30, 2001, at 35.
---------------------------------------------------------------------------
    The P235 tire at 26 psi on the Explorer has a margin for safety in 
terms of weight of about 150 pounds. At 23 psi, that tire on several 
versions of the Explorer has reached its maximum load at the GAWR of 
the vehicle.<SUP>40</SUP> Below 23 psi, the tire would be overloaded. 
In fact, through 1996, Ford continually added weight to the Explorer. 
The 1990 4x4 4-door increased from about 5,000 pounds to nearly 5,400 
pounds in 1993 to well over 5,600 pounds in 1996. It is no surprise 
that a significant majority of the claims that Firestone has received 
is on the heavier Explorers.
---------------------------------------------------------------------------
    \40\ See attached chart.
---------------------------------------------------------------------------
    In fact, the Explorer has an extremely low tire inflation safety 
factor relative to other popular SUVs.<SUP>41</SUP>
---------------------------------------------------------------------------
    \41\ See attached chart.
---------------------------------------------------------------------------
    The bottom line is that Ford placed too much on the tires. It set 
the specifications for the tires and Firestone met those 
specifications. But Ford also reduced the tire pressure to the minimum 
so the inherently unstable Explorer could pass, just barely, internal 
J-Turn tests, and so the light truck would ride more like a car to 
attract family drivers. At the same time, Ford designed a heavy (and 
for that matter, top heavy) vehicle, and then continued to make the 
vehicle heavier. No wonder that the combination of low or in many cases 
under inflated tires with heavy loaded vehicles in the hot summer lead 
to an increase in tread separations.
    Not surprisingly, the real world data shows that this is more than 
just theory.
    iii. the real world data show the explorer has a control problem
    Not only do Ford's internal documents show that the Explorer's 
designers ignored what they knew about the relationship of understeer 
and vehicle control, the real world facts support the conclusion that 
this is not a case of a ``bad tire,'' as Ford's Chairman Nasser has 
asserted, but a vehicle with a control problem:

1. Of the 2.6 million Wilderness AT 15'' tires not supplied last year 
        and recalled to General Motors, there are only 2 tread 
        separation claims--less than 1 ppm!.
2. The non-recalled Wilderness AT 15'' tires supplied to Ford have a 
        tread separation claims rate 8 times higher on the Explorer 
        than on the Ford Ranger. The tires on each vehicle are exactly 
        the same.
3. As of the end of 2000, the total number of tread separation claims 
        and lawsuits for the 13 million tires that Ford is replacing is 
        118. That is, less than 10 parts per million or 0.0009%. This 
        is incredibly low. Ford's announcement to replace these tires 
        is itself suspect. No rational automobile company in the world 
        would spend $3 billion to address a ``problem'' that doesn't 
        exist.
4. Just a few weeks ago, there was a report of a Ford Explorer accident 
        in Ft. Myers, Fla. According to the report, a BF Goodrich tire 
        on the left rear separated, the driver then lost control, and 
        the vehicle ultimately rolled over, killing the driver. In the 
        newspaper report, the state trooper on the scene stated that a 
        tread separation does not ordinarily mean that you lose control 
        of the vehicle.
5. In Venezuela, there are reports of 43 rollover accidents on 
        Explorers between May 2000 and June of this year. All are 
        Goodyear or other competitor tires. This rate of rollovers has 
        prompted the Venezuelan Consumer Protection Agency to consider 
        that Explorers be banned from the country. In fact, in the last 
        10 days alone, four people have died in 2 separate Ford 
        Explorer rollovers; both of the accidents were on competitor 
        tires.
6. Finally, the crash data itself shows the stability problems in the 
        Explorer. Based on the Florida Traffic Crash Database, the odds 
        of an Explorer rolling over in a single vehicle highway tire-
        related incident are 4.35 while the odds of comparable SUVs 
        rolling over in the same accidents are 1.92.<SUP>42</SUP> The 
        odds ratio of a fatality occurring in such an accident is 
        nearly three times greater with the Explorer. The Explorer did 
        not fair much better in Texas. In such incidents based on the 
        Texas database, the odds ratio of an Explorer rolling over is 
        1.58 times that of comparable SUVs.<SUP>43</SUP> The odds ratio 
        of being killed if an individual is in such incident in Texas 
        while in an Explorer is nearly four times that of other 
        comparable SUVs.<SUP>44</SUP> This data proves that the 
        Explorer in single vehicle, tire related highway incidents 
        simply does not perform up to par with its competitors. The 
        testing performed by Dr. Dennis Guenther show why.
---------------------------------------------------------------------------
    \42\ See attached chart.
    \43\ See id.
    \44\ See attached chart.
---------------------------------------------------------------------------
 iv. dr. dennis a. guenther's engineering analysis of the ford explorer
A. Summary
    This analysis is focused on the loss of control experienced by the 
Explorer in normal highway driving following a rear tire tread/belt 
separation (hereinafter ``tread separation'').
    Loss of control in this circumstance often results in the Explorer 
leaving the highway and rolling over or spinning into an angle relative 
to its path of travel on the roadway sufficient to cause rollover, with 
or without tripping, or other serious accidents. Because loss of 
control is a precursor to rollovers and other serious accidents, the 
hypothesis is suggested by common Explorer accident scenarios that the 
Explorer has a control problem leading to rollover and other crashes in 
the event of tread separation.
    Dr. Guenther has tested that hypothesis and found that:

<bullet> the Explorer models he has tested, as designed, have a 
        significantly lower amount of understeer than the other SUVs he 
        has evaluated, less than half as much as the Jeep Cherokee and 
        Chevrolet Blazer;
<bullet> the Explorer loses much of its small margin of understeer when 
        it is loaded to gross vehicle weight rating; the Cherokee and 
        the Blazer do not;
<bullet> the Explorer models tested, unlike the Cherokee and the 
        Blazer, lose all of their understeer and become oversteer 
        vehicles in most circumstances following tread separation on a 
        left rear tire, <SUP>45</SUP> the predominant tire position in 
        Explorer tread separation crashes; the only exception in Dr. 
        Guenther's investigation is a light load configuration in a 
        counter-clockwise turn, with the separated tire mounted on the 
        left rear, a circumstance where the vehicle retains a very 
        small amount of understeer;
---------------------------------------------------------------------------
    \45\ Left rear tread separation is the most common finding in 
Explorer accidents involving tread separation and is the condition 
examined to date.
---------------------------------------------------------------------------
<bullet> an oversteer vehicle is extremely difficult for most ordinary 
        drivers to control, particularly at interstate highway speeds 
        where it can become directionally unstable;
    His conclusion based on these findings is that the Explorer is 
defectively designed in that it has an inadequate margin of control in 
the foreseeable circumstance of tread separation during normal highway 
driving in most load and turning circumstances.
B. Relevant Engineering / Accident Reconstruction Concepts
    1. Understeer/Oversteer--The terms ``understeer'' and 
``oversteer'', while not particularly descriptive in themselves, are 
engineering terms that are used to characterize what is one of the most 
significant control relationships in driving an automobile in the 
linear range <SUP>46</SUP>--the amount of steering input necessary to 
produce an amount of G's of lateral acceleration, which produces the 
side force that accomplishes turning of an automobile. It is measured 
and expressed in degrees of steering wheel input per G of lateral 
acceleration.
---------------------------------------------------------------------------
    \46\ Linear range in this context refers to normal everyday driving 
by average drivers.
---------------------------------------------------------------------------
    The amount of understeer or oversteer in a vehicle is measured by 
driving the vehicle in a constant radius circle at an increasing speed 
and recording the degrees of steer input per G of lateral acceleration. 
In an understeer vehicle a test driver, in terms of what he perceives 
and does in that circumstance, must steer toward the center of the 
circle, with increasing steer input as he increases speed, in order to 
stay on the path of the constant radius circle; that is the same thing 
the average driver experiences as he drives around a curve--he must 
steer to the inside of the curve in order to generate the side force 
necessary to turn the vehicle and stay on the curving path, and the 
rear of the vehicle follows the front around the circle.
    An oversteer vehicle behaves just the opposite. The test driver 
would have to steer away from the center of the circle in order to stay 
on the constant radius circle as his speed increases' he would have to 
``take steer out'' or ``reverse steer'' in order to keep the car on the 
path of the circle as he increases speed.<SUP>47</SUP> ``Because of 
this need for steering reversal, final oversteer is generally 
considered bad.'' <SUP>48</SUP>
---------------------------------------------------------------------------
    \47\ See Gillespie, ``Fundamentals of Vehicle Dynamics,'' for a 
technical definition of ``understeer'' and ``oversteer.''
    \48\ Dixon, ``Limit Steady State Vehicle Handling,'' at page 283, 
col. 1.
---------------------------------------------------------------------------
    Automobile manufacturers do not intentionally design an oversteer 
characteristic into cars intended for ordinary drivers because ``a 
vehicle that oversteers, by design or circumstance, is highly 
undesirable.'' <SUP>49</SUP> The vehicle dynamics literature is clear 
that an oversteering vehicle is directionally unstable--generally 
speaking, ``an understeering vehicle is a directionally stable 
vehicle'' and ``an oversteering vehicle is directionally an unstable 
vehicle.'' <SUP>50</SUP> A vehicle is directionally unstable if 
steering or disturbances, such as wind, generate forces that cause an 
ever-increasing vehicle response until it spins out.<SUP>51</SUP> 
Oversteer characteristically results in spinout.<SUP>52</SUP>
---------------------------------------------------------------------------
    \49\ Dickerson, et al., ``Vehicle Handling with Tire Tread 
Separation,'' at 2 (1999).
    \50\ Bergman, ``The Basic Nature of Vehicle Understeer-Oversteer'' 
at page 11, col. 1 (1965).
    \51\ Id.
    \52\ See ``NHTSA: An Experimental Examination of Selected Maneuvers 
That May Induce On-Road Untripped, Light Vehicle Rollover--Phase II of 
NHTSA's 1997-1998 Vehicle Rollover Research Program'' at page 29 
(1999).
---------------------------------------------------------------------------
    Generally, it is ``desirable to have understeer to avoid 
directional instability.'' <SUP>53</SUP> Ford, like any other 
automobile manufacturer, tries to build understeer into its 
cars.<SUP>54</SUP> They do this because understeer is essential to 
safely control an automobile.
---------------------------------------------------------------------------
    \53\ Allen, et al., ``Characteristics Influencing Ground Vehicle 
Lateral/Directional Dynamic Stability'' at page 27, col. 1 (1991).
    \54\ See, e.g., note 1.
---------------------------------------------------------------------------
    Car designers can increase or decrease the amount of understeer in 
a vehicle by many different means--by adjusting spring rates, 
suspension geometry, frame stiffness, roll damping, tire properties, 
tire pressure, weight distribution, and other vehicle and component 
characteristics. They adjust these and other elements which result in 
the amount and character of control available. Automobile designers, of 
course, may adjust these elements for reasons other than achieving or 
influencing controllability; they may, for example, make such 
adjustments to seek ride comfort, to achieve a ``flat'' European 
cornering feel, to improve rollover resistance, or for other reasons. 
Each of those trade-offs for such reasons, however, potentially affects 
the amount of understeer and the amount of control safety margin, and 
the result is exacerbated by the potentially greater understeer needs 
of SUVs.
    Cars differ from each other in how much control margin, or 
understeer, they have. How much understeer is necessary to provide a 
safe margin of control? The answer from an engineering perspective is: 
The amount necessary to provide predictable vehicle control in 
foreseeable driving circumstances for the drivers intended for that 
vehicle.
    The foreseeable circumstances of driving include many things--the 
coefficient of friction of the roadway surface, wind gusts, ice and 
snow, vehicle load, component wear and failure, the effect of heat and 
use on the fit and flexibility of suspension system components, and 
many others. One foreseeable circumstance, of course, is tires wearing 
out and eventually failing, including tread separation, the most common 
mode of wearout failure for steel belted radial tires. All of these 
circumstances can cause an increase in the need for understeer or 
directly decrease the amount of understeer available in the vehicle. 
For example, tread separation will change tire properties related to 
understeer, decreasing cornering stiffness and traction provided by 
belt and tread.
    These are not new considerations for Ford automobile designers. For 
more than 30 years, the technical literature relating to tire influence 
on vehicle dynamics has pointed out that in order to avoid oversteer 
following rear tire failure, ``it is desirable to make the car strongly 
understeer in the original condition.'' <SUP>55</SUP> Tests on the 
predecessor to the Explorer, the Bronco II, demonstrated that following 
rear tire tread separation that ``vehicle exhibited dramatic oversteer 
characteristics and was unstable.'' <SUP>56</SUP>
---------------------------------------------------------------------------
    \55\ Kondo, et al., ``Dynamical Behaviors Of A Car When One Tire Is 
Punctured Simulatively'' at pages 2, 43 (1968).
    \56\ See note 49.
---------------------------------------------------------------------------
    Not only is oversteer an unacceptable vehicle characteristic, but 
the transition from understeer to oversteer that might occur in the 
event of loss of tread and tire cornering properties, if sufficient 
understeer is not originally built into the car, is particularly 
dangerous. The unexpected reversal of the handling characteristics of 
the car in that circumstance is just the sort of unexpected event that 
leads to driving accidents; it is particularly unexpected because 
``none of the currently manufactured passenger cars show such behavior 
in ordinary driving.'' <SUP>57</SUP> The ordinary driver has not 
experienced and cannot anticipate the catastrophic results of this 
reversal
---------------------------------------------------------------------------
    \57\ Bergman, ``Considerations in Determining Vehicle Handling 
Requirements'' at page 7, col. 1 (1969).
---------------------------------------------------------------------------
    One of the car designer's engineering obligations is to quantify 
the amount of understeer and other vehicle control characteristics 
required to account and compensate for such varying and foreseeable 
events, the inevitable changes in driving circumstances. By that 
quantification he determines the amount of understeer, the margin of 
control, that must be designed into the car.
2. Tread Separation
    Tread separation is a failure mode usual in steel belted radial 
tires.<SUP>58</SUP> The majority of Firestone tires incurring a tread 
separation, without some causally related damage to the tire, are high 
mileage tires with long use. The causes of this form of failure are 
heat, loading, oxidation and cyclic stressing, all of which can weaken 
and result in shearing of the rubber bond between the layers of steel 
belts, which centrifugal force can then pull apart. This breakdown is 
an inevitable result of the chemical and physical properties of rubber 
tires and how they are commonly used.
---------------------------------------------------------------------------
    \58\ See, e.g. Robinette, et al., ``Drag and Steering Effects of 
Under Inflated and Deflated Tires'' (1997).
---------------------------------------------------------------------------
    Those who are unfamiliar with tires or with accident reconstruction 
tend to describe tread separations or accidents associated with tread 
separations as if they are explosive events in which the vehicle is 
thrown out of control by the force of the separation. The scientific 
literature and testing commissioned by automobile manufacturers and 
others, however, has repeatedly demonstrated that this is not correct.
    For example, Carr Engineering, vehicle dynamics experts regularly 
retained by Ford to testify in automotive litigation, carried out 
testing on behalf of Ford relating to, among other things, the forces 
involved in tread separation. Their findings in those tests led them to 
conclude:
        During the tread separation event, the tire did pull the 
        vehicle slightly to one side but the driver kept a straight 
        line path with a small steering correction. This amplitude of 
        steer angle is small and on the order required to keep a 
        vehicle in the lane on curved highways or in a straight path 
        during other events such as wind gusts or driving through water 
        puddles at highway speeds.<SUP>59</SUP>
---------------------------------------------------------------------------
    \59\ Document BGC 0016305-311, memorandum from Tandy to Mickus, 
January 23, 1999, at pages 2-3.. [Test vehicles included a 1993 Ford 
Explorer, 1986 Ford Bronco II, 1986 Ford Bronco II XLT, 1994 Dodge 
Intrepid, 1987 Ford Club Wagon van, 1990 Ford Bronco, 1990 Ford 
Aerostar van, 1987 Toyota van].
---------------------------------------------------------------------------
    Other automotive researchers, including plaintiff experts pursuing 
forensic inquiries, academic researchers, and Firestone, have arrived 
at the same conclusion based on numerous tests, including tests 
involving the Explorer and the Firestone tires mounted on it as 
original equipment. For example:

<bullet> ``[S]eparation by itself was not sufficient to cause loss of 
        control.'' ``No induced steering was felt as a result of tread 
        separation.'' ``Test results by this author corroborate work by 
        Gardner who measured that steering wheel inputs during tread 
        separation are of the order of magnitude of lane change 
        maneuvers during high speed travel.'' <SUP>60</SUP>
---------------------------------------------------------------------------
    \60\ Klein, et al. ``Anatomy of Accidents Following Tire 
Disablements,'' at page 6 (1999). [Test vehicles were 1989 Pathfinder 
and 1982 Chevrolet pickup].
---------------------------------------------------------------------------
<bullet> ``Maintaining control of the vehicle after tread/belt 
        separation requires a steering torque similar to that required 
        for a lane change maneuver.'' ``The results of the testing show 
        that the forces developed during a tread/belt detachment are 
        well within the range of a driver's ability to control a 
        vehicle.'' <SUP>61</SUP>
---------------------------------------------------------------------------
    \61\ Gardner, ``The Role of Tread/Belt Detachment In Accident 
Causation,'' at pages 7-8, 10 (1998). [Test vehicles were Ford 
Explorer, Camry Station Wagon, and Chevy Truck C2500].
---------------------------------------------------------------------------
<bullet> ``Little or no corrective steering action was needed to 
        maintain control of the vehicle during the tread separation 
        events.'' <SUP>62</SUP>
---------------------------------------------------------------------------
    \62\ Fay, et al., ``Drag and Steering Effect from Tire Tread Belt 
Separation and Loss,'' at page 13 (1999). [Test vehicle was 1993 Ford 
Taurus].
---------------------------------------------------------------------------
    Descriptions of tread separation related accidents also sometimes 
fail to accurately capture the sequential nature of those accidents. 
Engineering analysis and accident reconstruction require that tread 
separation and accidents associated with them be broken down into their 
separate parts. For those purposes, the accident events should be 
viewed as three separate and sequential elements:
    a. Pre-separation--This is characterized by vibration felt 
generally in the vehicle, (see notes 58 and 60) as the tire is deformed 
from a smooth circle to an irregular ``circle'' by movement of the 
tread and belt. This vibration is something most drivers have 
experienced in connection with a failed tire, whether a puncture 
blowout or a tread separation or some other mode of tire failure.
    The vibration serves as notice that something is wrong with a tire, 
a message that most drivers understand as requiring them to take their 
foot off the gas, check the traffic around them, and begin to move to 
the shoulder of the highway to change the tire.
    b. Separation--Testing, (see notes 58,59,60 & 61) establishes that 
the actual tread separation is a benign event in terms of the amount 
and duration of forces exerted on the automobile laterally, 
longitudinally and vertically.
    c. Post-separation--In the period immediately following tread 
separation on a rear tire any SUV will lose some understeer because the 
tire properties contributing to control of the vehicle--cornering 
stiffness, traction, etc.--will have been reduced because of removal of 
the tread and one of the steel belts. It is the controllability of the 
Explorer in this circumstance that Dr. Guenther is investigating.
C. Engineering Evaluation Of Explorer Directional Control
    Dr. Guenther was retained by counsel to assist them in the 
preparation of Firestone's defense in the personal injury litigation 
arising out of Explorer crash and rollover accidents. While he made 
measurements of and inspected various Explorers and engaged in some 
accident reconstruction at the direction of counsel, he did not 
undertake the dynamics testing and data analysis underlying his 
conclusions concerning the controllability of the Explorer until last 
month.
    Firestone had expected that Ford, as part of a root cause analysis, 
would focus on the vehicle and provide Firestone, NHTSA and the 
Congress information about the vehicle's handling in a tread separation 
event. Ford has 15 years of experience in the design and development of 
and litigation about the Explorer. They have that information. 
Firestone requested Ford participation in investigation of the vehicle 
in October of last year. In spite of repeated follow up requests, Ford 
made no response to Firestone. It became clear that Dr. Guenther's 
engineering evaluation of the Explorer would be important not only in 
defense of the litigation but in addressing congressional, regulatory 
and public concerns about automotive safety relating to loss of control 
and rollover of the Explorer when it experienced tread separation.
    1. Testing Conducted--a. Site--The tests were carried out at the 
Transportation Research Center, Inc. (TRC) test facility near East 
Liberty, Ohio. The facility is used on a contract basis by numerous 
automobile manufacturers, component suppliers, and state and national 
regulatory authorities to conduct automotive safety testing. It was 
used by NHTSA, for example, in 1997-98 to conduct extensive tests of 
maneuvers that may induce on-road untripped rollover in various 
vehicles, including the Ford Explorer.<SUP>63</SUP> Ford used TRC in 
development testing of the UN-105, the version of the Explorer offered 
in 1995 and subsequent years.
---------------------------------------------------------------------------
    \63\ See note 52.
---------------------------------------------------------------------------
    b. Study Objectives--The purpose of the testing program, which is 
ongoing, is to examine the margin of control in the Explorer as 
designed and, comparatively, in peer SUVs in the circumstance following 
rear tire tread separation. Due to the complexities and non-linearity 
of vehicles and the nature of the Explorer accidents, Dr. Guenther 
chose to explore the linear range as a preliminary investigation. In 
the linear range, a principal parameter of control is the understeer/
oversteer gradient (other parameters such as steering response time and 
gain, and steering frequency response are also being examined as they 
may relate to loss of control in the event of tire tread separation).
    c. Test Vehicles--The vehicles evaluated are the following:

1996.........................  Ford Explorer..       4 dr        4 x 2
1996.........................  Chevy Blazer...       4 dr        4 x 2
2001.........................  Jeep Cherokee..       4 dr        4 x 2
2000.........................  Ford Explorer..       4 dr        4 x 2


    Each vehicle was tested with its original equipment (OE) tires at 
OEM recommended tire pressure. The 1996 Explorer was tested with both 
OE Firestone tires and OE Goodyear tires recommended by Ford.
    d. Vehicle Instrumentation and Measurement--The data acquired for 
purposes of this analysis was the following: <SUP>64</SUP>

    \64\ See attached exhibit 5.
---------------------------------------------------------------------------
Vehicle Input
Steering Wheel Angle
Vehicle Speed
Vehicle Response
Lateral Acceleration
Yaw Rate
Body Roll Angle
    e. Test Maneuvers--The tests conducted are universally recognized 
standard tests used by automobile manufacturers, including Ford, and 
other researchers in vehicle dynamics for establishing the values 
investigated. The tests are as follows:
    Step Steer--The vehicle is driven on the test pad area in a 
straight line at a constant speed. The driver then rapidly turns the 
steering wheel until it hits a mechanical stop. Steering wheel stops 
are set to attain a desired lateral acceleration at the test speeds. 
This steer angle is held until steady-state response is established.
    Tests were run in both directions (right turn/left turn) and at two 
speeds (60 mph and 40 mph). The test was run both with four good tires 
and with the left rear tire detreaded by cutting between the steel 
belts; test runs with the detreaded tire were done only at the slower 
40 mph speed. Test runs were done at both light load (curb plus driver 
and instrumentation) and heavy load (gross vehicle weight rating).
    The test is used to measure vehicle response times as related to 
lateral acceleration and yaw velocity response, and to measure the gain 
of these responses in relation to steering wheel input (output divided 
by input).
    Constant Radius Circle--The vehicle is driven around a 200 foot 
constant radius circle with increasing speed. The driver adjusts the 
steering angle (by turning the steering wheel) as necessary to keep the 
vehicle on the path of the circle.
    Test runs were done in both directions, clockwise and counter-
clockwise, with four good tires and with the left rear tire detreaded. 
Test runs were done at light load (curb plus driver and 
instrumentation) and heavy load (gross vehicle weight rating).
    The test is used to measure understeer and oversteer (degrees of 
road wheel steer per Gs of lateral acceleration).
    Frequency Response--Sinusoidal sweep steering tests are frequently 
used to determine the linear response of vehicles. The vehicles in 
these tests were driven on a long straightaway with the driver steering 
with slowly increasing frequency up to approximately 3 to 4 hz followed 
by decreasing frequency. The test was run at a nominal speed of 66 mph.
    The test measures lateral acceleration gain, yaw velocity gain, and 
phase angles at the frequencies tested (up to 3 to 4 hz).
    f. Results of Directional Control Tests--The results of the 
constant radius circle tests are set forth in data sheets and charts 
attached hereto as Exhibit 6. Data reduction and analysis continues 
with respect to the step steer and frequency response tests.
    In summary, the findings in the tests are as follows:
    Constant Radius Circle--This standard method of measuring 
understeer/oversteer gradient establishes that the Explorer, with four 
good tires, has a relatively small amount of understeer compared to 
other SUVs tested--less than half the amount found in the Blazer and 
the Cherokee. In fact, the Cherokee has about the same understeer with 
a detreaded tire as the Explorer with four good tires. These findings 
are consistent with NHTSA vehicle characterization tests that found 
that the Explorer had the lowest amount of understeer of the 12 
vehicles on which it conducted rollover-inducing maneuver 
tests.<SUP>65</SUP>
---------------------------------------------------------------------------
    \65\ See note 42.
---------------------------------------------------------------------------
    The test results show that, unlike the other SUVs tested, the 
Explorer loses its small margin of understeer when it experiences a 
tread separation and becomes an oversteer vehicle.
    This is true whether the Explorer is operated on Goodyear OE tires 
recommended by Ford or on Firestone OE tires.
    The Explorer's oversteer characteristic is worse in the loaded 
condition. The only circumstance in which it does not become oversteer 
with a detreaded tire is when it is lightly loaded (curb plus driver 
and instrumentation) and the detreaded tire is on the inside rear 
position (left rear in a counter-clockwise turn); in test runs in that 
configuration the Explorer is almost neutral steer with respect to the 
understeer/oversteer gradient.
    An oversteer vehicle is not safe at highway speeds in the hands of 
an average driver. Sometimes a driver may achieve directional control, 
sometimes he may not.
    In addition to his dynamic testing, Dr. Guenther has carried out 
several accident reconstructions involving Explorer crashes and 
reviewed numerous police accident reports concerning such accidents. 
Explorer rollover accidents, as reflected in those reconstructions and 
police accident reports, frequently occur

<bullet> on interstate or similar high-quality, high-speed roadways, 
        without environmental interference;
<bullet> in straight line travel;
<bullet> at highway speed
<bullet> with no driver impairment
<bullet> with no risky behavior
<bullet> with rear tire tread separation
<bullet> with some apparent effort at driver steering control reflected 
        in change(s) of vehicle heading and path of travel.
2. Conclusion
    The Explorer is an oversteer vehicle in most circumstances after it 
experiences tread separation. Oversteer can make a vehicle 
directionally unstable and subject to loss of control in the hands of 
most drivers. This is a vehicle problem, not a tire problem. The 
vehicle performs the same following tread separation on the Goodyear 
tire as it does the Firestone tire. This must be regarded as a highway 
safety defect within the meaning of the National Traffic and Motor 
Vehicle Safety Act.
  v. the ford ``explorer vehicle dynamics presentation'' to nhtsa of 
 march 28-29, 2001 concerning explorer loss of control following tread 
                separation is misleading and irrelevant
    The following statements and charts are examples of the many 
inaccuracies and irrelevancies contained in the Ford vehicle dynamics 
presentation to NHTSA:
    <bullet> Statement at page TH-3 18. Exhibit 7--The statement about 
tread separation, ``This fundamental cause [of loss of control, i.e., 
decreased tire traction] overwhelms differences in design among vehicle 
classes or within vehicle classes. Explorers perform like all other 
vehicles'', is true only with respect to limit maneuvers, that is, at 
high lateral acceleration where most of us never operate a vehicle, 
even in most emergency maneuvers. The statement is not relevant or 
accurate in the linear range of maneuvering, that is, at low lateral 
accelerations experienced in normal driving (e.g., 0.3 Gs or less). The 
maneuver involved in correcting for the small amount of drag following 
a belt separation (similar to a normal lane change steer, according to 
SAE test literature),<SUP>66</SUP> or the maneuver involved in bringing 
the car to the shoulder so that you can change the tire is just such a 
low lateral acceleration maneuver, even at highway speeds.
---------------------------------------------------------------------------
    \66\ See, e.g., Klein, et al., ``Anatomy of Accidents Following 
Tire Disablements'' (1999).
---------------------------------------------------------------------------
    In normal everyday driving maneuvers following a tread separation 
the Explorer does not perform like all other vehicles. In this 
circumstance, it has a higher likelihood of loss of control because it 
lacks the necessary margin of understeer to remain directionally 
controllable in highway maneuvers involved in normal driving. Peer 
SUVs, such as the Cherokee and Blazer, remain understeer and more 
controllable in a wider range of maneuvers following tread separation 
than the Explorer.
    <bullet> Statement at page TH-3 76. Exhibit 7--This chart purports 
to show results of various SUV vehicles in a constant radius circle 
test following a tread separation. It shows all vehicles including the 
Explorer maneuvering at more than 0.5 G lateral acceleration with a 
separated tire on the outside rear. That is a physical impossibility in 
normal highway travel; these vehicles in general and the Explorer in 
particular cannot generate that much lateral acceleration with a 
detreaded tire in the outside rear position in normal highway travel. 
The Explorer will spin out of control before it reaches 0.5 G lateral 
acceleration in this circumstance. Ford can do it only as a trick on a 
low speed 100 foot radius circle. It indicates the irrelevant nature of 
the information presented to NHTSA in its vehicle dynamics 
presentation.
    The suggestion accompanying the chart that ``Explorers and peer 
vehicles oversteer above approximately 0.4G, with tread off of outside 
rear tire'' is not accurate or relevant. The Explorer with a detreaded 
tire is oversteer in that circumstance at all lower lateral 
acceleration levels while the Blazer and Cherokee are not. Moreover, it 
is not relevant to an analysis of highway safety in normal driving 
because motorists generally do not operate their vehicles at the higher 
level of lateral acceleration examined by Ford. The assertion is made 
that ``tread separation on O/S rear tire narrows differences among all 
vehicles (overwhelms design differences)'' is, again, not accurate in 
the linear range; it only applies to limit maneuvers. Following tread 
separation, the Blazer and Cherokee maintain understeer in the linear 
range while the Explorer has none and changes completely to oversteer; 
the Cherokee, in fact, has about as much understeer with a detreaded 
outside rear tire as the Explorer does with four good tires. Similarly, 
the statement that ``Explorer performance is typical of peer vehicles'' 
is not accurate for linear range operations for the same reason. The 
Explorer is oversteer in the linear range of lateral acceleration 
following outside rear tread separation (about 0.3G or less); other 
SUVs remain understeer in the linear range.
    <bullet> Statement at page TH-3 87. Exhibit 7--This simulation 
chart depicts all vehicles as having the same maneuvering limits 
following a tread separation. Dr. Guenther's testing at TRC 
demonstrates the contrary in the linear range and the computer-
generated simulation has no basis in fact.
    <bullet> Statement at page TH-3 132. Exhibit 7--The first and 
fourth statements on this page are presented without any supporting 
data of any sort. The Explorer does not ``perform similar to others in 
its class in the event of a tire tread separation'', rather, it becomes 
oversteer, an unpredictable, unfamiliar, unsafe handling condition. For 
that reason, the Explorer does not ``have a margin of safety `as 
designed' to accommodate, to a reasonable level, component failures 
including tread separations.''
    <bullet> Statement at page TH-3 134. Exhibit 7--The fourth 
statement on this page is false. The designers of the Blazer and the 
Cherokee have in fact provided a margin of control safety following 
tread separation in the design of those vehicles. They did it more than 
a decade ago, when the Blazer and the Cherokee were the primary SUV 
examples available to Ford engineers for comparative analysis when they 
designed and developed the Explorer.
                             vi. conclusion
    Ford has had over twenty years to adjust the design of the Ford 
Explorer and to work cooperatively and responsibly with its tire 
suppliers to ensure the safety and stability of its vehicle. To date, 
it has failed to do so. The design of the Explorer is an oversteer 
vehicle in the event of a tread separation. A tread separation is 
normally a benign event that a driver can control by pulling to the 
shoulder of any roadway. The flawed design of the Explorer, however, 
renders the vehicle in a tread separation event susceptible to rollover 
and therefore potentially lethal. While real world data and an 
engineering analysis of the vehicle confirm this phenomenon, Ford 
refuses to accept the facts and take responsibility. The purpose of 
this analysis is to ensure that these facts are publicly known, and, in 
the best case, to compel Ford to take responsibility for its flawed 
attempts to protect its defective product.
[GRAPHIC] [TIFF OMITTED] T3739.016

[GRAPHIC] [TIFF OMITTED] T3739.017

[GRAPHIC] [TIFF OMITTED] T3739.018

[GRAPHIC] [TIFF OMITTED] T3739.019

[GRAPHIC] [TIFF OMITTED] T3739.020

[GRAPHIC] [TIFF OMITTED] T3739.021

[GRAPHIC] [TIFF OMITTED] T3739.022

[GRAPHIC] [TIFF OMITTED] T3739.023

[GRAPHIC] [TIFF OMITTED] T3739.024

[GRAPHIC] [TIFF OMITTED] T3739.025

[GRAPHIC] [TIFF OMITTED] T3739.026

[GRAPHIC] [TIFF OMITTED] T3739.027

[GRAPHIC] [TIFF OMITTED] T3739.028

[GRAPHIC] [TIFF OMITTED] T3739.029

[GRAPHIC] [TIFF OMITTED] T3739.030

[GRAPHIC] [TIFF OMITTED] T3739.031

[GRAPHIC] [TIFF OMITTED] T3739.032

[GRAPHIC] [TIFF OMITTED] T3739.033

[GRAPHIC] [TIFF OMITTED] T3739.034

[GRAPHIC] [TIFF OMITTED] T3739.035

[GRAPHIC] [TIFF OMITTED] T3739.036

[GRAPHIC] [TIFF OMITTED] T3739.037

[GRAPHIC] [TIFF OMITTED] T3739.038

[GRAPHIC] [TIFF OMITTED] T3739.039

[GRAPHIC] [TIFF OMITTED] T3739.040

[GRAPHIC] [TIFF OMITTED] T3739.041

[GRAPHIC] [TIFF OMITTED] T3739.042

[GRAPHIC] [TIFF OMITTED] T3739.043

[GRAPHIC] [TIFF OMITTED] T3739.044

[GRAPHIC] [TIFF OMITTED] T3739.045

[GRAPHIC] [TIFF OMITTED] T3739.046

[GRAPHIC] [TIFF OMITTED] T3739.047

[GRAPHIC] [TIFF OMITTED] T3739.048

[GRAPHIC] [TIFF OMITTED] T3739.049

[GRAPHIC] [TIFF OMITTED] T3739.050

[GRAPHIC] [TIFF OMITTED] T3739.051

[GRAPHIC] [TIFF OMITTED] T3739.052

[GRAPHIC] [TIFF OMITTED] T3739.053

[GRAPHIC] [TIFF OMITTED] T3739.054

[GRAPHIC] [TIFF OMITTED] T3739.055

[GRAPHIC] [TIFF OMITTED] T3739.056

[GRAPHIC] [TIFF OMITTED] T3739.057

[GRAPHIC] [TIFF OMITTED] T3739.058

[GRAPHIC] [TIFF OMITTED] T3739.059

[GRAPHIC] [TIFF OMITTED] T3739.060

[GRAPHIC] [TIFF OMITTED] T3739.061

[GRAPHIC] [TIFF OMITTED] T3739.062

[GRAPHIC] [TIFF OMITTED] T3739.063

[GRAPHIC] [TIFF OMITTED] T3739.064

[GRAPHIC] [TIFF OMITTED] T3739.065

[GRAPHIC] [TIFF OMITTED] T3739.066

[GRAPHIC] [TIFF OMITTED] T3739.067

[GRAPHIC] [TIFF OMITTED] T3739.068

[GRAPHIC] [TIFF OMITTED] T3739.069

[GRAPHIC] [TIFF OMITTED] T3739.070

[GRAPHIC] [TIFF OMITTED] T3739.071

[GRAPHIC] [TIFF OMITTED] T3739.072

[GRAPHIC] [TIFF OMITTED] T3739.073

[GRAPHIC] [TIFF OMITTED] T3739.074

[GRAPHIC] [TIFF OMITTED] T3739.075

[GRAPHIC] [TIFF OMITTED] T3739.076

[GRAPHIC] [TIFF OMITTED] T3739.077

[GRAPHIC] [TIFF OMITTED] T3739.078

[GRAPHIC] [TIFF OMITTED] T3739.079

[GRAPHIC] [TIFF OMITTED] T3739.080

[GRAPHIC] [TIFF OMITTED] T3739.081

[GRAPHIC] [TIFF OMITTED] T3739.082

[GRAPHIC] [TIFF OMITTED] T3739.083

[GRAPHIC] [TIFF OMITTED] T3739.084

[GRAPHIC] [TIFF OMITTED] T3739.085

[GRAPHIC] [TIFF OMITTED] T3739.086

[GRAPHIC] [TIFF OMITTED] T3739.087

[GRAPHIC] [TIFF OMITTED] T3739.088

[GRAPHIC] [TIFF OMITTED] T3739.089

[GRAPHIC] [TIFF OMITTED] T3739.090

[GRAPHIC] [TIFF OMITTED] T3739.091

[GRAPHIC] [TIFF OMITTED] T3739.092

[GRAPHIC] [TIFF OMITTED] T3739.093

[GRAPHIC] [TIFF OMITTED] T3739.094

[GRAPHIC] [TIFF OMITTED] T3739.095

[GRAPHIC] [TIFF OMITTED] T3739.096

[GRAPHIC] [TIFF OMITTED] T3739.097

[GRAPHIC] [TIFF OMITTED] T3739.098

[GRAPHIC] [TIFF OMITTED] T3739.099

[GRAPHIC] [TIFF OMITTED] T3739.100

[GRAPHIC] [TIFF OMITTED] T3739.101

[GRAPHIC] [TIFF OMITTED] T3739.102

[GRAPHIC] [TIFF OMITTED] T3739.103

[GRAPHIC] [TIFF OMITTED] T3739.104

[GRAPHIC] [TIFF OMITTED] T3739.105

[GRAPHIC] [TIFF OMITTED] T3739.106

[GRAPHIC] [TIFF OMITTED] T3739.107

[GRAPHIC] [TIFF OMITTED] T3739.108

[GRAPHIC] [TIFF OMITTED] T3739.109

[GRAPHIC] [TIFF OMITTED] T3739.110

[GRAPHIC] [TIFF OMITTED] T3739.111

[GRAPHIC] [TIFF OMITTED] T3739.112

[GRAPHIC] [TIFF OMITTED] T3739.113

[GRAPHIC] [TIFF OMITTED] T3739.114

[GRAPHIC] [TIFF OMITTED] T3739.115

[GRAPHIC] [TIFF OMITTED] T3739.116

[GRAPHIC] [TIFF OMITTED] T3739.117

[GRAPHIC] [TIFF OMITTED] T3739.118

[GRAPHIC] [TIFF OMITTED] T3739.119

[GRAPHIC] [TIFF OMITTED] T3739.120

[GRAPHIC] [TIFF OMITTED] T3739.121

[GRAPHIC] [TIFF OMITTED] T3739.122

[GRAPHIC] [TIFF OMITTED] T3739.123

[GRAPHIC] [TIFF OMITTED] T3739.124

[GRAPHIC] [TIFF OMITTED] T3739.125

[GRAPHIC] [TIFF OMITTED] T3739.126

[GRAPHIC] [TIFF OMITTED] T3739.127

[GRAPHIC] [TIFF OMITTED] T3739.128

[GRAPHIC] [TIFF OMITTED] T3739.129

[GRAPHIC] [TIFF OMITTED] T3739.130

[GRAPHIC] [TIFF OMITTED] T3739.131

[GRAPHIC] [TIFF OMITTED] T3739.132

[GRAPHIC] [TIFF OMITTED] T3739.133

[GRAPHIC] [TIFF OMITTED] T3739.134

[GRAPHIC] [TIFF OMITTED] T3739.135

[GRAPHIC] [TIFF OMITTED] T3739.136

[GRAPHIC] [TIFF OMITTED] T3739.137

[GRAPHIC] [TIFF OMITTED] T3739.138

[GRAPHIC] [TIFF OMITTED] T3739.139

[GRAPHIC] [TIFF OMITTED] T3739.140

[GRAPHIC] [TIFF OMITTED] T3739.141

[GRAPHIC] [TIFF OMITTED] T3739.142

[GRAPHIC] [TIFF OMITTED] T3739.143

[GRAPHIC] [TIFF OMITTED] T3739.144

[GRAPHIC] [TIFF OMITTED] T3739.145

[GRAPHIC] [TIFF OMITTED] T3739.146

[GRAPHIC] [TIFF OMITTED] T3739.147

[GRAPHIC] [TIFF OMITTED] T3739.148

[GRAPHIC] [TIFF OMITTED] T3739.149

[GRAPHIC] [TIFF OMITTED] T3739.150

[GRAPHIC] [TIFF OMITTED] T3739.151

[GRAPHIC] [TIFF OMITTED] T3739.152

[GRAPHIC] [TIFF OMITTED] T3739.153

[GRAPHIC] [TIFF OMITTED] T3739.154

[GRAPHIC] [TIFF OMITTED] T3739.155

[GRAPHIC] [TIFF OMITTED] T3739.156

[GRAPHIC] [TIFF OMITTED] T3739.157

[GRAPHIC] [TIFF OMITTED] T3739.158

[GRAPHIC] [TIFF OMITTED] T3739.159

[GRAPHIC] [TIFF OMITTED] T3739.160

[GRAPHIC] [TIFF OMITTED] T3739.161

[GRAPHIC] [TIFF OMITTED] T3739.162

[GRAPHIC] [TIFF OMITTED] T3739.163

[GRAPHIC] [TIFF OMITTED] T3739.164

[GRAPHIC] [TIFF OMITTED] T3739.165

[GRAPHIC] [TIFF OMITTED] T3739.166

[GRAPHIC] [TIFF OMITTED] T3739.167

[GRAPHIC] [TIFF OMITTED] T3739.168

[GRAPHIC] [TIFF OMITTED] T3739.169

[GRAPHIC] [TIFF OMITTED] T3739.170

[GRAPHIC] [TIFF OMITTED] T3739.171

[GRAPHIC] [TIFF OMITTED] T3739.172

[GRAPHIC] [TIFF OMITTED] T3739.173

[GRAPHIC] [TIFF OMITTED] T3739.174

[GRAPHIC] [TIFF OMITTED] T3739.175

[GRAPHIC] [TIFF OMITTED] T3739.176

[GRAPHIC] [TIFF OMITTED] T3739.177

    Mr. Stearns. Okay. Hospitable questions.
    Mr. Lampe, you know, you have a disadvantage that you have 
to sit here for 4 hours before you become the second panel; but 
you have the advantage, because you've heard Mr. Nasser, and 
now he is not in a position to answer, but you've made a pretty 
strong statement here in your opening statement about the Ford 
vehicle, the SUV.
    Just a rather quick observation. We had two hearings with 
your corporation last year, and yet the allegation or the 
statement against the Ford SUV was not as strong back then. Is 
the information that you've received subsequent to those--to 
your hearings, is why you're making your claims so much 
stronger?
    Mr. Lampe. Yes, Chairman Stearns. We, as you remember last 
year, did say you can take our tires off and the Ford Explorer 
is going to continue to roll over. We've said many times this 
is a tire/vehicle issue. We have to look at the tire and the 
vehicle. But since that time, I think you're aware of Dr. 
Gunther's study on the Ford Explorer as compared to the Jeep 
Cherokee, the Blazer. And it's very compelling, the evidence 
that was found in the study, that the understeer to oversteer 
transition and the oversteer itself in the Ford Explorer makes 
it a very difficult drive for the normal driver to control.
    Mr. Stearns. Well, you know, he did that study in May, as I 
understand, recently, didn't he?
    Mr. Lampe. Yes, he did.
    Mr. Stearns. So you didn't have that information back 
there, and when you talked about the Ford SUV, I think you were 
talking in terms of vehicle application. It wasn't such a 
strong statement as you're making this morning--this afternoon. 
Well, how do you explain the high rates of tread separation on 
these Wilderness AT tires? I mean, shouldn't consumers be 
concerned about it? Are you just saying it's all Ford's fault? 
And some of these rates are high, and so I think you have to 
say that there's some culpability on your part.
    Mr. Lampe. And, Chairman Stearns, we did a recall--safety 
recall last August. It wasn't mandated. NHTSA had not finished 
their investigation. I think they will tell you they were 
months and months away from completing any investigation. We 
announced that recall on a voluntary basis because we felt 
there were issues, and we wanted to get some of those tires off 
the road. But our tires are safe. Our tires are safe that are 
on the road today.
    Mr. Stearns. You probably heard when I talked to Mr. Nasser 
about this B rating versus a C rating, and I understand the 
Firestone tires on the Ford Explorer have a temperature 
resistant rating of a C, and that these tires meet the minimum 
performance required by Federal safety standards as well as 
Ford's own specification.
    Can you tell me, like Goodyear has a B, I mean, can you 
tell me what that C rating means and--versus a B rating? After 
all, I know that Firestone supplies General Motors with tires 
as original equipment and that General Motors will not allow 
any tire with less than a B rating on their SUVs. So why is 
there inconsistency between what General Motors does and what 
you do for them and what you did for Ford Motor Company?
    Mr. Lampe. First, Mr. Chairman, we supplied Ford with the 
tire they asked for, designed to their specifications. C--there 
are millions and millions of tires with a C temperature range 
that operate in all parts of the country. C temperature is not 
an indication of area--works in one area better than another 
area. It's one of the three ranges that is established by the 
Uniform Tire Quality Grading System. It's a high-speed test, 
and you must remember that the UTQG test that determines not 
only speed rating but temperature is a high-speed test.
    Mr. Stearns. So when Ford specifies a C and you----
    Mr. Lampe. I'll correct that, Congressman.
    Mr. Stearns. General Motors, you provide a B; and C you 
provided to Ford, and you decided that?
    Mr. Lampe. Chairman Stearns. And the one kind of 
misstatement was Ford did not specify----
    Mr. Stearns. I understand that.
    Mr. Lampe. [continuing] a C. They did not specify----
    Mr. Stearns. So you decided that?
    Mr. Lampe. That's the tire we gave them that met the C 
requirements. I'll point out from our standpoint that we try to 
make sure that an entire line of tires has the same grade to 
make it less confusing for the consumer. Many, many of those 
sizes and types in the Wilderness line actually met the B 
temperature grade requirement. But to be consistent and to 
avoid confusion, we mark them all at the minimum.
    Mr. Stearns. But if you're--are you saying that we should 
have--the consumer should have no concern about a C versus a B? 
It just is something the consumer shouldn't be concerned about? 
Are you saying your C-rated tires would perform just as well as 
a B-rated tire for General Motors?
    Mr. Lampe. I'm saying, sir, that the C-rated tires are 
perfectly acceptable for any geographic region for any 
application in the United States. There's literally tens of--
15, 20 million C-rated tires, more than that operating today.
    Mr. Stearns. Well, the obvious question is, why do we have 
a B-rated tire on General Motors and a C-rated on Ford?
    Mr. Lampe. I was not--I was not aware of the General 
Motors, but I will obviously assume that's correct. And if they 
ask for a specification and a specified B rating, that's 
certainly what we would strive to provide for them.
    Mr. Stearns. Okay. In the Ford testimony today, was there 
anything that he said that you object to very strongly in terms 
of his understanding of your product that you would like to go 
on record, other than saying his vehicle is bad? To use the 
words of don't feel--don't find fault, but find a remedy. I 
mean, are there things that he said, instead of attacking Ford, 
that you feel about your product that you would like to defend?
    Mr. Lampe. Sir, I don't mean to be perceived as attacking 
Ford. I think there are some issues that need to get out and 
need to be answered. Yes, testing of the tires; we did testing 
of tires. We did testing against a number of tires, but the 
tests we did were significantly more scientific and more fair, 
just basically fair. I mentioned that Goodyear, on their rig 
testing, took our tires, and some of which were 9 years old, 
and compared them and tested them to the Goodyear tires, which 
were less than a year old.
    When you take their data and you take out our 9-year-old 
tires and you take apples to apples, our new tires compared to 
the Goodyear new tires were equal.
    The same thing on this temperature test. I'll tell you a 
statement that was made by one Ford engineer when we asked, why 
didn't you use internal temperature rather than surface 
temperature? You know. You're an engineer. It's much more 
reflective of internal tire heat buildup. He said, we didn't 
use internal temperature because there wasn't much difference 
between all the brands.
    Those are the things that really bother me, the nonapples 
to apples comparison. There were a number of other, obviously, 
areas in Mr. Nasser's testimony that I don't agree to, but you 
asked me to stick--focus on the tires, and that's what I'll do.
    Mr. Stearns. Thank you. My time has expired.
    The gentleman who is the ranking member of the Commerce, 
Trade, and Consumer Protection Subcommittee, Mr. Towns.
    Mr. Towns. Thank you very much, Mr. Chairman.
    Mr. Lampe, I would like to understand a little more about 
Firestone's criticism of the Explorer. I see in your material a 
lot of discussion about concepts like oversteer and understeer. 
Am I correct?
    Mr. Lampe. Yes, sir.
    Mr. Towns. At the end of the day, aren't we really talking 
about steering responsiveness?
    Mr. Lampe. Sir, it's, again, my understanding that Dr. 
Gunther's concern is more the ability--the ability to the--of 
the driver to maintain correctional--directional control at 
normal highway speeds if that vehicle goes from an understeer 
to an oversteer. If the driver is not able to maintain control, 
the back end starts to roll out on him, and then the car is 
going sideways to its intended direction of travel and starts 
to roll over. But it's the driver's inability to maintain 
control, is my understanding.
    Mr. Towns. Aren't the manufacturers generally moving in the 
direction of designing their vehicles to have more responsive 
steering? Is that correct?
    Mr. Lampe. All automobile manufacturers strive to design 
into their vehicle a certain amount of understeer, because we 
can all deal with understeer. You and I, the normal driving 
public, can deal with understeer, and that's preferable. What 
we don't want to experience and what the automobile 
manufacturers don't want to put their customers into that 
situation, is that oversteer position.
    Mr. Towns. Let me sort of get one thing clear. Could you 
sort of give me quickly the difference in terms of your testing 
and the difference between Ford's testing of the tires? What's 
the difference? I mean, just briefly.
    Mr. Lampe. Okay. Very briefly, first of all, we tested--
when we tested temperature of the tire, we stick a pyrometer 
down inside the tire into the belt edge to measure the heat 
buildup at the belt edge where separations start. We don't 
measure the surface at the tire. When we measured--we make a 
test called high-speed SAE test, run-to-fail. You purposely run 
the tires at a higher speed, and then you step up the speed and 
you step up the speed until the tires fail. That's what it's 
designed to do, to make the tire fail.
    We did 2 of our tires, 10 of our competitor tires, 
gentlemen; the most common failure, most common--and especially 
Goodyear has said many times, the most common failure of a tire 
is tread separation, and when we ran those tests, sure enough, 
8 out of the 10 tires that we ran on the high-speed test 
experienced belt-leaving-belt separation. We tested them to 
fail. Don't--I'm not saying they were bad tires. We ran them 
till they failed, but the failure mode is belt leaving belt. 
That's very common.
    Goodyear has said it a number of tires. For anybody to say 
that a separation is not a foreseeable event or not an event 
that a car manufacturer should make sure that he gives his 
consumer adequate control over is wrong.
    Mr. Towns. Let me just run back to the Dr. Gunther test 
again. Dr.--it's indicated Dr. Gunther really tested access to 
steering responsiveness. You didn't tell him to test any of 
those new design vehicles with more responsive steering, did 
you?
    Mr. Lampe. No, Congressman Towns. We--we left it up 
completely to Dr. Gunther. He's the expert. Again, he's an 
expert in vehicle dynamics. He performed standard routine 
tests, and they're very reputable. You can repeat them and 
repeat them, standard recognized tests on the three best-
selling SUVs in the marketplace: The Explorer, the Jeep 
Cherokee, and the Blazer.
    Mr. Towns. Well, you know, that's the thing. They're saying 
that he did it on a 1996 Chevy Blazer and a Jeep Cherokee, 
right, both of which had older designs with less responsive 
steering. And of course, for example, you did not ask him to 
test the new BMW-X5 or the Mercedes ML 320, both of which have 
more responsive steering than all of those that you mentioned. 
Am I correct?
    Mr. Lampe. Yes, sir. And I understand both of those 
vehicles that you mentioned also have a traction control--a 
very sophisticated traction control device to help that vehicle 
not go into an oversteer position. But, no, we did not test 
them. The Jeep Cherokee was the year 2000. The Explorer was the 
1996, and the Blazer was a 1996. And we also tested another 
Explorer with Goodyear tires.
    Mr. Towns. At this time I yield back, Mr. Chairman. Thank 
you very much.
    Mr. Lampe. Thank you.
    Mr. Stearns. The gentleman yields back. The gentleman from 
Pennsylvania, the chairman of the Oversight and Investigations 
Committee, Mr. Greenwood.
    Mr. Greenwood. Thank you, Mr. Chairman, and welcome, Mr. 
Lampe.
    Mr. Lampe. Thank you very much.
    Mr. Greenwood. I want to go back to a question I think Mr. 
Stearns started to focus on, and try to get a little bit more 
clarification. We've got three of your plants with very, very 
different rates of tire tread separation: Wilson, 19; Joliette 
at 2.8; and Aiken at zero. Are those numbers correct?
    Mr. Lampe. I believe so, yes, sir.
    Mr. Greenwood. Now, it's a simple question. I assume that 
if the Ford Explorers that were put on are a random selection 
of Ford Explorers, and they're not--you can't say that the 
Wilson plant went on a certain kind of Explorer or a certain 
run of Explorers, and then the Joliette plant tires went on a 
different run of Explorers. It seems the common denominator is 
the Explorer, and the variable is the plant. And so the 
question is: How can you attribute the significant variation in 
the tire tread separation rates, when the only thing that seems 
to be at variance here is the plant and not the vehicle?
    Mr. Lampe. First of all, a number of our plants make sizes 
for the Explorer. Some are the same sizes, some are different. 
The other thing you have to remember, Congressman, is that 
Wilson tire plant has hundreds of lines of tires, hundreds, 
that have never had a claim. And if you take the Explorer-
produced claims or the Explorer-responsible claims out of our 
data base, our claims statistics fall dramatically. And 
certainly the number of injuries and fatalities falls 
dramatically. Our Wilson plant is a fairly new plant. I think 
it's about 25 years old. The Aiken plant is brand new. It's 
only 4 or 5 years old. They use similar manufacturing 
techniques in a lot of cases. There are some differences in 
equipment, but the performance rate and the claims rate in 
Wilson on their overall production is excellent and very good.
    Mr. Greenwood. What do you think is the cause of that very 
statistically significant, I assume, range in claims rates 
based on tire tread separation for these plants?
    Mr. Lampe. Again, Congressman, it can be the application of 
vehicle that goes on. One of the variables, too; take the Ford 
Explorer. Wilson tires going into their assembly plants, their 
manufacturing plants, St. Louis and Louisville, versus Joliette 
tires, the distribution of the Wilson-made production might end 
up going a lot more further south to the warmer States and the 
hotter States, when the Joliette production stays more up in 
the north and Canada.
    Mr. Greenwood. You're saying ``might,'' or the data 
indicates that?
    Mr. Lampe. It might. I'd have to see the distribution data 
from Ford. They had that information. I'd have to see that, but 
it very well could influence the rate.
    Mr. Greenwood. Have you asked Ford for that data? I would 
think that would be fairly significant information for your 
company to have.
    Mr. Lampe. We asked for that data. We asked for--from Ford, 
the Ranger distribution data, because we wanted to see that 
comparison between the Explorer and the Ranger. Sir, we asked 
for it. We asked for it and we asked for it. And it wasn't 
until May 11, after I refused to hand over some information to 
Ford, until they handed over the information to me, so I 
could----
    Mr. Greenwood. Have you had a chance to analyze it so we 
know whether, in fact, these different claims rates reflect 
geography as opposed to something in a tire?
    Mr. Lampe. I do not--I cannot say that with all certainty. 
Congressman, I would--one other thing I would like to point 
out. We talk a lot about claims. Claims is a word, is a 
classification, that didn't even exist 8 months ago. There is 
no standard definition of claims in the industry. What Goodyear 
says a claim is, could be completely different than what we 
said it is. There is no standard established by the National 
Highway Traffic Safety Administration as to what a claim is, or 
what an acceptable rate is. But the important thing is that 
what happens after the separation, after the separation. Again, 
a driver should not lose control of his vehicle. It's a rare 
event, but it is a foreseeable event, and it is one that 
happens.
    Mr. Greenwood. I agree with you. This whole business of 
claims rate is not good science. This is about how many calls 
are made to NHTSA, and as we all know, those calls can be 
inspired by what happens in the news, they can be inspired by 
what's happening in the courtrooms. And there's nothing final 
about this information that we learn from claims rates. Let 
me----
    Mr. Lampe. And the Congressman is really referring to even 
another measure that is different from claims rate, the Vehicle 
Owner's Questionnaire reports that NHTSA gets. You get the 
VOQs, you get claims, you get adjustments. It is a confusing 
subject.
    Mr. Greenwood. Let me go to another subject. You rely to a 
great extent on the research of Dr. Gunther who ran experiments 
detailing the amount of understeer and oversteer of the Ford 
Explorer. Dr. Gunther compared the 1996 and the 2000 Ford 
Explorer to the 1996 Blazer and the 2001 Jeep Cherokee. Dr. 
Carr, hired by Ford, argues that these vehicles are not 
comparable to the Explorer, and that neither have similar 
steering mechanisms, which creates a situation where the 
Explorer will necessarily look far worse. How do you respond to 
that comment?
    Mr. Lampe. Dr. Gunther is an expert, sir. He's a full 
professor at the Ohio State University. He has done a 
tremendous amount of work for NHTSA. He's done work for the 
automobile companies. He is the expert. He selected the 
vehicles to get the best comparison, the best comparative test 
that he could do. The tests that he ran are standard, 
repetitive-type tests, recognized in the industry.
    Mr. Greenwood. But you do acknowledge that there are 
different configurations in these vehicles in terms of their 
steering mechanisms.
    Mr. Lampe. I do not know that for a fact. No, I cannot say 
that.
    Mr. Greenwood. My time has expired.
    Mr. Stearns. The gentleman's time has expired. The chairman 
of the full committee, Mr. Dingell, is recognized for 5 
minutes.
    Mr. Dingell. Thank you, Mr. Chairman. Mr. Lampe.
    Mr. Lampe. Morning, Congressman.
    Mr. Dingell. I have a series of questions. But first, it 
was 1992 when Bridgestone/Firestone began its turnaround. I'm 
reading now from the Akron Beacon Journal. It opted to move its 
headquarters from Akron, Ohio to Nashville, Tennessee to get a 
new lease on its corporate life. ``Ono,'' Bridgestone/Firestone 
CEO at the time said, ``last year's results,'' that is, 1997, 
``showed the improvement of cost-cutting and increased sales in 
the 5-year period.''
    Did Bridgestone/Firestone launch some sort of cost-cutting 
effort in the early and mid-1990's to deal with its profit and 
loss and debt situation?
    Mr. Lampe. Congressman Dingell, I'm not--could you be a 
little bit more specific? We're always--certainly we're always 
trying to improve our productivity and keep our expenses under 
control.
    Mr. Dingell. The journal quotes Mr. Ono, who is a man I 
gather of some importance in the company, who said that last 
year's results show the improvement of cost-cutting in the 5-
year period. My question: Was there a cost-cutting program 
which went on at Firestone or not?
    Mr. Lampe. Congressman Dingell, there are always measures 
in our company to keep our expenses under control.
    Mr. Dingell. Was there a name for this cost-cutting 
program?
    Mr. Lampe. I'm not sure what the Congressman is referring 
to.
    Mr. Dingell. Well, all I know is that you had a cost-
cutting program going on according to Mr. Ono. Have you ever 
talked to him about this?
    Mr. Lampe. Mr. Ono has returned to Japan, sir. Again, if 
you could be more specific, I'll certainly try to address it.
    Mr. Dingell. Now, he actually said that it was a company-
wide program.
    Mr. Lampe. Again, sir, we had many programs that we put in 
place to improve our productivity, to make us a better company, 
to improve our expense to sales ratios. That's a continuous 
practice.
    Mr. Dingell. As a result of this cost-cutting program, did 
Firestone change the Explorer tires that it was selling to Ford 
in any way?
    Mr. Lampe. I don't know that any change was made to the 
Ford Explorer tire because of any cost-cutting program, 
Congressman Dingell.
    Mr. Dingell. Are you telling me that there were no changes 
in the tires that Firestone was selling to Ford for Explorers?
    Mr. Lampe. We make continuous changes in the tires. I did 
not say that, Congressman. We make continuous changes in our 
tires, to improve our tires.
    Mr. Dingell. Were any of these changes made for cost-
cutting reasons?
    Mr. Lampe. Not that I know of, Congressman. I don't know of 
any--again, we make a number of changes. We try to improve our 
tires. We try to make our tires better all the time. I was not 
in manufacturing at the time, so I know of--I know of none----
    Mr. Dingell. Does any of these result in the use of less 
expensive materials and compounds and production processes?
    Mr. Lampe. Again, Congressman, I cannot--I cannot state to 
that. I will tell you that we're always looking to be able to 
use better materials at a better price if we can improve the 
quality of our tires.
    Mr. Dingell. Would you please submit to this committee a 
list of all changes in materials, compounds, in production 
processes, and in structure of the tires made during this 
period?
    Mr. Lampe. Of course we will, Congressman.
    Mr. Dingell. Now, did Firestone tell Ford of any of the 
changes that they were making in the tires during this period 
of time and the reasons why these changes were being made?
    Mr. Lampe. We have a lot of dialog back and forth with the 
Ford Motor Company, as Mr. Nasser stated. He stated that he's--
Ford Motor Company shares information when they change the 
vehicles. We share a lot of information back with our OEM 
customers when we change the tires, especially if it affects 
the performance--performance parameters of what they've asked 
for.
    Mr. Dingell. Did Firestone monitor the field performance of 
the tires that were modified during this period of time as a 
part of the cost-cutting program of that company?
    Mr. Lampe. Again, Congressman Dingell, you're referring to 
changes made in tires versus cost-cutting, and I don't think 
that's a fair characterization at all. We always monitor. We 
always monitor the performance of our tires in the field. We do 
tests. We do run tire analysis. We do many tests to make sure 
our tires perform well.
    Mr. Dingell. Are you telling me that none of these changes 
in tire structures were cost cutting?
    Mr. Lampe. I've said I can't say that, sir, but I don't--I 
don't believe you're in a position to be able to say that 
either. I don't think any one of us know.
    Mr. Dingell. Mr. Lampe, you're the witness, not I.
    Mr. Lampe. Yes, sir.
    Mr. Dingell. Now, at some point, did Firestone decide to 
reverse some of the cost-cutting actions it had taken with 
regard to Explorer tires, because field performance data 
indicated problems?
    Mr. Lampe. I don't know that to be the case, sir.
    Mr. Dingell. Would you submit a list of materials, 
structure, and changes in manufacturing processes, please, to 
this committee that occurred during that period of time?
    Mr. Lampe. I said I would, sir, yes, sir.
    Mr. Stearns. The gentleman's time has expired, and the--Mr. 
Lampe, just answer his request, if you would.
    Mr. Tauzin, the chairman of the full committee.
    Chairman Tauzin. Thank you very much. Mr. Lampe, welcome 
again.
    Mr. Lampe. Thank you, Chairman Tauzin.
    Chairman Tauzin. Let me put something on the record. Claims 
data, as we understand it, is data that refers to a tire 
failure that leads to injury or property damage. Is that 
correct?
    Mr. Lampe. Yes, sir. Let me explain. Again, this didn't 
even come up in vocabulary until August of last year. A claims 
is made up--the way we define it--and, again, the real problem 
is there is no industry definition. We define a claim. Every 
time you see information we give you, it's defined as a minor 
property damage claim, and it could be so much as replacing a 
wheel on somebody's car. No----
    Chairman Tauzin. Nevertheless, we have property damage and/
or injury----
    Mr. Lampe. No, no.
    Chairman Tauzin. [continuing] connected to the tire 
failure.
    Mr. Lampe. Property damage, as much as less--as little as 
$5.
    Chairman Tauzin. I understand.
    Mr. Lampe. It includes personal injuries and it includes 
lawsuits, three different things.
    Chairman Tauzin. I just wanted that on the record. Second, 
you mention that Firestone did a voluntary recall of tires last 
year, but to set the record straight again, it was the story 
done by KHOU in Houston, Texas, that really started this ball 
rolling and got the NHTSA to do an investigation, because KHOU 
actually used data at NHTSA to describe a situation where too 
many Ford Explorers were rolling over with tire separations on 
their tires, on the Firestone tires, and that prompted the 
whole business, did it not?
    Mr. Lampe. Congressman Tauzin, my understanding is I 
believe the KHOU television program you're referring to was 
sometime back in February----
    Chairman Tauzin. That was months before the recall.
    Mr. Lampe. February of 2000. I believe NHTSA opened up a 
preliminary evaluation in May of 2000. We announced our safety 
recall in August. My point being only that the preliminary 
evaluation of our tires was still underway, and it was still--
--
    Chairman Tauzin. Well, I want to talk to you about that, 
though. You just talked to Mr. Dingell about changes that are 
made in Firestone tires. I asked--you were in the room when I 
asked Mr. Nasser about the decision by Ford to purchase 
Goodyear tires in 1996, and then to return exclusively to 
Firestone tires again in 1998. Now, Ford and Firestone had an 
amazingly close relationship for all those years, and it has 
intrigued me for a long time--I have not yet gotten a good 
answer to it--why did Ford decide to start buying Goodyear 
tires in 1996?
    Mr. Lampe. Sir, that's very explainable. During the--and I 
believe it was actually in 1995 that they started using some 
Goodyear tires. They used them in 1996 and a little bit in 
1997, I believe, and then that's when they went back to 100 
percent Firestone. At that same time period, we were having a 
labor disruption, labor problems in our union plants. Our 
production had been reduced, and I believe Ford switched some 
of the business back--over to Goodyear in order to take off 
some of the pressure on us, to assure supply. And then once our 
labor problems were concluded, they went back to us 100 
percent. That's my understanding.
    Chairman Tauzin. What's intriguing about all that, is that 
in 1995, I think it was, you ran some tests on the tires 
indicator and had an amazing, I think, 4 out of 10 failure 
rate. And--it was some amazing results we had at the last 
hearing. Is that correct?
    Mr. Lampe. Congressman, you and I got into this in the last 
hearing about this testing and the results, and I think--I 
believe that we agreed that a lot of this testing that you were 
referring to was testing that we were doing on prototype tires 
and testing where we actually--what we call test to failure, 
where you----
    Chairman Tauzin. But you found it wrong. You found an 
unevenness in the sidewalls, and you changed that to an even 
sidewall treatment, and you found also in 1998, I believe it 
was, that you needed to strengthen or add amendments to the 
wedge. Is that correct?
    Mr. Lampe. I don't believe it was a matter, Congressman, of 
finding something that made us do something. We always try to--
--
    Chairman Tauzin. How do you----
    Mr. Lampe. We always try to improve our products. The wedge 
change you're referring to that we did in 1998, we talked about 
at the last hearing, and it covered over a 104 different sizes. 
It wasn't a change we made to the Explorer tire. It was over 
104 different sizes.
    Chairman Tauzin. It was many different----
    Mr. Lampe. As an improvement.
    Chairman Tauzin. You and Ford now conducted the very same 
tests on the Ford Explorer, the radius circle test, and you did 
it in conformity with the Society of Automotive Engineers' 
guidelines. Now you used different peer vehicles than Ford did, 
apparently. You used a different size track, I think. I don't 
know if that makes a difference. But your results are exactly 
the opposite of Ford's. You found an oversteering problem, and 
they found none, using the same apparent engineers' guidelines. 
You came out with totally different results. Now, who are we to 
believe, and how are we to know what's correct in these 
results?
    Mr. Lampe. Congressman Tauzin, that's why from the very 
start we asked Ford to work with us, do this together with us, 
be a part of this. It goes back to, Congressman----
    Chairman Tauzin. But that hasn't happened. You've done 
separate tests.
    Mr. Lampe. No. It's not----
    Chairman Tauzin. We're stuck with the fact that each of you 
did a separate test, using the same guidelines, and you got an 
expert that says one thing, and they've got an expert that says 
another. You've got one result, and they've got another result. 
Who's going to settle this for us?
    Mr. Lampe. That's a very--and I'm glad you pointed out that 
it was a--it was Dr. Gunther that did the tests. We did not do 
them ourselves. This test is a very standard, recognizable test 
in the industry, and it's very repeatable. It's not something 
you do once and you can never replicate. You can. I'm 
suggesting we are not the vehicle experts. We shouldn't have 
had to do this in the first place, Congressman. We should not 
have had to do it. But it can be replicated, and I would----
    Chairman Tauzin. I'm told that Ford did it on both the 100- 
and the 200-meter track and again came up with opposite results 
from you. So what you're saying is somebody who doesn't work 
for Ford, who is not hired by Ford, somebody who doesn't work 
for Firestone, is not hired by Firestone, somebody ought to 
replicate this test?
    Mr. Lampe. I think it would be a very, very good idea. I 
will point out one difference in Ford's test, to my 
understanding, is they tested vehicles at what they call .5 
lateral G's, which is an extremely, extremely violent kind of 
acceleration that nobody ever gets to in normal driving. Dr. 
Gunther's was done between .1 and .3, which is under the normal 
driving conditions. But I'd be more than willing to----
    Chairman Tauzin. But they were both done under the same 
engineering guidelines.
    Mr. Lampe. That would be great.
    Chairman Tauzin. You're telling me they weren't.
    Mr. Lampe. No, they were not.
    Chairman Tauzin. So we really need someone, some 
independent analyst to tell us who's right and who's wrong 
here. Right?
    Mr. Lampe. I think that would be a great idea. We have--
we've done something that we shouldn't have had to do in the 
first place, and if NHTSA or a third party wanted to do this, 
we would be most willing to cooperate, yes, 100 percent.
    Chairman Tauzin. Thank you, Mr. Chairman.
    Mr. Lampe. Thank you, Congressman.
    Mr. Stearns. I thank the chairman.
    Mr. Gordon is recognized for 5 minutes.
    Mr. Gordon. Welcome, Mr. Lampe. A quick lead to--at the 
request of the committee staff and to complete our record, you 
had mentioned in your testimony that there were 4 deaths in the 
last 10 days in Venezuela based on tread separation on 
nonFirestone tires. We have no record of that. If you could 
provide us with some documentation.
    Mr. Lampe. Yes, sir. I did not--I was not aware that you 
don't. We have--we will provide you--we have 43 individually 
documented judicial cases, which means they're either certified 
or registered by a judge or----
    Mr. Gordon. If you could just provide that----
    Mr. Lampe. We'll do that.
    Mr. Gordon. [continuing] to the committee.
    I'd like to get on to the two questions I had asked Mr. 
Nasser earlier. To my understanding, the same Firestone tires 
used on the Ford Explorer are also used as original equipment 
on the Ford rangers. These same tires are evidently used on two 
other popular SUVs, the Toyota 4-Runner and the Jeep Grand 
Cherokee. Claims data shows that owners of vehicles other than 
the Explorer have virtually no problems with tread separation 
leading to rollovers. What does this suggest about the 
Explorer's design or handling characteristics and their 
contribution to the problems?
    Mr. Lampe. You're exactly right, Congressman, and I heard 
the question when you asked it of Mr. Nasser. The exact----
    Mr. Gordon. That's an addendum, and a quick addendum. There 
appears to be a major difference between--or Mr. Nasser just 
clearly said that the Toyota and the Jeep Cherokee were not the 
same tires. If you can correct that, too, or give us your view?
    Mr. Lampe. Very brief, the exact same tire that we supply 
the Ford Explorer is the exact same tire that goes on the Ford 
Ranger, and already we've said that the Ford Explorer has 8 
times as more claims than the Ranger does. We supplied 3.1 
million tires, of our Wilderness tires, to General Motors, and 
we had 2 claims. We supplied over 1.2 million Wilderness tires 
to the Toyota 4-Runner, and we had zero claims.
    And the question that calls into being is why do we supply 
tires, Wilderness AT to Ford, that appear on vehicles that have 
accidents and rollovers, and why do we supply tires to others 
that it doesn't? Mr. Nasser said the tires were not the same 
tires, and I'll agree to that. They have slight differences, as 
established by the OEM, for such things as fuel economy or road 
noise or something; but the basic Wilderness AT tire, 85 
percent, 90 percent, of that tire is the same whether it goes 
to Ford, whether it goes to General Motors, or whether it goes 
to Toyota. There are some tweaks for the OEMs.
    Mr. Gordon. My second question was, 1 year ago, Ford 
initiated an almost identical replacement program in Venezuela 
to replace Firestone tires with other brands. Even though 
Explorers are now using other brands of tires in Venezuela, 
it's my understanding that the Explorer rollovers have 
continued at a high enough rate to cause the head of the 
country's consumer protection agency to suggest banning sales 
of Explorers.
    Why has replacement of Firestone tires in Venezuela not 
brought an end to the problem, and will the replacement of 
Firestone tires on the Explorer end the problem in the United 
States?
    Mr. Lampe. And that's our big dilemma, Congressman. We've 
seen what happened in Venezuela. Ford has said it was a tire 
issue. They replaced the tires. We didn't replace them. They 
did. But the problems continue. The rollovers continue. You're 
right. The head of the Consumer Protection Agency came out and 
requested the Attorney General to ban the sale of Ford 
Explorers, and just this morning, there was an article in a 
Venezuela newspaper that quoted the president of the Explorer 
Owners Association, stating that this is a vehicle problem, 
this is not a tire problem. We don't have tires left on Ford 
Explorers. And I'm not saying the tires that are on the 
Explorers today in Venezuela are failing. They're not. 
Unfortunately, the vehicle continues to roll over.
    Mr. Gordon. Could you also provide us documentation of 
that----
    Mr. Lampe. Yes, I will.
    Mr. Gordon. [continuing] news article?
    Mr. Lampe. I certainly will. Thank you.
    Mr. Gordon. I guess if there is any time left, I will offer 
this to you to clear up any kind of differences of opinion from 
the earlier witness.
    Mr. Lampe. No, I'm not going to use my time to do that. I'm 
just going to reaffirm one thing that Mr. Nasser said. The 
decision that I had to make and my company had to make a couple 
weeks ago to terminate our relationship with the Ford Motor 
Company was the most difficult, most painful decision I've ever 
made. Ninety-six years of heritage. Harvey Firestone, Henry 
Ford were great friends. We did not take that decision lightly. 
As I said, it's a very difficult decision, but it was the only 
decision that we could take. It was the right decision to take 
at the time.
    Mr. Gordon. Thank you.
    Mr.  Greenwood. The time of the gentleman has expired. The 
Chair recognizes the gentleman from Georgia, Mr. Deal, for 5 
minutes.
    Mr. Deal. Thank you, Mr. Chairman. Thank you for being 
here.
    Mr. Lampe. Thank you.
    Mr. Deal. You have stated that the important thing is what 
happens after the tire separation. I would submit to you that 
we are basically talking about two events, both of which may be 
calamitous here. The first is the tire separation. The second 
is possibly a rollover following a tire separation. You've 
indicated that you think it is a combination vehicle/tire 
problem that we're addressing.
    So my first question to you, then, is based on the fact 
that you're saying that relatively the same tire does not have 
the same potential problems 8 times, I believe you said, less 
with a Ranger versus an Explorer. Are you contending that there 
is something in the design of the Ranger that causes the tire 
separation?
    Mr. Lampe. Congressman Deal, my comment was--and I'm sorry 
if I confused this. The----
    Mr. Deal. I understand your comment. I'm simply asking----
    Mr. Lampe. No. No. But I've got to clarify one thing you 
said real fast. The incident of claims for tread separations on 
the Ranger is 8 times less than the Ford Explorer.
    Mr. Deal. But, now, is that a claim that is followed by a 
rollover that precipitates the definition of claim?
    Mr. Lampe. The rollover event on a Ford Ranger is 
practically nonexistent. It's practically nonexistent.
    Mr. Deal. The separation is 8 times less on the Ranger?
    Mr. Lampe. Yes, sir.
    Mr. Deal. Are you then contending that there is something 
about the design of the Explorer that causes the tire 
separation?
    Mr. Lampe. We keep looking at that. We talked about that 
last fall. We talked about why so many rear-tire failures, why 
so many left-rear-tire failures. We have not had any scientific 
findings that would suggest that, to date, that would suggest 
that there is something on the Ford Explorer, other than the 
inflation pressure and the weight, which is extremely 
important, but nothing mechanical on the Explorer causing a 
tread separation.
    But we still believe when we go back to the Ford chart on 
the weight of the Explorer, that one of the Congressman brought 
up, that that inflation pressure is extremely important. And 
Congressman--or, Chairman Tauzin, you'll remember last year we 
talked about 26 pounds, and we asked Ford to let us move our 
tire to 30. They agreed on a range from 26 to 30. We then went 
back and said, please, Ford, we want you to recognize 30 pounds 
for our tire. They did that, and 2 weeks ago I was meeting with 
Ford, and their top engineer for passenger cars and SUVs told 
me they have now gone to 30 pounds for all manufacturers.
    Mr. Deal. So the only thing----
    Mr. Lampe. So they probably recognized that 26 was not 
sufficient as well.
    Mr. Deal. So the only thing you can account for in that 
regard may be the tire pressure might attribute to that fact?
    Mr. Lampe. Air pressure and load; yes, sir.
    Mr. Deal. Now, the second thing you indicated was that in 
the tests that you had performed, your tire compared favorably 
with all of its competitors, and I assume these were tests on 
your tire that has now been recalled?
    Mr. Lampe. No, sir, this is just the latest testing that 
we've done, testing that we've done within the last 90 days, 
120 days on our tires, which would not include the recalled 
tires. They're already, for the most part, off the road.
    Mr. Deal. Are you contending that your initial recall was 
not necessary?
    Mr. Lampe. The additional action taken by Ford?
    Mr. Deal. The initial recall that you made.
    Mr. Lampe. No, I never suggested that, sir. You asked me if 
we did testing, if this testing reflects tires that we recall; 
and I'm saying, no, it does not.
    Mr. Deal. All right.
    Mr. Lampe. Those tires are off the road. This is current 
production tires.
    Mr. Deal. All right. So you're not insisting that the tires 
that were initially recalled by your action didn't have 
problems?
    Mr. Lampe. No, sir, I am not.
    Mr. Deal. All right.
    Now, you were generally asked a question about the 
difference in performance of your tires based on their location 
of manufacture, and I believe you indicated that it may have 
something to do with which vehicles the tires go on; and I 
think we are talking here exclusively about all explorers and 
that it may have some something do with some going to Southern 
States.
    I couldn't help being a little paranoid, as a Southerner, 
recognizing that all the tires made in the South seem to 
perform pretty good, everybody; it's only the tires made in the 
North and sent to the South that have problems. That gives me a 
little bit of pause here.
    Mr. Lampe. You said that. I didn't.
    Mr. Deal. Is there any other explanation that you can offer 
with regard to the differentiation between point of manufacture 
and performance?
    Mr. Lampe. It is also the type of tire that is produced. 
You might have a commercial light truck tire being produced in 
one plant, versus an over-the-road passenger tire in another. 
You would expect to see a higher separation rate, claim rate, 
if you will, on the commercial light truck tire because of its 
application.
    So application has a lot to do with it as well, Mr. Deal.
    Mr. Deal. Thank you, sir.
    Mr. Lampe. Thank you.
    Mr. Greenwood. The chair recognizes the gentleman from 
Florida, Mr. Deutsch, for 5 minutes.
    Mr. Deutsch. Thank you, Mr. Chairman.
    Mr. Lampe, there have been allegations that Ford basically 
pushed Firestone with its demands to improve the Explorer's 
stability and gas mileage, and that Firestone ended up going 
along with those demands, but didn't tell Ford that the tire 
would not be as robust if that were to occur.
    Looking back on that sort of period, first of all, if you 
can talk about the veracity of those allegations; but also, 
knowing what you know now, would you be doing things 
differently in terms of changes that you made.
    Mr. Lampe. I am not aware of any changes that were done for 
the reasons you stated, Congressman. Yes, frankly, looking 
back--you've asked me that; I have been asked that before. 
Looking back, the air pressure of 26 pounds was a bigger factor 
than we originally thought.
    Mr. Deutsch. Okay. Did Ford specifically ask you to lighten 
the tire at any point?
    Mr. Lampe. We did lighten the tire. I have also seen that 
information. We lightened the tire, and I can't remember which 
model year it was. I don't know if this was the result of an 
innovation, an improvement that we could make on our tires, or 
if it was at Ford's request; but I will get that information 
for the record.
    I do not know if that was at Ford's request.
    Mr. Deutsch. I appreciate if you can provide that.
    We have placed into the record a June 16 article from the 
St. Petersburg Times reporting that a Fort Myers man died in 
March after a Cooper tire tore apart and his Explorer flipped 
over.
    Another person was killed in Florida on May 16 of this year 
when an unidentified non-Firestone rear tire fell apart.
    An April 30 article from the Peoria General Star reported 
on the death of an Illinois man who had replaced his Firestone 
tires with Cooper tires.
    Now, Cooper tires were not approved replacements for the 
Firestone tires. Do you have any evidence of Explorers rolling 
over on non-Firestone, but approved, replacement tires after 
last year's recalls.
    Mr. Lampe. Sir, I have got reports that have been sent to 
me from media reports that--of a number of cases of Explorer 
rollovers on competitor tires other than--in addition to those 
that you have mentioned. There were two or three in California; 
there was one in Georgia. There have been a number, but I do 
not--I do not have an adjudication, I do not have a 
certification, of these. They have just been reported on 
competitor tires.
    Mr. Deutsch. I think that's an issue again where whatever 
information you have, if you can provide the committee and 
committee staff with that obviously very helpful information.
    Mr. Lampe. I believe we've provided that, but I'll double-
check and make sure you get that.
    Mr. Deutsch. We have the performance specifications that 
Ford provided to both Firestone and Goodyear for the Explorer 
tires. What changes need to be made in these specifications to 
avoid another disaster? Or is it possible? I mean, do you have 
any suggestions about that?
    Mr. Lampe. I think we need to continue to improve our 
ability to exchange information with the automobile 
manufacturer.
    Congressman, last fall I said that we've got to know a lot 
more about the vehicle, that we've got to know a lot more about 
our tires, and we've got to talk a lot more about what, if they 
increase the weight from 5,000 pounds to 5,600 pounds, we need 
to know.
    If we change something in our tire that is going to affect 
the performance of that vehicle, they need to know. And I said 
back then that I am firmly convinced, that is the best thing we 
can do is, share more information, be open with each other and 
make sure we understand how the tire and the vehicle interact.
    Mr. Deutsch. Now, you have just emphasized the importance 
of vehicle weight to tire performance. When did you first learn 
that Ford had increased the Explorer's weight by 600 pounds in 
the model year 1996?
    Mr. Lampe. And I can't speak for the 45,000 people in my 
company. That would be kind of an unfair statement. We did not 
become aware at the management level until we got into this 
whole issue about weight and inflation, which was last year. 
That is the first time we became aware that Ford had increased 
the weight from 1990 to 1996, and then they decreased it, back 
down.
    And what's interesting about that is our highest rate of 
claims on the Ford Explorer are those 2 years where the weight 
was the highest. Our claims were less before, and they've come 
down since the weight came down. Whether that is a strong 
correlation or not, I would suggest it is.
    Mr. Deutsch. Were you surprised that Firestone was not 
informed of the change in the weight?
    Mr. Lampe. I am surprised, in looking back at it. I wasn't 
involved in the Ford-Firestone relationship back in 1996. I 
would have had no reason to be involved, but I am surprised 
that we weren't informed.
    Mr. Deutsch. And as you've testified at this point, then 
how important is the vehicle's weight to tire performance?
    Mr. Lampe. It is very important. It's very important. 
Weight and inflation are the two most important things to tire 
performance. If a tire becomes underinflated, or if it becomes 
overloaded, that tire is going to run the risk of being 
damaged.
    Mr. Deutsch. Let me just ask one last question.
    I asked Mr. Nasser about testimony that Ford experts have 
given at trial regarding the ability to drive, or the average 
driver to drive, in a situation where the treads basically come 
apart. What would your position be in terms of the ability of a 
driver to drive in that situation?
    Mr. Lampe. As Goodyear stated on four different occasions, 
tread separation is not an unusual tire failure. All tires will 
fail, all tires can fail if they're not taken care of, if 
they're abused. But probably the most compelling thing is a 
presentation that Goodyear made to NHTSA back in--I believe in 
March; and I am sure NHTSA can provide you a copy. And there 
are two things I'd like to read from their presentation. I 
mean, I--it is here--this is Ford's presentation to NHTSA back 
in March, Ford's presentation:
    ``Like other SUVs, Explorer's handling capacity, even with 
a separated tire, is sufficient to allow a safe stop.'' that's 
one statement by Ford.
    The other one:
    ``Explorers have a margin of safety, as designed, to 
accommodate a reasonable level of component failures, including 
tread separations.'' they said this in March.
    Dr. Guenther comes out in May and says, there's a problem 
because it is a foreseeable event; and now Ford is saying, 
well, they don't design their cars for that after all--very 
important.
    Mr. Greenwood. The time of the gentleman has expired. The 
Chair recognizes for 5 minutes the gentleman, Mr. Bryant.
    Mr. Bryant. Thank you.
    I'd like to welcome and thank you for your patience also. 
Let me ask you some questions, some of which may be answered 
briefly, maybe even yes or no; but I have got about five 
questions I'd like to cover with you.
    Referring back to last year, how long did it take Firestone 
to complete the original tire recall which was ordered by NHTSA 
last summer, and how many tires were recalled and were they all 
replaced?
    Mr. Lampe. We virtually completed the recall in about 5 
months, 4\1/2\ months. We replaced about--it is a little over 6 
million tires. We have continued to replace those tires; we've 
got up to about 6.3 million; we estimated there were about 6.5.
    I am not sure, but if you ask NHTSA, I think they would 
probably tell you this is the highest percentage of reclaimed 
product on a replacement program like this that's ever been. 
They're virtually all off the road, Congressman.
    Mr. Bryant. Given your successful completion of this tire 
recall last year, is the current tire recall being conducted by 
Ford necessary?
    Mr. Lampe. No, sir, it's not. The tires they're replacing 
are perfectly safe tires.
    Mr. Bryant. What, if any, quality control measures has 
Firestone undertaken to prevent situations like the tire recall 
last summer from occurring again?
    Mr. Lampe. We've done a number of things, Congressman. We, 
first of all, instituted an improved early warning system to 
make sure that we can catch an issue when it's an issue and 
before it becomes a problem, and that is working. We have done 
some manufacturing changes in our product, in our plants, not 
only to--as matter of continuous improvement.
    But we understand that there will be tougher standards out 
there in the future and tougher testing requirements by the 
TREAD Act, and we want to make sure we are in full compliance 
and ahead of the program on that.
    We've also done some standardization in our plants, but 
we've done a number of things as a result of lessons learned.
    Mr. Bryant. You mentioned the TREAD Act. Of course, Mr. 
Upton's here as the sponsor of that bill last year; and in 
response to that bill, what changes, if any, has Firestone 
undertaken, anticipating the new defect reporting obligations 
under this act?
    Mr. Lampe. First of all, Congressman Upton, we're fully 
supportive of your bill. RMA, the Rubber Manufacturers 
Association, which includes all the major tire manufacturers, 
including Goodyear, Michelin, Cooper, we have been very 
supportive. And we will continue to support NHTSA and work for 
a successful implementation of that act.
    One of things we've changed, Congressman Bryant, is the 
reporting system on our quality control procedures. We have a 
quality control committee that reports directly to me and is 
accountable directly to me. They bring any issues that have 
come up through our early warning system, identifying when 
there are still issues.
    It's my decision, my responsibility to make the decision to 
either go out and get those tires, or some other recourse, but 
we have changed completely our reporting requirements.
    Mr. Bryant. I have got one final question.
    I was in and out, visiting with constituents, and I don't 
know if you have been asked this question. But concerning the 
Wall Street Journal article that talked about different ratings 
or classifications, if you will, A, B, C of tires; and there's 
been testimony that Mr. Nasser addressed about perhaps their 
requirement that they use a C-rated tire on the Explorer, and 
also that maybe they've gone to a B-rated.
    Could you distinguish in layman's terms for us those 
ratings and in terms of heat resistance and usage on an 
Explorer-type vehicle?
    Mr. Lampe. Yes. There are three ratings, basically A, B and 
C.
    Ford did not--and I'd like to correct the Congressman's 
statement a little bit. Ford did not specify a temperature 
grade, and that I believe was Mr. Nasser's testimony as well--
just confirming that. The C temperature grade is a perfectly 
acceptable temperature grade on passenger and light truck 
vehicles in the United States. It is not a reflection of 
geographic suitability. It's a grade that's assigned during a 
high-speed, high-speed SAE test; and again there are many 
vehicles--as Mr. Nasser said, there are millions of vehicles in 
the United States and all locations in all parts of the country 
that have temperature grade C tires, temperature grade B and a 
lesser population of temperature grade A.
    Mr. Bryant. So I think he mentioned that you did not 
necessarily make that distinction on the tires that you 
provided to Ford, the Explorer vehicle, initially.
    Mr. Lampe. That is up until 1999. I believe it was 1999. As 
we interpreted the regulations, we were not required to mark 
light truck tires or tires that were used on light trucks, like 
SUVs, with a UTQG designation. There were other manufacturers 
that didn't do it either, that interpreted the regulation the 
same way. NHTSA had asked us in 1999 to begin marking those 
tires, and we did at that time.
    Mr. Bryant. Very quickly, the last question on this, how in 
terms of performance would a C-rated tire compare to a B-rated 
tire.
    Mr. Lampe. Again, there are many, many factors of 
performance, handling, maneuverability and so forth. Again, 
this is more of a speed--it's a speed-rated, high-speed test to 
see what tires can resist heat at high speeds; it is about 80 
resistance, which is the top B or a C.
    The only performance--in my opinion, Congressman Bryant, 
the only performance distinction would be the temperature 
generation and resistance at high speeds.
    Mr. Bryant. Thank you, Mr. Chairman.
    Mr. Greenwood. The time of the gentleman has expired.
    The Chair recognizes for 5 minutes the gentleman from 
Massachusetts, Mr. Markey.
    Mr. Markey. Thank you, Mr. Chairman, very much.
    A few weeks ago Firestone gave the National Highway Traffic 
Safety Administration a preliminary report regarding handling 
and oversteer problems in the Ford Explorer. Yet Firestone had 
known from litigation in the mid-1990's about the handling 
issues with the Explorer.
    Why didn't Firestone approach NHTSA back in the mid-90's or 
late 1990's about this issue, so that it could have been dealt 
with as the safety issue which had already been identified in 
that earlier time period before additional death and injury was 
caused by the vehicle?
    Mr. Lampe. Congressman Markey, it's very difficult for me 
to answer that. I was not--as you know, I think, I just took 
over to be CEO last October, and I was not in our technical or 
manufacturing area. I don't know that people at Firestone felt 
that there was a vehicle problem, or not, back in the early 
1990's. Certainly there were a few lawsuits that existed at 
that time on the Ford Explorer that would suggest--that existed 
for rollovers, but I can't tell you if anybody in our company 
approached NHTSA or not.
    I don't believe they did.
    Mr. Markey. No, I don't think they did. The question is, 
why didn't they?
    What we're all interested in here is clearly the 
dysfunctional relationship that exists not only between Ford 
and NHTSA, but between Firestone and NHTSA. And I think we're 
concluding pretty much between both industries and NHTSA in 
terms of the responsibility, which each company feels that it 
has to bring information to NHTSA, that could help provide 
additional safety for the American family?
    Mr. Lampe. I agree with you completely. I don't consider 
our relationship with NHTSA dysfunctional. We have a tremendous 
amount of cooperation, but----
    Mr. Markey. I don't mean now. I know it's improved a lot.
    Mr. Lampe. Congressman, I can only assume and I can only 
say that I guess if there was an issue we felt we would, Ford 
would bring it to the forefront. They're the experts. They know 
the stability of their vehicles; and other than that, it's 
really hard for me to comment because I wasn't in the position 
back then.
    Mr. Markey. No, I appreciate your passing the buck there 
over to Ford; and you, as well--because of the litigation, you 
as well knew there was a huge issue here--again, not you sir, 
you weren't in the position at that point in time. But it's a 
real issue.
    Let me ask you a question. I would just like to get your 
view on it. The roof crush standard is 30 years old. Would you 
support a new roof crush standard to be developed to reflect a 
rise of SUVs on our roadways and the higher probability of 
rollovers in these vehicles?
    Mr. Lampe. I support Congressman Upton's TREAD Act that 
will increase the testing on tires.
    Mr. Markey. I'm not talking testing. I am talking about an 
actual roof crush standard, so that families aren't, as the 
vehicle rolls over, crushed to death inside of the vehicle.
    Mr. Lampe. Congressman Markey, I am not the vehicle expert, 
but I would support anything that would improve public safety 
as long as there was a risk/benefit analysis associated with it 
to see the practicability of it.
    Mr. Markey. Well, obviously, from your own testimony, Ford 
has increased from 5,000 to 5,600 pounds the weight of the 
vehicle; and this pretty much becomes a weight issue, how much 
weight do you want to now build into this roof protection so 
that the consumer is--the American driver or passenger is not 
crushed.
    Mr. Lampe. And I'm certainly not trying to be flippant at 
all in a subject like this, but yes, you could design a 
people--you could put people in tanks, and they wouldn't be 
hurt on rollovers. The only matter is, is that practical; and I 
am not qualified to say that. But I am for anything that 
improves public safety.
    Mr. Markey. How about the use of advanced window glazing 
inside of the window to prevent glass from falling out in 
crashes? Do you think that makes sense?
    Mr. Lampe. Congressman, you're asking me to comment on 
something that's way out of my realm of expertise. Excuse me.
    Mr. Markey. Okay. Okay.
    I would like it if you could to give us, for the record, 
any information that Firestone has, any memos that deal with 
what you knew about the handling and oversteer problems back in 
the mid- and late-90's from these lawsuits, and what you knew 
about what Ford knew on these issues at that time, so that we 
can get a handle on how long ago it was that it was clear that 
there was a big issue here.
    Would you provide for the committee memos, any memos that 
Firestone has developed or has access to that came from other 
companies relating to that, those issues during that time 
period?
    Mr. Lampe. If that information has not already been 
provided, certainly we will provide that, Congressman.
    Mr. Markey. Okay. Thank you.
    Mr. Greenwood. The time of the gentleman has expired.
    The Chair recognizes for 5 minutes the gentleman, Mr. 
Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman. Let me ask, on the 
information you provided us, Mr. Lampe, the chart here, it says 
Florida Single Vehicle Highway Fatal Incident Crash Rates by 
Model Year. I think it's in section one, the third or fourth 
chart. The charts were Florida and Texas accident data limited 
to a single vehicle highway accident where a tire was a 
contributing factor of the accident. The question, again, is 
trying to clear up data and data supplied to us.
    Why didn't you include the Mercury Mountaineer in your 
definition of a Ford Explorer? You did include the Mazda 
Navajo, correct?
    Mr. Lampe. I asked that same question, Congressman, because 
I was mystified as to why. It's the same tire, we supply the 
same tire to the Mountaineer. It is my understanding that the 
Mountaineer has a different suspension than the Explorer and 
the Navajo do. That's my understanding.
    I am sure somebody from Ford could answer that, but that's 
why they were not included, because they were not an apples-to-
apples comparison.
    Mr. Shimkus. I am sure we'll be able to get a response from 
Ford. We'll follow up on that and we've got staff shaking their 
heads yes.
    Let me go to another issue that I raised in other 
questions, and it deals with this whole standards requirement; 
and again I will go back to an issue--again, you were not CEO 
at the time we worked through the TREAD Act. I did raise the 
nylon cap issue then and I just raise it now, really as a point 
of discussion.
    In a Time magazine article of September 2000 they--their 
basic premise of the article stated that with the advent of 
increased highway speeds, it may now be time to revisit nylon 
caps as vehicles get heavier, as heat and aspects--what is your 
position on the nylon cap, and is it or is it not needed. And 
why--do you produce tires with a nylon cap and why do you 
produce some for one type of vehicle and not for other types of 
vehicles?
    Mr. Lampe. Again, at the risk that I'm not a tire expert or 
engineer; but I've worked with the company for 27 years, so let 
me try to answer that to the best of my ability.
    We do make some tires with nylon caps. Nylon cap ply strips 
are used for high-speed applications. They were originally, to 
my understanding, developed in Europe for the autobahn. We have 
done a lot of tests, and they do improve the high-speed 
capability of tires. And the higher speed that you go, the 
higher speed rating you go on a tire, the more likely you are 
to find cap strips and cap plies.
    We have also done tests that would indicate that cap strips 
and cap plies have no noticeable effect on a tire, with a tire 
separation, getting a separation or having a separation occur. 
They're more to hold the tread in place at very, very high 
speeds.
    I think there are millions and millions and millions of 
tires on the American road today, hundreds of millions that 
don't have nylon strips, nylon cap plies, and they function and 
operate just fine. If we were ever to go to a system, perhaps, 
God forbid, like in Germany with no speed limit, then certainly 
they would be required much, much more than today.
    Mr. Shimkus. In a follow-up to comments and questions with 
Mr. Nasser--and I am sure we'll get better information after 
everybody's sorted through the transcript--it was our 
understanding that Ford did move to push nylon caps for 
Venezuela and Saudi Arabia, on their tires being sold in those 
locations. We didn't get a definitive answer from Ford whether 
that was true.
    Do you have any information on that?
    Mr. Lampe. I believe, sir, that today the competitive tire 
they're using in Venezuela does have a nylon cap ply or a nylon 
cap strip. It is also my understanding that the speeds in Saudi 
Arabia and Venezuela, both, are extremely high. People 
routinely drive 100 miles an hour. So those two areas might 
very well justify cap plies or cap strips.
    Mr. Shimkus. Thank you.
    Mr. Chairman, I yield back.
    Mr. Greenwood. The Chair thanks the gentleman and 
recognizes for 5 minutes the gentleman, Mr. Stupak.
    Mr. Stupak. Thank you, Mr. Chairman.
    Mr. Lampe, at the September 5th hearing, I asked Mr. Ono, 
who was then representing Firestone, whether they would join us 
in calling for and cooperating in a blue ribbon, independent 
panel to perform review on all the AT, ATX Wilderness tires, 
and determine the cause, and propose solutions.
    Is Firestone still committed to a blue ribbon, independent 
committee?
    Mr. Lampe. We were committed then, Congressman. As long as 
it looks at both the vehicle and the tire interaction with the 
vehicle, we would certainly join with that committee.
    Mr. Stupak. I think that's a problem. Shouldn't we let the 
committee decide what it should look at if it's truly going to 
be independent?
    Mr. Lampe. Mr. Stupak, we strongly believe that you've got 
to look at the tire-vehicle interaction, because one doesn't 
make sense of the study itself.
    Mr. Stupak. But then we get results like you have with the 
Guenther report, where you have completely the same results 
based on scientific study, but we get two different 
organizations here advocating two different results of the same 
scientific study.
    So shouldn't you really let an independent panel determine 
what it should look at and what it should not look at?
    Mr. Lampe. Congressman, I would agree that an independent 
panel certainly gives a he-said/she-said, removed type of 
report; but again, I would strongly encourage that panel, if 
they want to understand what is happening in the field today, 
to look at the tire and the vehicle and the interaction between 
those two.
    Mr. Stupak. In the earlier testimony, they talked about--I 
guess they called it the field data tests that Ford did about 
the--they put the hundred, I am sorry, 1,083 separations with 
the Firestone and two separations with Goodyear tires on their 
vehicles. Roughly 3 million Goodyear tires were tested and 3 
million Firestone tires were tested.
    Do you remember that testimony?
    Mr. Lampe. Yes, I do.
    Mr. Stupak. And you got a copy of that report?
    Mr. Lampe. I don't know if we did or not, Congressman.
    Mr. Stupak. Okay. According to Mr. Nasser, you received it, 
the committee received it, and NHTSA received it.
    Mr. Lampe. That's fine.
    Mr. Stupak. How do you explain that, when you do 3 million 
Goodyear and 3 million Firestones?
    Mr. Lampe. It's very interesting. You say that this same 
committee back last year got a document, you refer to it as 
Document 54.
    Mr. Stupak. No, no, let's stick with this document.
    Mr. Lampe. What I am trying to explain is, Document 54 
showed that Ford had received 10 complaints about Goodyear 
separation----
    Mr. Stupak. See, that's not my question.
    Mr. Lampe. [continuing] and now they're saying two.
    Mr. Stupak. I want to ask the questions.
    Mr. Lampe. I am sorry. I misunderstood.
    Mr. Stupak. You are only going to interpret what you want 
to interpret.
    I'm asking specifically about this one, not Document 54, 
but this study here about the 3 million Goodyear tires and 3 
million Firestone; any idea how you get the differences? If you 
don't, you don't.
    Mr. Lampe. I don't know how Goodyear classifies claims, 
Congressman, and I can't explain the number ``2'' that is shown 
for Goodyear, when we talked about 10 already last year.
    No, I cannot explain it.
    Mr. Stupak. All right. But you would agree with me would 
you not, that without tire separation, we don't have to worry 
about understeering and oversteering on the vehicle?
    Mr. Lampe. No. I would not agree with you, Congressman, on 
that.
    Mr. Stupak. Okay. Well, what else? Do you have to worry 
about understeering and oversteering without losing control?
    Mr. Lampe. It's my understanding that any type of ride 
disturbance, such as a tread separation, could possibly induce 
the same characteristic and same need for understeer versus 
oversteer in a vehicle.
    Mr. Stupak. Okay, other than tread separation, what else do 
you get in an oversteer or understeer situation?
    Mr. Lampe. I don't know, Congressman. I would think there 
are a number of things that could happen to the rear of the 
vehicle that would induce the same sort of situation, but 
again, I am not a vehicle dynamics expert.
    Mr. Stupak. In this whole situation here on some of the 
charts that have been up here, I think there was a yellow chart 
your assistant there has been putting up there. I think it is 
Attachment No. 3 in your testimony.
    You talk about tread separations as sort of a common 
occurrence with vehicles; is that correct?
    Mr. Lampe. No, I wouldn't characterize it, and I think I 
previously said I would not characterize it as a common 
occurrence. Tread separation is a very rare event considering 
the millions and millions and millions of tires that are made.
    Mr. Stupak. Okay. Very rare event?
    Mr. Lampe. Yes, sir.
    Mr. Stupak. We have more blowouts than we do of tire 
separations?
    Mr. Lampe. No. Again, in my opinion, Congressman, and 
Goodyear backs that up, tire separations are the most common-
type tire failure.
    Mr. Stupak. How many tire separations do we have each year 
in this country; do you have any idea?
    Mr. Lampe. No idea, Congressman.
    Mr. Stupak. Of all these rollovers, do you know how many 
are not tire separations?
    Mr. Lampe. All I can tell the Congressman is that the FARS 
data, Federal Fatal Accident Reporting Systems data, from 1990 
to 1999 on the Ford Explorer single vehicle rollover accidents, 
6 percent of those accidents alleged a tire involvement. There 
were 94 percent of those rollover accidents that did not have 
any tire-related factor to them.
    Mr. Stupak. Okay. The Explorer--and you have a chart up 
there about the gross vehicle weight and the changes by year 
and tire pressure and load, you said, are--well, weight are 
very critical. When you have a tire separation, your vehicle 
weight will shift, will it not; the critical mass of a vehicle 
will then change?
    Mr. Lampe. I don't know that to be a fact, sir. And I did 
not see that in Dr. Guenther's report. I can't say that it does 
or doesn't. I am sorry. I can find out for you.
    Mr. Greenwood. The time of the gentleman has expired.
    Mr. Lampe. Would you like for me to find out about that, 
Congressman Stupak.
    Mr. Stupak. Sure. I'd appreciate it. Thank you.
    Mr. Greenwood. The Chair thanks the gentleman and 
recognizes the gentleman from Michigan, Mr. Upton, for 5 
minutes.
    Mr. Upton. Thank you, Mr. Chairman.
    And, Mr. Lampe, I appreciate your remarks in support of the 
TREAD Act, which was signed by the President last year. Again, 
I was sorry that I was late coming back; and I was not here for 
Mr. Nasser's testimony.
    But in reading it, he said this and I quote from page 2:
    ``our tire team worked closely with NHTSA every step of the 
way. We also shared our data and analysis with Firestone--Dr. 
Sanjay Govindjee, who conducted an independent investigation at 
Firestone's request.''
    He goes on to say, ``And we did detailed engineering 
analysis of failed tires to give us an understanding of real-
world failure mechanisms. Our findings prove consistent with 
the findings of Dr. Govindjee,'' and goes on to say, 
``Firestone's Wilderness reached the following conclusions, 
Firestone Wilderness AT tires experience higher rates of tread 
separations than other tires, including the Goodyear tires used 
on the Explorer.''
    Now what is interesting to me as I read that testimony is 
then to look at today's Wall Street Journal when it says 
``Sanjay Govindjee,'' the same individual, ``an expert hired by 
Bridgestone/Firestone,'' then it goes on here to say, ``a unit 
of Japan's Bridgestone/Firestone Corp. last year to report on 
the root cause of more than 2,100 tread tires used on previous-
generation Ford Explorers, said yesterday that the tire company 
officials didn't provide him with certain data that he 
requested during his inquiry. Dr. Govindjee, a professor of 
civil engineering at University of California, Berkeley, said 
he wasn't shown criteria information last year about changes 
made to a critical component of Wilderness AT and ATX tires.''
    Further, it goes on to say, ``I am a little perplexed as to 
why I wasn't shown certain data about the wedge change. 
Clearly, the wedge is important in tread separations. The thing 
that's unanswered is how important is that change that they 
made.''
    Comment.
    Mr. Lampe. Not exactly sure what information Dr. 
Govindjee's referring to. We gave him tons of information. We 
talked about the wedge change here.
    Mr. Upton. He was your guy, right?
    Mr. Lampe. We hired him as an independent third party 
investigator, Congressman, to be exactly that, completely 
independent. We gave him tons of data. If there is something we 
didn't give him?
    Mr. Upton. Because Ford says, Nasser said in his statement, 
their conclusion was with him, the guy you hired.
    Mr. Lampe. And Dr. Govindjee's conclusion was consistent 
with ours, our root cause analysis. We have no difference 
with--differences with Dr. Govindjee; his findings confirmed 
our root cause analysis on the recalled population of tires. 
That's what his mission was.
    But if there is anything that Dr. Govindjee didn't get that 
he feels he needs, we'll be sure he gets that.
    Mr. Upton. One of the frustrations I think Chairman Tauzin 
mentioned in his question, is, we do want to get to the bottom 
of this. We want an independent party who can tell us who's 
right and who's wrong, and get the bad tires off if, in fact, 
they are.
    I'll bet you have seen this Ford document they think they 
provided to all of their dealers of the tire replacement 
program. In it, it says, ``Once the Wilderness AT tires reach 3 
years old, the failure rate increases considerably''--the tires 
they brought up on the dias a little bit earlier were 3 years 
old, by the way--laboratory and vehicle testing by Ford shows 
that tire design variations and physical characteristics of the 
Wilderness AT tires makes them less durable than comparable 
tires from other manufacturers. Information shared by NHTSA 
shows that failure rates for actual road performance for many 
of the Wilderness AT tires were measurably worse than 
comparable tires from other manufacturers, and data recently 
received from Firestone shows that failure tests had increased 
significantly for some of the Wilderness AT tires. Because Ford 
does not have sufficient confidence in the future performance 
of these tires as they age, we're acting now.''
    That's their document that they have provided to all their 
dealers.
    Now, one of the arguments in support of the TREAD Act, 
which passed without dissent last year, was the provision that 
we included involving criminal sanctions, and the whole idea 
was to say that when a manufacturer or someone involved in the 
sale of automotive product was aware that that product was 
going to lead to serious injury or death that they would come 
forward to NHTSA and act before those deaths and injuries 
happen.
    Tires that I have here I think perhaps would have led to 
serious death or injury a little bit earlier and it shows that 
the sanctions we put in there work, the idea worked. Rather 
than going back after the fact, after the accident, we had it 
before. And based on the evidence that Ford is showing us with 
this and the comments made earlier, I think that they knew 
that, in fact, those tires were going be unsafe, they were 
going to lead to serious injury; and to make sure that they 
were not only protecting their customers, but they knew that 
they would probably be subject to criminal prosecution, they 
decided to submit that data and make that decision before NHTSA 
came up with their final conclusion.
    Mr. Lampe. And I don't agree with their conclusion at all.
    Our tires are safe. Our tires are performing well on the 
roads.
    Mr. Upton. I don't know all that many people personally 
that have an Explorer. The ones that I do have had trouble with 
their tires, all of them, 100 percent.
    Mr. Lampe. I would very much like to have our engineers 
look at the tires that you brought in today, Congressman. I'd 
like to see what is----
    Mr. Upton. And three--by the way, three of the four tires 
that that individual had had that same type of early tread 
separation.
    Mr. Lampe. I'd certainly like to have those tires examined 
and if you would work with us on that, I'll get you the 
findings back.
    Mr. Upton. Last--I know my time is expiring--if we can get 
as part of the record, I don't know or not, Dr. Sanjay's report 
to you all, in terms of what he submitted, we'd appreciate that 
for the record.
    Mr. Lampe. I believe that Dr. Govindjee's report has been 
provided to the committee. If not, Congressman Upton, we'll 
certainly do that.
    Mr. Upton. Thank you. I yield back.
    Mr. Greenwood. The staff informs me that we have that 
document, and we will make it available to the gentleman from 
Michigan.
    The Chair recognizes the gentleman from Pennsylvania, Mr. 
Doyle.
    Mr. Doyle. Thank you, Mr. Chairman. I just have one 
question, and it's really a follow-up to something Mr. Stupak 
was talking to, too, because it's very, very frustrating, the 
issue of trying to sort through all the claims and 
counterclaims.
    But as I was reading through Ford testimony, they point to 
this one example of what they claim is the only apples-to-
apples comparison, and I think you alluded to it earlier, Mr. 
Lampe, in your testimony when you said, in the period 1995 to 
1997, because of some labor unrest or something, that Ford had 
taken some of the pressure off of Firestone by introducing some 
Goodyear tires into their line; but that it was sort of a way 
of taking the pressure off of supply. So that during those 3 
years, 1995 to 1997, ``we were equipping the Ford Explorer with 
Goodyear and Firestone tires.''
    And their claim is that roughly 3 million Firestone tires 
were equipped on about 500,000 Explorers; and that your own 
claims data base shows that there were 1,183 claims of tread 
separation and that there were also about 3 million Goodyear 
tires on another 500,000 Explorers that traveled more than 25 
billion miles and that their data base shows only two minor 
claims of tread separation. And I guess the question, or the 
point they're making, is that if the car was the issue, if the 
Explorer was the cause of the tread separation, or at least a 
contributing factor to it, wouldn't there be more of--you know, 
wouldn't these two be more in the same ball park.
    The Firestone AT tires on the Explorers had 600 times more 
tread separation claims than the Goodyear, and you would think, 
if the car was the culprit, that they'd be a little bit more in 
the ball park, the Goodyear and the Firestone tires; and I'm 
just wondering how you square that, because it seems to me to 
be the only apples-to-apples data we have here.
    Mr. Lampe. And just two comments, Congressman. Once again, 
that information is based on claims data, and I really don't--I 
don't have access to the Goodyear data and I don't know how 
they identify, how they, what their definition of ``claims'' 
is, if it's the same definition that we've got. Because nobody 
ever used ``claims'' up until 8 months ago. So I don't know 
that it is an apples-to-apples comparison.
    But if you look at our tire, that tire you were talking 
about that had those separations--which, by the way, the vast 
majority of those separations you're talking to are tires that 
we've replaced, that we've recalled.
    But if you look at that exact same tire we make today and 
put it on the Ranger, you have 800 percent less amount of 
claims than you do on the Explorer.
    Mr. Doyle. So what you're saying is that Goodyear doesn't 
report tire separations the same way you do, or there's no 
standard way of reporting?
    Mr. Lampe. I'm saying I don't know how they report. 
Claims--we have never used claims as a performance indicator up 
until August of last year, July and August. We always used 
adjustments, warning adjustments. So this claim is a whole new 
classification, if you will, of tires. We had to define the 
classification for us in order to give the information to 
NHTSA.
    I do not know if Goodyear has the same definition of 
``claims.'' I don't know, maybe they say anything over $500 is 
a ``claim,'' anything less is just an ``adjustment.''
    So I don't know that we can compare those unless I can see 
exactly the Goodyear information.
    Mr. Doyle. So you're saying that it's conceivable that 
there could have been 1,000 tread separations with Goodyear 
tires, and if the damage was under $500, they may not have 
reported it?
    Mr. Lampe. I think that's kind of stretching it. I'm not 
trying to get you to believe that. I am just saying that I 
don't know what an accurate number would be for Goodyear unless 
I knew for sure that it was defined exactly the same, 
Congressman.
    Mr. Doyle. Let me ask you one final question. If the car 
was the culprit, would you expect that the tire separation 
rates would be roughly equal between the two tires?
    Mr. Lampe. If the Explorer inflation and load factors were 
the same, I would--I would think that the--the effect would be 
the same on the tires.
    Mr. Doyle. It would be interesting to see how Goodyear does 
their claims. Thank you.
    Mr. Dingell. Would the gentleman yield?
    Mr. Doyle. Yes, I would.
    Mr. Dingell. When Ford orders, or rather commences, 
negotiation with you about purchasing tires to be put on its 
Explorer, it gives you essentially a series of performance 
specifications; does it not?
    Mr. Lampe. Yes, I believe that's a term I used.
    Mr. Dingell. It says the tires are supposed to do these 
things and these are the characteristics of the vehicle; isn't 
that right?
    Mr. Lampe. Yes.
    Mr. Dingell. And this is how the vehicle will be used. So 
Ford has given you then performance specifications on both the 
Explorer and on the Ranger; is that right?
    Mr. Lampe. That's not entirely true, sir. They specify--
they specified exactly the same tire to be used on the Explorer 
and the Ranger; the exact, exact same tire is put on the 
Ranger. We ship them to Ford they put some on Ranger, some on 
Explorer.
    Mr. Greenwood. The time of the gentleman has expired.
    Mr. Dingell. Could I ask unanimous consent, because I think 
it is a very important point.
    Mr. Greenwood. Does the gentleman ask unanimous consent 
that the gentleman from Pennsylvania be given an additional 1 
minute?
    Mr. Doyle. Yes.
    Mr. Greenwood. Without objection.
    Mr. Doyle. And I yield to my chairman.
    Mr. Dingell. Doesn't Ford give you specification for both 
the Ranger and the Explorer, and you then manufacture a tire to 
suit those?
    Mr. Lampe. Congressman Dingell, it's my understanding that 
Ford gave us one specification.
    Mr. Dingell. For the two?
    Mr. Lampe. To be used for the Ranger and the Ford Explorer; 
it's exactly the same tire.
    Mr. Dingell. Don't the specifications design the weight, 
speed, the carrying capacity, turning torque?
    Mr. Lampe. Ford designs the specifications. They gave us 
one specification for the same tire to be used on the Ranger as 
is used on the Explorer. They--in fact, that tire, when we ship 
it to Ford, it doesn't know what vehicle it is going to go on. 
It arrives at Ford and they put some on Rangers and some on the 
Explorers--doesn't make any difference.
    Mr. Dingell. Why are they failing then on Explorers and not 
failing on Rangers?
    Mr. Lampe. Thank you, Congressman. That was my point 
exactly.
    Mr. Dingell. But why?
    Mr. Lampe. I think you have to look at the vehicle. The 
difference is the vehicle. The tire's exactly the same; the 
difference is the vehicle.
    Mr. Dingell. Well, are you telling me you're not making a 
tire that suits the Ford Explorer and does suit the Ranger.
    Mr. Lampe. I am telling you I--we're making the tire that 
was requested by Ford, that was specified by Ford.
    Mr. Greenwood. The time of the gentleman has expired.
    Mr. Dingell. The Ranger's a pick-up truck; is it not?
    Mr. Lampe. The Ranger is a pick-up truck.
    Mr. Dingell. And the Explorer is an SUV?
    Mr. Lampe. Ford Explorer is an SUV, yes.
    Mr. Greenwood. The time of the gentleman has expired.
    The Chair recognizes the gentleman from Florida, Mr. 
Bilirakis, for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman. I want to apologize 
to you and the committee; I have a great big, bad Superfund 
site not only in my District, but in my hometown; and we had 
public meetings last night and this morning, and I had to be 
down there for those because they were planned long in advance 
of this hearing.
    Mr. Lampe, even before I heard some of the questions that 
were asked of you--and I obviously did not hear your opening 
testimony--I felt that before we could ever get to the bottom, 
if we ever will, of what has happened here, that certainly the 
interaction of the tire and the vehicle has to be considered. 
And I think that we're just barking up the wrong tree if we 
don't do that.
    This is not to insinuate anything at all, but it's just 
that we've got to look at both of those, I think.
    I did note in your testimony--pretty profound statement, 
your written statement--and you said the odds of having a fatal 
accident in a Ford Explorer are three times greater than in any 
other midsize SUVs.
    Mr. Lampe. And I believe you referring to Florida, we 
looked at two different data bases Congressman. We looked at 
the Florida test crash or the Florida crash data base and the 
Texas crash data base and that statement came from one of those 
data bases yes, sir.
    Mr. Bilirakis. Well, now, how did you come to the belief 
that the odds are three times greater?
    Mr. Lampe. The data base will show you single vehicle 
accidents, single vehicle rollovers of the Explorer, and then 
it will show you all the other SUVs and it will show you if it 
was tire-related or not tire-related. That all comes from 
Florida's data base, and we simply then had statistical methods 
applied to that data base to determine the odds of one versus 
the other.
    Mr. Bilirakis. Well, you say it would tell you whether it 
was tire-related or not. In other words, I mean, is the fact 
that there are three times more fatal accidents in a Ford 
Explorer than in other midsize SUV--is that a fact regardless 
of whether it involves tires, regardless of whether it involves 
seatbelts, regardless of any other factor? Is that right; is 
that what your testimony is?
    Mr. Lampe. In the written, that comes directly from the 
Florida data base, yes.
    Mr. Bilirakis. So that's a black and white figure?
    Mr. Lampe. Straight from the data, sir, it's my 
understanding.
    Mr. Bilirakis. Straight from the data.
    Well, a general question, sir. It seems that there's, there 
were a large number of claims in this country, problems 
overseas, with these tires, your tires, dating back to 1997. 
And this is certainly a question that I think has to be asked 
of the next panel, Mr. Jackson, but I would ask you, why is it 
that something more was not done prior to, let's say, last 
summer, July, the middle of last year in terms of examining 
relevant data base bases?
    What I'm trying to get to here is, you know, after the 
fact, which is what we're doing here, after the fact, I realize 
there might still be some accidents--isolated accidents taking 
place after out there. But after the fact, I mean, does it--
maybe you get to the problem, you try to solve the problem, but 
in the meantime, an awful lot of terrible things have happened.
    So could you, could Ford, could or should the government 
have gotten more involved in trying to prevent all of these 
things that took place after--once--you know, it's been a year-
and-a-half now that we have known the problems were developing, 
claims have been--were being filed.
    Mr. Lampe. And you're referring, Congressman, to the events 
leading up to last August recall announcement?
    Mr. Bilirakis. I'm referring to--I'm referring to claims 
regarding these tires that went back to 1997.
    Mr. Lampe. Leading up to August?
    Mr. Bilirakis. Yeah, leading up to it exactly.
    Mr. Lampe. And we did an awful lot of work, and we did a 
lot together with Ford. Ford alerted us of a situation in Saudi 
Arabia. We went over there with a team of engineers and, 
together with Ford, went out and examined a lot of tires.
    The conditions in Saudi Arabia are very extreme, 
Congressman. We covered those last year when we talked. Already 
very, very flat loads, very high speeds. In many cases they 
will go off the highways onto the sand, deflate their tires 
because it gives them more flotation. Then they come back on 
the highways and there isn't any place to reinflate their tires 
so they travel long distances with very severely underloaded 
tires.
    We looked at the tire. There was not a tire problem. Ford 
agreed with us it wasn't a tire problem. And the same situation 
happened in Venezuela.
    We have talked a lot about claims today. And it wasn't 
until we actually started looking at the claims data that we 
had never looked at before as an performance indicator, and 
NHTSA and other tire companies had not looked at it, that we 
saw an overrepresentation of tires that were produced in one 
design called the ATX, and in one size; and then another one 
size in the Wilderness tire that was produced in Decatur. And 
then that drove us to take our action.
    But we took very, very prompt action. When we had this 
claims data and could see this overrepresentation, we didn't 
mess around at all. We--it was within a week that we were up 
here and announced a voluntary recall.
    Mr. Bilirakis. Thank you.
    Mr. Greenwood. The time of the gentleman has expired.
    The Chair recognizes the gentleman, Mr. Sawyer, for 5 
minutes.
    Mr. Sawyer. Thank you, Mr. Chairman.
    Just a couple of observations with the questions. 
``oversteer'' and ``understeer'' are measures of vehicle 
dynamics, and they represent the loss of adhesion at the front 
or the rear of the car, and they occur all the time. It occurs 
in the rain, it occurs on ice, and it really represents simply 
a loss of the full measure of adhesion.
    The point is that the whole question of testing protocols, 
it seems to me, needs to be revisited. It's the sort of thing I 
want to ask NHTSA, but Dr. Guenther's dynamic vehicle testing, 
if there was as much of a difference in the G forces that were 
applied to the tire between the tests that were done by Ford 
and the ones that were done by Firestone, that's not a 
consistent testing. That's not scientifically consistent. 
That's huge difference. Would you agree?
    Mr. Lampe. Again, Dr. Guenther's testing, Congressman 
Sawyer, was done at what he calls the linear range, which is at 
the speeds that we drive at. His analysis of the Ford testing 
was done at a range that nobody ever achieves. You can't 
achieve it; therefore, nobody's going to do well at that range.
    I think they need to be consistent, yes.
    Mr. Sawyer. Who needs to put those kinds of testing 
protocols in place? Is SAE an appropriate body to turn to?
    Mr. Lampe. I don't know if it's SAE or NHTSA. It's 
certainly a--I agree with you, it should be a third party, an 
independent third party, Congressman.
    You have brought up an excellent point, the oversteer--
understeer to oversteer that's caused by tread separation. Even 
Ford's own expert said that at normal highway speeds, the 
effect of a tread separation on the vehicle is nothing more 
than a gust of wind or running through a puddle of water. So we 
are not talking about a catastrophic loss of adhesion.
    Mr. Sawyer. That's my point exactly. You spoke of a 
product, of the lasting effect of overheating as being damage 
to a tire, so that the internal temperature of a tire didn't 
cause a risk of separation. You used the term ``damage.'' is 
that damage abiding; even once the tire temperature is returned 
to normal, has damage been done that lives on in the life of 
that tire for the rest of its life?
    Mr. Lampe. Any type of high generation of heat, such as 
underinflation, overload, tremendously high speeds, anything 
that creates excessive heat can do lasting damage to a tire.
    Mr. Sawyer. In that sense, when we talk about warning 
systems on pressure that we've been talking about for a year 
now, how critical is the margin of error? That is to say, if, 
in fact, 26 pounds per square inch were specified and there was 
a 20 percent margin for error, you're actually talking about 
potentially being down below 21 pounds. How critical does that 
become in terms of the overall life of the tire and the risk of 
separation at a later date?
    Mr. Lampe. Twenty percent underinflation is very, very 
critical, and it's not something that you can--you can't run a 
tire 20 percent underinflated for 2 months and air it back up 
and think that you have corrected the problem, because the 
damage exists and it's going to stay there.
    Mr. Sawyer. Let me ask you then about a second point of 
early warning. We're beginning to talk about claims data. My 
understanding is that you have recently returned to a standard 
for what is--what are claims data grounded in virtually any 
loss above the cost of the tire itself.
    Am I correct about that?
    Mr. Lampe. I am not sure. I did hear that just the other 
day. I don't know if that's something new to meet the 
requirements of the TREAD Act, but I can't disagree with that.
    Mr. Sawyer. My understanding is that Goodyear does 
essentially the same thing.
    Mr. Lampe. Okay.
    Mr. Sawyer. How critical is that kind of comparability and 
should we ask NHTSA to build that kind of comparability into 
the standards that we ask them to promulgate?
    Mr. Lampe. Yes, any time we are going to be in the future 
using comparisons and this type of data, we should have 
comparability in how we classify adjustments, how we classify 
and claims. It should be consistent.
    Mr. Sawyer. You mentioned earlier, but I would just like to 
reemphasize that you talked about continuous improvement and 
the effect that reporting protocols back and forth among 
companies ought to have. That 400 to 600 pounds is significant 
from your point of view, that a suspension change can be 
significant. Would you agree that tire design could be equally 
as significant?
    Mr. Lampe. Yes, a significant change in tire design that 
could affect the performance of the tire, I would consider that 
significant.
    Mr. Sawyer. One final question. Should we ask NHTSA to be 
the clearinghouse for that exchange of information, or should 
we simply require the companies to share that back and forth?
    Mr. Lampe. No, I believe we should require the companies to 
share it back and forth because I think it is in our own best 
mutual interest.
    Mr. Sawyer. Should NHTSA have a role in that?
    Mr. Lampe. I wouldn't be against NHTSA having a role, 
Congressman Sawyer, but I don't know that that role would be 
necessary, but I certainly wouldn't be against it. If it would 
help the situation, then yes, I am all for it. Anything that 
makes it better.
    Mr. Sawyer. Thank you, Mr. Chairman.
    Mr. Greenwood. The Chair thanks the gentleman. Mr. Lampe, I 
think all of the members of the panel have queried you, which 
means you are excused. We thank you very much for your patience 
and for your testimony for being with us this afternoon.
    Mr. Lampe. Thank you very much for the questions and the 
very courteous treatment that I received today.
    Mr. Stupak. Mr. Chairman, may we be allowed to follow up 
with written questions?
    Mr. Greenwood. Certainly.
    Mr. Stupak. I thought we were going to go a second round.
    Mr. Greenwood. If the gentleman has questions that he would 
like the committee to officially pose in writing, we can do 
that.
    Mr. Lampe. Congressman, could I make one change? I believe 
Congressman Bilirakis was talking about some test data, and 
maybe I misspoke, and I want to just get the record correct.
    I believe he was looking at the Florida tire-related data 
base. If I misspoke and said Texas, I would like to change that 
to Florida.
    Mr. Greenwood. The Chair thanks the gentleman for 
clarification and again for his testimony----
    Mr. Lampe. Thank you very much.
    Mr. Greenwood. [continuing] and calls forward our third and 
final panel consisting of the Honorable Michael Jackson, Deputy 
Secretary, accompanied by Mr. Robert Shelton, Executive 
Director and Mr. Kenneth Weinstein associate administrator for 
safety assurance for the National Highway Traffic Safety 
Administration, Department of Transportation.
    Gentlemen, thank you for waiting so patiently to be with us 
You are aware that the committee is holding an investigative 
hearing, and when doing so, we've had the practice in the past 
of taking testimony under oath. Do any of you have any 
objections to giving testimony under oath?
    The Chair then advises you that under the rules of the 
House and rules of the committee, you are entitled to be 
advised by counsel. Do you desire to be advised by counsel 
during your testimony today?
    In that case, if you will raise your right hand, I will 
give you the oath. Do you swear that the testimony you are 
about to give is the truth the whole truth and nothing but the 
truth? So saying, you are under oath. And please be seated.
    [Witnesses sworn.]
    Mr. Greenwood. Mr. Jackson, you are going to present the 
opening statement, are you?
    Mr. Jackson. Yes, sir, I am, Mr. Chairman.
    Mr. Greenwood. Welcome again and please proceed.

    TESTIMONY OF HON. MICHAEL P. JACKSON, DEPUTY SECRETARY, 
 DEPARTMENT OF TRANSPORTATION, ACCOMPANIED BY ROBERT SHELTON, 
     EXECUTIVE DIRECTOR, AND KENNETH WEINSTEIN, ASSOCIATE 
 ADMINISTRATOR FOR SAFETY ASSURANCE, NATIONAL HIGHWAY TRAFFIC 
                     SAFETY ADMINISTRATION

    Mr. Jackson. Thank you. Mr. Chairman, and members of the 
subcommittee, I am pleased to appear before you this afternoon 
and wish to thank the subcommittee. Thank you, Chairman Stearns 
and Greenwood, subcommittee ranking members Towns and Deutsch, 
full committee Chairman Tauzin and Ranking Member Dingell.
    With me I have NHTSA's executive director Robert Shelton on 
my left and Associate Administrator for Safety Assurance, Ken 
Weinstein on my right.
    Mr. Chairman, this hearing addresses a series of safety 
issues that are of the very highest concern. Everyone who has 
spoken today has underscored that, but I would be remiss by not 
observing the same point and telling you how seriously we take 
this inquiry and this responsibility NHTSA has.
    The Department of Transportation's investigation of 
Firestone tires was set in motion by tragic events, and loss of 
life. All the parties appearing before you here today honor the 
memory of those individuals by doing our best to take 
responsible action.
    On behalf of Secretary Mineta and myself, and the 
Department, I want to assure you that DOT is pursuing these 
matters systematically, objectively, and thoroughly.
    Like you, we are also animated by a focused sense of 
urgency and a vigorous resolve to protect the public interest, 
to protect the consumers's rights. We have heard today about 
the consumers being trapped in the middle, and, Mr. Chairman, 
we wish to be bound right to that interest--right in the 
middle--to provide you objective, impartial assessments. That 
is what this committee needs, that is what the American public 
needs, and that is what this agency was commissioned to do.
    We worked closely with both Ford and Firestone to share 
information to gather facts about these complex matters. We 
have also consulted with experts throughout the field. We have 
in our testing commissioned independent scientific labs to do 
work for us, which I will describe later. So we have brought 
into our own analysis a substantial amount of the type of blue 
ribbon expertise that you could find in the country to examine 
these issues.
    As we gain additional information and are able to draw firm 
conclusions from our ongoing research, we are going to follow 
this where the facts lead us. We are going to let all the chips 
fall where they may.
    We want to thank the committee, particularly, for your 
strong support and counsel as we progress. In particular, I 
want to express our gratitude for the tools, the assistance, 
and the resources that you have given us in the TREAD Act. 
Frankly, this is a significant enhancement of the tools that we 
have to work in this arena, and we are very grateful for the 
improvements you have given us to work in this area.
    After my confirmation by the Senate last month, I read the 
TREAD Act in its entirety. I have studied it. We have had good 
conversations to try to get this new Deputy Secretary up to 
speed on it. But I confess, I often have been impatient at the 
Department of Transportation about the pace of our regulatory 
work. We move too slowly too often. But I am pleased to report 
to you today that we are moving in an area where we have some 
very tough deadlines for TREAD Act regulatory work. We are on 
deadline. We are doing the job that we had set out before us 
and I am pleased to report that things are moving just as 
planned by the Congress.
    And we will keep you advised about our progress in a 
detailed way as we move forward. This includes regulations 
regarding tire performance standards, tire pressure warning, 
early warning reporting requirements, rollover testing and 
child restraint improvements. We will continue to monitor this 
carefully and, as I said, I will keep you advised about our 
progress.
    I am pleased to also tell you that yesterday, President 
Bush announced his intention to nominate an outstanding 
physician, Dr. Jeff Runge, to head this agency. While Secretary 
Mineta and myself will continue to be actively involved, Dr. 
Runge, if confirmed by the Senate, will have primary 
responsibility for running the agency. I want to tell you that, 
in the absence of a new administrator, we have a tremendous 
amount of confidence in the NHTSA professional team, two of 
whom are represented here with me today, to move this forward.
    We have not been sitting on our hands at this department 
waiting for a new administrator. We have been moving fast.
    The remainder of my testimony will address two topics. 
First, NHTSA's ongoing investigation into certain Firestone 
tires; and second, the question of whether and to what extent 
NHTSA should review tire-vehicle interface issues, including 
the data commissioned by Firestone regarding understeer and 
oversteer characteristics of the Ford Explorer.
    Sir, if I may, the first topic will be our investigation of 
Firestone tires. As this committee is aware, NHTSA opened its 
formal defect investigation of over 50 million Firestone ATX, 
ATX II, and Wilderness tires in May 2000, after the receipt of 
a series of complaints concerning those tires.
    With implementation of the TREAD Act, we have a far better 
early warning system to identify these defects. NHTSA now 
anticipates that we will complete the current testing program 
for these tires at the end of next week. And by roughly this 
time next month, we will be able to report publicly on our 
conclusions about this important assessment.
    Since NHTSA's investigation was launched, there have been 
two separate actions which will lead to replacement of more 
than half of the tires we have discussed here today, the 
original recall last summer and the May announcement by Ford of 
its tire replacement program.
    I want to say that the Department applauds Ford for its 
strong commitment to safety and its efforts to retain the 
confidence of its customers. But I want to be clear too that 
NHTSA has not yet completed its investigation, nor have we made 
formal recommendations or a determination of the necessity for 
further recall.
    Ford's decision does not, in other words, render our 
ongoing investigation moot. NHTSA's role under the Vehicle 
Safety Act is to decide whether any of the tires under 
investigation contain a defect that relates to motor vehicle 
safety. Some of the tires were installed as original equipment 
on non-Ford vehicles and are beyond the scope of Ford's 
replacement program. Other tires have been used as a 
replacement tire on non-Ford vehicles. It is thus important 
that NHTSA complete its review, its investigation.
    NHTSA's Firestone investigation is unprecedented in its 
scope and in the tools that we are using in the conduct of this 
analysis. The agency has examined literally hundreds of tires 
from the field and is employing numerous state-of-the-art 
techniques to analyze them. I have outlined in my formal 
presentation the types and techniques and tools that we are 
using: Shearography, sectioning, adhesion testing, rig testing 
on drums, chemical analysis and other internal testing. And to 
do this we have recruited the best experts we can find and are 
using some of the Nation's most complex laboratory assets to do 
this work.
    NHTSA has requested and received information in addition 
from six other tire companies to allow the agency to perform 
peer comparisons. Throughout the investigation, NHTSA has 
continued to receive extensive information from both Ford and 
Firestone, and we have periodically provided both companies 
with summaries of data collected in our testing effort. We are 
grateful that both parties have cooperated so closely with this 
investigation. However, I want to emphasize that NHTSA has not 
provided either Ford or Firestone with conclusions or 
recommendations about whether a further recall will be 
necessary. When we have boxed that all up, we will provide it 
all at once and announce it publicly.
    Finally, I know that some members of this committee may be 
concerned that the NHTSA Firestone tire investigation may not 
yet have gone far enough. It is true that NHTSA's testing is 
focused primarily on a subset of the tires that are covered by 
Ford's recent replacement program. However, this is because 
NHTSA's analysis of field data has demonstrated that those 
tires have been associated with the greatest number of claims, 
crashes, injuries and fatalities compared to other tires not 
covered by Firestone's 2000 recall. This touchstone about what 
is happening in the real work that Mr. Nasser refers to is our 
touchstone in launching an investigation of this sort.
    To put this in context, and based on NHTSA's June 18th, 
2001, update of this data, the 14.4 million ATX and Wilderness 
AT tires recalled last year have been associated with 285 
crashes and 123 fatalities. The 13 million tires in Ford's 
recently announced replacement program have been associated 
with 37 crashes and 10 fatalities. The tires covered by NHTSA's 
September 1, 2001 consumer advisory have been associated with 
15 crashes and 5 fatalities, and the approximately 23 million 
remaining tires within this universe of tires has been 
associated, to date, with 8 crashes and 12 fatalities. So this 
gives you some sense of the universe of this data that we are 
looking at from the real world.
    Ford has now also provided data to NHTSA and to this 
committee about tires that are not currently being subjected to 
extensive testing by NHTSA. Again, NHTSA expects to conclude 
its testing next week. If after assessing all available data, 
NHTSA concludes that an expanded testing program is recommended 
for other Wilderness tires, it will expand the investigation of 
other tires and focus more scrutiny on those tires that such 
results might point toward.
    If I may, just at this juncture, say a word too about the 
data that has been discussed this morning about claims and of 
the replacement tires that Ford is using in its program. Mr. 
Chairman, I would commit to you that while we may not be able 
to act as expeditiously as Mr. Nasser, we too expect to be 
nimble here.
    If upon receiving this data this evening, we could look at 
it tonight and look at it a little bit in the morning, we will 
come back to you with a preliminary assessment of what we think 
we are looking at, what data we might need. If we need to have 
some conversation with other manufacturers, we will try to 
start that first thing in the morning and tell you how long we 
think it's going to take, and we will give you a quick take on 
that data and what we think it looks like.
    We would like to involve Ford and Firestone in that quick 
look as well. But we promise to be responsive to you tomorrow 
and let you know what we think the need is and how long it's 
going to take us to fill it. So we will work with you very 
quickly on that.
    Last, I would like to address the question of Firestone's 
assertions regarding the handling of Ford Explorers. In 
Chairman Tauzin's letter of June 6th to NHTSA, he urged us to 
consider whether the safety problem being investigated is 
solely a tire issue or whether it is a tire-vehicle application 
issue. I would like to offer two sets of observations about 
this very important question.
    First, NHTSA's inquiry is focused on tires because it's the 
tires that have been failing. As the committee is aware, by 
law, tires are treated differently from other items of original 
equipment. Defects in tires are to be remedied by the tire 
manufacturer rather than the vehicle manufacturer. If tires 
were treated statutorily as part of the vehicle itself, as are 
headlights or seat belts for example, the proper course of 
action would be to launch an investigation of one or more 
vehicle models and any tires that might be used as 
replacements.
    Moreover, and to be more specific, NHTSA has, to date, had 
no credible evidence that the Ford Explorer's design is in any 
way responsible for causing tread separation or other such 
catastrophic tire failure. Firestone has not, as I understood 
it, asserted this causal relationship either, and Mr. Lampe's 
testimony addressed that issue as well.
    So NHTSA has to date, therefore, conducted our 
investigation as, first and foremost, a tire investigation. If 
it appears that the safety problem is limited primarily to 
crashes involving vehicles equipped with certain Firestone 
tires, then the most immediate and the most effective remedy is 
to recall those tires.
    Second, I would like to talk just for a moment about 
NHTSA's examination of the handling characteristics of the Ford 
Explorer. As the committee is aware, Firestone commissioned a 
study to look at the handling characteristics and rollover 
propensity of Ford Explorers, and that has been discussed 
today. Firestone recently informed the Department of this and 
released the initial results from that study. Like other SUVs, 
the Ford Explorer experiences a higher rollover rate than other 
passenger cars.
    In asking NHTSA to investigate the safety of the Explorer, 
Firestone specifically said that they had not intended to 
launch a formal investigation--a formal defect petition at 
NHTSA. However, because the content of it has been structured 
in this way--as a petition--we have, at the Department, 
Secretary Mineta and myself, asked NHTSA to treat the Firestone 
petition as a formal petition and we are behaving as law and 
regulation require us to behave upon receipt of a petition 
asking us to launch a defect investigation. That is where we 
are right now.
    Consequently, at this stage, NHTSA is conducting an 
analysis to determine if a formal investigation is merited. The 
Department and NHTSA are giving this matter full consideration. 
Again, a sense of the urgency that I was trying to speak to you 
about earlier today certainly pervades our approach to this 
issue. NHTSA is reviewing the Firestone information. Already, 
we have met both with Firestone and Ford. Moreover, we met last 
week with the individual who conducted this research on behalf 
of Firestone and have had useful conversations with all of 
those parties.
    Firestone's consultant recently advised NHTSA that he would 
not be finished with the full testing regime that he is 
conducting for Firestone until the end of July. Even before 
receiving Firestone's request, the Agency had been reviewing 
field data from a variety of sources, including NHTSA's own 
data collection systems for the purposes of evaluating the 
likelihood of rollover given a tire failure for both the 
Explorer and for peer vehicles.
    Mr. Greenwood. Mr. Jackson, we turned the clock off 10 
minutes ago. If you would wrap up.
    Mr. Jackson. I'm in my last page, sir. Our goal is to 
complete this analysis of the data as quickly as possible this 
summer. We realize it is an area of enormous importance to all 
the parties involved. So I have provided now, in sum, an 
overview of what we are doing on the tire investigation as well 
as on this petition that we have received on the vehicle. 
Portions of what I said have, I know, disappointed probably 
both Firestone and Ford. We are very comfortable being in 
exactly the position that we are. We are going to do this 
professionally, systematically, but with urgency. And when we 
finish, and it won't be long, we will be back here to tell you 
exactly what we found. I'm now happy to answer any questions 
that you may have.
    [The prepared statement of Michael P. Jackson follows:]
     Prepared Statement of Michael P. Jackson, Deputy Secretary of 
                             Transportation
    Mr. Chairman and Members of the Subcommittees: I am pleased to 
appear before you today and wish to thank Subcommittee Chairmen Stearns 
and Greenwood, Subcommittee Ranking Members Towns and Deutsch, Full 
Committee Chairman Tauzin and Ranking Member Dingell for the invitation 
to appear at this hearing.
    With me are NHTSA's Executive Director, L. Robert Shelton, and 
Associate Administrator for Safety Assurance, Kenneth N. Weinstein.
                            1. introduction
    Mr. Chairman, this hearing addresses a series of safety issues that 
are of the very highest importance. The Department of Transportation's 
investigation of Firestone tires was set in motion by tragic events and 
loss of life. All of the parties appearing before you today must honor 
the memory of those individuals by our responsible actions.
    On behalf of Secretary Mineta, I want to assure you that the 
Department of Transportation is pursuing these matters systematically, 
objectively, and thoroughly. Like you, we are animated by a focused 
urgency, and a vigorous resolve to protect the public. We have worked 
closely with Ford and Firestone to share information and gather facts 
about these complex technical matters. Our work on these matters 
continues to evolve. As we gain additional information and are able to 
draw firm conclusions from our ongoing research, NHTSA will follow 
these matters wherever the facts lead.
    I want to thank the Committee on Energy and Commerce for your 
strong support and your counsel as we progress. In particular, I want 
to express our gratitude for the tools and resources that this 
Committee helped make available to the Department with last November's 
enactment of the TREAD Act. After my confirmation by the Senate last 
month, I studied the Act in its entirety. In the TREAD Act, Congress 
set aggressive deadlines for completing the required rulemakings. While 
I confess to having often been impatient with the pace of regulatory 
work at the Department, Secretary Mineta and I are pleased to inform 
the Subcommittees that NHTSA is on schedule to implement the Act's 
landmark safety enhancements. This includes the regulations regarding 
tire performance standards, tire pressure warning, early warning 
reporting requirements, rollover testing and child restraint 
improvements.
    We will continue to monitor implementation carefully. I personally 
pledge that the Department will work closely and candidly with these 
Subcommittees to keep you apprised of our progress both on TREAD Act 
implementation, and on the Firestone Tire and Ford Explorer matters.
    The remainder of my testimony will address two topics: first, 
NHTSA's ongoing investigation into certain Firestone tires; and second, 
the question of whether and to what extent NHTSA should review tire-
vehicle interface issues, including data commissioned by Firestone 
regarding understeer/oversteer characteristics of the Ford Explorer.
             2. nhtsa's investigation into firestone tires
    As the Committee is aware, NHTSA opened its formal defect 
investigation of over 50 million Firestone ATX, ATX II, and Wilderness 
tires in May 2000, after the number of complaints concerning these 
tires increased significantly that year. With implementation of the 
TREAD Act, we will have a far better early warning system to identify 
potential tire defects.
    NHTSA now anticipates its current testing of tires will be 
completed by the end of next week. By roughly this time next month, 
NHTSA expects to finish its analysis and announce the results.
    Since NHTSA's investigation was launched, there have been two 
separate actions that will lead to replacement of more than half of the 
tires covered by the investigation:

<bullet> On August 9, 2000, Firestone recalled all of its ATX and ATX 
        II tires of the P235/75R15 size manufactured since 1991. It 
        also recalled Wilderness AT tires of that size made at its 
        Decatur plant, for a total of 14.4 million tires.
<bullet> On May 22, 2001, Ford announced a tire replacement program 
        that includes all other Firestone Wilderness tires on certain 
        Ford, Mercury and Mazda SUVs and light trucks. This replacement 
        action totals approximately 13 million tires.
    The Department applauds Ford for its strong commitment to safety 
and its efforts to retain the confidence of its customers. It is 
necessary to reiterate that NHTSA has not yet completed its 
investigation nor has NHTSA made a formal determination about the 
necessity of a further recall. Ford's decision does not render NHTSA's 
investigation moot.
    NHTSA's role under the Vehicle Safety Act is to decide whether any 
of the tires under investigation contain a defect that relates to motor 
vehicle safety. Some of these tires were installed as original 
equipment on non-Ford vehicles and are beyond the scope of Ford's 
replacement program. Other tires have been used as replacement tires on 
non-Ford vehicles. It is thus important that NHTSA complete its 
investigation and reach a decision consistent with its statutory and 
regulatory mandate.
    NHTSA's Firestone investigation is unprecedented in its technical 
complexity. The investigation includes both a review of field 
experience and an extensive series of laboratory analyses. The agency 
has examined hundreds of tires from the field and is employing numerous 
state-of-the-art techniques to analyze the performance and 
characteristics of these tires. These techniques include:

<bullet> shearography--a non-destructive technique that can detect 
        separations within a tire;
<bullet> sectioning--cutting a tire to measure the dimensions of 
        interior features, including cracks;
<bullet> adhesion testing--measuring the resistance of the belts to 
        being peeled apart;
<bullet> rig testing on drums--to assess durability;
<bullet> chemical analyses--evaluating the effects of oxidation and 
        other chemical processes that can degrade a tire; and
<bullet> other internal physical measurements.
    NHTSA has requested and received information from six other tire 
companies to allow the agency to perform peer comparisons. Throughout 
the investigation, NHTSA has continued to receive extensive information 
from both Ford and Firestone, and we have periodically provided both 
companies with summaries of data collected in our testing effort. We 
are grateful for the cooperation of both parties. However, I want to 
emphasize that NHTSA has not yet provided either Firestone or Ford with 
its conclusions or recommendations about whether a further recall is 
necessary.
    Finally, I know that some members of the Committee may be concerned 
that the NHTSA Firestone investigation may not yet have gone far 
enough. It is true that NHTSA's testing is focused primarily on a 
subset of the tires that are covered by Ford's recent replacement 
program. However, this is because NHTSA's analysis of field data has 
demonstrated that those tires have been associated with the greatest 
number of claims, crashes, injuries and fatalities compared to other 
tires not covered by Firestone's August 2000 recall. To put this in 
context, based on NHTSA's June 18, 2001 update of the database of 
reports to the agency, the 14.4 million ATX and Wilderness AT tires 
recalled last year have been associated with some 285 crashes and 123 
fatalities. The 13 million tires in Ford's recently announced 
replacement program have been associated with 37 crashes and 10 
fatalities. The tires covered by NHTSA's September 1, 2001 Consumer 
Advisory have been associated with a reported 15 crashes and five 
fatalities. The approximately 23 million remaining tires within the 
universe of tires covered by this investigation have, to date, been 
associated with eight crashes and 12 fatalities.<SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ The eight crashes represent eight different tire models. In 
addition, NHTSA has data on an additional 53 total fatalities where the 
vehicle involved was an Explorer and/or there is enough tire 
information known to assume the tire involved is among those under 
investigation. Because the crashes are old or the tire was not saved, 
additional information is not available to categorize them properly.
---------------------------------------------------------------------------
    Ford has now also provided data to NHTSA and to this Committee 
about tires that are not currently being subjected to extensive testing 
by NHTSA. Again, NHTSA expects to conclude its ongoing tire testing for 
this investigation next week. If, after assessing all available data, 
NHTSA concludes that an expanded testing program for other Wilderness 
tires is indicated, it will expand its investigative work to focus more 
scrutiny on those tires.
     3. firestone's assertions regarding handling of ford explorers
    In Chairman Tauzin's June 6 letter to NHTSA, he urged NHTSA to 
consider whether the safety problem now being investigated is ``solely 
a tire issue, or whether it is a tire-vehicle application issue.'' I 
would like to offer two sets of observations about this important 
question.
    First, NHTSA's inquiry has focused on tires because it is the tires 
that have been failing. As the Committee is aware, by law tires are 
treated differently from all other items of original equipment on 
vehicles. Defects in tires are to be remedied by the tire manufacturer 
rather than the vehicle manufacturer.
    If tires were treated statutorily as part of the vehicle itself--as 
are headlights or seat belts, for example--the proper course of action 
would have been to launch an investigation of one or more vehicle 
models and any tires used as replacements. Moreover, and to be 
specific, NHTSA has had no credible evidence that the Ford Explorer's 
design is in any way responsible for causing tread separation or other 
such catastrophic tire failure. Firestone has not, as I understand it, 
asserted this causal relationship.
    NHTSA has to date therefore conducted this investigation as first 
and foremost a tire investigation. If it appears that the safety 
problem is limited primarily to crashes involving vehicles equipped 
with certain Firestone tires, then the most immediate and effective 
remedy under the law is to recall the tires.
    Second, I would now like to turn to NHTSA's examination of the 
handling characteristics of the Ford Explorer. As the Committee is 
aware, Firestone commissioned a study to look at the handling 
characteristics and rollover propensity of Ford Explorers after tire 
tread separation. Firestone recently informed the Department that it is 
conducting a study and simultaneously made public the results of the 
first set of its handling tests. Firestone has asked the Department to 
investigate its claims that the Ford Explorer is deficient in its 
handling under this situation.
    Like other SUVs, the Ford Explorer experiences a higher overall 
rollover rate than passenger cars. In asking NHTSA to investigate the 
safety of the Explorer, Firestone has alleged that Explorers are more 
likely than other SUVs to experience an oversteer condition following a 
tread separation on a left rear tire and that an oversteer condition is 
likely to make a vehicle less stable.
    Although Firestone has verbally stated to the Department that it 
did not intend to take the formal legal step of petitioning NHTSA to 
conduct an investigation, their written communication to NHTSA 
virtually constitutes such a request. Secretary Mineta and I therefore 
asked NHTSA to treat the Firestone request as if it were a formal 
petition. Consequently, at this stage NHTSA is conducting an analysis 
to determine if a formal investigation is merited.
    The Department and NHTSA are giving this matter full consideration. 
NHTSA is reviewing Firestone's information and has met with both 
Firestone and Ford to discuss in detail Firestone's allegations. Last 
week, the agency met with the consultant hired by Firestone to conduct 
its tests. Firestone's consultant recently advised NHTSA that he does 
not expect to complete his testing until the end of July.
    Even before receiving Firestone's request, the agency already had 
been reviewing field data from a variety of sources, including NHTSA's 
own data collection systems, for the purpose of evaluating the 
likelihood of a rollover, given a tire failure, for both the Explorer 
and for peer vehicles. NHTSA has recently collected and is currently 
evaluating accident data regarding various model years of the Explorer. 
NHTSA has not yet formed a view as to the validity of Firestone's 
claims about the performance of the Explorer. NHTSA will assess the 
additional test data promised by Firestone in conjunction with other 
relevant available data. The agency's goal is to complete its initial 
analysis of this data as quickly as possible this Summer. It will then 
decide whether to open a formal investigation.
    We realize that this is an issue of great interest to the 
Subcommittees, to the manufacturers and the public. We will keep these 
Subcommittees informed as NHTSA brings this review to closure.
    Mr. Chairman, I have now provided an overview of our ongoing 
Firestone investigation, the Explorer vehicle handling analysis, and 
the principles animating each. Portions of my testimony today may 
alternatively leave both Ford and Firestone disappointed that we do not 
have immediate closure on important issues. I know that we can, in both 
cases, count on their continued cooperation with NHTSA. As we continue 
to do our job in assessing these difficult issues, I hope we will earn 
the Committee's confidence and that of the public who rely on the 
Department's vital safety work.
    Speaking for Secretary Mineta, you have our pledge that we will 
continue to conduct this work in a fair, impartial and thoroughly 
professional manner, always mindful of the urgency and importance of 
this effort. This concludes my statement. My colleagues and I will be 
glad to answer any questions.

    Mr. Greenwood. Mr. Jackson, I know it is a heck of a thing 
to have you sit around for 6\1/2\ hours and ask you to wrap it 
up after 10 minutes.
    Mr. Jackson. I learned a lot.
    Mr. Greenwood. But that's the way it works.
    Last year, NHTSA recommended a recall on several Firestone 
tires based on an overall claims rate of 12.6 claims per 
million tires produced. Some of the suggested tires had less 
than 3 claims, but the low production universe elevated the 
claims rate. This year, Ford is removing Firestone Wilderness 
AT tires from all of its vehicles based partially on 
identifying tires with a claims rate of more than five claims 
per million produced, a figure they say is an industry 
standard.
    Do you agree that there is any such industry standards, and 
if so, is it 5 or 12.6 or some other number?
    Mr. Jackson. I don't believe that we have exactly reached 
an understanding of a number, a single number that would be 
appropriate to use as an indicator of when to trigger a defect 
investigation. It is a variable, an important variable. But a 
single one such as that is not definitively established as 
sufficient for this purpose.
    Mr. Greenwood. Mr. Jackson, you said that in your opening 
statement that NHTSA was considering whether to look into the 
combination of this tire on this particular vehicle. Last year 
in a Senate hearing, Senator Snowe asked Dr. Bailey, quote: 
``have you decided that it is a tire problem or a Ford Explorer 
problem or both?'' and Dr. Bailey responded: ``At this time, I 
think we are dealing with a tire problem, but as part of our 
investigation, we will also explore the possibility of a 
combination.''
    Has that study not been conducted by NHTSA?
    Mr. Jackson. NHTSA has gathered some preliminary evidence 
on this, and the Firestone data is a part of that--a part of 
that work.
    Mr. Greenwood. The companies are making use of their 
respective understeer and oversteer experiments. The question 
is, is there a baseline amount understeer that a car or SUV 
should have?
    Mr. Jackson. No, sir, we have not established as a 
recommendation of NHTSA such a standard.
    Mr. Greenwood. I'm sorry, I was interrupted there. You have 
not yet decided whether there should be such a standard?
    Mr. Jackson. That's correct.
    Mr. Greenwood. Are you working on--where do you stand on 
that? Are you probing that question?
    Mr. Jackson. That question is embedded in the question of 
whether we should launch a formal investigation in the case of 
the Explorer, and will be part of the preliminary conversation 
that takes place as we do our review. We are not conducting an 
investigation now. We are conducting a review. And part of that 
review would address this question inside the Department.
    Mr. Greenwood. Well, understand, my question is not does 
the Explorer have an understeer or oversteer problem. My 
question is should there be a national standard set for 
steering?
    Mr. Jackson. We would like to be able to answer that 
question more straightforwardly as a result of concluding our 
preliminary review and report back to your our thoughts on that 
matter. It is definitely a new step that we believe Firestone 
is asking us to take, to regulate an area or to look at and 
evaluate an area where we have not historically had a role.
    Mr. Greenwood. How much would the steering mechanism of the 
vehicle play a role in the vehicle's understeer or oversteer?
    Mr. Jackson. I would like to defer to one of my expert 
colleagues to answer that question.
    Mr. Weinstein. Well, I am not an expert vehicle dynamicist, 
a dynamics expert, but I would say it is possible that it could 
have an effect under various different circumstances. Whether 
it be in a tread separation, I don't know. And we will be 
working and looking at the data and seeing what Dr. Guenther 
comes up with and see whether or not steering inputs have any 
effect.
    Mr. Greenwood. Much has been made throughout the hearing 
about this issue of claims rates. And I think most of us have 
come to the conclusion that claims rate is an only somewhat 
reliable piece of information. As I understand it, the claims 
rate is simply a function of how many people call NHTSA and 
supply information with regard to property and/or personal 
damage that result in a motor vehicle accident, and that rate 
could be affected by what happens in the media today. I 
wouldn't be surprised if our hearing results in additional 
claims.
    Could you describe how NHTSA handles these claims and what 
you make of the information gathered from it?
    Mr. Jackson. Let me take a first cut at that. The claims 
rate definition is something that we are addressing in the 
TREAD Act regulatory work that we are doing right now. But the 
differences in the definitions, which really are those of the 
manufacturers, the tire manufacturers--and this data, by the 
way, is reported not to us initially, but to the manufacturers. 
They share data with us. This data has coalesced around a 
common understanding at least in the data that we are sharing 
with tire manufacturers that it is essentially a claim that we 
are looking at here for more than the value of the tire itself.
    So in the Goodyear and Firestone data, there is, we 
believe, comparability at this juncture. We will address that 
more systematically in our regulatory work.
    Mr. Greenwood. My time has expired. The gentleman--the 
Chair recognizes the gentleman from Michigan, Mr. Dingell.
    Mr. Dingell. Mr. Chairman. I thank you. Gentlemen, is tread 
separation a common form of tire failure?
    Mr. Jackson. No, sir.
    Mr. Dingell. It is not. Is it regarded as catastrophic?
    Mr. Jackson. Yes, sir.
    Mr. Dingell. Can it be reasonably anticipated that if it's 
an SUV, it will roll over after tread separation?
    Mr. Jackson. No, sir.
    Mr. Dingell. In other words, you would assume that after 
tread separation, the vehicle is not going to roll?
    Mr. Jackson. The data that Mr. Nasser discussed this 
morning says that approximately 10 percent result in a rollover 
in the event of a----
    Mr. Dingell. Do you agree with that?
    Mr. Shelton. Mr. Dingell, our data say that it is 10 
percent I believe at the highest. In many cases it is less than 
that.
    Mr. Dingell. There was a period of three model years, 1995 
through 1997, when virtual equal numbers of Goodyear and 
Firestone tires were put on the Explorer. I understand there 
has been 1,183 tread separation claims for Firestone tires used 
in those model years, and only two tread separation claims for 
Goodyear tires were used in those same 2 years. Is that so?
    Mr. Shelton. Yes, that's correct.
    Mr. Dingell. That conforms with your records. Did either of 
the two claims on Goodyear tires involve loss of life?
    Mr. Shelton. No, sir.
    Mr. Dingell. Is there greater likelihood that tread 
separations will occur at low or high speeds?
    Mr. Shelton. High speeds, sir.
    Mr. Dingell. It is uncommon for them to occur below 35 
miles an hour?
    Mr. Shelton. Yes, it is typically a high speed phenomenon.
    Mr. Dingell. So if somebody tested a tire at 35 miles an 
hour, they wouldn't get a good result, would they, if they 
showed up with a lot of tread separation?
    Mr. Shelton. It is unlikely they would find tread 
separation at 35 miles an hour.
    Mr. Dingell. You'd look kind of fishy-eyed at that 
particular kind of test, would you not?
    Mr. Shelton. Yes, sir.
    Mr. Dingell. Now, is there threshold level for tread 
separations that NHTSA recognizes as standard for judging when 
to recommend a recall?
    Mr. Shelton. No, sir, we do not have such a threshold.
    Mr. Dingell. The Wilderness AT tires recalled last year 
were all from Firestone's plant in Decatur, Illinois; is that 
correct?
    Mr. Shelton. Yes, sir.
    Mr. Dingell. The Wilderness AT tires were also made at 
Firestone plants at Wilson, North Carolina; is that also true?
    Mr. Shelton. Yes, sir.
    Mr. Dingell. I understand that the latest reports reveal 
that tread separation claims for the Wilderness AT tires 
produced in Wilson, North Carolina, in 1996 have been extremely 
high, 100 parts per million. Is that information correct?
    Mr. Weinstein. I wouldn't say that it is necessarily 100 
parts per million. We have looked at trends in the Wilson plant 
and----
    Mr. Dingell. Well, it's either true or not true or you 
don't know.
    Mr. Weinstein. I'll check it out----
    Mr. Dingell. Please give us the answer. I also understand 
that 16-inch Wilderness AT tires made at Wilson has a tread 
separation claims rate of 450 parts per million when used on 
the vehicle up to 5 years; is that correct?
    Mr. Shelton. We will have to check.
    Mr. Jackson. We will have to get those numbers.
    Mr. Dingell. That is correct?
    Mr. Shelton. We are checking that.
    Mr. Dingell. Okay. You will check that out. NHTSA also 
asked Firestone to recall its 16-inch Wilderness AT tire made 
at Wilson last year, did it not?
    Mr. Weinstein. 16-inch tire?
    Mr. Dingell. Yes, you asked them to recall the 16-inch 
tire.
    Mr. Shelton. No, sir.
    Mr. Dingell. You did not? Are you now prepared to say that 
NHTSA does not believe that the Wilderness AT tires produced at 
Wilson pose any safety risks for drivers and passengers who 
have these tires on their vehicles?
    Mr. Weinstein. We are in the process of completing our 
investigation and will be able to address that by this time 
next month.
    Mr. Dingell. All right. The rate of 100 parts per million 
is higher than the average rate for tires that have been 
recalled in the past year, is that not so?
    Mr. Shelton. Yes, sir. As I understand the rates of the 
tires that have been recalled are higher than that.
    Mr. Stearns. [Presiding] Excuse me, Mr. Dingell. There's 
two mikes. If you could spread the mikes and when you speak, 
make sure you speak into them.
    Mr. Dingell. Tread separations tend to occur in hot climate 
regions in warm weather periods of the year; isn't that so?
    Mr. Jackson. Yes, sir.
    Mr. Dingell. When will NHTSA have the work done to make a 
decision about recalling tires produced at Wilson?
    Mr. Shelton. We plan to complete our analysis for the 
entire investigation approximately 1 month from today.
    Mr. Dingell. Is that delay related to the fact that NHTSA 
does not have an administrator, acting or permanent, at this 
time?
    Mr. Shelton. No, sir.
    Mr. Dingell. It is not?
    Mr. Shelton. No, sir.
    Mr. Dingell. Currently NHTSA rates vehicles on the basis of 
their static stability; is that correct?
    Mr. Shelton. Yes, sir.
    Mr. Dingell. And no SUV that NHTSA has tested received 
higher than a 3- out of a possible 5-star rating; is that 
correct?
    Mr. Shelton. Yes, sir, that is correct.
    Mr. Dingell. It is my understanding that the 2002 model 
year Explorer will receive a 3-star rating from NHTSA. That is 
as high as any other SUV; is that correct?
    Mr. Shelton. Yes, sir, that is correct.
    Mr. Dingell. In prior model years, NHTSA gave the Explorer 
a 2-star rating; is that correct?
    Mr. Shelton. The earlier model Explorer was tested and got 
a 2-star rating, yes. Not prior model years, because we just 
started the program a few month ago.
    Mr. Dingell. Would you call a 2-star rating during those 
year good or bad?
    Mr. Shelton. It would be typical for an SUV. They range 
from 1 to 3.
    Mr. Stearns. The gentleman's time has expired.
    Mr. Dingell. Thank you, Mr. Chairman.
    Mr. Weinstein. Mr. Chairman, could I clarify one of my 
prior answers? I misunderstood because of the way the prior 
conversation had been going with respect to tires on Explorers 
and Rangers, et cetera, when you asked me about had we 
recommended recalling a 16-inch tire from Wilson, I was 
focusing on that. On our consumer advisory list, the one that 
we issued last September 1st, we did include a 16-inch 
Wilderness AT tire that is used on a relatively small number of 
Ford 150 vehicles. It is a different size and different tire 
from the one that is used on Explorers. I apologize for that 
confusion.
    Mr. Dingell. What about the Explorer tire to which I was 
referring? Did you suggest that it should be recalled or not?
    Mr. Weinstein. We did not, and that's certainly a part of 
our current investigation. The ones--the 16-inch tires used on 
Explorers made at Wilson or any place else were not included.
    Mr. Dingell. Could that investigation now ongoing result in 
a recall of that tire?
    Mr. Weinstein. It could lead to a request for that.
    Mr. Stearns. Let me offer my questions here. Just as a 
general, do we have enough resources at NHTSA to analyze and 
provide, in a timely fashion, information on this area and 
others?
    Mr. Jackson. Yes, sir, I think we do. And if we find that 
as these examinations increase that we don't, I will come back 
and tell you.
    Mr. Stearns. So right now we have all the resources at 
NHTSA to do the job in your opinion?
    Mr. Jackson. Yes, sir.
    Mr. Stearns. And that is the opinion of your boss?
    Mr. Jackson. Yes, sir, I have not asked that question of 
him directly, but we have no conversations on the table about 
that issue right now.
    Mr. Stearns. Have you heard the discussion that we have had 
on this raw data that we've had here?
    Mr. Jackson. Yes, sir, I have.
    Mr. Stearns. If we give you this raw data, can you come 
back within 30 days and give us your analysis, or 2 weeks or 1 
week or 1 day?
    Mr. Jackson. Mr. Chairman, in my prepared remarks, I 
volunteered that we could come back tomorrow and give you our 
preliminary analysis of that data and what we think it might 
take to give you a definitive answer to the questions that you 
are asking us.
    Mr. Stearns. In terms of the TREAD Act, do you think we 
should do anything more than that at this time?
    Mr. Jackson. No, sir, I do not have a recommendation for 
more right now. We have a pretty steep regulatory agenda ahead 
of us. We have many new and complex issues to work through with 
the industry. We will be keeping you and the members of this 
committee apprised, but I do not think anything more is needed 
at this point.
    Mr. Stearns. Were you here when Mr. Stupak was talking 
about claims versus safety and the nuance that once you talk 
about claims, it does not imply safety? Were you here?
    Mr. Jackson. Yes, sir, I was.
    Mr. Stearns. Do you think we need to have in Congress a 
better understanding, either legislatively, in your office, 
what claims mean in terms relative to safety or are they 
totally diverse, separated?
    Mr. Jackson. I think that we obviously have a little 
confusion here in the room and it seems natural that we should 
clarify this a little bit more. As part of our regulation, we 
are specifying a definition that would provide common data to 
us from the tire manufacturers. And so that is exactly what we 
are doing.
    In the meantime, frankly, we have had these conversations 
with the tire manufacturers that we have been talking with as 
part of this investigation. And we believe we have a pretty 
common sense agreement about what that definition of claims 
would be.
    Mr. Stearns. Not only a definition, but once you give a 
claims quantitative answer, don't you have to list the 
contingencies that make up that claim?
    Mr. Jackson. Mr. Chairman, you are exactly right to 
understand that claims alone is not a single metric answer to 
the question of whether we have a problem. There are a 
multiplicity of factors that we have to look at to be able to 
dig into the question of whether a possible defect exists.
    Mr. Stearns. In the field experience chart prepared by 
NHTSA, by you folks--this is not our raw data, but which you 
prepared--you compare the Explorer model years 1991 to 1994 to 
the model years 1995 to 1999. Can you see it okay? Do you need 
a copy?
    Mr. Jackson. I am familiar with that chart, Mr. Chairman.
    Mr. Stearns. It would appear from this chart--and you heard 
me ask Ford Motor company--that the 1991-94 model had 50 
rollovers. The following number jumped to 87 for the 1995-1999 
model year Explorer. Is this important statistics? You probably 
heard Mr. Nasser indicate it was just demographics. He didn't 
give an answer to it.
    I guess the No. 1 question is, are you investigating this 
and what leads to this increase rollover number?
    Mr. Jackson. We are reviewing this data more thoroughly. 
And it is a statistically significant difference between those 
two numbers. And we are discussing this with Ford and among our 
own experts, to assess this data more carefully.
    We generated this data, we looked at it and discovered that 
it is an issue that we want to dig into more.
    Mr. Stearns. How long have you known about it?
    Mr. Jackson. Since April.
    Mr. Stearns. Are you aware that Ford has changed the 
suspension on different model years?
    Mr. Jackson. Yes, we are.
    Mr. Stearns. Tell me briefly what that means.
    Mr. Weinstein. In fact, Mr. Chairman, that is why we 
separated out those. We knew that they had made a change. In 
model year 1995, they switched from what is called a twin I-
beam suspension to what Mr. Nasser characterized a more modern 
type of suspension, an A-arm suspension. And they made other 
changes to the vehicle as well for model year 1995. So it is a 
somewhat different vehicle.
    I am not here to tell you that an A-arm suspension 
automatically leads to more rollovers. I am not saying that at 
all. But that is why we broke out the two models.
    Mr. Stearns. But didn't the suspension occur at the same 
time as this chart? I mean, wouldn't it fall into those years, 
the 1995 to 1999 model year Explorer?
    Mr. Weinstein. That's correct. We did the data runs for the 
two separate categories. That is why we split the total 
Explorer population into those two groups, just to see whether 
or not there was any difference in consequence. What these are, 
by the way, sir, is the rollovers that occurred following a 
tread separation. So we wanted to see what the consequences of 
a tread separation would be on Explorers, on pickup trucks, on 
other SUVs, and that was why this chart was developed. And that 
is why we used different groups of Explorers as well.
    Mr. Stearns. You know, fellows, the taxpayers are hiring 
you to make some difficult decisions. And this is not a case 
where you are going to give an oblique or ambiguous answer. You 
are going to have to come up and risk and give some answers 
here so that the American consumer is safe. Do you think, based 
upon this chart, that it is worthwhile to investigate beyond 
tires, perhaps look at the role of other vehicles in rollover 
incidences?
    Mr. Weinstein. Not specific----
    Mr. Stearns. Does that warrant, in your opinion, that kind 
of investigation?
    Mr. Weinstein. Mr. Chairman not just from this chart but 
both the information in this chart, the information that Dr. 
Guenther has prepared, and all the information that is 
available to us. We will look at all of that and make that 
decision later this summer.
    Mr. Stearns. Okay. My time has expired. Mr. Stupak is 
recognized.
    Mr. Stupak. Thank you, Mr. Chairman. It's your testimony 
that this vehicle field experience, that relates to tread 
separations; right?
    Mr. Weinstein. It's what occurs after a claim--claims of 
tread separation provided by Firestone to us.
    Mr. Stupak. So Ford should have more crashes because it has 
the Firestone tires, which is alleged to separate, and that is 
what this chart reflects.
    Mr. Weinstein. Well, what we were attempting to do was to 
say if there is a tread separation, what is the likelihood of a 
catastrophic event, of a crash or a rollover. Only when you 
have a lot of tread separations do you have enough data to have 
statistically significant results.
    Mr. Stupak. These other vehicles, other compact SUVs and 
other compact SUVs without Bronco II, did they have the 
Firestone Wilderness tires?
    Mr. Weinstein. Yes, these are--everything on that chart 
reflects tires that are the subject of our investigation.
    Mr. Stupak. Very good. In--before Ford came out with their 
recall or replacement notice, did NHTSA have a chance to look 
at the tires that they were going to use as replacement tires? 
By that I mean you saw the list.
    Mr. Weinstein. They gave us the list after they advised us 
that they were going to do what they did. But we subsequently 
had the opportunity to look at the list.
    Mr. Stupak. Did you have an opportunity to discuss it with 
them? Did you voice any concerns about any of these vehicles--
excuse me, replacement tires?
    Mr. Weinstein. They asked us whether we were investigating 
any of those tires. They subsequently asked us how many 
consumer complaints we had gotten about these tires. And I'm 
distinguishing from claims. This is like to our hotline. And we 
gave them that data. And then they went forward and did what 
they did.
    Mr. Stupak. Does NHTSA have any concerns about these 
replacement tires? That they may have a worse safety record 
than the ones that are being replaced?
    Mr. Weinstein. Well, sir, we will keep looking at that. At 
the moment, we don't have any such concern. We are not 
investigating them. But if we see anything--and we look forward 
to seeing the data that the committee was discussing before--we 
will certainly promptly advise the committee as well as Ford.
    Mr. Stupak. So the data that you may receive from the 
committee, you don't have any idea if these tires are more 
dangerous, less dangerous, or insufficient information to make 
a judgment call?
    Mr. Weinstein. At this point, we have no evidence that 
would indicate that they are dangerous.
    Mr. Jackson. Congressman, I would like to give a gloss on 
that point. Mr. Nasser earlier said that he made the full 
portfolio of customer service actions, in effect, covering a 
wide variety of performance data for the tires that are in that 
customer service action. Necessarily, some of those tires, as 
he admitted, were not tires that indicated substantial failure.
    So if we find that some in that pool of Ford actions are 
comparable to other tires out there in the replacement, it's 
not prima facie a surprise to us because of the nature of the 
way they made their decision and the data that was available to 
them on some of the newer tires.
    Mr. Stupak. Did they--did Ford give you the data that they 
had on these replacement tires or they just asked you about----
    Mr. Jackson. I don't believe we exchanged that data. They 
just asked us for some of the information we have described to 
you, sir.
    Mr. Stupak. So it's your testimony today that there are no 
other tires that you are looking at for tread separations other 
than the Firestone tires.
    Mr. Weinstein. No other tires that are on that list. We do 
have two pending investigations about tires called light truck 
tires, a Firestone tire and a Goodyear tire.
    Mr. Stupak. So no other on that list, then.
    Mr. Weinstein. Right. Right.
    Mr. Stupak. All right. In answer to some questions by 
somebody, tread separation or a tread failure, very seldom does 
that happen; right?
    Mr. Jackson. Yes, sir.
    Mr. Stupak. Would a blowout occur more often on tires than 
tread separations? If you know?
    Mr. Weinstein. Mr. Lampe says no, and we don't dispute 
that. We don't keep track of that. We couldn't tell you how 
many blowouts there are.
    Mr. Stupak. Mr. Lampe also said that tread separations are 
common occurrence. And he cited some quotes from Goodyear.
    Mr. Shelton. Yes, Congressman, consumers normally wouldn't 
report a blowout to NHTSA. All of us have had flat tires in our 
lives and I don't call NHTSA when I have a flat tire.
    Mr. Stearns. The gentleman's time has expired.
    Mr. Shelton. I suspect you wouldn't either.
    Mr. Stupak. Correct. Thank you.
    Mr. Stearns. Mr. Shimkus is recognized for 5 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman. We have defined or 
used the terminology, ``parts per million,'' which I think 
refers to claims per million, connected with last year's 
original recall where we also asked how come insurance data 
wasn't getting to NHTSA. Part of the Tire Act was to get 
information. And I think that is what we are kind of wrestling 
with too is new fountains of information, some coming from the 
insurance industry, some coming from individual testing, either 
by you all or by the industry.
    I was intrigued with the debate or the discussion on the 
tires on the SUVs and the Ranger pickups with Mr. Dingell with 
Mr. Lampe. And the basic premise was: same tire. It goes into 
the debate of standards and specifications.
    Do we want to micromanage tire standards through Federal 
regulation?
    Mr. Jackson. We, as part of the TREAD Act, we were asked to 
look at the tire standard that we have out there, and we 
believe that we should look at that and that it can benefit 
from another look. We are not trying to design tires--to 
provide a ``performance spec'' for a tire to be made for a 
given vehicle.
    So there is a degree of appropriate work that we have to do 
here, but we are not in the business of designing tires nor of 
specifying the requirements for a given tire-vehicle 
combination.
    Mr. Shimkus. So what do we expect to receive from your 
evaluation? Or what do you think you might present to us? If 
you are the National Highway Traffic Safety Administration, an 
element of the Department of Transportation, we have 
independent corporations send us--establishing specifications 
to tire industry individuals who establish the exact standards 
for a multitude of different vehicles. What do you think you 
are going to accomplish?
    Mr. Jackson. We currently have a tire standard, and perhaps 
I could ask my colleague to give you an overview of that 
standard and exactly what we are looking at for changes in it.
    Mr. Shelton. Yes, Congressman, as part of the TREAD Act, we 
are going to upgrade our tire standard. As it was discussed in 
this committee's hearing last year, the existing NHTSA tire 
standard has been essentially unchanged since 1968. And as one 
of the provisions of the TREAD Act we are upgrading that 
standard. And we will issue a proposal this summer, I think 
late this summer to actually upgrade that tire standard, 
because under TREAD, we have to get that rulemaking completed 
by next June.
    So that right now, under the NHTSA tire standard, there are 
high-speed tests, there are endurance tests, there is a 
debeading test. There is another test that is escaping me right 
now. But all of those tests will be upgraded as part of our 
proposal this summer.
    Mr. Shimkus. But that will be a floor, in essence.
    Mr. Shelton. Yes that, will be a floor, sir.
    Mr. Shimkus. So if the automobile industry wants more bells 
and whistles on their tires, they at least have to meet the 
floor of the basic standards for all their tires.
    Mr. Shelton. Yes, sir, for all the their tires.
    Mr. Shimkus. Thank you. You know, this is the whole 
chicken-and-the-egg debate on the tread separation and then 
steering problems, oversteering problems, maybe crashes, 
deaths, injuries, at least. So we are talking tires, but we are 
also talking, you know, the Ford Explorer and some of the 
engineering there.
    Both companies conducted the same tests, which is the 
radius circle test in conformance with the Society of 
Automotive Engineers guidelines. However looking at the charts 
presented by both companies, they reached opposite results. How 
can we discern--how can we, as Members of Congress, discern 
which is correct? And then the follow-up question: Will you be 
able to discern which is correct?
    Mr. Weinstein. Well, I don't think it is a question of 
which is correct. We will look at all of that information and 
maybe all of it is persuasive to some degree or less degree 
than the other. Plus there will be a lot of other additional 
information and we plan to doing that expeditiously and having 
an answer as to whether we should open an investigation. We are 
not going to simply be choosing between two different tests 
used by Ford or Dr. Guenther.
    Mr. Shimkus. And that is why we are having a hearing to 
help us clear the smoke. And I thought the whole hearing today 
would do that. For a while it got a little smokier. Maybe we 
are clearing it up at the end of the day, but we appreciate 
your work and look forward to your report.
    Mr. Stearns. The gentleman's time has expired. The 
gentleman from Florida, Mr. Deutsch.
    Mr. Deutsch. Thank you, Mr. Chairman. The other two panels, 
I asked this question. I want to ask it to you as well. What 
should the experience of a driver be in a situation of tread 
separation? I mean, should the driver be able to handle the 
vehicle to get to the shoulder of the road or what should the 
experience of a driver be?
    Mr. Weinstein. I don't know that you can say what it should 
be. The data seems to indicate that in most occasions, the 
driver is able to get to the side of the road without a 
catastrophic crash. Unfortunately that is not always the case. 
It probably depends what the driver does. It might depend on 
the speed. It might depend if he is in a curve at the time. It 
might depend on the other traffic. There are a lot of factors 
that go into it. But it does not automatically lead to a 
rollover in any vehicle, the Explorer or anything else.
    Mr. Deutsch. Do we have information--I mean, you mentioned 
a bunch of factors. Do we have empirical data to support that? 
Have we looked at ones that are not catastrophic versus the 
ones that are catastrophic and how does the driver reaction 
differ?
    Mr. Weinstein. Well, we don't have--I can't quantitatively 
discuss that. We are going to be doing some analysis in our 
simulator as to how a driver reacts under certain 
circumstances, including a tread separation. That work is 
supposed to start, I believe, later this month or next month. 
We have expedited that and put it at the head of the line.
    Mr. Deutsch. Mr. Shelton, did you want to add something to 
that?
    Mr. Shelton. Yes, I think this chart that the committee put 
up illustrates that. When you look at claims per rollover, that 
is how many claims it takes to generate a rollover. So higher 
is better. That is, you are less likely to have a rollover 
given a claim. But even for some of the lower numbers, claims 
per rollover, 11.9. That means 11.9--it takes 11.9 incidents 
before you have a rollover. That, I think, alludes back to Mr. 
Nasser's testimony where he said less than 1 out of 10 results 
in the vehicle actually rolling over.
    Mr. Weinstein. If I could just expand on that, those are 
only claims. There are probably a number of tread separations 
that don't result in a claim as we defined it before. So the 
numbers are probably even somewhat smaller.
    Mr. Deutsch. One of the things that seems clear is that 
there are other countries that we could have gained information 
from their data. Is there any attempt at all in a formalized 
mechanism to coordinate with other countries their claims data?
    Mr. Jackson. Yes, sir, that is one of the improvements of 
the TREAD Act, to be able to get us relevant data from tire 
manufacturers and from vehicle manufacturers as soon as they, 
themselves, have such relevant data.
    Mr. Deutsch. Now, at this point, again, have we gotten any 
overseas claims data since the TREAD Act went into effect?
    Mr. Weinstein. Yes--not claims data. We have gotten recalls 
and service actions that occurred in foreign countries. That is 
in effect right now, and manufacturers have been notifying us 
if they do a recall, say, in Europe that affects vehicles that 
are for sale in the U.S.
    Mr. Deutsch. Would it make any sense at all--again, so we 
are putting the onus on the manufacturer as opposed to you 
folks from a country-to-country basis. Is there any reason to 
do it on a country-by-country basis, or is it not practical or 
not necessary?
    Mr. Weinstein. Well, it would be helpful, and we have made 
some inquiries in that regard. However, most other countries do 
not have the same kind of defect system that we do and the same 
governmental oversight over their manufacturers in terms of 
directing them to do recalls. They have different types of 
systems. And the data just isn't necessarily collected by 
governmental agencies.
    Mr. Deutsch. As we are sort of ending this hearing--and I 
appreciate you sitting through the many hours that we have been 
here today--part of the hearing is, as the chairman mentioned, 
at the start of this hearing is to try to inform the American 
people. Is there any parting words that you would want to give 
consumers at this point in time in terms of safety issues on 
existing Ford cars, or for that matter, existing Firestone 
tires?
    Mr. Jackson. We appreciate very much, Congressman, the 
focus that this committee has on the consumer. That is our 
focus. We are working for you as well to give the consumers 
clear, concise, responsible scientific data. We can't rush to 
judgment, but we are close to judgment and we will speak 
comprehensively, and I believe authoritatively, soon.
    Mr. Deutsch. Let me add one final question. I see my time 
is running out. In January, NHTSA issued an advanced notice of 
proposed rulemaking establishing a preliminary plan for 
gathering information on deaths, injuries, crashes, lawsuits, 
consumer complaints, et cetera, by make and model of vehicle 
and by potential defects. This is a critically important rule 
for the consumer. What is the status of that rule at this 
point?
    Mr. Weinstein. Congressman, we have received comments. We 
have a 60-day comment period. We have analyzed the comments and 
summarized them. We are preparing now to put out a notice of 
proposed rulemaking, now that we have a little more focus on 
the issues. That should be later this fall.
    Mr. Deutsch. All right. So the final rule should be this 
fall?
    Mr. Weinstein. No, that would be the notice of proposed 
rulemaking. Under the TREAD Act, the final rule must be out by 
the end of June of 2002, and we will make that deadline, 
hopefully earlier. But it is a very complex issue as the 
summary that you just read indicates.
    Mr. Stearns. The gentleman's time has expired. The 
gentleman from Michigan, Mr. Upton, is recognized.
    Mr. Upton. Thank you, Mr. Chairman. I thank you all for the 
kinds words about the TREAD Act. And as you go back and in 
particular, in your responsible job now, one of the actions 
that was responsible for us moving on this action was the 
history of the recall of Firestone 500 tire back in the 1970's. 
This committee held hearings back then, and yet nothing was 
done in terms of legislation.
    There has been reference made to the 68 tire standard. I 
was trying to think where I was in 1968, I didn't even worry 
about having a draft number back then as I was still in junior 
high school. And the tire standards, obviously tires have 
changed quite a bit from 1968 to where they are today. And our 
focus last year was to identify whether we did have a problem. 
We did. And now new data, more than 200 deaths because of the 
Firestone tire, and to implement legislation to correct the 
problem so that it would not happen again.
    And I think every member on this panel, Republican and 
Democrat worked so hard to pass that in a very strong 
bipartisan way in both the House and the Senate without dissent 
at all. As we look back, look at the situation today, we know 
that it's working.
    It was important to give you all the resources so that you 
could develop the new standards that have to be met. And I know 
as we think about some of the questions today, I wanted to 
clarify one of the answers that you gave earlier, I think it 
was to Mr. Dingell that in the years 1995 to 1997, were there 
1,183 Firestone tire separations--tread separations versus two 
by Goodyear?
    Mr. Jackson. Claims.
    Mr. Weinstein. Claims.
    Mr. Upton. Claims, I'm sorry. The report that was in some 
of today's papers--and you all have indicated that you are 
going to be starting to work on that tomorrow and give us 
answers as soon as you can with regard to information on the 
tires that Ford is replacing, the Firestone tires. Have any of 
you ever heard of--have you heard of any of those questions 
before today, before opening the paper at your doorstep this 
morning? I mean, I woke up in Denver at 5:30 and saw it in USA 
Today.
    Mr. Weinstein. I think last night, I heard that there was a 
question about it. But, I mean, I am talking about 6 at night, 
a reporter called and said it was going to be in the paper. But 
so I guess that is before this morning.
    Mr. Upton. Did you all comment on this story at all? 
Again----
    Mr. Jackson. No.
    Mr. Weinstein. No, we don't have enough information.
    Mr. Upton. Well, I certainly look forward to getting your 
response to the information that may be shared with you, the 
evidence and take us where the facts take it because it is 
important that you have the resources so that every American 
knows that whether it is a Ford or a Chrysler or a GM or Honda, 
that, in fact, the tires that they have are safe and they are 
not going to have to fear for their lives or their family's 
lives when they go to a soccer game or little league game or to 
and from work.
    I appreciate your work. I look forward to working with 
Chairman Stearns as a member of this subcommittee as we 
continue to oversee the actions of the TREAD Act. I believe 
that NHTSA has to be reauthorized this year, so we will look at 
pros and cons of where we have to go and make sure that the 
bottom line is that you have the resources to give the American 
public the confidence that they must have in your jobs as 
overseers of this important agency. I yield back the balance of 
my time.
    Mr. Stearns. The gentleman yields back the balance of his 
time. I would also point out that he was one of the authors of 
the TREAD Act. We in Congress appreciate all his efforts and 
are glad to see that it is working.
    In the procedure of the House, this committee, members who 
serve on the subcommittee go before the ones who don't. So in 
this case, Mr. Bilirakis would go and then Mr. Sawyer, if he 
would be patient, he will finish up. Mr. Bilirakis from 
Florida.
    Mr. Bilirakis. Thank you. Thank you, Mr. Chairman. Let me, 
in the process of your continuing analysis, your study of this 
problem, are you intending to look at the vehicle as well as 
the tire, the interaction, in other words, of the two?
    Mr. Jackson. Congressman, as part of our ongoing Firestone 
investigation, the vehicle is not, per se, part of that 
investigation. We are going to complete the tire investigation 
and announce that in approximately 1 month.
    The other issue, about understeer/oversteer in the Explorer 
vehicle, is at a much more preliminary stage. We have received, 
in effect, a petition from Firestone asking us to look into 
this question, so we are in a preliminary review stage to 
decide whether an investigation is merited or not. So in that 
regard and in a less formal mode at this juncture, we are 
looking at those issues.
    Mr. Bilirakis. But it seems I--and, again, first of all, I 
probably--I chair the Health Committee, and I have got my plate 
full and then some with so many other areas, prescription drugs 
and managed care reform, et cetera, et cetera, so I haven't 
spent the time on this issue that so many other members of this 
committee have, and I am the first one to admit that. But it 
just seems to me that logically, where there is a chance that 
there is some sort of--that maybe there might be a design flaw 
of some sort in the vehicle, and the interaction with the tire 
causes this would basically almost follow that you would, in 
the process here, take a look at that also.
    Mr. Jackson. Prior to this point, Congressman----
    Mr. Bilirakis. I don't represent either one of these 
companies in my district.
    Mr. Jackson. No, sir, neither do we. We are with you. We 
have the same intention. And honestly, I believe both parties 
have the intention of protecting the safety of the public. I do 
think that is important.
    We have not to this point thought that there is evidence 
that directs us toward a vehicle defect investigation. We are 
now looking carefully, responsibly, quickly, at a series of 
data that has been presented to us, and also some data that we 
have reviewed ourselves as has been shown on your display. And 
if we believe that a defect investigation is called for, we 
will launch that formally and expeditiously. But there has not 
been a conviction at NHTSA up to this point that such an action 
was appropriate.
    Mr. Bilirakis. Well, there are people out there who feel 
that that ought to be done. And I am not just referring to 
Firestone necessarily. I have had--I have had tire retailers 
who are not in the business now, so they have no axe to grind, 
but who have sold all of these tires at one time or another 
over a period of time who basically said to me, hey, there may 
be a problem with the vehicle.
    So I would suggest that. Well, very quickly, take a look at 
that chart, and I see the claims 1201 and then 1031 for those 
two different periods of time. Is that an unusual number of 
claims?
    Mr. Weinstein. It's a very high number of claims.
    Mr. Bilirakis. Very high number of claims. Well, you know, 
I raise the question with all due respect. You know, it's 
National Highway Traffic Safety Administration, and then, you 
know, there are State Farms referrals in July 1998. We've had 
the history going back for a few years, all the way back to 
that period of time at least. It seems to me that--my two 
sons--I have two sons--both bought Explorers a few years ago at 
the same time thinking they could probably get a deal with a 
Ford dealer and they didn't get a deal at all, it turned out, 
but they have had a lot of problems with that car--those cars.
    And when I think of my four grandchildren riding in those 
vehicles and something like this potentially happening, so I 
guess, you know, I often times ask myself what is the role of 
government or what should be the role of government? I'm 
certainly against too much government and that sort of thing, 
but it seems to me with this kind of history, that we as a 
Federal Government have a role here to get involved a heck of a 
lot earlier, and to at least communicate to the public. I know 
that you use the term, Mr. Jackson, we can't rush to judgment. 
And you're right. But I'm disappointed, frankly, that maybe we 
didn't take an earlier role in this regard. I think that really 
calls for it----
    Mr. Weinstein. We, of course----
    Mr. Stearns. The gentleman's time has expired.
    We recognize the full Chairman of the committee, Mr. 
Tauzin, the gentleman from Louisiana.
    Chairman Tauzin. Thank you, Mr. Chairman. Mr. Jackson, 
welcome sir. And, again, I was not here for your statement. I 
apologize. I had to go out to a leadership meeting this 
afternoon, but I do want to thank you, first of all, for 
private comments you made to me about your appreciation of the 
TREAD Act and the new authorities and the new, not only 
responsibilities, but dollars and all of those efforts we've 
tried to make to give your agency the power and the authority 
to take charge of some of these issues.
    You've sat here and you've heard how frustrated we are with 
the fact that these two mighty companies that are trading 
information that sometimes differs, and it is sometimes based 
upon supposedly the same testing criteria. And I think you 
understand how deeply we will depend upon your agency to settle 
some of these questions for us and the American public. We 
deserve to know the information we're getting in these kind of 
recalls and replacements is, indeed, totally valid information, 
unfettered by any kind of personal disputes that may be going 
on between these two very large companies.
    In that regard, I also wanted to clarify with you your 
comments regarding the information our staff has developed on 
replacement tires. We obviously are deeply interested in 
getting your take on the information we've developed from the 
raw data we received, and my understanding is that you've 
committed to this committee to begin immediately reviewing it, 
analyzing it.
    Mr. Jackson. Absolutely, Mr. Chairman. We will start 
tonight. We'll look at the data we take home with us, and we'll 
meet first thing in the morning and whack away at it.
    Mr. Stearns. Would the gentleman yield? They indicated they 
might have something for us tomorrow.
    Chairman Tauzin. That would be excellent. Obviously, it's 
not--it's our intent, obviously, to get this information out as 
rapidly as we can, but we wanted to be real and meaningful, and 
you can, again, help us make sure we're not a party to 
confusing Americans about some of this data, which has been my 
big concern.
    I also want to point out, however, that--in a question you 
may have answered to Mr. Upton as to when you all found out 
about this, that NHTSA itself supplied us with data indicating 
some of these concerns. For example, you supplied us with data 
on the Goodyear Wrangler HT that is used on the F-150, 
Expedition, and Bronco. That has a 13.7 per million claims 
ratio, which is in excess of a five claims per million that 
Ford used as a benchmark.
    You also submitted to us information that the General 
Grabber APXL manufactured in Charlotte, admittedly a small run 
of only a half million tires, but nevertheless, a nearly 11 per 
million claims rate, indicating that yours--and both of these 
are replacement tires. So information we have--that has 
troubled us has come, in part, from you. I don't want you to 
think that we just pulled it out of the air. This is data you 
submitted to our staffers indicating that at least two of these 
replacement tires have claims ratios in excess of the five per 
million used as a benchmark by the Ford Motor Company in its 
recall decision. Are you aware of that?
    Mr. Jackson. Yes, sir. We acknowledge that some of the data 
that's been discussed here as part of this conversation is data 
that NHTSA has also obtained and has shared with you and your 
staff. To go to the larger question we need an architecture of 
how to pull together the relevant variables that will help us 
assess this data in a coherent and clear way, and that's what 
we propose to try to give you a summary of in the morning or in 
the afternoon tomorrow.
    Chairman Tauzin. You should also know that our staff's 
evaluation went beyond the years 1993 to 1998 in which you had 
information on one of those tires on the years 1995 to 2000 as 
you had on another tire. We supplemented that with some of the 
raw data that we've obtained, and we've, again, analyzed 
different numbers over the stretch, but numbers again that we 
would like you to look at----
    Mr. Jackson. Yes, sir.
    Chairman Tauzin. [continuing] and to come back to us on. 
Again, it's critical--I want to make sure everybody understands 
this. It's critical that you help us resolve what these numbers 
mean. If a replacement tire is in fact safe, despite these 
numbers, if, for example, the claims data is all about minor 
property damage rather than injuries and deaths, that makes a 
difference.
    If, on the other hand, this claims data is accompanied by 
personal injury and death claims, it may have a much larger 
significance, and you have a lot of that information, and we 
obviously are counting on you to wrap that around the 
information we'll give you so that we can get a clear picture 
of this.
    One final thought, and I'd like your response on this. We 
have obviously focused in the TREAD Act on the notion that the 
more your agency does in the kinds of testing that Ford says it 
did, extensive pressure heat, psi speed testing to take these 
tires to the limit, so that the American public knows in 
advance that a tire is either safe or potentially not safe, so 
that we're not relying upon post mortems in making decisions on 
recall, is a vital part of the reforms we initiated. I simply 
want your response on that. Is the agency properly gearing up 
to do what Ford Motor Company apparently felt a need to do on 
its own? And the answer I hope you give me in a second is more 
important because of what we've seen in this Ford recall, 
because if we're going to count on the companies to do it, 
we'll never know how accurate and how comparable and how fair 
and how unbiased some of these tests and reports are when 
companies are running tests out of their own labs and 
challenging one another as to accuracy. We have to depend upon 
your agency, and so I'm asking you, are you gearing up, will 
you be in good position to begin doing this instead of us 
having to rely upon Ford tests and Firestone tests to make our 
decisions here?
    Mr. Jackson. Mr. Chairman, absolutely we are committed to 
this, and absolutely we have launched this type of work. The 
work that we're doing now on the Firestone tire investigation 
is the most comprehensive, complex and sophisticated analysis 
that NHTSA has ever undertaken on a tire-related issue. So 
we're working it now, and I want to take this chance to say to 
you in person and public how much we have appreciated the 
resources and the tools that you've given to us in the TREAD 
Act, and we are committed to implement those tools on time and 
to work--you have my personal commitment and that of Secretary 
Mineta that this is a priority of the Department of a 
significant order, and I'll be watching it, and he will too.
    Chairman Tauzin. Well, for a guy named Michael Jackson, 
you're singing a good tune.
    Mr. Stearns. The gentleman's time has expired. The 
gentleman from Massachusetts, Mr. Markey.
    Mr. Markey. Thank you, Mr. Chairman, very much. Your agency 
needs a lot more money, doesn't it, Mr. Jackson, a lot more 
people to meet, all these deadlines, and to do a lot more 
things that come to your attention, what this committee might 
not know about?
    Mr. Jackson. Congressman Markey, we have a very important 
set of responsibilities at this agency, and some of those we 
have not pursued as quickly as I would like to see us do, and 
where we need some more resources, this administration is not 
going to be bashful about coming to the Congress and telling 
you exactly where we need them and what we have to do with 
them, but I do hope to accelerate the pace of our regulatory 
work, which is absolutely indispensable to the country.
    Mr. Markey. The problem that I think many of the committee 
members have is that while you, speaking for the 
administration, say that you won't be bashful, on the other 
hand, there hasn't been an administrator named for the first 5 
months. So you can imagine the confidence coefficient that our 
committee has looking at this agency in administration at this 
point is at an historic low point, because obviously we would 
want this agency to have had a gold star put over its forehead, 
given what had just transpired in the preceding year and all of 
these rulemakings, which have to be finished over the next 
couple of years. For example, it's my provision that calls for 
a dynamic test to be done.
    Mr. Jackson. Yes, sir.
    Mr. Markey. Now, there's a 2-year window that you have to 
get it done, but obviously if you can get it done in 1 year, 
then that many more people's lives would be saved, injuries 
avoided.
    Mr. Jackson. Yes, sir. This is--if I may say, this is my 
second tour of duty at the Department of Transportation, and I 
have a sense, honestly, of the depth on the bench that we have 
among the career people who are doing this type of analytical 
work. I want to assure you that from the very beginning of his 
tenure, Secretary Mineta has had to focus on these issues. In 
fact, one of the reasons that we have not had an administrator 
in place yet is that we launched a very extensive, nationwide 
search in cooperation with the White House to find an 
extraordinary candidate for this job, and the President 
announced his intention to nominate such a man yesterday. But 
in the interim, there has been no slacking off or resting on 
our laurels or sitting around on the core questions, and 
particularly the question that you----
    Mr. Markey. When will the dynamic testing----
    Mr. Jackson. We will meet or beat the statutory requirement 
for implementing that rule.
    Mr. Markey. So 2 years is not your goal? It's a shorter 
time period than that?
    Mr. Jackson. I will tell you that I'm an impatient man. I 
want to beat every single one of them that we have on the 
books, and that that is the approach that we're taking in our 
conversations to get this done quickly. These are urgent and 
important things to do.
    Mr. Markey. A lot of members of this committee side, on the 
Republican side especially, want to put real deadlines on the 
Federal Communications Commission. They have to approve or 
disapprove every merger within 60 days. Every rulemaking has to 
be completed within a very brief period of time. I would like 
to see--then there nobody dies, you know, if a cable service is 
delayed an extra 30 days, you know. Here I think there's a real 
urgency----
    Mr. Jackson. Yes, sir.
    Mr. Markey. [continuing] that attaches to the work that you 
do.
    Mr. Jackson. Absolutely.
    Mr. Markey. And I would hope that you would ensure that it 
happens faster than 2 years.
    Mr. Jackson. I have a 6-year-old daughter at home that 
rides around in the type of vehicles that we've been talking 
about today here, sir, and I believe in my bones that this is 
an absolutely indispensable and urgent focus for us to take on 
in this safety mandate that we have and----
    Mr. Markey. Well, here's a question that I'm sure every 
American who owns one of these vehicles and is now driving 
around in it, having purchased it with the notion that they 
could strap their children into the back seat and it would be 
safer than in some small vehicle. When it turns out ironically 
that the children are more vulnerable, because of this rollover 
propensity and the fact that there are no roof crush 
regulations that are on the books.
    Why doesn't NHTSA begin a proceeding to put tough roof 
crush standards so the roof just doesn't collapse in on these 
family members? It's a 30-year-old standard that we're all 
living with and dying with now in the United States. It was 
before the advent of the SUV, and so now we have this vehicle 
that's out there. Now one in four vehicles coming out in the 
road or more are SUVs, and so all of these families are putting 
their children into vehicles without any roof crush or rollover 
or crash worthiness standards that are on the books.
    Mr. Jackson. Congressman, I asked this same question, and 
we----
    Mr. Markey. Who did you ask?
    Mr. Jackson. One of my colleagues at NHTSA when I got to 
the department, and we have been working on this for some time, 
and I'm jumping the gun a little bit, but happy to tell you 
that this summer we will be publishing a notice in the Federal 
Register that summarizes the data, the information that we've 
gathered about the roof crush issue and solicits in a formal 
way input that could lead to a formal review of those standards 
and issues.
    Mr. Stearns. The gentleman's time has expired.
    Mr. Markey. May I, Mr. Chairman, just have 30 additional 
seconds?
    Mr. Stearns. Absolutely.
    Mr. Markey. I think he has just made big news here today, 
Mr. Chairman, if I may, in terms of an advance that I don't 
think anyone anticipated coming into today's hearing room. So 
do you anticipate that that will lead toward the promulgation 
of a rule dealing with----
    Mr. Jackson. We're going to get that data in, and we will 
assess it, and I would not like to forecast or speculate about 
the choices or options that we would make, but it will 
certainly create a public record that helps us evaluate, in a 
reasonable amount of time, this issue.
    Mr. Markey. And, again, knowing that there hasn't been an 
upgrade of this standard in 30 years, is it fair to say that 
you believe it's time for us to review that standard and to 
update it?
    Mr. Jackson. I think it's time to do exactly what we're 
going to do, get this conversation going in the public arena 
with the information that we have on the table suggesting to us 
that we need to take a very, very careful look at it.
    Mr. Markey. He's made less news than I thought he was 
making, Mr. Chairman.
    Mr. Stearns. Sounds like a----
    Mr. Markey. I will listen more carefully the second time 
and----
    Mr. Jackson. I'm not trying to--market.
    Mr. Markey. And I'll say this. I think it's a mistake that 
you're not doing it. I think you could do it on your own. We 
now know that thousands of lives could be saved if you put this 
standard on the books and the industry had to meet it, and we 
know that if they could increase the weight in these vehicles 
from 5,000 to 5,600 pounds over a 5-year period. It's not that 
they're afraid to add extra weight to the vehicles, because we 
know they're not concerned about fuel economy standards. 
They're the least fuel-efficient vehicles on the road. They're 
just packing it with all this additional weight. But all we 
need is a bar over the head of these families, so that when the 
vehicle rolls over because of its propensity, that their lives 
aren't going to be unnecessarily lost. So I think you should do 
it. I think you're making a big mistake if you don't and you're 
going to be held accountable.
    And second, if it's a cost issue, if you don't have the 
money, you should ask us for the money. We'll give you the 
money to put something this important on the books. I 
appreciate the fact that you're commencing. I can see from your 
testimony today the sincerity of your interest on the subject. 
I hope that we can help you to be successful inside your 
administration and----
    Mr. Jackson. Thank you, and we'll seek that help.
    Mr. Chairman, if I just may, on this issue I am not trying 
to equivocate or be cute. I am trying to be responsible and 
tell you that this really is an important issue to look at and 
to reserve judgment about exactly how to proceed once we launch 
this conversation publicly.
    Mr. Markey. Then I take that, Mr. Jackson, as a good faith, 
you know, promise to the committee, and I thank you for 
volunteering that information.
    Mr. Jackson. And I know of your interest in it. If you 
would like me to keep you personally involved and informed 
about what we're doing, then I would be happy to do that.
    Mr. Markey. I would appreciate that. Thank you, sir. 
Appreciate it.
    Mr. Stearns. All right. The gentleman, Mr. Sawyer, is 
recognized for 5 minutes.
    Mr. Sawyer. Mr. Chairman, some day I hope to be able to 
stretch 5 minutes as well as my colleague from Massachusetts.
    Let me just say, first of all, thank you very much for your 
testimony here today and for all of the work that you have been 
doing. I have to confess that I am both troubled and comforted 
by what you've said here today. I am comforted by your 
willingness to go beyond what you have been requested to do to 
look at the questions of vehicle interaction with tires, and I 
think that's important for you to do. I'm troubled, in that you 
seem to operate from the presumption that it is the tire that 
fails and therefore causes the difficulty with the vehicle. I 
think that may well be true. But it is also true that the 
behavior of the vehicle affects the performance of the tire and 
may, in fact, be a causal factor in the failure.
    It is--it is true that the tire standards have not changed 
since 1968, and the change in technology has been enormous. 
Simply going from bias to radial technology has been enormous. 
It seems to me that the testing protocols that go with that 
change in technology need to change as well and that the kind 
of in-depth analysis that you've listed in your testimony, the 
shearography, the sectioning, the adhesion testing, the rig 
testing on drums, important dynamic testing in its own right, 
but not vehicular dynamics. Chemical analyses and other 
physical measurements are all important, but we simply need to 
get to an understanding of the way each of the products affect 
the performance of the other.
    If I could only suggest--you talked about the importance of 
the relevant variables. If you simply look at the difference in 
weight distribution between the Explorer and the Ranger, it 
seems to me that there may well be a reason to understand the 
difference in rear tire performance because of the polar moment 
of inertia that comes at the loss of adhesion. It's critically 
important.
    Let me just turn in conclusion to--and then if you want to 
comment on any of this, please feel free to. If--when you were 
asked about any advice that you might give to the American 
people, I hope that the next time you're asked that, you will 
reply, inflate your tires; check them regularly; it has a 
profound affect on their life and their performance, and it may 
have a profound affect on your life as well. Any comments?
    Mr. Jackson. I couldn't agree more with that.
    Mr. Sawyer. Thank you very much, Mr. Chairman.
    Mr. Stearns. I thank my colleagues. We are now at the end 
of this hearing that has lasted almost 7\1/2\ straight hours. I 
want to thank the staffs on both sides for an excellent job of 
preparation. I want to thank you, Mr. Jackson, and your 
colleagues for waiting through this period. I think we've had a 
very thoughtful hearing. You've indicated you have the 
resources so that you can go ahead and accomplish what needs to 
be done. I also believe we've posed important questions for the 
American public by hearing both sides of these issues.
    And in the end, you are the impartial body. You are 
responsible to make sure that the real answers come forward and 
not us on either side. So we're relying on you, because 
ultimately, the vehicles and the tires are going to be safe 
because of your work. So it's a very serious project you have 
before you. So I want to again thank you. I also want to thank 
my chairman, Jim Greenwood from Pennsylvania for his 
cochairmanship. And with that, the----
    Mr. Sawyer. Mr. Chairman?
    Mr. Stearns. Yes.
    Mr. Sawyer. I just wanted to thank you very much for the 
opportunity to participate. Because it has been so long, I'm 
even more grateful for the chance to----
    Mr. Stearns. Well, we particularly appreciate your staying 
through the whole 7\1/2\ hours.
    With that, the two subcommittees are adjourned.
    [Whereupon, at 5:50 p.m., the subcommittees were 
adjourned.]
    [Additional material submitted for the record follows:]
    [GRAPHIC] [TIFF OMITTED] T3739.178
    
    [GRAPHIC] [TIFF OMITTED] T3739.179
    
    [GRAPHIC] [TIFF OMITTED] T3739.180
    
    [GRAPHIC] [TIFF OMITTED] T3739.181
    
    [GRAPHIC] [TIFF OMITTED] T3739.182
    
    [GRAPHIC] [TIFF OMITTED] T3739.183
    
    [GRAPHIC] [TIFF OMITTED] T3739.184
    
    [GRAPHIC] [TIFF OMITTED] T3739.185
    
    [GRAPHIC] [TIFF OMITTED] T3739.186
    
    [GRAPHIC] [TIFF OMITTED] T3739.187
    
    [GRAPHIC] [TIFF OMITTED] T3739.188
    
    [GRAPHIC] [TIFF OMITTED] T3739.189
    
    [GRAPHIC] [TIFF OMITTED] T3739.190
    
    [GRAPHIC] [TIFF OMITTED] T3739.191
    
    [GRAPHIC] [TIFF OMITTED] T3739.192
    
    [GRAPHIC] [TIFF OMITTED] T3739.193
    
    [GRAPHIC] [TIFF OMITTED] T3739.194
    
    [GRAPHIC] [TIFF OMITTED] T3739.195
    
    [GRAPHIC] [TIFF OMITTED] T3739.196
    
    [GRAPHIC] [TIFF OMITTED] T3739.197
    
    [GRAPHIC] [TIFF OMITTED] T3739.198
    
    [GRAPHIC] [TIFF OMITTED] T3739.199
    
    [GRAPHIC] [TIFF OMITTED] T3739.200
    
    [GRAPHIC] [TIFF OMITTED] T3739.201
    
    [GRAPHIC] [TIFF OMITTED] T3739.202
    
    [GRAPHIC] [TIFF OMITTED] T3739.203
    
    [GRAPHIC] [TIFF OMITTED] T3739.204
    
    [GRAPHIC] [TIFF OMITTED] T3739.205
    
    [GRAPHIC] [TIFF OMITTED] T3739.206
    
    [GRAPHIC] [TIFF OMITTED] T3739.207
    
    [GRAPHIC] [TIFF OMITTED] T3739.208
    
    [GRAPHIC] [TIFF OMITTED] T3739.209
    
    [GRAPHIC] [TIFF OMITTED] T3739.210
    
    [GRAPHIC] [TIFF OMITTED] T3739.211
    
    [GRAPHIC] [TIFF OMITTED] T3739.212
    
    [GRAPHIC] [TIFF OMITTED] T3739.213
    
    [GRAPHIC] [TIFF OMITTED] T3739.214
    
    [GRAPHIC] [TIFF OMITTED] T3739.215
    
    [GRAPHIC] [TIFF OMITTED] T3739.216
    
    [GRAPHIC] [TIFF OMITTED] T3739.217
    
    [GRAPHIC] [TIFF OMITTED] T3739.218
    
    [GRAPHIC] [TIFF OMITTED] T3739.219
    
    [GRAPHIC] [TIFF OMITTED] T3739.220
    
    [GRAPHIC] [TIFF OMITTED] T3739.221
    
    [GRAPHIC] [TIFF OMITTED] T3739.222
    
    [GRAPHIC] [TIFF OMITTED] T3739.223
    
    [GRAPHIC] [TIFF OMITTED] T3739.224
    
    [GRAPHIC] [TIFF OMITTED] T3739.225
    
    [GRAPHIC] [TIFF OMITTED] T3739.226
    
    [GRAPHIC] [TIFF OMITTED] T3739.227
    
    [GRAPHIC] [TIFF OMITTED] T3739.228
    
    [GRAPHIC] [TIFF OMITTED] T3739.229
    
    [GRAPHIC] [TIFF OMITTED] T3739.230
    
    [GRAPHIC] [TIFF OMITTED] T3739.231
    
    [GRAPHIC] [TIFF OMITTED] T3739.232
    
    [GRAPHIC] [TIFF OMITTED] T3739.233
    
    [GRAPHIC] [TIFF OMITTED] T3739.234
    
    [GRAPHIC] [TIFF OMITTED] T3739.235
    
    [GRAPHIC] [TIFF OMITTED] T3739.236
    
    [GRAPHIC] [TIFF OMITTED] T3739.237
    
    [GRAPHIC] [TIFF OMITTED] T3739.238
    
    [GRAPHIC] [TIFF OMITTED] T3739.239
    
    [GRAPHIC] [TIFF OMITTED] T3739.240
    
    [GRAPHIC] [TIFF OMITTED] T3739.241
    
    [GRAPHIC] [TIFF OMITTED] T3739.242
    
    [GRAPHIC] [TIFF OMITTED] T3739.243
    
    [GRAPHIC] [TIFF OMITTED] T3739.244
    
    [GRAPHIC] [TIFF OMITTED] T3739.245
    
    [GRAPHIC] [TIFF OMITTED] T3739.246
    
    [GRAPHIC] [TIFF OMITTED] T3739.247
    
    [GRAPHIC] [TIFF OMITTED] T3739.248
    
    [GRAPHIC] [TIFF OMITTED] T3739.249
    
    [GRAPHIC] [TIFF OMITTED] T3739.250
    
    [GRAPHIC] [TIFF OMITTED] T3739.251
    
    [GRAPHIC] [TIFF OMITTED] T3739.252
    
    [GRAPHIC] [TIFF OMITTED] T3739.253
    
    [GRAPHIC] [TIFF OMITTED] T3739.254
    
    [GRAPHIC] [TIFF OMITTED] T3739.255
    
    [GRAPHIC] [TIFF OMITTED] T3739.256
    
    [GRAPHIC] [TIFF OMITTED] T3739.257
    
    [GRAPHIC] [TIFF OMITTED] T3739.258
    
    [GRAPHIC] [TIFF OMITTED] T3739.259
    
    [GRAPHIC] [TIFF OMITTED] T3739.260
    
    [GRAPHIC] [TIFF OMITTED] T3739.261
    
    [GRAPHIC] [TIFF OMITTED] T3739.262
    
    [GRAPHIC] [TIFF OMITTED] T3739.263
    
    [GRAPHIC] [TIFF OMITTED] T3739.264
    
    [GRAPHIC] [TIFF OMITTED] T3739.265
    
    [GRAPHIC] [TIFF OMITTED] T3739.266
    
    [GRAPHIC] [TIFF OMITTED] T3739.267
    
    [GRAPHIC] [TIFF OMITTED] T3739.268
    
    [GRAPHIC] [TIFF OMITTED] T3739.269
    
    [GRAPHIC] [TIFF OMITTED] T3739.270
    
    [GRAPHIC] [TIFF OMITTED] T3739.271
    
    [GRAPHIC] [TIFF OMITTED] T3739.272
    
    [GRAPHIC] [TIFF OMITTED] T3739.273
    
    [GRAPHIC] [TIFF OMITTED] T3739.274
    
    [GRAPHIC] [TIFF OMITTED] T3739.275
    
    [GRAPHIC] [TIFF OMITTED] T3739.276
    
    [GRAPHIC] [TIFF OMITTED] T3739.277
    
    [GRAPHIC] [TIFF OMITTED] T3739.278
    
    [GRAPHIC] [TIFF OMITTED] T3739.279
    
    [GRAPHIC] [TIFF OMITTED] T3739.280
    
    [GRAPHIC] [TIFF OMITTED] T3739.281
    
    [GRAPHIC] [TIFF OMITTED] T3739.282
    
    [GRAPHIC] [TIFF OMITTED] T3739.283
    
    [GRAPHIC] [TIFF OMITTED] T3739.284
    
    [GRAPHIC] [TIFF OMITTED] T3739.285
    
    [GRAPHIC] [TIFF OMITTED] T3739.286
    
    [GRAPHIC] [TIFF OMITTED] T3739.287
    
    [GRAPHIC] [TIFF OMITTED] T3739.288
    
    [GRAPHIC] [TIFF OMITTED] T3739.289
    
    [GRAPHIC] [TIFF OMITTED] T3739.290
    
    [GRAPHIC] [TIFF OMITTED] T3739.291
    
    [GRAPHIC] [TIFF OMITTED] T3739.292
    
    [GRAPHIC] [TIFF OMITTED] T3739.293
    
    [GRAPHIC] [TIFF OMITTED] T3739.294
    
    [GRAPHIC] [TIFF OMITTED] T3739.295
    
    [GRAPHIC] [TIFF OMITTED] T3739.296
    
    [GRAPHIC] [TIFF OMITTED] T3739.297
    
    [GRAPHIC] [TIFF OMITTED] T3739.298
    
    [GRAPHIC] [TIFF OMITTED] T3739.299
    
    [GRAPHIC] [TIFF OMITTED] T3739.300
    
    [GRAPHIC] [TIFF OMITTED] T3739.301
    
    [GRAPHIC] [TIFF OMITTED] T3739.302
    
    [GRAPHIC] [TIFF OMITTED] T3739.303
    
    [GRAPHIC] [TIFF OMITTED] T3739.304
    
    [GRAPHIC] [TIFF OMITTED] T3739.305
    
    [GRAPHIC] [TIFF OMITTED] T3739.306
    
    [GRAPHIC] [TIFF OMITTED] T3739.307
    
    [GRAPHIC] [TIFF OMITTED] T3739.308
    
    [GRAPHIC] [TIFF OMITTED] T3739.309
    
    [GRAPHIC] [TIFF OMITTED] T3739.310
    
    [GRAPHIC] [TIFF OMITTED] T3739.311
    
    [GRAPHIC] [TIFF OMITTED] T3739.312
    
    [GRAPHIC] [TIFF OMITTED] T3739.313
    
    [GRAPHIC] [TIFF OMITTED] T3739.314
    
    [GRAPHIC] [TIFF OMITTED] T3739.315
    
    [GRAPHIC] [TIFF OMITTED] T3739.316
    
    [GRAPHIC] [TIFF OMITTED] T3739.317
    
    [GRAPHIC] [TIFF OMITTED] T3739.318
    
    [GRAPHIC] [TIFF OMITTED] T3739.319
    
    [GRAPHIC] [TIFF OMITTED] T3739.320
    
    [GRAPHIC] [TIFF OMITTED] T3739.321
    
    [GRAPHIC] [TIFF OMITTED] T3739.322
    
    [GRAPHIC] [TIFF OMITTED] T3739.323
    
    [GRAPHIC] [TIFF OMITTED] T3739.324
    
    [GRAPHIC] [TIFF OMITTED] T3739.325
    
    [GRAPHIC] [TIFF OMITTED] T3739.326
    
    [GRAPHIC] [TIFF OMITTED] T3739.327
    
    [GRAPHIC] [TIFF OMITTED] T3739.328
    
    [GRAPHIC] [TIFF OMITTED] T3739.329
    
    [GRAPHIC] [TIFF OMITTED] T3739.330
    
    [GRAPHIC] [TIFF OMITTED] T3739.331
    
    [GRAPHIC] [TIFF OMITTED] T3739.332
    
    [GRAPHIC] [TIFF OMITTED] T3739.333
    
    [GRAPHIC] [TIFF OMITTED] T3739.334
    
    [GRAPHIC] [TIFF OMITTED] T3739.335
    
    [GRAPHIC] [TIFF OMITTED] T3739.336
    
    [GRAPHIC] [TIFF OMITTED] T3739.337
    
    [GRAPHIC] [TIFF OMITTED] T3739.338
    
    [GRAPHIC] [TIFF OMITTED] T3739.339
    
    [GRAPHIC] [TIFF OMITTED] T3739.340
    
    [GRAPHIC] [TIFF OMITTED] T3739.341
    
    [GRAPHIC] [TIFF OMITTED] T3739.342
    
    [GRAPHIC] [TIFF OMITTED] T3739.343
    
    [GRAPHIC] [TIFF OMITTED] T3739.344
    
    [GRAPHIC] [TIFF OMITTED] T3739.345
    
    [GRAPHIC] [TIFF OMITTED] T3739.346
    
    [GRAPHIC] [TIFF OMITTED] T3739.347
    
    [GRAPHIC] [TIFF OMITTED] T3739.348
    
    [GRAPHIC] [TIFF OMITTED] T3739.349
    
    [GRAPHIC] [TIFF OMITTED] T3739.350
    
    [GRAPHIC] [TIFF OMITTED] T3739.351
    
    [GRAPHIC] [TIFF OMITTED] T3739.352
    
    [GRAPHIC] [TIFF OMITTED] T3739.353
    
    [GRAPHIC] [TIFF OMITTED] T3739.354
    
    [GRAPHIC] [TIFF OMITTED] T3739.355
    
    [GRAPHIC] [TIFF OMITTED] T3739.356
    
    [GRAPHIC] [TIFF OMITTED] T3739.357
    
    [GRAPHIC] [TIFF OMITTED] T3739.358
    
    [GRAPHIC] [TIFF OMITTED] T3739.359
    
    [GRAPHIC] [TIFF OMITTED] T3739.360
    
    [GRAPHIC] [TIFF OMITTED] T3739.361
    
    [GRAPHIC] [TIFF OMITTED] T3739.362
    
    [GRAPHIC] [TIFF OMITTED] T3739.363
    
    [GRAPHIC] [TIFF OMITTED] T3739.364
    
    [GRAPHIC] [TIFF OMITTED] T3739.365
    
    [GRAPHIC] [TIFF OMITTED] T3739.366
    
    [GRAPHIC] [TIFF OMITTED] T3739.367
    
    [GRAPHIC] [TIFF OMITTED] T3739.368
    
    [GRAPHIC] [TIFF OMITTED] T3739.369
    
    [GRAPHIC] [TIFF OMITTED] T3739.370
    
    [GRAPHIC] [TIFF OMITTED] T3739.371
    
    [GRAPHIC] [TIFF OMITTED] T3739.372
    
    [GRAPHIC] [TIFF OMITTED] T3739.373
    
    [GRAPHIC] [TIFF OMITTED] T3739.374
    
    [GRAPHIC] [TIFF OMITTED] T3739.375
    
    [GRAPHIC] [TIFF OMITTED] T3739.376
    
    [GRAPHIC] [TIFF OMITTED] T3739.377
    
    [GRAPHIC] [TIFF OMITTED] T3739.378
    
    [GRAPHIC] [TIFF OMITTED] T3739.379
    
    [GRAPHIC] [TIFF OMITTED] T3739.380
    
    [GRAPHIC] [TIFF OMITTED] T3739.381
    
    [GRAPHIC] [TIFF OMITTED] T3739.382
    
    [GRAPHIC] [TIFF OMITTED] T3739.383
    
    [GRAPHIC] [TIFF OMITTED] T3739.384
    
    [GRAPHIC] [TIFF OMITTED] T3739.385
    
    [GRAPHIC] [TIFF OMITTED] T3739.386
    
    [GRAPHIC] [TIFF OMITTED] T3739.387
    
    [GRAPHIC] [TIFF OMITTED] T3739.388
    
    [GRAPHIC] [TIFF OMITTED] T3739.389
    
    [GRAPHIC] [TIFF OMITTED] T3739.390
    
    [GRAPHIC] [TIFF OMITTED] T3739.391
    
    [GRAPHIC] [TIFF OMITTED] T3739.392
    
    [GRAPHIC] [TIFF OMITTED] T3739.393
    
    [GRAPHIC] [TIFF OMITTED] T3739.394
    
    [GRAPHIC] [TIFF OMITTED] T3739.395
    
    [GRAPHIC] [TIFF OMITTED] T3739.396
    
    [GRAPHIC] [TIFF OMITTED] T3739.397
    
    [GRAPHIC] [TIFF OMITTED] T3739.398
    
    [GRAPHIC] [TIFF OMITTED] T3739.399
    
    [GRAPHIC] [TIFF OMITTED] T3739.400
    
    [GRAPHIC] [TIFF OMITTED] T3739.401
    
    [GRAPHIC] [TIFF OMITTED] T3739.402
    
    [GRAPHIC] [TIFF OMITTED] T3739.403
    
    [GRAPHIC] [TIFF OMITTED] T3739.404
    
    [GRAPHIC] [TIFF OMITTED] T3739.405
    
    [GRAPHIC] [TIFF OMITTED] T3739.406
    
    [GRAPHIC] [TIFF OMITTED] T3739.407
    
    [GRAPHIC] [TIFF OMITTED] T3739.408
    
    [GRAPHIC] [TIFF OMITTED] T3739.409
    
    [GRAPHIC] [TIFF OMITTED] T3739.410
    
    [GRAPHIC] [TIFF OMITTED] T3739.411
    
    [GRAPHIC] [TIFF OMITTED] T3739.412
    
    [GRAPHIC] [TIFF OMITTED] T3739.413
    
    [GRAPHIC] [TIFF OMITTED] T3739.414
    
    [GRAPHIC] [TIFF OMITTED] T3739.415
    
    [GRAPHIC] [TIFF OMITTED] T3739.416
    
    [GRAPHIC] [TIFF OMITTED] T3739.417
    
    [GRAPHIC] [TIFF OMITTED] T3739.418
    
    [GRAPHIC] [TIFF OMITTED] T3739.419
    
    [GRAPHIC] [TIFF OMITTED] T3739.420
    
    [GRAPHIC] [TIFF OMITTED] T3739.421
    
    [GRAPHIC] [TIFF OMITTED] T3739.422
    
    [GRAPHIC] [TIFF OMITTED] T3739.423
    
    [GRAPHIC] [TIFF OMITTED] T3739.424
    
    [GRAPHIC] [TIFF OMITTED] T3739.425
    
    [GRAPHIC] [TIFF OMITTED] T3739.426
    
    [GRAPHIC] [TIFF OMITTED] T3739.427
    
    [GRAPHIC] [TIFF OMITTED] T3739.428
    
    [GRAPHIC] [TIFF OMITTED] T3739.429
    
    [GRAPHIC] [TIFF OMITTED] T3739.430
    
    [GRAPHIC] [TIFF OMITTED] T3739.431
    
    [GRAPHIC] [TIFF OMITTED] T3739.432
    
    [GRAPHIC] [TIFF OMITTED] T3739.433
    
    [GRAPHIC] [TIFF OMITTED] T3739.434
    
    [GRAPHIC] [TIFF OMITTED] T3739.435
    
    [GRAPHIC] [TIFF OMITTED] T3739.436
    
    [GRAPHIC] [TIFF OMITTED] T3739.437
    
    [GRAPHIC] [TIFF OMITTED] T3739.438
    
    [GRAPHIC] [TIFF OMITTED] T3739.439
    
    [GRAPHIC] [TIFF OMITTED] T3739.440
    
    [GRAPHIC] [TIFF OMITTED] T3739.441
    
    [GRAPHIC] [TIFF OMITTED] T3739.442
    
    [GRAPHIC] [TIFF OMITTED] T3739.443
    
    [GRAPHIC] [TIFF OMITTED] T3739.444
    
    [GRAPHIC] [TIFF OMITTED] T3739.445
    
    [GRAPHIC] [TIFF OMITTED] T3739.446
    
    [GRAPHIC] [TIFF OMITTED] T3739.447
    
    [GRAPHIC] [TIFF OMITTED] T3739.448
    
    [GRAPHIC] [TIFF OMITTED] T3739.449
    
    [GRAPHIC] [TIFF OMITTED] T3739.450
    
    [GRAPHIC] [TIFF OMITTED] T3739.451
    
    [GRAPHIC] [TIFF OMITTED] T3739.452
    
    [GRAPHIC] [TIFF OMITTED] T3739.453
    
    [GRAPHIC] [TIFF OMITTED] T3739.454
    
    [GRAPHIC] [TIFF OMITTED] T3739.455
    
    [GRAPHIC] [TIFF OMITTED] T3739.456
    
    [GRAPHIC] [TIFF OMITTED] T3739.457
    
    [GRAPHIC] [TIFF OMITTED] T3739.458
    
    [GRAPHIC] [TIFF OMITTED] T3739.459
    
    [GRAPHIC] [TIFF OMITTED] T3739.460
    
    [GRAPHIC] [TIFF OMITTED] T3739.461
    
    [GRAPHIC] [TIFF OMITTED] T3739.462
    
    [GRAPHIC] [TIFF OMITTED] T3739.463
    
    [GRAPHIC] [TIFF OMITTED] T3739.464
    
    [GRAPHIC] [TIFF OMITTED] T3739.465
    
    [GRAPHIC] [TIFF OMITTED] T3739.466
    
    [GRAPHIC] [TIFF OMITTED] T3739.467
    
    [GRAPHIC] [TIFF OMITTED] T3739.468
    
    [GRAPHIC] [TIFF OMITTED] T3739.469
    
    [GRAPHIC] [TIFF OMITTED] T3739.470
    
    [GRAPHIC] [TIFF OMITTED] T3739.471
    
    [GRAPHIC] [TIFF OMITTED] T3739.472
    
    [GRAPHIC] [TIFF OMITTED] T3739.473
    
    [GRAPHIC] [TIFF OMITTED] T3739.474
    
    [GRAPHIC] [TIFF OMITTED] T3739.475
    
    [GRAPHIC] [TIFF OMITTED] T3739.476
    
    [GRAPHIC] [TIFF OMITTED] T3739.477
    
    [GRAPHIC] [TIFF OMITTED] T3739.478
    
    [GRAPHIC] [TIFF OMITTED] T3739.479
    
    [GRAPHIC] [TIFF OMITTED] T3739.480
    
    [GRAPHIC] [TIFF OMITTED] T3739.481
    
    [GRAPHIC] [TIFF OMITTED] T3739.482
    
    [GRAPHIC] [TIFF OMITTED] T3739.483
    
    [GRAPHIC] [TIFF OMITTED] T3739.484
    
    [GRAPHIC] [TIFF OMITTED] T3739.485
    
    [GRAPHIC] [TIFF OMITTED] T3739.486
    
    [GRAPHIC] [TIFF OMITTED] T3739.487
    
    [GRAPHIC] [TIFF OMITTED] T3739.488
    
    [GRAPHIC] [TIFF OMITTED] T3739.489
    
    [GRAPHIC] [TIFF OMITTED] T3739.490
    
    [GRAPHIC] [TIFF OMITTED] T3739.491
    
    [GRAPHIC] [TIFF OMITTED] T3739.492
    
    [GRAPHIC] [TIFF OMITTED] T3739.493
    
    [GRAPHIC] [TIFF OMITTED] T3739.494
    
    [GRAPHIC] [TIFF OMITTED] T3739.495
    
    [GRAPHIC] [TIFF OMITTED] T3739.496
    
    [GRAPHIC] [TIFF OMITTED] T3739.497
    
    [GRAPHIC] [TIFF OMITTED] T3739.498
    
    [GRAPHIC] [TIFF OMITTED] T3739.499
    
    [GRAPHIC] [TIFF OMITTED] T3739.500
    
    [GRAPHIC] [TIFF OMITTED] T3739.501
    
    [GRAPHIC] [TIFF OMITTED] T3739.502
    
    [GRAPHIC] [TIFF OMITTED] T3739.503
    
    [GRAPHIC] [TIFF OMITTED] T3739.504
    
    [GRAPHIC] [TIFF OMITTED] T3739.505
    
    [GRAPHIC] [TIFF OMITTED] T3739.506
    
    [GRAPHIC] [TIFF OMITTED] T3739.507
    
    [GRAPHIC] [TIFF OMITTED] T3739.508
    
    [GRAPHIC] [TIFF OMITTED] T3739.509
    
    [GRAPHIC] [TIFF OMITTED] T3739.510
    
    [GRAPHIC] [TIFF OMITTED] T3739.511
    
    [GRAPHIC] [TIFF OMITTED] T3739.512
    
    [GRAPHIC] [TIFF OMITTED] T3739.513
    
    [GRAPHIC] [TIFF OMITTED] T3739.514
    
    [GRAPHIC] [TIFF OMITTED] T3739.515
    
    [GRAPHIC] [TIFF OMITTED] T3739.516
    
    [GRAPHIC] [TIFF OMITTED] T3739.517
    
    [GRAPHIC] [TIFF OMITTED] T3739.518
    
    [GRAPHIC] [TIFF OMITTED] T3739.519
    
    [GRAPHIC] [TIFF OMITTED] T3739.520
    
    [GRAPHIC] [TIFF OMITTED] T3739.521
    
    [GRAPHIC] [TIFF OMITTED] T3739.522
    
    [GRAPHIC] [TIFF OMITTED] T3739.523
    
    [GRAPHIC] [TIFF OMITTED] T3739.524
    
    [GRAPHIC] [TIFF OMITTED] T3739.525
    
    [GRAPHIC] [TIFF OMITTED] T3739.526
    
    [GRAPHIC] [TIFF OMITTED] T3739.527
    
    [GRAPHIC] [TIFF OMITTED] T3739.528
    
    [GRAPHIC] [TIFF OMITTED] T3739.529
    
    [GRAPHIC] [TIFF OMITTED] T3739.530
    
    [GRAPHIC] [TIFF OMITTED] T3739.531
    
    [GRAPHIC] [TIFF OMITTED] T3739.532
    
    [GRAPHIC] [TIFF OMITTED] T3739.533
    
    [GRAPHIC] [TIFF OMITTED] T3739.534
    
    [GRAPHIC] [TIFF OMITTED] T3739.535
    
    [GRAPHIC] [TIFF OMITTED] T3739.536
    
    [GRAPHIC] [TIFF OMITTED] T3739.537
    
    [GRAPHIC] [TIFF OMITTED] T3739.538
    
    [GRAPHIC] [TIFF OMITTED] T3739.539
    
    [GRAPHIC] [TIFF OMITTED] T3739.540
    
    [GRAPHIC] [TIFF OMITTED] T3739.541
    
    [GRAPHIC] [TIFF OMITTED] T3739.542
    
    [GRAPHIC] [TIFF OMITTED] T3739.543
    
    [GRAPHIC] [TIFF OMITTED] T3739.544
    
    [GRAPHIC] [TIFF OMITTED] T3739.545
    
    [GRAPHIC] [TIFF OMITTED] T3739.546
    
    [GRAPHIC] [TIFF OMITTED] T3739.547
    
    [GRAPHIC] [TIFF OMITTED] T3739.548
    
    [GRAPHIC] [TIFF OMITTED] T3739.549
    
    [GRAPHIC] [TIFF OMITTED] T3739.550
    
    [GRAPHIC] [TIFF OMITTED] T3739.551
    
    [GRAPHIC] [TIFF OMITTED] T3739.552
    
    [GRAPHIC] [TIFF OMITTED] T3739.553
    
    [GRAPHIC] [TIFF OMITTED] T3739.554
    
    [GRAPHIC] [TIFF OMITTED] T3739.555
    
    [GRAPHIC] [TIFF OMITTED] T3739.556
    
    [GRAPHIC] [TIFF OMITTED] T3739.557
    
    [GRAPHIC] [TIFF OMITTED] T3739.558
    
    [GRAPHIC] [TIFF OMITTED] T3739.559
    
    [GRAPHIC] [TIFF OMITTED] T3739.560
    
    [GRAPHIC] [TIFF OMITTED] T3739.561
    
    [GRAPHIC] [TIFF OMITTED] T3739.562
    
    [GRAPHIC] [TIFF OMITTED] T3739.563
    
    [GRAPHIC] [TIFF OMITTED] T3739.564
    
    [GRAPHIC] [TIFF OMITTED] T3739.565
    
    [GRAPHIC] [TIFF OMITTED] T3739.566
    
    [GRAPHIC] [TIFF OMITTED] T3739.567
    
    [GRAPHIC] [TIFF OMITTED] T3739.568
    
    [GRAPHIC] [TIFF OMITTED] T3739.569
    
    [GRAPHIC] [TIFF OMITTED] T3739.570
    
    [GRAPHIC] [TIFF OMITTED] T3739.571
    
    [GRAPHIC] [TIFF OMITTED] T3739.572
    
    [GRAPHIC] [TIFF OMITTED] T3739.573
    
    [GRAPHIC] [TIFF OMITTED] T3739.574
    
    [GRAPHIC] [TIFF OMITTED] T3739.575
    
    [GRAPHIC] [TIFF OMITTED] T3739.576
    
    [GRAPHIC] [TIFF OMITTED] T3739.577
    
    [GRAPHIC] [TIFF OMITTED] T3739.578
    
    [GRAPHIC] [TIFF OMITTED] T3739.579
    
    [GRAPHIC] [TIFF OMITTED] T3739.580
    
    [GRAPHIC] [TIFF OMITTED] T3739.581
    
    [GRAPHIC] [TIFF OMITTED] T3739.582
    
    [GRAPHIC] [TIFF OMITTED] T3739.583
    
    [GRAPHIC] [TIFF OMITTED] T3739.584
    
    [GRAPHIC] [TIFF OMITTED] T3739.585
    
    [GRAPHIC] [TIFF OMITTED] T3739.586
    
    [GRAPHIC] [TIFF OMITTED] T3739.587
    
    [GRAPHIC] [TIFF OMITTED] T3739.588
    
    [GRAPHIC] [TIFF OMITTED] T3739.589
    
    [GRAPHIC] [TIFF OMITTED] T3739.590
    
    [GRAPHIC] [TIFF OMITTED] T3739.591
    
    [GRAPHIC] [TIFF OMITTED] T3739.592
    
    [GRAPHIC] [TIFF OMITTED] T3739.593
    
    [GRAPHIC] [TIFF OMITTED] T3739.594
    
    [GRAPHIC] [TIFF OMITTED] T3739.595
    
    [GRAPHIC] [TIFF OMITTED] T3739.596
    
    [GRAPHIC] [TIFF OMITTED] T3739.597
    
    [GRAPHIC] [TIFF OMITTED] T3739.598
    
    [GRAPHIC] [TIFF OMITTED] T3739.599
    
    [GRAPHIC] [TIFF OMITTED] T3739.600
    
    [GRAPHIC] [TIFF OMITTED] T3739.601
    
    [GRAPHIC] [TIFF OMITTED] T3739.602
    
    [GRAPHIC] [TIFF OMITTED] T3739.603
    
    [GRAPHIC] [TIFF OMITTED] T3739.604
    
    [GRAPHIC] [TIFF OMITTED] T3739.605
    
    [GRAPHIC] [TIFF OMITTED] T3739.606
    
    [GRAPHIC] [TIFF OMITTED] T3739.607
    
    [GRAPHIC] [TIFF OMITTED] T3739.608
    
    [GRAPHIC] [TIFF OMITTED] T3739.609
    
    [GRAPHIC] [TIFF OMITTED] T3739.610
    
    [GRAPHIC] [TIFF OMITTED] T3739.611
    
    [GRAPHIC] [TIFF OMITTED] T3739.612
    
    [GRAPHIC] [TIFF OMITTED] T3739.613
    
    [GRAPHIC] [TIFF OMITTED] T3739.614
    
    [GRAPHIC] [TIFF OMITTED] T3739.615
    
    [GRAPHIC] [TIFF OMITTED] T3739.616
    
    [GRAPHIC] [TIFF OMITTED] T3739.617
    
    [GRAPHIC] [TIFF OMITTED] T3739.618
    
    [GRAPHIC] [TIFF OMITTED] T3739.619
    
    [GRAPHIC] [TIFF OMITTED] T3739.620
    
    [GRAPHIC] [TIFF OMITTED] T3739.621
    
    [GRAPHIC] [TIFF OMITTED] T3739.622
    
    [GRAPHIC] [TIFF OMITTED] T3739.623
    
    [GRAPHIC] [TIFF OMITTED] T3739.624
    
    [GRAPHIC] [TIFF OMITTED] T3739.625
    
    [GRAPHIC] [TIFF OMITTED] T3739.626
    
    [GRAPHIC] [TIFF OMITTED] T3739.627
    
    [GRAPHIC] [TIFF OMITTED] T3739.628
    
    [GRAPHIC] [TIFF OMITTED] T3739.629
    
    [GRAPHIC] [TIFF OMITTED] T3739.630
    
    [GRAPHIC] [TIFF OMITTED] T3739.631
    
    [GRAPHIC] [TIFF OMITTED] T3739.632
    
    [GRAPHIC] [TIFF OMITTED] T3739.633
    
    [GRAPHIC] [TIFF OMITTED] T3739.634
    
    [GRAPHIC] [TIFF OMITTED] T3739.635
    
    [GRAPHIC] [TIFF OMITTED] T3739.636
    
    [GRAPHIC] [TIFF OMITTED] T3739.637
    
    [GRAPHIC] [TIFF OMITTED] T3739.638
    
    [GRAPHIC] [TIFF OMITTED] T3739.639
    
    [GRAPHIC] [TIFF OMITTED] T3739.640
    
    [GRAPHIC] [TIFF OMITTED] T3739.641
    
    [GRAPHIC] [TIFF OMITTED] T3739.642
    
    [GRAPHIC] [TIFF OMITTED] T3739.643
    
    [GRAPHIC] [TIFF OMITTED] T3739.644
    
    [GRAPHIC] [TIFF OMITTED] T3739.645
    
    [GRAPHIC] [TIFF OMITTED] T3739.646
    
    [GRAPHIC] [TIFF OMITTED] T3739.647
    
    [GRAPHIC] [TIFF OMITTED] T3739.648
    
    [GRAPHIC] [TIFF OMITTED] T3739.649
    
    [GRAPHIC] [TIFF OMITTED] T3739.650
    
    [GRAPHIC] [TIFF OMITTED] T3739.651
    
    [GRAPHIC] [TIFF OMITTED] T3739.652
    
    [GRAPHIC] [TIFF OMITTED] T3739.653
    
    [GRAPHIC] [TIFF OMITTED] T3739.654
    
    [GRAPHIC] [TIFF OMITTED] T3739.655
    
    [GRAPHIC] [TIFF OMITTED] T3739.656
    
    [GRAPHIC] [TIFF OMITTED] T3739.657
    
    [GRAPHIC] [TIFF OMITTED] T3739.658
    
    [GRAPHIC] [TIFF OMITTED] T3739.659
    
    [GRAPHIC] [TIFF OMITTED] T3739.660
    
    [GRAPHIC] [TIFF OMITTED] T3739.661
    
    [GRAPHIC] [TIFF OMITTED] T3739.662
    
    [GRAPHIC] [TIFF OMITTED] T3739.663
    
    [GRAPHIC] [TIFF OMITTED] T3739.664
    
    [GRAPHIC] [TIFF OMITTED] T3739.665
    
    [GRAPHIC] [TIFF OMITTED] T3739.666
    
    [GRAPHIC] [TIFF OMITTED] T3739.667
    
    [GRAPHIC] [TIFF OMITTED] T3739.668
    
    [GRAPHIC] [TIFF OMITTED] T3739.669
    
    [GRAPHIC] [TIFF OMITTED] T3739.670
    
    [GRAPHIC] [TIFF OMITTED] T3739.671
    
    [GRAPHIC] [TIFF OMITTED] T3739.672
    
    [GRAPHIC] [TIFF OMITTED] T3739.673
    
    [GRAPHIC] [TIFF OMITTED] T3739.674
    
    [GRAPHIC] [TIFF OMITTED] T3739.675
    
    [GRAPHIC] [TIFF OMITTED] T3739.676
    
    [GRAPHIC] [TIFF OMITTED] T3739.677
    
    [GRAPHIC] [TIFF OMITTED] T3739.678
    
    [GRAPHIC] [TIFF OMITTED] T3739.679
    
    [GRAPHIC] [TIFF OMITTED] T3739.680
    
    [GRAPHIC] [TIFF OMITTED] T3739.681
    
    [GRAPHIC] [TIFF OMITTED] T3739.682
    
    [GRAPHIC] [TIFF OMITTED] T3739.683
    
    [GRAPHIC] [TIFF OMITTED] T3739.684
    
    [GRAPHIC] [TIFF OMITTED] T3739.685
    
    [GRAPHIC] [TIFF OMITTED] T3739.686
    
    [GRAPHIC] [TIFF OMITTED] T3739.687
    
    [GRAPHIC] [TIFF OMITTED] T3739.688
    
    [GRAPHIC] [TIFF OMITTED] T3739.689
    
    [GRAPHIC] [TIFF OMITTED] T3739.690
    
    [GRAPHIC] [TIFF OMITTED] T3739.691
    
    [GRAPHIC] [TIFF OMITTED] T3739.692
    
    [GRAPHIC] [TIFF OMITTED] T3739.693
    
    [GRAPHIC] [TIFF OMITTED] T3739.694
    
    [GRAPHIC] [TIFF OMITTED] T3739.695
    
    [GRAPHIC] [TIFF OMITTED] T3739.696
    
    [GRAPHIC] [TIFF OMITTED] T3739.697
    
    [GRAPHIC] [TIFF OMITTED] T3739.698
    
    [GRAPHIC] [TIFF OMITTED] T3739.699
    
    [GRAPHIC] [TIFF OMITTED] T3739.700
    
    [GRAPHIC] [TIFF OMITTED] T3739.701
    
    [GRAPHIC] [TIFF OMITTED] T3739.702
    
    [GRAPHIC] [TIFF OMITTED] T3739.703
    
    [GRAPHIC] [TIFF OMITTED] T3739.704
    
    [GRAPHIC] [TIFF OMITTED] T3739.705
    
    [GRAPHIC] [TIFF OMITTED] T3739.706
    
    [GRAPHIC] [TIFF OMITTED] T3739.707
    
    [GRAPHIC] [TIFF OMITTED] T3739.708
    
    [GRAPHIC] [TIFF OMITTED] T3739.709
    
    [GRAPHIC] [TIFF OMITTED] T3739.710
    
    [GRAPHIC] [TIFF OMITTED] T3739.711
    
    [GRAPHIC] [TIFF OMITTED] T3739.712
    
    [GRAPHIC] [TIFF OMITTED] T3739.713
    
    [GRAPHIC] [TIFF OMITTED] T3739.714
    
    [GRAPHIC] [TIFF OMITTED] T3739.715
    
    [GRAPHIC] [TIFF OMITTED] T3739.716
    
    [GRAPHIC] [TIFF OMITTED] T3739.717
    
    [GRAPHIC] [TIFF OMITTED] T3739.718
    
    [GRAPHIC] [TIFF OMITTED] T3739.719
    
    [GRAPHIC] [TIFF OMITTED] T3739.720
    
    [GRAPHIC] [TIFF OMITTED] T3739.721
    
    [GRAPHIC] [TIFF OMITTED] T3739.722
    
    [GRAPHIC] [TIFF OMITTED] T3739.723
    
    [GRAPHIC] [TIFF OMITTED] T3739.724
    
    [GRAPHIC] [TIFF OMITTED] T3739.725
    
    [GRAPHIC] [TIFF OMITTED] T3739.726
    
    [GRAPHIC] [TIFF OMITTED] T3739.727
    
    [GRAPHIC] [TIFF OMITTED] T3739.728
    
    [GRAPHIC] [TIFF OMITTED] T3739.729
    
    [GRAPHIC] [TIFF OMITTED] T3739.730
    
    [GRAPHIC] [TIFF OMITTED] T3739.731
    
    [GRAPHIC] [TIFF OMITTED] T3739.732
    
    [GRAPHIC] [TIFF OMITTED] T3739.733
    
    [GRAPHIC] [TIFF OMITTED] T3739.734
    
    [GRAPHIC] [TIFF OMITTED] T3739.735
    
    [GRAPHIC] [TIFF OMITTED] T3739.736
    
    [GRAPHIC] [TIFF OMITTED] T3739.737
    
    [GRAPHIC] [TIFF OMITTED] T3739.738
    
    [GRAPHIC] [TIFF OMITTED] T3739.739
    
    [GRAPHIC] [TIFF OMITTED] T3739.740
    
    [GRAPHIC] [TIFF OMITTED] T3739.741
    
    [GRAPHIC] [TIFF OMITTED] T3739.742
    
    [GRAPHIC] [TIFF OMITTED] T3739.743
    
    [GRAPHIC] [TIFF OMITTED] T3739.744
    
    [GRAPHIC] [TIFF OMITTED] T3739.745
    
    [GRAPHIC] [TIFF OMITTED] T3739.746
    
    [GRAPHIC] [TIFF OMITTED] T3739.747
    
    [GRAPHIC] [TIFF OMITTED] T3739.748
    
    [GRAPHIC] [TIFF OMITTED] T3739.749
    
    [GRAPHIC] [TIFF OMITTED] T3739.750
    
    [GRAPHIC] [TIFF OMITTED] T3739.751
    
    [GRAPHIC] [TIFF OMITTED] T3739.752
    
    [GRAPHIC] [TIFF OMITTED] T3739.753
    
    [GRAPHIC] [TIFF OMITTED] T3739.754
    
    [GRAPHIC] [TIFF OMITTED] T3739.755
    
    [GRAPHIC] [TIFF OMITTED] T3739.756
    
    [GRAPHIC] [TIFF OMITTED] T3739.757
    
    [GRAPHIC] [TIFF OMITTED] T3739.758
    
    [GRAPHIC] [TIFF OMITTED] T3739.759
    
    [GRAPHIC] [TIFF OMITTED] T3739.760
    
    [GRAPHIC] [TIFF OMITTED] T3739.761
    
    [GRAPHIC] [TIFF OMITTED] T3739.762
    
    [GRAPHIC] [TIFF OMITTED] T3739.763
    
    [GRAPHIC] [TIFF OMITTED] T3739.764
    
    [GRAPHIC] [TIFF OMITTED] T3739.765
    
    [GRAPHIC] [TIFF OMITTED] T3739.766
    
    [GRAPHIC] [TIFF OMITTED] T3739.767
    
    [GRAPHIC] [TIFF OMITTED] T3739.768
    
    [GRAPHIC] [TIFF OMITTED] T3739.769
    
    [GRAPHIC] [TIFF OMITTED] T3739.770
    
    [GRAPHIC] [TIFF OMITTED] T3739.771
    
    [GRAPHIC] [TIFF OMITTED] T3739.772
    
    [GRAPHIC] [TIFF OMITTED] T3739.773
    
    [GRAPHIC] [TIFF OMITTED] T3739.774
    
    [GRAPHIC] [TIFF OMITTED] T3739.775
    
    [GRAPHIC] [TIFF OMITTED] T3739.776
    
    [GRAPHIC] [TIFF OMITTED] T3739.777
    
    [GRAPHIC] [TIFF OMITTED] T3739.778
    
    [GRAPHIC] [TIFF OMITTED] T3739.779
    
    [GRAPHIC] [TIFF OMITTED] T3739.780
    
    [GRAPHIC] [TIFF OMITTED] T3739.781
    
    [GRAPHIC] [TIFF OMITTED] T3739.782
    
    [GRAPHIC] [TIFF OMITTED] T3739.783
    
    [GRAPHIC] [TIFF OMITTED] T3739.784
    
    [GRAPHIC] [TIFF OMITTED] T3739.785
    
    [GRAPHIC] [TIFF OMITTED] T3739.786
    
    [GRAPHIC] [TIFF OMITTED] T3739.787
    
    [GRAPHIC] [TIFF OMITTED] T3739.788
    
    [GRAPHIC] [TIFF OMITTED] T3739.789
    
    [GRAPHIC] [TIFF OMITTED] T3739.790
    
    [GRAPHIC] [TIFF OMITTED] T3739.791
    
    [GRAPHIC] [TIFF OMITTED] T3739.792
    
    [GRAPHIC] [TIFF OMITTED] T3739.793
    
    [GRAPHIC] [TIFF OMITTED] T3739.794
    
    [GRAPHIC] [TIFF OMITTED] T3739.795
    
    [GRAPHIC] [TIFF OMITTED] T3739.796
    
    [GRAPHIC] [TIFF OMITTED] T3739.797
    
    [GRAPHIC] [TIFF OMITTED] T3739.798
    
    [GRAPHIC] [TIFF OMITTED] T3739.799
    
    [GRAPHIC] [TIFF OMITTED] T3739.800
    
    [GRAPHIC] [TIFF OMITTED] T3739.801
    
    [GRAPHIC] [TIFF OMITTED] T3739.802
    
    [GRAPHIC] [TIFF OMITTED] T3739.803
    
    [GRAPHIC] [TIFF OMITTED] T3739.804
    
    [GRAPHIC] [TIFF OMITTED] T3739.805
    
    [GRAPHIC] [TIFF OMITTED] T3739.806
    
    [GRAPHIC] [TIFF OMITTED] T3739.807
    
    [GRAPHIC] [TIFF OMITTED] T3739.808
    
    [GRAPHIC] [TIFF OMITTED] T3739.809
    
    [GRAPHIC] [TIFF OMITTED] T3739.810
    
    [GRAPHIC] [TIFF OMITTED] T3739.811
    
    [GRAPHIC] [TIFF OMITTED] T3739.812
    
    [GRAPHIC] [TIFF OMITTED] T3739.813
    
    [GRAPHIC] [TIFF OMITTED] T3739.814
    
    [GRAPHIC] [TIFF OMITTED] T3739.815
    
    [GRAPHIC] [TIFF OMITTED] T3739.816
    
    [GRAPHIC] [TIFF OMITTED] T3739.817
    
    [GRAPHIC] [TIFF OMITTED] T3739.818
    
    [GRAPHIC] [TIFF OMITTED] T3739.819
    
    [GRAPHIC] [TIFF OMITTED] T3739.820
    
    [GRAPHIC] [TIFF OMITTED] T3739.821
    
    [GRAPHIC] [TIFF OMITTED] T3739.822
    
    [GRAPHIC] [TIFF OMITTED] T3739.823
    
    [GRAPHIC] [TIFF OMITTED] T3739.824
    
    [GRAPHIC] [TIFF OMITTED] T3739.825
    
    [GRAPHIC] [TIFF OMITTED] T3739.826
    
    [GRAPHIC] [TIFF OMITTED] T3739.827
    
    [GRAPHIC] [TIFF OMITTED] T3739.828
    
    [GRAPHIC] [TIFF OMITTED] T3739.829
    
    [GRAPHIC] [TIFF OMITTED] T3739.830
    
    [GRAPHIC] [TIFF OMITTED] T3739.831
    
    [GRAPHIC] [TIFF OMITTED] T3739.832
    
    [GRAPHIC] [TIFF OMITTED] T3739.833
    
    [GRAPHIC] [TIFF OMITTED] T3739.834
    
    [GRAPHIC] [TIFF OMITTED] T3739.835
    
    [GRAPHIC] [TIFF OMITTED] T3739.836
    
    [GRAPHIC] [TIFF OMITTED] T3739.837
    
    [GRAPHIC] [TIFF OMITTED] T3739.838
    
    [GRAPHIC] [TIFF OMITTED] T3739.839
    
    [GRAPHIC] [TIFF OMITTED] T3739.840
    
    [GRAPHIC] [TIFF OMITTED] T3739.841
    
    [GRAPHIC] [TIFF OMITTED] T3739.842
    
    [GRAPHIC] [TIFF OMITTED] T3739.843
    
    [GRAPHIC] [TIFF OMITTED] T3739.844
    
    [GRAPHIC] [TIFF OMITTED] T3739.845
    
    [GRAPHIC] [TIFF OMITTED] T3739.846
    
    [GRAPHIC] [TIFF OMITTED] T3739.847
    
    [GRAPHIC] [TIFF OMITTED] T3739.848
    
    [GRAPHIC] [TIFF OMITTED] T3739.849
    
    [GRAPHIC] [TIFF OMITTED] T3739.850
    
    [GRAPHIC] [TIFF OMITTED] T3739.851
    
    [GRAPHIC] [TIFF OMITTED] T3739.852
    
    [GRAPHIC] [TIFF OMITTED] T3739.853
    
    [GRAPHIC] [TIFF OMITTED] T3739.854
    
    [GRAPHIC] [TIFF OMITTED] T3739.855
    
    [GRAPHIC] [TIFF OMITTED] T3739.856
    
    [GRAPHIC] [TIFF OMITTED] T3739.857
    
    [GRAPHIC] [TIFF OMITTED] T3739.858
    
    [GRAPHIC] [TIFF OMITTED] T3739.859
    
    [GRAPHIC] [TIFF OMITTED] T3739.860
    
    [GRAPHIC] [TIFF OMITTED] T3739.861
    
    [GRAPHIC] [TIFF OMITTED] T3739.862
    
    [GRAPHIC] [TIFF OMITTED] T3739.863
    
    [GRAPHIC] [TIFF OMITTED] T3739.864
    
    [GRAPHIC] [TIFF OMITTED] T3739.865
    
    [GRAPHIC] [TIFF OMITTED] T3739.866
    
    [GRAPHIC] [TIFF OMITTED] T3739.867
    
    [GRAPHIC] [TIFF OMITTED] T3739.868
    
    [GRAPHIC] [TIFF OMITTED] T3739.869
    
    [GRAPHIC] [TIFF OMITTED] T3739.870
    
    [GRAPHIC] [TIFF OMITTED] T3739.871
    
    [GRAPHIC] [TIFF OMITTED] T3739.872
    
    [GRAPHIC] [TIFF OMITTED] T3739.873
    
    [GRAPHIC] [TIFF OMITTED] T3739.874
    
    [GRAPHIC] [TIFF OMITTED] T3739.875
    
    [GRAPHIC] [TIFF OMITTED] T3739.876
    
    [GRAPHIC] [TIFF OMITTED] T3739.877
    
    [GRAPHIC] [TIFF OMITTED] T3739.878
    
    [GRAPHIC] [TIFF OMITTED] T3739.879
    
    [GRAPHIC] [TIFF OMITTED] T3739.880
    
    [GRAPHIC] [TIFF OMITTED] T3739.881
    
    [GRAPHIC] [TIFF OMITTED] T3739.882
    
    [GRAPHIC] [TIFF OMITTED] T3739.883
    
    [GRAPHIC] [TIFF OMITTED] T3739.884
    
    [GRAPHIC] [TIFF OMITTED] T3739.885
    
    [GRAPHIC] [TIFF OMITTED] T3739.886
    
    [GRAPHIC] [TIFF OMITTED] T3739.887
    
    [GRAPHIC] [TIFF OMITTED] T3739.888
    
    [GRAPHIC] [TIFF OMITTED] T3739.889
    
    [GRAPHIC] [TIFF OMITTED] T3739.890
    
    [GRAPHIC] [TIFF OMITTED] T3739.891
    
    [GRAPHIC] [TIFF OMITTED] T3739.892
    
    [GRAPHIC] [TIFF OMITTED] T3739.893
    
    [GRAPHIC] [TIFF OMITTED] T3739.894
    
    [GRAPHIC] [TIFF OMITTED] T3739.895
    
    [GRAPHIC] [TIFF OMITTED] T3739.896
    
    [GRAPHIC] [TIFF OMITTED] T3739.897
    
    [GRAPHIC] [TIFF OMITTED] T3739.898
    
    [GRAPHIC] [TIFF OMITTED] T3739.899
    
    [GRAPHIC] [TIFF OMITTED] T3739.900
    
    [GRAPHIC] [TIFF OMITTED] T3739.901
    
    [GRAPHIC] [TIFF OMITTED] T3739.902
    
    [GRAPHIC] [TIFF OMITTED] T3739.903
    
    [GRAPHIC] [TIFF OMITTED] T3739.904
    
    [GRAPHIC] [TIFF OMITTED] T3739.905
    
    [GRAPHIC] [TIFF OMITTED] T3739.906
    
    [GRAPHIC] [TIFF OMITTED] T3739.907
    
    [GRAPHIC] [TIFF OMITTED] T3739.908
    
    [GRAPHIC] [TIFF OMITTED] T3739.909
    
    [GRAPHIC] [TIFF OMITTED] T3739.910
    
    [GRAPHIC] [TIFF OMITTED] T3739.911
    
    [GRAPHIC] [TIFF OMITTED] T3739.912
    
    [GRAPHIC] [TIFF OMITTED] T3739.913
    
    [GRAPHIC] [TIFF OMITTED] T3739.914
    
    [GRAPHIC] [TIFF OMITTED] T3739.915
    
    [GRAPHIC] [TIFF OMITTED] T3739.916
    
    [GRAPHIC] [TIFF OMITTED] T3739.917
    
    [GRAPHIC] [TIFF OMITTED] T3739.918
    
    [GRAPHIC] [TIFF OMITTED] T3739.919
    
    [GRAPHIC] [TIFF OMITTED] T3739.920
    
    [GRAPHIC] [TIFF OMITTED] T3739.921
    
    [GRAPHIC] [TIFF OMITTED] T3739.922
    
    [GRAPHIC] [TIFF OMITTED] T3739.923
    
    [GRAPHIC] [TIFF OMITTED] T3739.924
    
    [GRAPHIC] [TIFF OMITTED] T3739.925
    
    [GRAPHIC] [TIFF OMITTED] T3739.926
    
    [GRAPHIC] [TIFF OMITTED] T3739.927
    
    [GRAPHIC] [TIFF OMITTED] T3739.928
    
    [GRAPHIC] [TIFF OMITTED] T3739.929
    
    [GRAPHIC] [TIFF OMITTED] T3739.930
    
    [GRAPHIC] [TIFF OMITTED] T3739.931
    
    [GRAPHIC] [TIFF OMITTED] T3739.932
    
    [GRAPHIC] [TIFF OMITTED] T3739.933
    
    [GRAPHIC] [TIFF OMITTED] T3739.934
    
    [GRAPHIC] [TIFF OMITTED] T3739.935
    
    [GRAPHIC] [TIFF OMITTED] T3739.936
    
    [GRAPHIC] [TIFF OMITTED] T3739.937
    
    [GRAPHIC] [TIFF OMITTED] T3739.938
    
    [GRAPHIC] [TIFF OMITTED] T3739.939
    
    [GRAPHIC] [TIFF OMITTED] T3739.940
    
    [GRAPHIC] [TIFF OMITTED] T3739.941
    
    [GRAPHIC] [TIFF OMITTED] T3739.942
    
    [GRAPHIC] [TIFF OMITTED] T3739.943
    
    [GRAPHIC] [TIFF OMITTED] T3739.944
    
    [GRAPHIC] [TIFF OMITTED] T3739.945
    
    [GRAPHIC] [TIFF OMITTED] T3739.946
    
    [GRAPHIC] [TIFF OMITTED] T3739.947
    
    [GRAPHIC] [TIFF OMITTED] T3739.948
    
    [GRAPHIC] [TIFF OMITTED] T3739.949
    
    [GRAPHIC] [TIFF OMITTED] T3739.950
    
    [GRAPHIC] [TIFF OMITTED] T3739.951
    
    [GRAPHIC] [TIFF OMITTED] T3739.952
    
    [GRAPHIC] [TIFF OMITTED] T3739.953
    
    [GRAPHIC] [TIFF OMITTED] T3739.954
    
    [GRAPHIC] [TIFF OMITTED] T3739.955
    
    [GRAPHIC] [TIFF OMITTED] T3739.956
    
    [GRAPHIC] [TIFF OMITTED] T3739.957
    
    [GRAPHIC] [TIFF OMITTED] T3739.958
    
    [GRAPHIC] [TIFF OMITTED] T3739.959
    
    [GRAPHIC] [TIFF OMITTED] T3739.960
    
    [GRAPHIC] [TIFF OMITTED] T3739.961
    
    [GRAPHIC] [TIFF OMITTED] T3739.962
    
    [GRAPHIC] [TIFF OMITTED] T3739.963
    
    [GRAPHIC] [TIFF OMITTED] T3739.964
    
    [GRAPHIC] [TIFF OMITTED] T3739.965
    
    [GRAPHIC] [TIFF OMITTED] T3739.966
    
    [GRAPHIC] [TIFF OMITTED] T3739.967
    
    [GRAPHIC] [TIFF OMITTED] T3739.968
    
    [GRAPHIC] [TIFF OMITTED] T3739.969
    
    [GRAPHIC] [TIFF OMITTED] T3739.970
    
    [GRAPHIC] [TIFF OMITTED] T3739.971
    
    [GRAPHIC] [TIFF OMITTED] T3739.972
    
    [GRAPHIC] [TIFF OMITTED] T3739.973
    
    [GRAPHIC] [TIFF OMITTED] T3739.974
    
    [GRAPHIC] [TIFF OMITTED] T3739.975
    
    [GRAPHIC] [TIFF OMITTED] T3739.976
    
    [GRAPHIC] [TIFF OMITTED] T3739.977
    
    [GRAPHIC] [TIFF OMITTED] T3739.978
    
    [GRAPHIC] [TIFF OMITTED] T3739.979
    
    [GRAPHIC] [TIFF OMITTED] T3739.980
    
    [GRAPHIC] [TIFF OMITTED] T3739.981
    
    [GRAPHIC] [TIFF OMITTED] T3739.982
    
    [GRAPHIC] [TIFF OMITTED] T3739.983
    
    [GRAPHIC] [TIFF OMITTED] T3739.984
    
    [GRAPHIC] [TIFF OMITTED] T3739.985
    
    [GRAPHIC] [TIFF OMITTED] T37391.001
    
    [GRAPHIC] [TIFF OMITTED] T37391.002
    
    [GRAPHIC] [TIFF OMITTED] T37391.003
    
    [GRAPHIC] [TIFF OMITTED] T37391.004
    
    [GRAPHIC] [TIFF OMITTED] T37391.005
    
    [GRAPHIC] [TIFF OMITTED] T37391.006
    
    [GRAPHIC] [TIFF OMITTED] T37391.007
    
    [GRAPHIC] [TIFF OMITTED] T37391.008
    
    [GRAPHIC] [TIFF OMITTED] T37391.009
    
    [GRAPHIC] [TIFF OMITTED] T37391.010
    
    [GRAPHIC] [TIFF OMITTED] T37391.011
    
    [GRAPHIC] [TIFF OMITTED] T37391.012
    
    [GRAPHIC] [TIFF OMITTED] T37391.013
    
    [GRAPHIC] [TIFF OMITTED] T37391.014
    
    [GRAPHIC] [TIFF OMITTED] T37391.015
    
    [GRAPHIC] [TIFF OMITTED] T37391.016
    
    [GRAPHIC] [TIFF OMITTED] T37391.017
    
    [GRAPHIC] [TIFF OMITTED] T37391.018
    
    [GRAPHIC] [TIFF OMITTED] T37391.019
    
    [GRAPHIC] [TIFF OMITTED] T37391.020
    
    [GRAPHIC] [TIFF OMITTED] T37391.021
    
    [GRAPHIC] [TIFF OMITTED] T37391.022
    
    [GRAPHIC] [TIFF OMITTED] T37391.023
    
    [GRAPHIC] [TIFF OMITTED] T37391.024
    
    [GRAPHIC] [TIFF OMITTED] T37391.025
    
    [GRAPHIC] [TIFF OMITTED] T37391.026
    
    [GRAPHIC] [TIFF OMITTED] T37391.027
    
    [GRAPHIC] [TIFF OMITTED] T37391.028
    
    [GRAPHIC] [TIFF OMITTED] T37391.029
    
    [GRAPHIC] [TIFF OMITTED] T37391.030
    
    [GRAPHIC] [TIFF OMITTED] T37391.031
    
    [GRAPHIC] [TIFF OMITTED] T37391.032
    
    [GRAPHIC] [TIFF OMITTED] T37391.033
    
    [GRAPHIC] [TIFF OMITTED] T37391.034
    
    [GRAPHIC] [TIFF OMITTED] T37391.035
    
    [GRAPHIC] [TIFF OMITTED] T37391.036
    
    [GRAPHIC] [TIFF OMITTED] T37391.037
    
    [GRAPHIC] [TIFF OMITTED] T37391.038
    
    [GRAPHIC] [TIFF OMITTED] T37391.039
    
    [GRAPHIC] [TIFF OMITTED] T37391.040
    
    [GRAPHIC] [TIFF OMITTED] T37391.041
    
    [GRAPHIC] [TIFF OMITTED] T37391.042
    
    [GRAPHIC] [TIFF OMITTED] T37391.043
    
    [GRAPHIC] [TIFF OMITTED] T37391.044
    
    [GRAPHIC] [TIFF OMITTED] T37391.045
    
    [GRAPHIC] [TIFF OMITTED] T37391.046
    
    [GRAPHIC] [TIFF OMITTED] T37391.047
    
    [GRAPHIC] [TIFF OMITTED] T37391.048
    
    [GRAPHIC] [TIFF OMITTED] T37391.049
    
    [GRAPHIC] [TIFF OMITTED] T37391.050
    
    [GRAPHIC] [TIFF OMITTED] T37391.051
    
    [GRAPHIC] [TIFF OMITTED] T37391.052
    
    [GRAPHIC] [TIFF OMITTED] T37391.053
    
    [GRAPHIC] [TIFF OMITTED] T37391.054
    
    [GRAPHIC] [TIFF OMITTED] T37391.055
    
    [GRAPHIC] [TIFF OMITTED] T37391.056
    
    [GRAPHIC] [TIFF OMITTED] T37391.057
    
    [GRAPHIC] [TIFF OMITTED] T37391.058
    
    [GRAPHIC] [TIFF OMITTED] T37391.059
    
    [GRAPHIC] [TIFF OMITTED] T37391.060
    
    [GRAPHIC] [TIFF OMITTED] T37391.061
    
    [GRAPHIC] [TIFF OMITTED] T37391.062
    
    [GRAPHIC] [TIFF OMITTED] T37391.063
    
    [GRAPHIC] [TIFF OMITTED] T37391.064
    
    [GRAPHIC] [TIFF OMITTED] T37391.065
    
    [GRAPHIC] [TIFF OMITTED] T37391.066
    
    [GRAPHIC] [TIFF OMITTED] T37391.067
    
    [GRAPHIC] [TIFF OMITTED] T37391.068
    
    [GRAPHIC] [TIFF OMITTED] T37391.069
    
    [GRAPHIC] [TIFF OMITTED] T37391.070
    
    [GRAPHIC] [TIFF OMITTED] T37391.071
    
    [GRAPHIC] [TIFF OMITTED] T37391.072
    
    [GRAPHIC] [TIFF OMITTED] T37391.073
    
    [GRAPHIC] [TIFF OMITTED] T37391.074
    
    [GRAPHIC] [TIFF OMITTED] T37391.075
    
    [GRAPHIC] [TIFF OMITTED] T37391.076
    
    [GRAPHIC] [TIFF OMITTED] T37391.077
    
    [GRAPHIC] [TIFF OMITTED] T37391.078
    
    [GRAPHIC] [TIFF OMITTED] T37391.079
    
    [GRAPHIC] [TIFF OMITTED] T37391.080
    
    [GRAPHIC] [TIFF OMITTED] T37391.081
    
    [GRAPHIC] [TIFF OMITTED] T37391.082
    
    [GRAPHIC] [TIFF OMITTED] T37391.083
    
    [GRAPHIC] [TIFF OMITTED] T37391.084
    
    [GRAPHIC] [TIFF OMITTED] T37391.085
    
    [GRAPHIC] [TIFF OMITTED] T37391.086
    
    [GRAPHIC] [TIFF OMITTED] T37391.087
    
    [GRAPHIC] [TIFF OMITTED] T37391.088
    
    [GRAPHIC] [TIFF OMITTED] T37391.089
    
    [GRAPHIC] [TIFF OMITTED] T37391.090
    
    [GRAPHIC] [TIFF OMITTED] T37391.091
    
    [GRAPHIC] [TIFF OMITTED] T37391.092
    
    [GRAPHIC] [TIFF OMITTED] T37391.093
    
    [GRAPHIC] [TIFF OMITTED] T37391.094
    
    [GRAPHIC] [TIFF OMITTED] T37391.095
    
    [GRAPHIC] [TIFF OMITTED] T37391.096
    
    [GRAPHIC] [TIFF OMITTED] T37391.097
    
    [GRAPHIC] [TIFF OMITTED] T37391.098
    
    [GRAPHIC] [TIFF OMITTED] T37391.099
    
    [GRAPHIC] [TIFF OMITTED] T37391.100
    
    [GRAPHIC] [TIFF OMITTED] T37391.101
    
    [GRAPHIC] [TIFF OMITTED] T37391.102
    
    [GRAPHIC] [TIFF OMITTED] T37391.103
    
    [GRAPHIC] [TIFF OMITTED] T37391.104
    
    [GRAPHIC] [TIFF OMITTED] T37391.105
    
    [GRAPHIC] [TIFF OMITTED] T37391.106
    
    [GRAPHIC] [TIFF OMITTED] T37391.107
    
    [GRAPHIC] [TIFF OMITTED] T37391.108
    
    [GRAPHIC] [TIFF OMITTED] T37391.109
    
    [GRAPHIC] [TIFF OMITTED] T37391.110
    
    [GRAPHIC] [TIFF OMITTED] T37391.111
    
    [GRAPHIC] [TIFF OMITTED] T37391.112
    
    [GRAPHIC] [TIFF OMITTED] T37391.113
    
    [GRAPHIC] [TIFF OMITTED] T37391.114
    
    [GRAPHIC] [TIFF OMITTED] T37391.115
    
    [GRAPHIC] [TIFF OMITTED] T37391.116
    
    [GRAPHIC] [TIFF OMITTED] T37391.117
    
    [GRAPHIC] [TIFF OMITTED] T37391.118
    
    [GRAPHIC] [TIFF OMITTED] T37391.119
    
    [GRAPHIC] [TIFF OMITTED] T37391.120
    
    [GRAPHIC] [TIFF OMITTED] T37391.121
    
    [GRAPHIC] [TIFF OMITTED] T37391.122
    
    [GRAPHIC] [TIFF OMITTED] T37391.123
    
    [GRAPHIC] [TIFF OMITTED] T37391.124
    
    [GRAPHIC] [TIFF OMITTED] T37391.125
    
    [GRAPHIC] [TIFF OMITTED] T37391.126
    
    [GRAPHIC] [TIFF OMITTED] T37391.127
    
    [GRAPHIC] [TIFF OMITTED] T37391.128
    
    [GRAPHIC] [TIFF OMITTED] T37391.129
    
    [GRAPHIC] [TIFF OMITTED] T37391.130
    
    [GRAPHIC] [TIFF OMITTED] T37391.131
    
    [GRAPHIC] [TIFF OMITTED] T37391.132
    
    [GRAPHIC] [TIFF OMITTED] T37391.133
    
    [GRAPHIC] [TIFF OMITTED] T37391.134
    
    [GRAPHIC] [TIFF OMITTED] T37391.135
    
    [GRAPHIC] [TIFF OMITTED] T37391.136
    
    [GRAPHIC] [TIFF OMITTED] T37391.137
    
    [GRAPHIC] [TIFF OMITTED] T37391.138
    
    [GRAPHIC] [TIFF OMITTED] T37391.139
    
    [GRAPHIC] [TIFF OMITTED] T37391.140
    
    [GRAPHIC] [TIFF OMITTED] T37391.141
    
    [GRAPHIC] [TIFF OMITTED] T37391.142
    
    [GRAPHIC] [TIFF OMITTED] T37391.143
    
    [GRAPHIC] [TIFF OMITTED] T37391.144
    
    [GRAPHIC] [TIFF OMITTED] T37391.145
    
    [GRAPHIC] [TIFF OMITTED] T37391.146
    
    [GRAPHIC] [TIFF OMITTED] T37391.147
    
    [GRAPHIC] [TIFF OMITTED] T37391.148
    
    [GRAPHIC] [TIFF OMITTED] T37391.149
    
    [GRAPHIC] [TIFF OMITTED] T37391.150
    
    [GRAPHIC] [TIFF OMITTED] T37391.151
    
    [GRAPHIC] [TIFF OMITTED] T37391.152
    
    [GRAPHIC] [TIFF OMITTED] T37391.153
    
    [GRAPHIC] [TIFF OMITTED] T37391.154
    
    [GRAPHIC] [TIFF OMITTED] T37391.155
    
    [GRAPHIC] [TIFF OMITTED] T37391.156
    
    [GRAPHIC] [TIFF OMITTED] T37391.157
    
    [GRAPHIC] [TIFF OMITTED] T37391.158
    
    [GRAPHIC] [TIFF OMITTED] T37391.159
    
    [GRAPHIC] [TIFF OMITTED] T37391.160
    
    [GRAPHIC] [TIFF OMITTED] T37391.161
    
    [GRAPHIC] [TIFF OMITTED] T37391.162
    
    [GRAPHIC] [TIFF OMITTED] T37391.163
    
    [GRAPHIC] [TIFF OMITTED] T37391.164
    
    [GRAPHIC] [TIFF OMITTED] T37391.165
    
    [GRAPHIC] [TIFF OMITTED] T37391.166
    
    [GRAPHIC] [TIFF OMITTED] T37391.167
    
    [GRAPHIC] [TIFF OMITTED] T37391.168
    
    [GRAPHIC] [TIFF OMITTED] T37391.169
    
    [GRAPHIC] [TIFF OMITTED] T37391.170
    
    [GRAPHIC] [TIFF OMITTED] T37391.171
    
    [GRAPHIC] [TIFF OMITTED] T37391.172
    
    [GRAPHIC] [TIFF OMITTED] T37391.173
    
    [GRAPHIC] [TIFF OMITTED] T37391.174
    
    [GRAPHIC] [TIFF OMITTED] T37391.175
    
    [GRAPHIC] [TIFF OMITTED] T37391.176
    
    [GRAPHIC] [TIFF OMITTED] T37391.177
    
    [GRAPHIC] [TIFF OMITTED] T37391.178
    
    [GRAPHIC] [TIFF OMITTED] T37391.179
    
    [GRAPHIC] [TIFF OMITTED] T37391.180
    
    [GRAPHIC] [TIFF OMITTED] T37391.181
    
    [GRAPHIC] [TIFF OMITTED] T37391.182
    
    [GRAPHIC] [TIFF OMITTED] T37391.183
    
    [GRAPHIC] [TIFF OMITTED] T37391.184
    
    [GRAPHIC] [TIFF OMITTED] T37391.185
    
    [GRAPHIC] [TIFF OMITTED] T37391.186
    
    [GRAPHIC] [TIFF OMITTED] T37391.187
    
    [GRAPHIC] [TIFF OMITTED] T37391.188
    
    [GRAPHIC] [TIFF OMITTED] T37391.189
    
    [GRAPHIC] [TIFF OMITTED] T37391.190
    
    [GRAPHIC] [TIFF OMITTED] T37391.191
    
    [GRAPHIC] [TIFF OMITTED] T37391.192
    
    [GRAPHIC] [TIFF OMITTED] T37391.193
    
    [GRAPHIC] [TIFF OMITTED] T37391.194
    
    [GRAPHIC] [TIFF OMITTED] T37391.195
    
    [GRAPHIC] [TIFF OMITTED] T37391.196
    
    [GRAPHIC] [TIFF OMITTED] T37391.197
    
    [GRAPHIC] [TIFF OMITTED] T37391.198
    
    [GRAPHIC] [TIFF OMITTED] T37391.199
    
    [GRAPHIC] [TIFF OMITTED] T37391.200
    
    [GRAPHIC] [TIFF OMITTED] T37391.201
    
    [GRAPHIC] [TIFF OMITTED] T37391.202
    
    [GRAPHIC] [TIFF OMITTED] T37391.203
    
    [GRAPHIC] [TIFF OMITTED] T37391.204
    
    [GRAPHIC] [TIFF OMITTED] T37391.205
    
    [GRAPHIC] [TIFF OMITTED] T37391.206
    
    [GRAPHIC] [TIFF OMITTED] T37391.207
    
    [GRAPHIC] [TIFF OMITTED] T37391.208
    
    [GRAPHIC] [TIFF OMITTED] T37391.209
    
    [GRAPHIC] [TIFF OMITTED] T37391.210
    
    [GRAPHIC] [TIFF OMITTED] T37391.211
    
    [GRAPHIC] [TIFF OMITTED] T37391.212
    
    [GRAPHIC] [TIFF OMITTED] T37391.213
    
    [GRAPHIC] [TIFF OMITTED] T37391.214
    
    [GRAPHIC] [TIFF OMITTED] T37391.215
    
    [GRAPHIC] [TIFF OMITTED] T37391.216
    
    [GRAPHIC] [TIFF OMITTED] T37391.217
    
    [GRAPHIC] [TIFF OMITTED] T37391.218
    
    [GRAPHIC] [TIFF OMITTED] T37391.219
    
    [GRAPHIC] [TIFF OMITTED] T37391.220
    
    [GRAPHIC] [TIFF OMITTED] T37391.221
    
    [GRAPHIC] [TIFF OMITTED] T37391.222
    
    [GRAPHIC] [TIFF OMITTED] T37391.223
    
    [GRAPHIC] [TIFF OMITTED] T37391.224
    
    [GRAPHIC] [TIFF OMITTED] T37391.225
    
    [GRAPHIC] [TIFF OMITTED] T37391.226
    
    [GRAPHIC] [TIFF OMITTED] T37391.227
    
    [GRAPHIC] [TIFF OMITTED] T37391.228
    
    [GRAPHIC] [TIFF OMITTED] T37391.229
    
    [GRAPHIC] [TIFF OMITTED] T37391.230
    
    [GRAPHIC] [TIFF OMITTED] T37391.231
    
    [GRAPHIC] [TIFF OMITTED] T37391.232
    
    [GRAPHIC] [TIFF OMITTED] T37391.233
    
    [GRAPHIC] [TIFF OMITTED] T37391.234
    
    [GRAPHIC] [TIFF OMITTED] T37391.235
    
    [GRAPHIC] [TIFF OMITTED] T37391.236
    
    [GRAPHIC] [TIFF OMITTED] T37391.237
    
    [GRAPHIC] [TIFF OMITTED] T37391.238
    
    [GRAPHIC] [TIFF OMITTED] T37391.239
    
    [GRAPHIC] [TIFF OMITTED] T37391.240
    
    [GRAPHIC] [TIFF OMITTED] T37391.241
    
    [GRAPHIC] [TIFF OMITTED] T37391.242
    
    [GRAPHIC] [TIFF OMITTED] T37391.243
    
    [GRAPHIC] [TIFF OMITTED] T37391.244
    
    [GRAPHIC] [TIFF OMITTED] T37391.245
    
    [GRAPHIC] [TIFF OMITTED] T37391.246
    
    [GRAPHIC] [TIFF OMITTED] T37391.247
    
    [GRAPHIC] [TIFF OMITTED] T37391.248
    
    [GRAPHIC] [TIFF OMITTED] T37391.249
    
    [GRAPHIC] [TIFF OMITTED] T37391.250
    
    [GRAPHIC] [TIFF OMITTED] T37391.251
    
    [GRAPHIC] [TIFF OMITTED] T37391.252
    
    [GRAPHIC] [TIFF OMITTED] T37391.253
    
    [GRAPHIC] [TIFF OMITTED] T37391.254
    
    [GRAPHIC] [TIFF OMITTED] T37391.255
    
    [GRAPHIC] [TIFF OMITTED] T37391.256
    
    [GRAPHIC] [TIFF OMITTED] T37391.257
    
    [GRAPHIC] [TIFF OMITTED] T37391.258
    
    [GRAPHIC] [TIFF OMITTED] T37391.259
    
    [GRAPHIC] [TIFF OMITTED] T37391.260
    
    [GRAPHIC] [TIFF OMITTED] T37391.261
    
    [GRAPHIC] [TIFF OMITTED] T37391.262
    
    [GRAPHIC] [TIFF OMITTED] T37391.263
    
    [GRAPHIC] [TIFF OMITTED] T37391.264
    
    [GRAPHIC] [TIFF OMITTED] T37391.265
    
    [GRAPHIC] [TIFF OMITTED] T37391.266
    
    [GRAPHIC] [TIFF OMITTED] T37391.267
    
    [GRAPHIC] [TIFF OMITTED] T37391.268
    
    [GRAPHIC] [TIFF OMITTED] T37391.269
    
    [GRAPHIC] [TIFF OMITTED] T37391.270
    
    [GRAPHIC] [TIFF OMITTED] T37391.271
    
    [GRAPHIC] [TIFF OMITTED] T37391.272
    
    [GRAPHIC] [TIFF OMITTED] T37391.273
    
    [GRAPHIC] [TIFF OMITTED] T37391.274
    
    [GRAPHIC] [TIFF OMITTED] T37391.275
    
    [GRAPHIC] [TIFF OMITTED] T37391.276
    
    [GRAPHIC] [TIFF OMITTED] T37391.277
    
    [GRAPHIC] [TIFF OMITTED] T37391.278
    
    [GRAPHIC] [TIFF OMITTED] T37391.279
    
    [GRAPHIC] [TIFF OMITTED] T37391.280
    
    [GRAPHIC] [TIFF OMITTED] T37391.281
    
    [GRAPHIC] [TIFF OMITTED] T37391.282
    
    [GRAPHIC] [TIFF OMITTED] T37391.283
    
    [GRAPHIC] [TIFF OMITTED] T37391.284
    
    [GRAPHIC] [TIFF OMITTED] T37391.285
    
    [GRAPHIC] [TIFF OMITTED] T37391.286
    
    [GRAPHIC] [TIFF OMITTED] T37391.287
    
    [GRAPHIC] [TIFF OMITTED] T37391.288
    
    [GRAPHIC] [TIFF OMITTED] T37391.289
    
    [GRAPHIC] [TIFF OMITTED] T37391.290
    
    [GRAPHIC] [TIFF OMITTED] T37391.291
    
    [GRAPHIC] [TIFF OMITTED] T37391.292
    
    [GRAPHIC] [TIFF OMITTED] T37391.293
    
    [GRAPHIC] [TIFF OMITTED] T37391.294
    
    [GRAPHIC] [TIFF OMITTED] T37391.295
    
    [GRAPHIC] [TIFF OMITTED] T37391.296
    
    [GRAPHIC] [TIFF OMITTED] T37391.297
    
    [GRAPHIC] [TIFF OMITTED] T37391.298
    
    [GRAPHIC] [TIFF OMITTED] T37391.299
    
    [GRAPHIC] [TIFF OMITTED] T37391.300
    
    [GRAPHIC] [TIFF OMITTED] T37391.301
    
    [GRAPHIC] [TIFF OMITTED] T37391.302
    
    [GRAPHIC] [TIFF OMITTED] T37391.303
    
    [GRAPHIC] [TIFF OMITTED] T37391.304
    
    [GRAPHIC] [TIFF OMITTED] T37391.305
    
    [GRAPHIC] [TIFF OMITTED] T37391.306
    
    [GRAPHIC] [TIFF OMITTED] T37391.307
    
    [GRAPHIC] [TIFF OMITTED] T37391.308
    
    [GRAPHIC] [TIFF OMITTED] T37391.309
    
    [GRAPHIC] [TIFF OMITTED] T37391.310
    
    [GRAPHIC] [TIFF OMITTED] T37391.311
    
    [GRAPHIC] [TIFF OMITTED] T37391.312
    
    [GRAPHIC] [TIFF OMITTED] T37391.313
    
    [GRAPHIC] [TIFF OMITTED] T37391.314
    
    [GRAPHIC] [TIFF OMITTED] T37391.315
    
    [GRAPHIC] [TIFF OMITTED] T37391.316
    
    [GRAPHIC] [TIFF OMITTED] T37391.317
    
    [GRAPHIC] [TIFF OMITTED] T37391.318
    
    [GRAPHIC] [TIFF OMITTED] T37391.319
    
    [GRAPHIC] [TIFF OMITTED] T37391.320
    
    [GRAPHIC] [TIFF OMITTED] T37391.321
    
    [GRAPHIC] [TIFF OMITTED] T37391.322
    
    [GRAPHIC] [TIFF OMITTED] T37391.323
    
    [GRAPHIC] [TIFF OMITTED] T37391.324
    
    [GRAPHIC] [TIFF OMITTED] T37391.325
    
    [GRAPHIC] [TIFF OMITTED] T37391.326
    
    [GRAPHIC] [TIFF OMITTED] T37391.327
    
    [GRAPHIC] [TIFF OMITTED] T37391.328
    
    [GRAPHIC] [TIFF OMITTED] T37391.329
    
    [GRAPHIC] [TIFF OMITTED] T37391.330
    
    [GRAPHIC] [TIFF OMITTED] T37391.331
    
    [GRAPHIC] [TIFF OMITTED] T37391.332
    
    [GRAPHIC] [TIFF OMITTED] T37391.333
    
    [GRAPHIC] [TIFF OMITTED] T37391.334
    
    [GRAPHIC] [TIFF OMITTED] T37391.335
    
    [GRAPHIC] [TIFF OMITTED] T37391.336
    
    [GRAPHIC] [TIFF OMITTED] T37391.337
    
    [GRAPHIC] [TIFF OMITTED] T37391.338
    
    [GRAPHIC] [TIFF OMITTED] T37391.339
    
    [GRAPHIC] [TIFF OMITTED] T37391.340
    
    [GRAPHIC] [TIFF OMITTED] T37391.341
    
    [GRAPHIC] [TIFF OMITTED] T37391.342
    
    [GRAPHIC] [TIFF OMITTED] T37391.343
    
    [GRAPHIC] [TIFF OMITTED] T37391.344
    
    [GRAPHIC] [TIFF OMITTED] T37391.345
    
    [GRAPHIC] [TIFF OMITTED] T37391.346
    
    [GRAPHIC] [TIFF OMITTED] T37391.347
    
    [GRAPHIC] [TIFF OMITTED] T37391.348
    
    [GRAPHIC] [TIFF OMITTED] T37391.349
    
    [GRAPHIC] [TIFF OMITTED] T37391.350
    
    [GRAPHIC] [TIFF OMITTED] T37391.351
    
    [GRAPHIC] [TIFF OMITTED] T37391.352
    
    [GRAPHIC] [TIFF OMITTED] T37391.353
    
    [GRAPHIC] [TIFF OMITTED] T37391.354
    
    [GRAPHIC] [TIFF OMITTED] T37391.355
    
    [GRAPHIC] [TIFF OMITTED] T37391.356
    
    [GRAPHIC] [TIFF OMITTED] T37391.357
    
    [GRAPHIC] [TIFF OMITTED] T37391.358
    
    [GRAPHIC] [TIFF OMITTED] T37391.359
    
    [GRAPHIC] [TIFF OMITTED] T37391.360
    
    [GRAPHIC] [TIFF OMITTED] T37391.361
    
    [GRAPHIC] [TIFF OMITTED] T37391.362
    
    [GRAPHIC] [TIFF OMITTED] T37391.363
    
    [GRAPHIC] [TIFF OMITTED] T37391.364
    
    [GRAPHIC] [TIFF OMITTED] T37391.365
    
    [GRAPHIC] [TIFF OMITTED] T37391.366
    
    [GRAPHIC] [TIFF OMITTED] T37391.367
    
    [GRAPHIC] [TIFF OMITTED] T37391.368
    
    [GRAPHIC] [TIFF OMITTED] T37391.369
    
    [GRAPHIC] [TIFF OMITTED] T37391.370
    
    [GRAPHIC] [TIFF OMITTED] T37391.371
    
    [GRAPHIC] [TIFF OMITTED] T37391.372
    
    [GRAPHIC] [TIFF OMITTED] T37391.373
    
    [GRAPHIC] [TIFF OMITTED] T37391.374
    
    [GRAPHIC] [TIFF OMITTED] T37391.375
    
    [GRAPHIC] [TIFF OMITTED] T37391.376
    
    [GRAPHIC] [TIFF OMITTED] T37391.377
    
    [GRAPHIC] [TIFF OMITTED] T37391.378
    
    [GRAPHIC] [TIFF OMITTED] T37391.379
    
    [GRAPHIC] [TIFF OMITTED] T37391.380
    
    [GRAPHIC] [TIFF OMITTED] T37391.381
    
    [GRAPHIC] [TIFF OMITTED] T37391.382
    
    [GRAPHIC] [TIFF OMITTED] T37391.383
    
    [GRAPHIC] [TIFF OMITTED] T37391.384
    
    [GRAPHIC] [TIFF OMITTED] T37391.385
    
    [GRAPHIC] [TIFF OMITTED] T37391.386
    
    [GRAPHIC] [TIFF OMITTED] T37391.387
    
    [GRAPHIC] [TIFF OMITTED] T37391.388
    
    [GRAPHIC] [TIFF OMITTED] T37391.389
    
    [GRAPHIC] [TIFF OMITTED] T37391.390
    
    [GRAPHIC] [TIFF OMITTED] T37391.391
    
    [GRAPHIC] [TIFF OMITTED] T37391.392
    
    [GRAPHIC] [TIFF OMITTED] T37391.393
    
    [GRAPHIC] [TIFF OMITTED] T37391.394
    
    [GRAPHIC] [TIFF OMITTED] T37391.395
    
    [GRAPHIC] [TIFF OMITTED] T37391.396
    
    [GRAPHIC] [TIFF OMITTED] T37391.397
    
    [GRAPHIC] [TIFF OMITTED] T37391.398
    
    [GRAPHIC] [TIFF OMITTED] T37391.399
    
    [GRAPHIC] [TIFF OMITTED] T37391.400
    
    [GRAPHIC] [TIFF OMITTED] T37391.401
    
    [GRAPHIC] [TIFF OMITTED] T37391.402
    
    [GRAPHIC] [TIFF OMITTED] T37391.403
    
    [GRAPHIC] [TIFF OMITTED] T37391.404
    
    [GRAPHIC] [TIFF OMITTED] T37391.405
    
    [GRAPHIC] [TIFF OMITTED] T37391.406
    
    [GRAPHIC] [TIFF OMITTED] T37391.407
    
    [GRAPHIC] [TIFF OMITTED] T37391.408
    
    [GRAPHIC] [TIFF OMITTED] T37391.409
    
    [GRAPHIC] [TIFF OMITTED] T37391.410
    
    [GRAPHIC] [TIFF OMITTED] T37391.411
    
    [GRAPHIC] [TIFF OMITTED] T37391.412
    
    [GRAPHIC] [TIFF OMITTED] T37391.413
    
    [GRAPHIC] [TIFF OMITTED] T37391.414
    
    [GRAPHIC] [TIFF OMITTED] T37391.415
    
    [GRAPHIC] [TIFF OMITTED] T37391.416
    
    [GRAPHIC] [TIFF OMITTED] T37391.417
    
    [GRAPHIC] [TIFF OMITTED] T37391.418
    
    [GRAPHIC] [TIFF OMITTED] T37391.419
    
    [GRAPHIC] [TIFF OMITTED] T37391.420
    
    [GRAPHIC] [TIFF OMITTED] T37391.421
    
    [GRAPHIC] [TIFF OMITTED] T37391.422
    
    [GRAPHIC] [TIFF OMITTED] T37391.423
    
    [GRAPHIC] [TIFF OMITTED] T37391.424
    
    [GRAPHIC] [TIFF OMITTED] T37391.425
    
    [GRAPHIC] [TIFF OMITTED] T37391.426
    
    [GRAPHIC] [TIFF OMITTED] T37391.427
    
    [GRAPHIC] [TIFF OMITTED] T37391.428
    
    [GRAPHIC] [TIFF OMITTED] T37391.429
    
    [GRAPHIC] [TIFF OMITTED] T37391.430
    
    [GRAPHIC] [TIFF OMITTED] T37391.431
    
    [GRAPHIC] [TIFF OMITTED] T37391.432
    
    [GRAPHIC] [TIFF OMITTED] T37391.433
    
    [GRAPHIC] [TIFF OMITTED] T37391.434
    
    [GRAPHIC] [TIFF OMITTED] T37391.435
    
    [GRAPHIC] [TIFF OMITTED] T37391.436
    
    [GRAPHIC] [TIFF OMITTED] T37391.437
    
    [GRAPHIC] [TIFF OMITTED] T37391.438
    
    [GRAPHIC] [TIFF OMITTED] T37391.439
    
    [GRAPHIC] [TIFF OMITTED] T37391.440
    
    [GRAPHIC] [TIFF OMITTED] T37391.441
    
    [GRAPHIC] [TIFF OMITTED] T37391.442
    
    [GRAPHIC] [TIFF OMITTED] T37391.443
    
    [GRAPHIC] [TIFF OMITTED] T37391.444
    
    [GRAPHIC] [TIFF OMITTED] T37391.445
    
    [GRAPHIC] [TIFF OMITTED] T37391.446
    
    [GRAPHIC] [TIFF OMITTED] T37391.447
    
    [GRAPHIC] [TIFF OMITTED] T37391.448
    
    [GRAPHIC] [TIFF OMITTED] T37391.449
    
    [GRAPHIC] [TIFF OMITTED] T37391.450
    
    [GRAPHIC] [TIFF OMITTED] T37391.451
    
    [GRAPHIC] [TIFF OMITTED] T37391.452
    
    [GRAPHIC] [TIFF OMITTED] T37391.453
    
    [GRAPHIC] [TIFF OMITTED] T37391.454
    
    [GRAPHIC] [TIFF OMITTED] T37391.455
    
    [GRAPHIC] [TIFF OMITTED] T37391.456
    
    [GRAPHIC] [TIFF OMITTED] T37391.457
    
    [GRAPHIC] [TIFF OMITTED] T37391.458
    
    [GRAPHIC] [TIFF OMITTED] T37391.459
    
    [GRAPHIC] [TIFF OMITTED] T37391.460
    
    [GRAPHIC] [TIFF OMITTED] T37391.461
    
    [GRAPHIC] [TIFF OMITTED] T37391.462
    
    [GRAPHIC] [TIFF OMITTED] T37391.463
    
    [GRAPHIC] [TIFF OMITTED] T37391.464
    
    [GRAPHIC] [TIFF OMITTED] T37391.465
    
    [GRAPHIC] [TIFF OMITTED] T37391.466
    
    [GRAPHIC] [TIFF OMITTED] T37391.467
    
    [GRAPHIC] [TIFF OMITTED] T37391.468
    
    [GRAPHIC] [TIFF OMITTED] T37391.469
    
    [GRAPHIC] [TIFF OMITTED] T37391.470
    
    [GRAPHIC] [TIFF OMITTED] T37391.471
    
    [GRAPHIC] [TIFF OMITTED] T37391.472
    
    [GRAPHIC] [TIFF OMITTED] T37391.473
    
    [GRAPHIC] [TIFF OMITTED] T37391.474
    
    [GRAPHIC] [TIFF OMITTED] T37391.475
    
    [GRAPHIC] [TIFF OMITTED] T37391.476
    
    [GRAPHIC] [TIFF OMITTED] T37391.477
    
    [GRAPHIC] [TIFF OMITTED] T37391.478
    
    [GRAPHIC] [TIFF OMITTED] T37391.479
    
    [GRAPHIC] [TIFF OMITTED] T37391.480
    
    [GRAPHIC] [TIFF OMITTED] T37391.481
    
    [GRAPHIC] [TIFF OMITTED] T37391.482
    
    [GRAPHIC] [TIFF OMITTED] T37391.483
    
    [GRAPHIC] [TIFF OMITTED] T37391.484
    
    [GRAPHIC] [TIFF OMITTED] T37391.485
    
    [GRAPHIC] [TIFF OMITTED] T37391.486
    
    [GRAPHIC] [TIFF OMITTED] T37391.487
    
    [GRAPHIC] [TIFF OMITTED] T37391.488
    
    [GRAPHIC] [TIFF OMITTED] T37391.489
    
    [GRAPHIC] [TIFF OMITTED] T37391.490
    
    [GRAPHIC] [TIFF OMITTED] T37391.491
    
    [GRAPHIC] [TIFF OMITTED] T37391.492
    
    [GRAPHIC] [TIFF OMITTED] T37391.493
    
    [GRAPHIC] [TIFF OMITTED] T37391.494
    
    [GRAPHIC] [TIFF OMITTED] T37391.495
    
    [GRAPHIC] [TIFF OMITTED] T37391.496
    
    [GRAPHIC] [TIFF OMITTED] T37391.497
    
    [GRAPHIC] [TIFF OMITTED] T37391.498
    
    [GRAPHIC] [TIFF OMITTED] T37391.499
    
    [GRAPHIC] [TIFF OMITTED] T37391.500
    
    [GRAPHIC] [TIFF OMITTED] T37391.501
    
    [GRAPHIC] [TIFF OMITTED] T37391.502
    
    [GRAPHIC] [TIFF OMITTED] T37391.503
    
    [GRAPHIC] [TIFF OMITTED] T37391.504
    
    [GRAPHIC] [TIFF OMITTED] T37391.505
    
    [GRAPHIC] [TIFF OMITTED] T37391.506
    
    [GRAPHIC] [TIFF OMITTED] T37391.507
    
    [GRAPHIC] [TIFF OMITTED] T37391.508
    
    [GRAPHIC] [TIFF OMITTED] T37391.509
    
    [GRAPHIC] [TIFF OMITTED] T37391.510
    
    [GRAPHIC] [TIFF OMITTED] T37391.511
    
    [GRAPHIC] [TIFF OMITTED] T37391.512
    
    [GRAPHIC] [TIFF OMITTED] T37391.513
    
    [GRAPHIC] [TIFF OMITTED] T37391.514
    
    [GRAPHIC] [TIFF OMITTED] T37391.515
    
    [GRAPHIC] [TIFF OMITTED] T37391.516
    
    [GRAPHIC] [TIFF OMITTED] T37391.517
    
    [GRAPHIC] [TIFF OMITTED] T37391.518
    
    [GRAPHIC] [TIFF OMITTED] T37391.519
    
    [GRAPHIC] [TIFF OMITTED] T37391.520
    
    [GRAPHIC] [TIFF OMITTED] T37391.521
    
    [GRAPHIC] [TIFF OMITTED] T37391.522
    
    [GRAPHIC] [TIFF OMITTED] T37391.523
    
    [GRAPHIC] [TIFF OMITTED] T37391.524
    
    [GRAPHIC] [TIFF OMITTED] T37391.525
    
    [GRAPHIC] [TIFF OMITTED] T37391.526
    
    [GRAPHIC] [TIFF OMITTED] T37391.527
    
    [GRAPHIC] [TIFF OMITTED] T37391.528
    
    [GRAPHIC] [TIFF OMITTED] T37391.529
    
    [GRAPHIC] [TIFF OMITTED] T37391.530
    
    [GRAPHIC] [TIFF OMITTED] T37391.531
    
    [GRAPHIC] [TIFF OMITTED] T37391.532
    
    [GRAPHIC] [TIFF OMITTED] T37391.533
    
    [GRAPHIC] [TIFF OMITTED] T37391.534
    
    [GRAPHIC] [TIFF OMITTED] T37391.535
    
    [GRAPHIC] [TIFF OMITTED] T37391.536
    
    [GRAPHIC] [TIFF OMITTED] T37391.537
    
    [GRAPHIC] [TIFF OMITTED] T37391.538
    
    [GRAPHIC] [TIFF OMITTED] T37391.539
    
    [GRAPHIC] [TIFF OMITTED] T37391.540
    
    [GRAPHIC] [TIFF OMITTED] T37391.541
    
    [GRAPHIC] [TIFF OMITTED] T37391.542
    
    [GRAPHIC] [TIFF OMITTED] T37391.543
    
    [GRAPHIC] [TIFF OMITTED] T37391.544
    
    [GRAPHIC] [TIFF OMITTED] T37391.545
    
    [GRAPHIC] [TIFF OMITTED] T37391.546
    
    [GRAPHIC] [TIFF OMITTED] T37391.547
    
    [GRAPHIC] [TIFF OMITTED] T37391.548
    
    [GRAPHIC] [TIFF OMITTED] T37391.549
    
    [GRAPHIC] [TIFF OMITTED] T37391.550
    
    [GRAPHIC] [TIFF OMITTED] T37391.551
    
    [GRAPHIC] [TIFF OMITTED] T37391.552
    
    [GRAPHIC] [TIFF OMITTED] T37391.553
    
    [GRAPHIC] [TIFF OMITTED] T37391.554
    
    [GRAPHIC] [TIFF OMITTED] T37391.555
    
    [GRAPHIC] [TIFF OMITTED] T37391.556
    
    [GRAPHIC] [TIFF OMITTED] T37391.557
    
    [GRAPHIC] [TIFF OMITTED] T37391.558
    
    [GRAPHIC] [TIFF OMITTED] T37391.559
    
    [GRAPHIC] [TIFF OMITTED] T37391.560
    
    [GRAPHIC] [TIFF OMITTED] T37391.561
    
    [GRAPHIC] [TIFF OMITTED] T37391.562
    
    [GRAPHIC] [TIFF OMITTED] T37391.563
    
    [GRAPHIC] [TIFF OMITTED] T37391.564
    
    [GRAPHIC] [TIFF OMITTED] T37391.565
    
    [GRAPHIC] [TIFF OMITTED] T37391.566
    
    [GRAPHIC] [TIFF OMITTED] T37391.567
    
    [GRAPHIC] [TIFF OMITTED] T37391.568
    
    [GRAPHIC] [TIFF OMITTED] T37391.569
    
    [GRAPHIC] [TIFF OMITTED] T37391.570
    
    [GRAPHIC] [TIFF OMITTED] T37391.571
    
    [GRAPHIC] [TIFF OMITTED] T37391.572
    
    [GRAPHIC] [TIFF OMITTED] T37391.573
    
    [GRAPHIC] [TIFF OMITTED] T37391.574
    
    [GRAPHIC] [TIFF OMITTED] T37391.575
    
    [GRAPHIC] [TIFF OMITTED] T37391.576
    
    [GRAPHIC] [TIFF OMITTED] T37391.577
    
    [GRAPHIC] [TIFF OMITTED] T37391.578
    
    [GRAPHIC] [TIFF OMITTED] T37391.579
    
    [GRAPHIC] [TIFF OMITTED] T37391.580
    
    [GRAPHIC] [TIFF OMITTED] T37391.581
    
    [GRAPHIC] [TIFF OMITTED] T37391.582
    
    [GRAPHIC] [TIFF OMITTED] T37391.583
    
    [GRAPHIC] [TIFF OMITTED] T37391.584
    
    [GRAPHIC] [TIFF OMITTED] T37391.585
    
    [GRAPHIC] [TIFF OMITTED] T37391.586
    
    [GRAPHIC] [TIFF OMITTED] T37391.587
    
    [GRAPHIC] [TIFF OMITTED] T37391.588
    
    [GRAPHIC] [TIFF OMITTED] T37391.589
    
    [GRAPHIC] [TIFF OMITTED] T37391.590
    
    [GRAPHIC] [TIFF OMITTED] T37391.591
    
    [GRAPHIC] [TIFF OMITTED] T37391.592
    
    [GRAPHIC] [TIFF OMITTED] T37391.593
    
    [GRAPHIC] [TIFF OMITTED] T37391.594
    
    [GRAPHIC] [TIFF OMITTED] T37391.595
    
    [GRAPHIC] [TIFF OMITTED] T37391.596
    
    [GRAPHIC] [TIFF OMITTED] T37391.597
    
    [GRAPHIC] [TIFF OMITTED] T37391.598
    
    [GRAPHIC] [TIFF OMITTED] T37391.599
    
    [GRAPHIC] [TIFF OMITTED] T37391.600
    
    [GRAPHIC] [TIFF OMITTED] T37391.601
    
    [GRAPHIC] [TIFF OMITTED] T37391.602
    
    [GRAPHIC] [TIFF OMITTED] T37391.603
    
    [GRAPHIC] [TIFF OMITTED] T37391.604
    
    [GRAPHIC] [TIFF OMITTED] T37391.605
    
    [GRAPHIC] [TIFF OMITTED] T37391.606
    
    [GRAPHIC] [TIFF OMITTED] T37391.607
    
    [GRAPHIC] [TIFF OMITTED] T37391.608
    
    [GRAPHIC] [TIFF OMITTED] T37391.609
    
    [GRAPHIC] [TIFF OMITTED] T37391.610
    
    [GRAPHIC] [TIFF OMITTED] T37391.611
    
    [GRAPHIC] [TIFF OMITTED] T37391.612
    
    [GRAPHIC] [TIFF OMITTED] T37391.613
    
    [GRAPHIC] [TIFF OMITTED] T37391.614
    
    [GRAPHIC] [TIFF OMITTED] T37391.615
    
    [GRAPHIC] [TIFF OMITTED] T37391.616
    
    [GRAPHIC] [TIFF OMITTED] T37391.617
    
    [GRAPHIC] [TIFF OMITTED] T37391.618
    
    [GRAPHIC] [TIFF OMITTED] T37391.619
    
    [GRAPHIC] [TIFF OMITTED] T37391.620
    
    [GRAPHIC] [TIFF OMITTED] T37391.621
    
    [GRAPHIC] [TIFF OMITTED] T37391.622
    
    [GRAPHIC] [TIFF OMITTED] T37391.623
    
    [GRAPHIC] [TIFF OMITTED] T37391.624
    
    [GRAPHIC] [TIFF OMITTED] T37391.625
    
    [GRAPHIC] [TIFF OMITTED] T37391.626
    
    [GRAPHIC] [TIFF OMITTED] T37391.627
    
    [GRAPHIC] [TIFF OMITTED] T37391.628
    
    [GRAPHIC] [TIFF OMITTED] T37391.629
    
    [GRAPHIC] [TIFF OMITTED] T37391.630
    
    [GRAPHIC] [TIFF OMITTED] T37391.631
    
    [GRAPHIC] [TIFF OMITTED] T37391.632
    
    [GRAPHIC] [TIFF OMITTED] T37391.633
    
    [GRAPHIC] [TIFF OMITTED] T37391.634
    
    [GRAPHIC] [TIFF OMITTED] T37391.635
    
    [GRAPHIC] [TIFF OMITTED] T37391.636
    
    [GRAPHIC] [TIFF OMITTED] T37391.637
    
    [GRAPHIC] [TIFF OMITTED] T37391.638
    
    [GRAPHIC] [TIFF OMITTED] T37391.639
    
    [GRAPHIC] [TIFF OMITTED] T37391.640
    
    [GRAPHIC] [TIFF OMITTED] T37391.641
    
    [GRAPHIC] [TIFF OMITTED] T37391.642
    
    [GRAPHIC] [TIFF OMITTED] T37391.643
    
    [GRAPHIC] [TIFF OMITTED] T37391.644
    
    [GRAPHIC] [TIFF OMITTED] T37391.645
    
    [GRAPHIC] [TIFF OMITTED] T37391.646
    
    [GRAPHIC] [TIFF OMITTED] T37391.647
    
    [GRAPHIC] [TIFF OMITTED] T37391.648
    
    [GRAPHIC] [TIFF OMITTED] T37391.649
    
    [GRAPHIC] [TIFF OMITTED] T37391.650
    
    [GRAPHIC] [TIFF OMITTED] T37391.651
    
    [GRAPHIC] [TIFF OMITTED] T37391.652
    
    [GRAPHIC] [TIFF OMITTED] T37391.653
    
    [GRAPHIC] [TIFF OMITTED] T37391.654
    
    [GRAPHIC] [TIFF OMITTED] T37391.655
    
    [GRAPHIC] [TIFF OMITTED] T37391.656
    
    [GRAPHIC] [TIFF OMITTED] T37391.657
    
    [GRAPHIC] [TIFF OMITTED] T37391.658
    
    [GRAPHIC] [TIFF OMITTED] T37391.659
    
    [GRAPHIC] [TIFF OMITTED] T37391.660
    
    [GRAPHIC] [TIFF OMITTED] T37391.661
    
    [GRAPHIC] [TIFF OMITTED] T37391.662
    
    [GRAPHIC] [TIFF OMITTED] T37391.663
    
    [GRAPHIC] [TIFF OMITTED] T37391.664
    
    [GRAPHIC] [TIFF OMITTED] T37391.665
    
    [GRAPHIC] [TIFF OMITTED] T37391.666
    
    [GRAPHIC] [TIFF OMITTED] T37391.667
    
    [GRAPHIC] [TIFF OMITTED] T37391.668
    
    [GRAPHIC] [TIFF OMITTED] T37391.669
    
    [GRAPHIC] [TIFF OMITTED] T37391.670
    
    [GRAPHIC] [TIFF OMITTED] T37391.671
    
    [GRAPHIC] [TIFF OMITTED] T37391.672
    
    [GRAPHIC] [TIFF OMITTED] T37391.673
    
    [GRAPHIC] [TIFF OMITTED] T37391.674
    
    [GRAPHIC] [TIFF OMITTED] T37391.675
    
    [GRAPHIC] [TIFF OMITTED] T37391.676
    
    [GRAPHIC] [TIFF OMITTED] T37391.677
    
    [GRAPHIC] [TIFF OMITTED] T37391.678
    
    [GRAPHIC] [TIFF OMITTED] T37391.679
    
    [GRAPHIC] [TIFF OMITTED] T37391.680
    
    [GRAPHIC] [TIFF OMITTED] T37391.681
    
    [GRAPHIC] [TIFF OMITTED] T37391.682
    
    [GRAPHIC] [TIFF OMITTED] T37391.683
    
    [GRAPHIC] [TIFF OMITTED] T37391.684
    
    [GRAPHIC] [TIFF OMITTED] T37391.685
    
    [GRAPHIC] [TIFF OMITTED] T37391.686
    
    [GRAPHIC] [TIFF OMITTED] T37391.687
    
    [GRAPHIC] [TIFF OMITTED] T37391.688
    
    [GRAPHIC] [TIFF OMITTED] T37391.689
    
    [GRAPHIC] [TIFF OMITTED] T37391.690
    
    [GRAPHIC] [TIFF OMITTED] T37391.691
    
    [GRAPHIC] [TIFF OMITTED] T37391.692
    
    [GRAPHIC] [TIFF OMITTED] T37391.693
    
    [GRAPHIC] [TIFF OMITTED] T37391.694
    
    [GRAPHIC] [TIFF OMITTED] T37391.695
    
    [GRAPHIC] [TIFF OMITTED] T37391.696
    
    [GRAPHIC] [TIFF OMITTED] T37391.697
    
    [GRAPHIC] [TIFF OMITTED] T37391.698
    
    [GRAPHIC] [TIFF OMITTED] T37391.699
    
    [GRAPHIC] [TIFF OMITTED] T37391.700
    
    [GRAPHIC] [TIFF OMITTED] T37391.701
    
    [GRAPHIC] [TIFF OMITTED] T37391.702
    
    [GRAPHIC] [TIFF OMITTED] T37391.703
    
    [GRAPHIC] [TIFF OMITTED] T37391.704
    
    [GRAPHIC] [TIFF OMITTED] T37391.705
    
    [GRAPHIC] [TIFF OMITTED] T37391.706
    
    [GRAPHIC] [TIFF OMITTED] T37391.707
    
    [GRAPHIC] [TIFF OMITTED] T37391.708
    
    [GRAPHIC] [TIFF OMITTED] T37391.709
    
    [GRAPHIC] [TIFF OMITTED] T37391.710
    
    [GRAPHIC] [TIFF OMITTED] T37391.711
    
    [GRAPHIC] [TIFF OMITTED] T37391.712
    
    [GRAPHIC] [TIFF OMITTED] T37391.713
    
    [GRAPHIC] [TIFF OMITTED] T37391.714
    
    [GRAPHIC] [TIFF OMITTED] T37391.715
    
    [GRAPHIC] [TIFF OMITTED] T37391.716
    
    [GRAPHIC] [TIFF OMITTED] T37391.717
    
    [GRAPHIC] [TIFF OMITTED] T37391.718
    
    [GRAPHIC] [TIFF OMITTED] T37391.719
    
    [GRAPHIC] [TIFF OMITTED] T37391.720
    
    [GRAPHIC] [TIFF OMITTED] T37391.721
    
    [GRAPHIC] [TIFF OMITTED] T37391.722
    
    [GRAPHIC] [TIFF OMITTED] T37391.723
    
    [GRAPHIC] [TIFF OMITTED] T37391.724
    
    [GRAPHIC] [TIFF OMITTED] T37391.725
    
    [GRAPHIC] [TIFF OMITTED] T37391.726
    
    [GRAPHIC] [TIFF OMITTED] T37391.727
    
    [GRAPHIC] [TIFF OMITTED] T37391.728
    
    [GRAPHIC] [TIFF OMITTED] T37391.729
    
    [GRAPHIC] [TIFF OMITTED] T37391.730
    
    [GRAPHIC] [TIFF OMITTED] T37391.731
    
    [GRAPHIC] [TIFF OMITTED] T37391.732
    
    [GRAPHIC] [TIFF OMITTED] T37391.733
    
    [GRAPHIC] [TIFF OMITTED] T37391.734
    
    [GRAPHIC] [TIFF OMITTED] T37391.735
    
    [GRAPHIC] [TIFF OMITTED] T37391.736
    
    [GRAPHIC] [TIFF OMITTED] T37391.737
    
    [GRAPHIC] [TIFF OMITTED] T37391.738
    
    [GRAPHIC] [TIFF OMITTED] T37391.739
    
    [GRAPHIC] [TIFF OMITTED] T37391.740
    
    [GRAPHIC] [TIFF OMITTED] T37391.741
    
    [GRAPHIC] [TIFF OMITTED] T37391.742
    
    [GRAPHIC] [TIFF OMITTED] T37391.743
    
    [GRAPHIC] [TIFF OMITTED] T37391.744
    
    [GRAPHIC] [TIFF OMITTED] T37391.745
    
    [GRAPHIC] [TIFF OMITTED] T37391.746
    
    [GRAPHIC] [TIFF OMITTED] T37391.747
    
    [GRAPHIC] [TIFF OMITTED] T37391.748
    
    [GRAPHIC] [TIFF OMITTED] T37391.749
    
    [GRAPHIC] [TIFF OMITTED] T37391.750
    
    [GRAPHIC] [TIFF OMITTED] T37391.751
    
    [GRAPHIC] [TIFF OMITTED] T37391.752
    
    [GRAPHIC] [TIFF OMITTED] T37391.753
    
    [GRAPHIC] [TIFF OMITTED] T37391.754
    
    [GRAPHIC] [TIFF OMITTED] T37391.755
    
    [GRAPHIC] [TIFF OMITTED] T37391.756
    
    [GRAPHIC] [TIFF OMITTED] T37391.757
    
    [GRAPHIC] [TIFF OMITTED] T37391.758
    
    [GRAPHIC] [TIFF OMITTED] T37391.759
    
    [GRAPHIC] [TIFF OMITTED] T37391.760
    
    [GRAPHIC] [TIFF OMITTED] T37391.761
    
    [GRAPHIC] [TIFF OMITTED] T37391.762
    
    [GRAPHIC] [TIFF OMITTED] T37391.763
    
    [GRAPHIC] [TIFF OMITTED] T37391.764
    
    [GRAPHIC] [TIFF OMITTED] T37391.765
    
    [GRAPHIC] [TIFF OMITTED] T37391.766
    
    [GRAPHIC] [TIFF OMITTED] T37391.767
    
    [GRAPHIC] [TIFF OMITTED] T37391.768
    
    [GRAPHIC] [TIFF OMITTED] T37391.769
    
    [GRAPHIC] [TIFF OMITTED] T37391.770
    
    [GRAPHIC] [TIFF OMITTED] T37391.771
    
    [GRAPHIC] [TIFF OMITTED] T37391.772
    
    [GRAPHIC] [TIFF OMITTED] T37391.773
    
    [GRAPHIC] [TIFF OMITTED] T37391.774
    
    [GRAPHIC] [TIFF OMITTED] T37391.775
    
    [GRAPHIC] [TIFF OMITTED] T37391.776
    
    [GRAPHIC] [TIFF OMITTED] T37391.777
    
    [GRAPHIC] [TIFF OMITTED] T37391.778
    
    [GRAPHIC] [TIFF OMITTED] T37391.779
    
    [GRAPHIC] [TIFF OMITTED] T37391.780
    
    [GRAPHIC] [TIFF OMITTED] T37391.781
    
    [GRAPHIC] [TIFF OMITTED] T37391.782
    
    [GRAPHIC] [TIFF OMITTED] T37391.783
    
    [GRAPHIC] [TIFF OMITTED] T37391.784
    
    [GRAPHIC] [TIFF OMITTED] T37391.785
    
    [GRAPHIC] [TIFF OMITTED] T37391.786
    
    [GRAPHIC] [TIFF OMITTED] T37391.787
    
    [GRAPHIC] [TIFF OMITTED] T37391.788
    
    [GRAPHIC] [TIFF OMITTED] T37391.789
    
    [GRAPHIC] [TIFF OMITTED] T37391.790
    
    [GRAPHIC] [TIFF OMITTED] T37391.791
    
    [GRAPHIC] [TIFF OMITTED] T37391.792
    
    [GRAPHIC] [TIFF OMITTED] T37391.793
    
    [GRAPHIC] [TIFF OMITTED] T37391.794
    
    [GRAPHIC] [TIFF OMITTED] T37391.795
    
    [GRAPHIC] [TIFF OMITTED] T37391.796
    
    [GRAPHIC] [TIFF OMITTED] T37391.797
    
    [GRAPHIC] [TIFF OMITTED] T37391.798
    
    [GRAPHIC] [TIFF OMITTED] T37391.799
    
    [GRAPHIC] [TIFF OMITTED] T37391.800
    
    [GRAPHIC] [TIFF OMITTED] T37391.801
    
    [GRAPHIC] [TIFF OMITTED] T37391.802
    
    [GRAPHIC] [TIFF OMITTED] T37391.803
    
    [GRAPHIC] [TIFF OMITTED] T37391.804
    
    [GRAPHIC] [TIFF OMITTED] T37391.805
    
    [GRAPHIC] [TIFF OMITTED] T37391.806
    
    [GRAPHIC] [TIFF OMITTED] T37391.807
    
    [GRAPHIC] [TIFF OMITTED] T37391.808
    
    [GRAPHIC] [TIFF OMITTED] T37391.809
    
    [GRAPHIC] [TIFF OMITTED] T37391.810
    
    [GRAPHIC] [TIFF OMITTED] T37391.811
    
    [GRAPHIC] [TIFF OMITTED] T37391.812
    
    [GRAPHIC] [TIFF OMITTED] T37391.813
    
    [GRAPHIC] [TIFF OMITTED] T37391.814
    
    [GRAPHIC] [TIFF OMITTED] T37391.815
    
    [GRAPHIC] [TIFF OMITTED] T37391.816
    
    [GRAPHIC] [TIFF OMITTED] T37391.817
    
    [GRAPHIC] [TIFF OMITTED] T37391.818
    
    [GRAPHIC] [TIFF OMITTED] T37391.819
    
    [GRAPHIC] [TIFF OMITTED] T37391.820
    
    [GRAPHIC] [TIFF OMITTED] T37391.821
    
    [GRAPHIC] [TIFF OMITTED] T37391.822
    
    [GRAPHIC] [TIFF OMITTED] T37391.823
    
    [GRAPHIC] [TIFF OMITTED] T37391.824
    
    [GRAPHIC] [TIFF OMITTED] T37391.825
    
    [GRAPHIC] [TIFF OMITTED] T37391.826
    
    [GRAPHIC] [TIFF OMITTED] T37391.827
    
    [GRAPHIC] [TIFF OMITTED] T37391.828
    
    [GRAPHIC] [TIFF OMITTED] T37391.829
    
    [GRAPHIC] [TIFF OMITTED] T37391.830
    
    [GRAPHIC] [TIFF OMITTED] T37391.831
    
    [GRAPHIC] [TIFF OMITTED] T37391.832
    
    [GRAPHIC] [TIFF OMITTED] T37391.833
    
    [GRAPHIC] [TIFF OMITTED] T37391.834
    
    [GRAPHIC] [TIFF OMITTED] T37391.835
    
    [GRAPHIC] [TIFF OMITTED] T37391.836
    
    [GRAPHIC] [TIFF OMITTED] T37391.837
    
    [GRAPHIC] [TIFF OMITTED] T37391.838
    
    [GRAPHIC] [TIFF OMITTED] T37391.839
    
    [GRAPHIC] [TIFF OMITTED] T37391.840
    
    [GRAPHIC] [TIFF OMITTED] T37391.841
    
    [GRAPHIC] [TIFF OMITTED] T37391.842
    
    [GRAPHIC] [TIFF OMITTED] T37391.843
    
    [GRAPHIC] [TIFF OMITTED] T37391.844
    
    [GRAPHIC] [TIFF OMITTED] T37391.845
    
    [GRAPHIC] [TIFF OMITTED] T37391.846
    
    [GRAPHIC] [TIFF OMITTED] T37391.847
    
    [GRAPHIC] [TIFF OMITTED] T37391.848
    
    [GRAPHIC] [TIFF OMITTED] T37391.849
    
    [GRAPHIC] [TIFF OMITTED] T37391.850
    
    [GRAPHIC] [TIFF OMITTED] T37391.851
    
    [GRAPHIC] [TIFF OMITTED] T37391.852
    
    [GRAPHIC] [TIFF OMITTED] T37391.853
    
    [GRAPHIC] [TIFF OMITTED] T37391.854
    
    [GRAPHIC] [TIFF OMITTED] T37391.855
    
    [GRAPHIC] [TIFF OMITTED] T37391.856
    
    [GRAPHIC] [TIFF OMITTED] T37391.857
    
    [GRAPHIC] [TIFF OMITTED] T37391.858
    
    [GRAPHIC] [TIFF OMITTED] T37391.859
    
    [GRAPHIC] [TIFF OMITTED] T37391.860
    
    [GRAPHIC] [TIFF OMITTED] T37391.861
    
    [GRAPHIC] [TIFF OMITTED] T37391.862
    
    [GRAPHIC] [TIFF OMITTED] T37391.863
    
    [GRAPHIC] [TIFF OMITTED] T37391.864
    
    [GRAPHIC] [TIFF OMITTED] T37391.865
    
    [GRAPHIC] [TIFF OMITTED] T37391.866
    
    [GRAPHIC] [TIFF OMITTED] T37391.867
    
    [GRAPHIC] [TIFF OMITTED] T37391.868
    
    [GRAPHIC] [TIFF OMITTED] T37391.869
    
    [GRAPHIC] [TIFF OMITTED] T37391.870
    
    [GRAPHIC] [TIFF OMITTED] T37391.871
    
    [GRAPHIC] [TIFF OMITTED] T37391.872
    
    [GRAPHIC] [TIFF OMITTED] T37391.873
    
    [GRAPHIC] [TIFF OMITTED] T37391.874
    
    [GRAPHIC] [TIFF OMITTED] T37391.875
    
    [GRAPHIC] [TIFF OMITTED] T37391.876
    
    [GRAPHIC] [TIFF OMITTED] T37391.877
    
    [GRAPHIC] [TIFF OMITTED] T37391.878
    
    [GRAPHIC] [TIFF OMITTED] T37391.879
    
    [GRAPHIC] [TIFF OMITTED] T37391.880
    
    [GRAPHIC] [TIFF OMITTED] T37391.881
    
    [GRAPHIC] [TIFF OMITTED] T37391.882
    
    [GRAPHIC] [TIFF OMITTED] T37391.883
    
    [GRAPHIC] [TIFF OMITTED] T37391.884
    
    [GRAPHIC] [TIFF OMITTED] T37391.885
    
    [GRAPHIC] [TIFF OMITTED] T37391.886
    
    [GRAPHIC] [TIFF OMITTED] T37391.887
    
    [GRAPHIC] [TIFF OMITTED] T37391.888
    
    [GRAPHIC] [TIFF OMITTED] T37391.889
    
    [GRAPHIC] [TIFF OMITTED] T37391.890
    
    [GRAPHIC] [TIFF OMITTED] T37391.891
    
    [GRAPHIC] [TIFF OMITTED] T37391.892
    
    [GRAPHIC] [TIFF OMITTED] T37391.893
    
    [GRAPHIC] [TIFF OMITTED] T37391.894
    
    [GRAPHIC] [TIFF OMITTED] T37391.895
    
    [GRAPHIC] [TIFF OMITTED] T37391.896
    
    [GRAPHIC] [TIFF OMITTED] T37391.897
    
    [GRAPHIC] [TIFF OMITTED] T37391.898
    
    [GRAPHIC] [TIFF OMITTED] T37391.899
    
    [GRAPHIC] [TIFF OMITTED] T37391.900
    
    [GRAPHIC] [TIFF OMITTED] T37391.901
    
    [GRAPHIC] [TIFF OMITTED] T37391.902
    
    [GRAPHIC] [TIFF OMITTED] T37391.903
    
    [GRAPHIC] [TIFF OMITTED] T37391.904
    
    [GRAPHIC] [TIFF OMITTED] T37391.905
    
    [GRAPHIC] [TIFF OMITTED] T37391.906
    
    [GRAPHIC] [TIFF OMITTED] T37391.907
    
    [GRAPHIC] [TIFF OMITTED] T37391.908
    
    [GRAPHIC] [TIFF OMITTED] T37391.909
    
    [GRAPHIC] [TIFF OMITTED] T37391.910
    
    [GRAPHIC] [TIFF OMITTED] T37391.911
    
    [GRAPHIC] [TIFF OMITTED] T37391.912
    
    [GRAPHIC] [TIFF OMITTED] T37391.913
    
    [GRAPHIC] [TIFF OMITTED] T37391.914
    
    [GRAPHIC] [TIFF OMITTED] T37391.915
    

</pre></body></html>
